<html>
<title> - IMPLEMENTATION OF THE NEW POST-9/11 GI BILL--LOOKING BACK AND MOVING FORWARD</title>
<body><pre>[Senate Hearing 111-787]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-787

   OVERSIGHT HEARINGS: IMPLEMENTATION OF THE NEW POST-9/11 GI BILL--
 LOOKING BACK AND MOVING FORWARD; AND IMPROVEMENTS TO THE POST-9/11 GI 
                                  BILL

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                       APRIL 21 AND JULY 21, 2010

                               __________

       Printed for the use of the Committee on Veterans' Affairs





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


        Available via the World Wide Web: http://www.fdsys.gov/




                  U.S. GOVERNMENT PRINTING OFFICE
  63-008 PDF              WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                     COMMITTEE ON VETERANS' AFFAIRS

                   Daniel K. Akaka, Hawaii, Chairman
John D. Rockefeller IV, West         Richard Burr, North Carolina, 
    Virginia                             Ranking Member
Patty Murray, Washington             Lindsey O. Graham, South Carolina
Bernard Sanders, (I) Vermont         Johnny Isakson, Georgia
Sherrod Brown, Ohio                  Roger F. Wicker, Mississippi
Jim Webb, Virginia                   Mike Johanns, Nebraska
Jon Tester, Montana                  Scott P. Brown, Massachusetts
Mark Begich, Alaska
Roland W. Burris, Illinois
Arlen Specter, Pennsylvania
                    William E. Brew, Staff Director
                 Lupe Wissel, Republican Staff Director















                            C O N T E N T S

                              ----------                              

                             April 21, 2010
             Implementation of the New Post-9/11 GI Bill--
                    Looking Back and Moving Forward
                                SENATORS

                                                                   Page
Akaka, Hon. Daniel K., Chairman, U.S. Senator from Hawaii........     1
Tester, Hon. Jon, U.S. Senator from Montana......................     2
Burr, Hon. Richard, Ranking Member, U.S. Senator from North 
  Carolina.......................................................    37
    Prepared statement...........................................    37
Brown, Hon. Scott, U.S. Senator from Massachusetts...............    43
Burris, Hon. Roland W., U.S. Senator from Illinois...............    45
Isakson, Hon. Johnny, U.S. Senator from Georgia..................    48
Begich, Hon. Mark, U.S. Senator from Alaska......................    49

                               WITNESSES

Wilson, Keith, Director, Education Service, Veterans Benefits 
  Administration, U.S. Department of Veterans Affairs............     2
    Prepared statement...........................................     4
    Response to post-hearing questions submitted by:
      Hon. Daniel K. Akaka.......................................     8
      Hon. Richard Burr..........................................    17
      Hon. Mike Johanns..........................................    25
    Response to request arising during the hearing by:
      Hon. Richard Burr..........................................    38
      Hon. Mark Begich...........................................    55
Warren, Stephen, Principal Deputy Secretary Information 
  Technology, Veterans Benefits Administration, U.S. Department 
  of Veterans Affairs............................................    25
    Response to request arising during the hearing by Hon. Jon 
      Tester.....................................................    42
Osendorf, Dan, Director, Debt Management Center, U.S. Department 
  of Veterans Affairs............................................    26
Clark, Robert, Assistant Director, Accession Policy Office of the 
  Under Secretary of Defense for Personnel and Readiness.........    27
    Prepared statement...........................................    29
DesLauriers, Faith, Legislative Director, National Association of 
  Veterans' Program Administrators...............................    56
    Prepared statement...........................................    58
Stephens, William, President, National Association of State 
  Approving Agencies.............................................    61
    Prepared statement...........................................    63
Madden, Robert, Assistant Director, National Economic Commission, 
  The American Legion............................................    66
    Prepared statement...........................................    68
Reininger, Marco, IAVA Member, Student Veteran, Columbia 
  University.....................................................    69
    Prepared statement...........................................    71

                                APPENDIX

Farrell, Captain Gerard M., USN (Ret.), Executive Director, 
  Commissioned Officers Association, U.S. Public Health Service; 
  prepared statement.............................................    77
Embree, Tim, Legislative Associate, Iraq and Afghanistan Veterans 
  of America; letter.............................................    79
                              ----------                              

                             July 21, 2010
                 Improvements to the Post-9/11 GI Bill
                                SENATORS

Akaka, Hon. Daniel K., Chairman, U.S. Senator from Hawaii........    87
Burr, Hon. Richard, Ranking Member, U.S. Senator from North 
  Carolina.......................................................    88
Tester, Hon. Jon, U.S. Senator from Montana......................    90
Brown, Hon. Scott, U.S. Senator from Massachusetts...............    90
Murray, Hon. Patty, U.S. Senator from Washington.................    91
Begich, Hon. Mark, U.S. Senator from Alaska......................    92
Isakson, Hon. Johnny, U.S. Senator from Georgia..................   112
Burris, Hon. Roland W., U.S. Senator from Illinois...............   118
Rockefeller, Hon. John D., IV, U.S. Senator from West Virginia...   120
    Prepared statement...........................................   120

                               WITNESSES

Wilson, Keith, Director, Education Service, Veterans Benefits 
  Administration, U.S. Department of Veterans Affairs............    92
    Prepared statement...........................................    94
    Response to post-hearing questions submitted by:
      Hon. Daniel K. Akaka.......................................   100
      Hon. Richard Burr..........................................   101
      Hon. Mark Begich...........................................   103
      Hon. Roland W. Burris......................................   104
    Response to request arising during the hearing by:
      Hon. Johnny Isakson........................................   113
      Hon. Jon Tester............................................   124
Clark, Robert E., Assistant Director for Accession Policy, Office 
  of the Under Secretary of Defense for Personnel and Readiness, 
  U.S. Department of Defense, accompanied by John Brizzi, 
  Assistant General Counsel......................................   105
    Prepared statement...........................................   106
Hilleman, Eric, Director, National Legislative Service, Veterans 
  of Foreign Wars................................................   126
    Prepared statement...........................................   127
Embree, Tim, Legislative Associate, Iraq and Afghanistan Veterans 
  of 
  America........................................................   132
    Prepared statement...........................................   134
Hartle, Terry W., Senior Vice President, American Council on 
  Education......................................................   138
    Prepared statement...........................................   140
Flink, Judith, Executive Director, University Student Financial 
  Services, University of Illinois...............................   142
    Prepared statement...........................................   144
        Attachment...............................................   146
Farrell, Captain Gerard M., USN (Ret.), Executive Director, 
  Commissioned Officers' Association of the U.S. Public Health 
  Service........................................................   149
    Prepared statement...........................................   151
    Letter for the Record........................................   158

                                APPENDIX

Madden, Robert, Assistant Director, National Economic Commission, 
  The American Legion; prepared statement........................   161
Decoteau, John, Military Admissions Director, Universal Technical 
  Institute; prepared statement..................................   163
Duffy, Peter J., Deputy Director Legislation, National Guard 
  Association of the United States; prepared statement...........   165
Military Officers Association of America; prepared statement.....   167
Reserve Officers Association of the United States and Reserve 
  Enlisted Association; prepared statement.......................   170
Martini, Louis F., Director of Military & Veteran Education, 
  Thomas Edison State College; and Robin Walton, Director, 
  Community Affairs and Government Relations, Thomas Edison State 
  College; prepared statement....................................   172

 
 IMPLEMENTATION OF THE NEW POST-9/11 GI BILL--LOOKING BACK AND MOVING 
                                FORWARD

                              ----------                              


                       WEDNESDAY, APRIL 21, 2010

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m., in 
room 418, Russell Senate Office Building, Hon. Daniel K. Akaka, 
Chairman of the Committee, presiding.
    Present: Senators Akaka, Tester, Begich, Burris, Burr, 
Isakson, and Brown from Massachusetts.

     OPENING STATEMENT OF HON. DANIEL K. AKAKA, CHAIRMAN, 
                    U.S. SENATOR FROM HAWAII

    Chairman Akaka. This hearing will come to order. Aloha and 
good morning to all of you. Today we will review the 
implementation of the New Post-9/11 GI Bill. I welcome each of 
you to this very, very important hearing.
    As one of only three current senators who received benefits 
under the original GI Bill after World War II, I know firsthand 
the value of this program. My life was changed by the 
opportunity to get an education with the benefits that I 
earned, and I am very grateful for that opportunity and that 
chance. That is why I was so pleased to join Senator Webb in 
cosponsoring the bill that created this important new education 
benefit, which became effective on August 1, 2009.
    Since the program began, the Committee has been actively 
monitoring the implementation of the new benefits. I thank both 
VA and DOD for the cooperation they have shown to Committee 
staff during this oversight work. There are significant and 
complex issues relating to the new benefit package. There are 
also substantial issues relating to the delivery of benefits to 
those who have served.
    This morning, we will be exploring what problems have been 
encountered to date and how they were addressed. We will also 
focus on what needs to be done to ensure that benefits are 
delivered in a timely and accurate way. In addition to 
representatives from VA and DOD, a number of stakeholders will 
also be joining us to share their experiences and the issues 
they have encountered.
    There is much to do to make this program as good as it can 
be. It is time to begin that work. In that vein, I plan before 
Memorial Day to introduce legislation that will serve as a 
starting point for the discussion about how the program should 
be changed. In my view, it is imperative that we all work 
together to address the issues involved, which today's 
witnesses will discuss in further detail.
    It is also important that we not take a piecemeal approach 
to whatever issues and fixes we identify, but rather move 
forward in a comprehensive, considerate, and deliberate way. So 
I look forward to beginning that process, and thank you again 
for appearing here today and for your work on this important 
matter.
    Before we move on, I would like to ask Babette Polzer, the 
professional staff member on this Committee who organized 
today's hearing, to please rise.
    Yesterday, Babette achieved a Senate milestone by reaching 
20 years of service to the U.S. Senate. I note that she 
accomplished this feat in a somewhat unusual way by being away 
from the Senate for 20 years in the midst of her career. But 
she has returned, and we are delighted she did so.
    Babette, on behalf of the Senate, I am presenting you with 
your 20-year plaque and pin. Thank you so much for your service 
to the U.S. Senate and to our veterans. Mahalo. [Applause.]
    Thank you very much. Her work with the GI Bill has been 
instrumental in our success with it.
    Let me now call on Senator Tester for any opening remarks 
he may have.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Well, thank you, Mr. Chairman, but after 
your opening remarks and after that presentation, I absolutely 
cannot top that by any means. I want to thank you for the 
hearing, and I look forward to the presentation by the 
panelists and to some questions afterwards. So thank you, Mr. 
Chairman.
    Chairman Akaka. Thank you very much, Senator Tester.
    We would like to welcome our first panel this morning, 
representatives from VA and DOD. Our first witness from VA is 
Keith Wilson, the Director of VA's Education Service. Also, 
Stephen Warren, the Principal Deputy Secretary for Information 
Technology. Finally, Dan Osendorf, the Director of VA's Debt 
Management Center, will present testimony on recovering advance 
payments and overpayments generally. From the Department of 
Defense, we are joined by Robert Clark, Assistant Director of 
Accession Policy.
    So I want to welcome all of you and now ask Mr. Wilson to 
proceed with your statement.

    STATEMENT OF KEITH WILSON, DIRECTOR, EDUCATION SERVICE, 
 VETERANS BENEFITS ADMINISTRATION, U.S. DEPARTMENT OF VETERANS 
                            AFFAIRS

    Mr. Wilson. Good morning, Chairman Akaka, Ranking Member 
Burr, and Members of the Committee. I appreciate the 
opportunity to appear before you today to discuss VA's 
implementation of the Post-9/11 GI Bill. My testimony will 
address the challenges we face, the steps taken to improve the 
delivery of Post-9/11 GI Bill claims, and the current status of 
education claims processing.
    Joining me today are Stephen Warren, Principal Deputy 
Assistant Secretary for Information and Technology, and Dan 
Osendorf, Director of Department of Veterans Affairs Debt 
Management Center.
    As this Committee knows well, the Post-9/11 GI Bill passed 
by Congress in 2008 is the most extensive educational 
assistance program authorized since the original GI Bill was 
signed into law in 1944. Secretary Shinseki and the entire VA 
Department are committed to ensuring all servicemembers, 
veterans and their family members eligible for this important 
benefit receive it in a timely manner so they can focus on 
their education.
    Enactment of the Post-9/11 GI Bill on June 30, 2008, gave 
VA approximately 13 months to develop a new, highly complex 
eligibility and payment systems for thousands of claimants who 
would be eligible to receive the benefits on August 1, 2009. To 
meet this challenge, VA began development of an interim claims 
processing solution while simultaneously developing a long-term 
rules-based solution in cooperation with the Space and Naval 
Warfare System Center Atlantic, SPAWAR.
    Currently, Post-9/11 GI Bill claims require extensive 
manual processing using four separate IT systems that do not 
interface with each other. Since May 1, 2009, VA has received 
and processed over 578,000 enrollment certifications and 
237,000 changes to enrollments. For Fiscal Year 2009, the 
average time to process all education benefits, including Post-
9/11 GI Bill claims, was 26 days for original claims and 13 
days for supplemental claims. Claims processing took more time 
on average during the fall semester due to the increased 
workload from the Post-9/11 GI Bill.
    For this fiscal year, our average processing time is 53 
days for original claims and 21 days for supplemental claims. 
However, our average processing time windows for the current 
month is 20 days for original claims and 13 days for 
supplemental claims. We have issued over $2.7 million in 
payments to approximately 246,000 individuals and their 
educational institutions.
    To ensure veterans who enrolled in the spring term received 
their benefits on time, VA took many steps, including issuance 
of advanced payments. We set a goal to process any enrollment 
certification we received before January 19 for payment on 
February 1. We are pleased to report to the Committee that we 
were able to achieve that goal.
    VA partnered with SPAWAR to develop an end-to-end claims 
processing solution that utilizes rules-based industry-standard 
technologies for the delivery of education benefits. This is 
our long-term strategy for implementing the Post-9/11 GI Bill. 
VA's automated systems are scheduled to be released in four 
releases with incremental capability being rolled out to our 
claims examiners.
    Release 1 of this effort was deployed on March 31, 2010, 
with reduced functionality. Release 2, scheduled for June 30 of 
this year, will serve as the foundation from which VA will 
retire the interim solution and automate education benefits 
processing. The scope of Releases 3 and 4, currently scheduled 
for September and December of this year, respectively, will 
contain interfaces to VA legacy systems to pre-populate 
information and automate payments.
    VA has made significant progress in implementing the Post-
9/11 GI Bill, and we are working every day to ensure veterans 
timely receive the education benefits they have earned through 
their service and sacrifice. We appreciate the support of this 
Committee and the Congress as we carry out this mission.
    Mr. Chairman, this concludes my statement. I would be 
pleased to answer any questions you or any other Members of the 
Committee may have.
    [The prepared statement of Mr. Wilson follows:]
  Prepared Statement of Keith M. Wilson, Director, Education Service, 
 Veterans Benefits Administration, U.S. Department of Veterans Affairs
    Good morning Chairman Akaka, Ranking Member Burr, and Members of 
the Committee. I appreciate the opportunity to appear before you today 
to discuss the implementation of the Post-9/11 GI Bill. My testimony 
will address the challenges we faced, the steps taken to improve the 
delivery of Post-9/11 GI Bill claims, and the current status of 
education claims processing. Joining me today is Stephen Warren, 
Principal Deputy Assistant Secretary for Information and Technology, 
who will discuss the status of implementation of the Long-Term 
Solution. I am also joined by Dan Osendorf, Director of the Department 
of Veterans Affairs (VA) Debt Management Center (DMC), who will discuss 
recoupment of advance payments.
    As this Committee knows well, the Post-9/11 GI Bill, passed by 
Congress in 2008, is the most extensive educational assistance program 
authorized since the original GI Bill was signed into law in 1944. 
Secretary Shinseki and the entire Department are committed to ensuring 
all Servicemembers, Veterans, and their family members eligible for 
this important benefit receive it in a timely manner so they can focus 
on their education.
                       background and challenges
    Enactment of the Post-9/11 Educational Assistance Act on June 30, 
2008, gave VA approximately 13 months to develop a new, highly complex 
eligibility and payment system for thousands of claimants who would be 
eligible to receive benefits under the new program on August 1, 2009. 
To meet this challenge, VA began development of an interim claims 
processing solution, while simultaneously developing a long-term rules-
based processing solution, in cooperation with the Space and Naval 
Warfare Systems Center Atlantic (SPAWAR). VA's Office of Information & 
Technology (OI&T) designed the interim processing solution 
functionality in three separate phases. Each phase delivered a specific 
set of functionalities for claims examiners to manually process Post- 
9/11 GI Bill claims with some IT augmentation. However, development of 
the interim solution was more challenging than anticipated, given the 
complexity of the new program and the reduced timeline for delivery. 
Prior to the August 1 implementation, OI&T delivered two phases of the 
interim solution. Phase three, which provided increased functionality 
and additional automation for processing Post-9/11 GI Bill claims, was 
originally scheduled for deployment in September 2009 during the peak 
enrollment period for processing education claims. Due to the 
complexity of the processing steps and requirements for both amended 
awards and overlapping terms, phase three was delayed until November 
2009. Amended award functionality includes changes in a student's 
actual charges for tuition and fees and reduced or increased course 
loads. As the law requires VA to pay actual charges, amended awards are 
required for every dollar change to a student's tuition and fees.
    Post-9/11 GI Bill claims currently require manual processing using 
four separate IT systems that do not interface with each other. When an 
application or enrollment certification is received, the documents are 
captured into the Image Management System (TIMS). The documents are 
routed electronically to a claims examiner for processing. The claims 
examiner reviews the documents in TIMS and determines the student's 
eligibility, entitlement, and benefit rate using the Front End Tool 
(FET). The FET is used to calculate and store student information to 
support the Post-9/11 GI Bill claims adjudication process. However, the 
FET has limited capability for processing the multiple scenarios 
encountered in determining eligibility and entitlement under the new 
program. As a result, VA, in conjunction with MITRE Corporation, 
developed multiple job aids or out-of-system tools and spreadsheets to 
augment claims processing.
    Once the benefit rate and payment amount are determined, the claims 
examiner enters the payment information into the back-end tool (BET). 
The BET utilizes the existing Benefits Delivery Network (BDN) to issue 
payments. A payment cannot be processed until at least two individuals 
approve the award and payment amount. All evidence to support the award 
actions taken by the claims examiner, and a senior claims examiner, is 
captured into TIMS. This process is completed separately for the 
housing allowance, the tuition and fees payment, and the books and 
supplies stipend. Due to a lack of integration among systems, the time 
to complete a Post-9/11 GI Bill claim is significantly longer than the 
processing time for other education benefits.
    Because the program implementation date fell in the middle of some 
school terms and many students were enrolled in another education 
program such as the Montgomery GI Bill-Active Duty (MGIB-AD), VA had to 
determine rates payable to students in school on August 1, 2009, under 
two separate benefit programs and prorate Post-9/11 GI Bill benefits. 
Further complicating the claims process was overlapping terms. It is 
not uncommon for many students to enroll in courses that begin and end 
in overlapping time periods at different schools. Processing these 
claims involved additional manual calculations for the overlap as well 
as separate payments going to more than one school.
    To complicate an already challenging situation, the new benefit 
program requires VA to determine maximum tuition and fee rates for each 
state before the beginning of each academic year. Schools do not 
typically set their tuition and fee rates until state support is 
determined for the academic year. Many states did not pass their 
operating budgets until late July/early August. Correspondingly, 
institutions could not set tuition and fee rates until late August. 
Delays in determining the 2009-2010 maximum tuition and fee rates 
resulted in delayed processing of payments for students attending 
school in those states. Finally, VA had to train newly hired employees 
on the interim processing solution during the fall enrollment period. 
This includes the 530 term employees hired in December 2008, and the 
additional 230 term employees provided by Congress under the American 
Recovery and Reinvestment Act (ARRA).
                 current workload and processing status
    On May 1, 2009, VA began accepting applications to determine 
eligibility for the Post-9/11 GI Bill. On July 7, 2009, we started 
accepting enrollment certifications from school certifying officials 
for Veterans utilizing their Post-9/1 1 GI Bill benefits for the fall 
term and began processing claims for payment. While most schools 
submitted their enrollment certifications to VA in a timely manner, 
some schools did not for various reasons. This delayed the payment of 
benefits to Veterans, since VA could not pay until it received an 
enrollment certification from the school. Since May 1, 2009, we have 
received and processed over 578,000 enrollment certifications and 
237,000 changes to enrollments for Veterans attending school under the 
Post-9/11 GI Bill.
    For fiscal year 2009, the average time to process all education 
benefit claims, including Post-9/11 GI Bill claims, took 26 days for 
original claims and 13 days for supplemental claims. Claims processing 
took more time on average during the fall semester due to the increased 
workload from the Post-9/11 GI Bill. To ensure Veterans who enrolled in 
the spring term received their benefits on time, VA set a goal to 
process any enrollment certification we received before January 19, 
2010, for payment by February 1, 2010. VA is pleased to report to the 
Committee that we were able to achieve this goal.
    For this fiscal year, our average processing time is 53 days for 
original claims and 21 days for supplemental claims. However, our 
average processing time for the current month is 20 days for originals 
and 13 days for supplementals. We have issued over $2.7 billion in 
Post-9/11 GI Bill payments to approximately 246,000 individuals and 
their educational institutions.
                         spring 2010 enrollment
    VA took numerous steps to reduce the number of pending claims and 
prepare for the spring enrollment period. As a result of these 
improvements, VA was able to increase its daily completions of Post-9/
11 GI Bill enrollment certifications from an average of 1,800 per day 
during October to nearly 7,000 per day.
    On October 28, 2009, VA awarded a contract to Affiliated Computer 
Services (ACS) in London, Kentucky, to provide claims processing 
support for non-Post-9/11 GI Bill. This effort allows VA to focus 
resources on the more complex Post-9/11 GI Bill claims. This contract 
is scheduled to expire on April 28, 2010.
    VA utilized 230 term employees hired through the funding provided 
by Congress under ARRA. We implemented a mandatory overtime policy at 
the four regional processing offices (RPOs) requiring all employees to 
work three additional days per month. We also utilized 200 ARRA 
employees at five VA satellite offices to authorize Post-9/11 GI Bill 
payments. Procedures were amended to streamline the entire claims 
process and eliminate duplication of efforts and redundant or unneeded 
development.
    VA worked closely with the Department of Defense (DOD) to ensure 
Servicemembers' data would be exchanged electronically for eligibility 
determinations under the Post-9/11 GI Bill. VA and DOD also developed 
an electronic means whereby information related to spouses and children 
with transferred entitlement would be exchanged to process a claim 
under the transfer of entitlement provision of the Post- 9/1 1 GI Bill. 
When the electronic system was unavailable, VA and DOD ensured the data 
were exchanged manually in a timely manner so that benefit payments 
were not negatively impacted.
                          fall 2010 enrollment
    On August 1, 2010, payments under the Post-9/11 GI Bill will be 
expanded to include the children of those Servicemembers killed while 
on active duty. The Marine Gunnery Sergeant John David Fry Scholarship 
will be available for the children of an active duty Servicemember who 
died in the line of duty since September 11, 2001. Eligible individuals 
can receive up to 36 months of entitlement. VA will begin accepting 
applications for this program on May 1, 2010. We anticipate 
approximately 2,400 children will be eligible for the Fry Scholarship 
in fiscal year 2010. We do not anticipate the delays from last fall 
will recur during the fall 2010 semester for veterans applying for 
educational benefits. VA expects students will experience significant 
improvements in the delivery of their education payments.
                           long-term solution
    VA partnered with SPAWAR to develop an end-to-end claims processing 
solution that utilizes rules-based, industry-standard technologies, for 
the delivery of education benefits. This is our long-term strategy for 
implementing the Post-9/11 GI Bill. The Post-9/11 GI Bill contains 
eligibility rules and benefit determinations that will work well with 
rules-based technology that requires minimal human intervention.
    VA's automated IT system is scheduled to be released in four phases 
to provide incremental capability to the users in the field stations. 
Release 1 of this effort was successfully deployed on March 31, 2010 
which provides: functionality to calculate new original awards; 
automated calculation of awards including tuition and fees, housing, 
books and supplies, yellow ribbon, Chapter 30 and 1606 kickers; 
automated calculation of awards for overlapping terms and intervals, 
including interval rules for summer terms; and demographic and service 
data from VA DOD Identity Repository (VADIR).
    Originally, release 1 was envisioned as having additional 
capabilities.However, due to an increased understanding of the 
complexity of amended awards, certain capabilities were delayed to 
Release 2.'' As our subject matter experts (SME) worked with the SPAWAR 
team, it became clear that the amount of software remaining to be 
developed exceeded what could be done to meet the March 31, 2010, 
milestone requirement. VA deployed Release 1 to a limited set of claims 
processors at our Muskogee RPO to fully exercise the Long-Term Solution 
such that any ``hidden'' defects are found and corrected before Release 
2 is deployed on June 30. The claims processors at the Muskogee RPO are 
currently using Release 1 to process original certificates of 
eligibility and amended claims.
    Feedback from our end-users indicates the Long-Term Solution offers 
ease of use and allows increased efficiency. Release 2, currently 
scheduled for June 30, 2010, will serve as the foundation from which 
the VA will retire the Interim solution and automate the Education 
benefits business process. The scope of Releases 3 and 4, currently 
scheduled for September 30, 2010 and December 31, 2010 respectively, 
will contain interfaces to Education legacy systems in order to pre-
populate data and automate payment. The final scope for these releases 
has not been set.
    There are a number of challenges to fully implementing the Long 
Term Solution. It is important to recognize that the methodology we are 
using to deliver this system is based on an agile approach. It is based 
on making tradeoffs between schedule and functionality. We have 
developed the schedule such that there is a release of software every 3 
months. To accomplish this, we adjust the delivered functionally to 
what can be done in 3 months. This is a significant change to how VA 
has run IT development projects in the past.
                            advance payments
    In October VBA began issuing advance payments to Veterans and 
Servicemembers who had not yet received their VA benefits for the fall 
enrollment period to ensure that all Veterans and eligible students 
were able to focus on their academic studies and not be burdened with 
financial concerns. As part of that process, a web portal was 
established to allow electronic submission for advance payment. Advance 
payments were also made on-site at VA offices around the country. At 
that time student Veterans were required to acknowledge that they 
understood that the advance payment must be repaid and would be 
recouped from future VA payments. VA issued advance payments to 121,095 
individuals, totaling $355.5 million for all education programs.
    Advance payment recipients were notified in late January and early 
February of the reimbursement process. The notification explained that 
$750 would be deducted from their monthly education payments beginning 
April 1, and that they could make arrangements with the DMC for a 
reduced withholding if $750 monthly created a financial hardship. 
Individuals not currently enrolled in school received notification on 
how payment arrangements could be made to satisfy the debt.
    Due to the many Veterans seeking a lower withholding from the April 
1 check, DMC added six lines and eight operators to handle the 
increased workload associated with the Post-9/11 GI Bill program. Phone 
operation hours were also extended an hour. In addition, DMC received 
assistance from VBA call centers and created a reduced repayment form 
that could be completed and emailed to DMC for processing. VBA added 
the form to its Education Web site so individuals could complete the 
form themselves and email it to DMC. A notice was also added to the 
education Web site explaining that the deadline for requesting a lower 
withholding for the April 1 check was March 23, 2010. DMC created 
special email boxes for the incoming workload and printed and worked 
the requests as they were received. Approximately 12,000 Veterans 
established reduced repayment plans in time to affect their April 1 
payment.
    The DMC continues to get requests for partial refunds of the April 
1 check and reduced withholdings from future checks. To provide the 
greatest flexibility to our Veterans, repayment plans are being 
approved retroactive to April 1, and refunds of amounts collected above 
their plans continue to be made. Through mid-April, requests for 
reduced withholdings total over 22,000. Of the $355.5 million issued to 
advance pay recipients, over $73 million has been collected through 
payments and offsets.
                                outreach
    VA also began a robust outreach campaign to make sure that 
Servicemembers, Veterans, and their families know about the Post-9/11 
GI Bill and how to apply for the benefit. Let me share a few of our 
efforts in this area. On February 23 of this year, VA launched a two-
month, nationwide advertising campaign to assist student Veterans and 
Servicemembers applying for the Post-9/11 GI Bill. The GI Bill 
advertising campaign includes half-page ads in top college 
publications, online and social media, print, radio, and outdoor 
advertising such as posters and flyers. In addition, public service 
announcements were delivered to approximately 150 college radio 
stations and 750 local stations in areas where there is a high density 
of students, as well as military installations.
    Student Veterans on college campuses also saw a variety of posters 
in registrars' offices, dormitories, cafeterias, student union 
buildings, and other high traffic areas. This comprehensive advertising 
campaign assisted us in reaching those student Veterans, Servicemembers 
and educational administrators who need help in understanding the GI 
Bill and their role in the benefits process.
    Social media and online advertising are extensively used to reach 
the younger generation of student Veterans. VA placed banner ads on 
social media sites such as Facebook, Google, MySpace, Yahoo, and other 
outlets. Text messaging ads are used to link student Veterans to VA. By 
texting ``GIBILL,'' Veterans receive the basic message: ``You Served. 
Get Benefits.'' Veterans are then directed to follow three steps: 1) 
Review your benefit options online; 2) Submit your application; and 3) 
Check with your school certifying official to confirm that your VA 
enrollment certification has been sent to VA. VA also developed a hip 
pocket guide and checklist with helpful tips to assist Veterans and 
Servicemembers in the application process.
    We are making a concerted effort to reach out to everyone to 
provide the timely benefits that those who served our Nation deserve. 
VA sent letters and notices to university presidents, school certifying 
officials, state Veterans Affairs directors, Veterans Service 
Organizations, Congressional Members, and other education stakeholders 
highlighting the importance of timely submission of school enrollment 
information.
    In addition, in November 2009, VA established a pilot program at 
the University of South Florida (USF) called VetSuccess on Campus. 
VetSuccess on Campus is a collaborative effort between the university 
and VA to provide a supportive on-campus environment where Veterans may 
gather and obtain assistance and peer support. This pilot program is 
supported by the Vocational Rehabilitation and Employment Service, 
Education Service, and the Veterans Health Administration Readjustment 
Counseling Service Vet Center program. Due to the major success of this 
program, two other campuses were added to VetSuccess on Campus; 
Cleveland State University in Cleveland, Ohio and San Diego State 
University in San Diego, California. The program may be expanded to 
other campuses across the country.
                               conclusion
    VA has made significant progress in implementing the Post-9/11 
Bill, and we are working every day to ensure Veterans timely receive 
the educational benefits they earned through their service and 
sacrifice. We appreciate the support of this Committee and the Congress 
as we carry out this mission.

    Mr. Chairman, this concludes my statement. I would be pleased to 
answer any questions you or other Members of the Committee may have.
                                 ______
                                 
Response to Post-Hearing Questions Submitted by Hon. Daniel K. Akaka to 
Keith Wilson, Director, Education Service, U.S. Department of Veterans 
                                Affairs
    Question 1. Could you please describe in more detail what a ``web 
interface'' is and how that will improve the process?
    Response. A web interface is the interaction between a user and 
software running on a Web server. It has the ability to accept input 
and provide output by generating web pages transmitted via the Internet 
and viewed by an end-user with a web browser. This approach will help 
the Department of Veterans Affairs (VA) reduce some of the development 
costs and allow VA to deploy software changes to field users with 
minimal disruption.

    Question 2. Some of the more complex issues arise when processing 
claims from Guard and Reserve members--especially when determining the 
periods that the individual was on active duty. Please describe what 
steps that have been taken to make this process easier, faster and more 
accurate?
    Response. VBA obtains servicemembers' data electronically from the 
Defense Manpower Data Center (DMDC) for use in determining eligibility 
under all education programs, including the Post-9/11 GI Bill. In 
addition, VA and DOD developed an electronic method to obtain 
information related to spouses and children to process claims under the 
transfer-of-entitlement provisions of the Post-9/11 GI Bill. Since all 
information is not stored electronically at DMDC, VA and DOD also 
manually exchange data.

    Question 3. How confident are you that the long-term IT solution 
will be in place by the end of this year and what plans have been made 
if it is not?
    Response. Based on the project schedule, VA has full confidence we 
will deliver the system functionality expected by the business 
community by December 2010. Release 2 ensures full claims processing 
capability in the Post-9/11 GI Bill Long Term Solution (LTS). Delays in 
any subsequent release will not negatively impact VA's ability to 
process claims.

    Question 4. It would seem that the only way that VA was able to 
implement ``Release One'' of the Long-Term Solution was to ``pilot'' it 
out to only one of the regional processing centers and to scale back 
the elements it contained. Where did the planning process fail?
    Response. The planning process did not fail. A delay in releasing 
Phase III for the Interim Solution hindered VA's ability to have 
adequate resources focused on only the LTS. Once fully focused on the 
LTS, it became apparent that we would not be able to deliver all of the 
originally planned Release 1 functionality. Limited Release 1 of the 
LTS deployed March 31, 2010, to only one of the four regional 
processing centers (RPOs) per the Veterans Benefits Administration's 
(VBA's) deployment plan. The application deployed to the remaining RPOs 
on April 12, 2010, and April 19, 2010. The release did not include all 
of the projected functionality. Release 1 was released with reduced 
functionality. The reduced functionality in Release 1 was caused by a 
substantial increase in the understanding of the complexity of amended 
awards. As our subject matter experts (SME) worked with the SPAWAR 
team, it became clear that the amount of software remaining to be 
developed exceeded what could be done to meet the March 31, 2010, 
milestone requirement.

    Question 5. When will General Counsel guidance to be issued with 
respect to crediting for returned payments?
    Response. The Office of the General Counsel issued precedent 
opinion VAOPGCPREC 3-2010 on May 21, 2010. That opinion addresses 
several issues that relate to payments to institutions of higher 
learning under the Post-9/11 GI Bill, including the manner in which 
they should respond in cases where amounts paid by VA were in excess of 
amounts owing for a student's tuition and fees. A copy of the opinion 
is attached.
                       Attachments for Question 5

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Question 6. What can to be done to ensure that each of the four 
processing centers are operating under the same guidance? Are regular 
meetings held--either via teleconferencing or some other means to 
articulate clear policies and procedures?
    Response. VA provides written policy to all four Regional 
Processing Offices (RPOs) and conducts uniform training on a regular 
basis to ensure all RPOs are receiving the same information. In 
addition, weekly RPO conference calls are conducted to address any 
training, policy, or other claims processing issues.

    Question 7. The testimony of our witness from the National 
Association of Veterans' Programs Administrators suggests that the 
lumping of payments for multiple enrollment periods without 
documentation or explanation makes it difficult for the schools to 
reconcile payments. Please comment on this.
    Response. Due to workload concerns and limited information 
technology functionality, VA implemented streamlined procedures to 
expedite Post-9/11 GI Bill claims processing. Currently, payments 
cannot be authorized until at least two individuals review and approve 
each payment amount through fiscal transactions and financial 
authorizations (FIST/FAUT). A FIST/FAUT transaction must be done 
separately for each type of payment (i.e., tuition, housing, books, 
yellow ribbon payments, and college fund ``kickers''). Therefore, VA 
made the decision to combine similar payment transactions into one 
transaction (i.e., two tuition payments or two yellow ribbon payments). 
These procedures will remain in place until full implementation of the 
long-term solution (LTS). We anticipate the number of claims requiring 
FIST/FAUT processing will be significantly reduced once the LTS is in 
place.
    Checks and electronic payments issued to schools include the 
abbreviated name of the student, the file number, and the dates of the 
enrollment period covered by the payment. If payments are lumped 
together, the period shown will cover multiple enrollment periods. The 
schools also receive a weekly ``Vet Rep List'' of the payments issued. 
The Vet Rep List does not provide a breakdown of payment amounts by 
term when the payments are combined.

    Question 8. Please comment on the concept of certifying 
``anticipated enrollments'' with a second certification at the end of 
the drop/add period?
    Response. To ensure Veterans receive their housing allowance and 
books and supplies stipends timely, VA is determining the feasibility 
of allowing schools to submit enrollment certifications without tuition 
and fees in the summer, and resubmit the enrollment certification when 
the actual tuition and fees are available.

    Question 9. The Yellow Ribbon Program presents an almost entirely 
unique set of challenges. Please comment on that and what might help 
ease administrative issues there?
    Response. Individuals eligible for the 100-percent payment level 
who are attending private institutions, enrolled in graduate programs, 
or who are not eligible for in-state tuition rates, are eligible for 
the Yellow Ribbon Program if their institution participates. The Yellow 
Ribbon program allows VA and the school to cover all or a portion of 
the tuition that the Post-9/11 GI Bill benefit does not cover. Post-9/
11 GI Bill tuition payments are capped at the maximum in-state 
undergraduate tuition and fees charged by a public institution of 
higher learning in the state in which the Veteran's school is located.
    To determine the benefit payable when a student is enrolled in a 
private school or graduate program, or is not eligible for in-state 
tuition-and-fee rates, VA must establish the highest maximum rate for 
each state. Schools participating in the Yellow Ribbon Program use the 
maximum rate to help them budget their participation. Most states do 
not have their actual tuition and fees established until July, or 
later, for their fall enrollments. Determining the maximum charges in a 
state is an administratively burdensome task. The maximum charges 
include tuition and all fees required for the program, not just 
admission fees. There are many variables in the manner schools assess 
their charges. For example, some may charge a flat fee for full-time 
tuition plus additional fees and others may assess charges by credit 
hour. Some charge by semester hour and some by quarter hour. Some 
charge a flat fee for full-time enrollment up to 15 credits and then 
charge by credit hour for enrollment above 15 credits. Most schools no 
longer operate solely on standard semesters or quarters. They offer 
terms within terms and terms between fall and spring. Most schools 
assess summer charges differently than the fall and spring semesters.
    This process could be streamlined by establishing a uniform maximum 
benefit level for an academic year for those enrolled in private 
schools, graduate programs, or those not charged in-state rates.

    Question 10. Veterans' program administrators believe that 
designated school officials should have secure web-based access to 
veterans' records in order to provide counseling and assistance. What 
challenges would this present?
    Response. VA intends to allow school officials and Veterans some 
access to payment information in later releases of the long-term 
solution.
    Privacy concerns currently preclude schools from obtaining personal 
information on Veterans attending their institutions. If institutions 
are granted access to individual data, it must be limited to those who 
actually need the protected privacy information in order to aid the 
student. There is also the matter of training school certifying 
officials on how to understand each benefit to provide adequate 
counseling. We have concerns regarding our liability if the school 
officials were to make a recommendation that was not in the student's 
best interest.

    Question 11. The American Legion recommends that VA needs to 
provide more outreach to colleges and universities to ensure that 
veterans have a full range of knowledge about their benefits. Please 
describe what outreach VA has undertaken and what plans are for the 
future.
    Response. VA attended over 100 training and informational 
conferences since the enactment of the Post-9/11 GI Bill to provide 
training, disseminate information, and answer questions from the 
participants. We also conducted webinar training sessions. We continue 
to participate in school's national, regional, and local conferences.
    VA ran a Post-9/11 GI Bill spring marketing campaign focused on 
increasing awareness of the education benefits process. VA used the 
following methods to accomplish our goal:

    <bullet> Print placement in college newspapers
    <bullet> Outdoor placement of posters and visuals at 60 schools 
with large Veteran-student populations,
    <bullet> Radio placement in six high Veteran-student markets
    <bullet> On-line marketing targeted at adults in the 18-34 age 
range through Burst Media
    VA will begin a multimedia, multi-market campaign with a single 
cohesive message on July 1, 2010. It will include a new logo, new 
outreach materials, and nationwide advertising in both conventional and 
cutting edge medias. Additionally, VA solicited and received feedback 
from stakeholders on the GI Bill Web site. Based on this input, the GI 
Bill Web site was redesigned for ease of navigation and focused 
information. The Web site also includes the new logo.
    VA's education liaison representatives (ELRs) are the primary 
points of contact for school officials. ELRs have a wide range of 
responsibilities in support of education benefits programs and work 
closely with school officials to inform them of changes in VA policies 
and procedures. During the fall enrollment period, ELRs temporarily 
assisted with claims processing, which unfortunately limited the time 
they could devote to working with the school officials. However, all 
ELRs have resumed their normal duties.
    In addition to VA's efforts, State Approving Agencies (SAAs) assist 
in outreach. Under statute, VA contracts with each state to approve 
programs of education and support outreach. The SAAs provide 
information to schools, students and employers.

    Question 12. What are VA's plans regarding adding rules for the 
administration of the new program to its processing manual?
    Response. Regional Processing Offices (RPOs) were provided 
procedural guidance (policy advisories and training materials) for 
processing Post-9/11 GI Bill claims. The information is available on 
the Intranet for all RPO staff. VA will incorporate this information in 
a processing manual. Several draft chapters have been sent to RPO 
personnel for review and comment.

    Question 13. Are there any institutions who have disenrolled 
students because they have not received payments from VA on their 
behalf? If so, please provide the names and locations of the 
institutions that have done so, together with the number of students 
affected.
    Response. VA is not aware of any institutions that disenrolled 
students because they did not receive payments from VA. During the 
fall, VA heard that some schools were disenrolling students. Each time 
we were made aware of a situation, we contacted the school to resolve 
the issue.
                                 ______
                                 
 Response to Post-Hearing Questions Submitted by Hon. Richard Burr to 
Keith Wilson, Director, Education Service, U.S. Department of Veterans 
                                Affairs
    Question 1. Many concerns have been raised by veterans' groups and 
individual veterans about the delays in providing education benefits 
during the fall 2009 semester. In fact, a witness at the April 21, 
2010, hearing said that a veteran-student who attends Columbia with him 
had ``just received his first check last month.''

    Question 1A. For each month during the fall 2009 semester, what was 
the average time to process original claims and to process supplemental 
claims for all education programs?
    Response. The chart below displays the average days to process 
claims for all education programs during the fall 2009 semester.


----------------------------------------------------------------------------------------------------------------
                              Month                                September    October    November    December
----------------------------------------------------------------------------------------------------------------
Original........................................................       34.9        56.3        58.8        60.0
Supplemental....................................................       21.4        28.3        30.6        21.6
----------------------------------------------------------------------------------------------------------------


    Question 1B. For each month during the fall 2009 semester, what was 
the average time to process original claims and to process supplemental 
claims for the Post-9/11 GI Bill?
    Response. The chart below displays the average days to process 
Post-9/11 claims during the fall 2009 semester.


----------------------------------------------------------------------------------------------------------------
                              Month                                September    October    November    December
----------------------------------------------------------------------------------------------------------------
Original........................................................       34.6        59.2        60.5        61.9
Supplemental....................................................       35.2        48.5        44.5        27.7
----------------------------------------------------------------------------------------------------------------


    Question 1C. What is the longest a veteran waited to begin 
receiving payments for that semester?
    Response. VA's data system is not programmed in a manner that VA 
could easily obtain that data. Additional complex data mining would 
need to be undertaken in an effort to find that information.

    Question 1D. What factors do you believe contributed to these 
delays and when did VA become aware of those factors?
    Response. VA's existing database and payment system did not support 
the payment structure of the Post-9/11 GI Bill. Unlike the other 
education benefit programs VA administers, the payments are directly 
tied to tuition charges and DOD basic housing allowances. With 13 
months to implement, the systems could not be modified sufficiently to 
support the new program; we therefore had to rely on manual data entry 
and some automated tools that were developed during the 13 months. 
These limited automated functions developed for the interim solution 
were delivered in phases throughout the fall semester.
    VA hired and trained over 500 additional employees to compensate 
for the lack of automation. These individuals, as well as existing 
staff, had to be trained on the tools, the eligibility criteria and the 
data entry for multiple payment processing.
    Most states did not establish their tuition and fee rates for the 
fall semester until the end of July, which delayed certifications from 
the schools. In addition, due to necessary systems modifications, VA 
was not able to accept electronic enrollment certifications until July 
6.
    Each student filing for the Post-9/11 GI Bill last fall was filing 
for the first time for that program. VA had to establish initial 
eligibility and, in many cases, determine if the claimant was eligible 
to elect to transfer from his or her existing VA benefit program to the 
Post-9/11 GI Bill.

    Question 1E. What has been done or is being done to address each of 
those factors?
    Response. The following actions are not limited to a single factor, 
but rather have broad application to many of the factors that 
contributed to processing delays:

    <bullet> Developed and deployed short-term automated systems
    <bullet> Developed and deployed standardized job aids for 
calculations
    <bullet> Hired temporary employees at Regional Processing Offices
    <bullet> Implemented mandatory overtime
    <bullet> Diverted Education staff from other duties to Post-9/11 GI 
Bill claims processing
    <bullet> Reassigned regional office term employees hired under the 
American Recovery and Reinvestment Act to Education claims processing
    <bullet> Entered into a contract for non-Post-9/11 GI Bill claims 
processing assistance
    <bullet> Streamlined procedures and non-essential claims processing 
functions
    As we approach this fall, the majority of the recipients will be 
returning students. As such, VA will not have to determine initial 
eligibility. The first phase of the new long term automated system was 
delivered on March 31 and the second phase will be delivered June 30. 
These deliveries will streamline some of the processing. The third 
phase, due September 30, should reduce much of the manual data entry 
for fiscal transactions. The claims processing employees will also have 
significantly more experience processing these claims than last fall. 
We intend to continue to use overtime to address peak workload periods.

    Question 2. The following excerpt was in the testimony from the 
National Association of Veterans Program Administrators: ``VA remains 
unable to credit returned payments to veterans' accounts, pending 
General Counsel guidance. When tuition and fee payments are confirmed 
by VA to be a duplicate payment or grossly erroneous, schools are 
instructed to return the funds to VA. However, the returned funds are 
not being credited to the veteran.''

    Question 2A. How many duplicate payments were made to schools 
during the fall 2009 semester? What is the total dollar value of those 
payments?
    Response. VA combined the response to this question with the 
response to 2B below.

    Question 2B. Were any ``grossly erroneous'' payments made to 
schools? If so, how many and in what amounts?
    Response. VA Central Office is not aware of any specific ``grossly 
erroneous'' payments made to schools. We are aware there were instances 
of duplicate payments, but we did not manually tally the instances and 
the amount involved. VA conducts quarterly quality claims processing 
reviews. As of the first quarter of fiscal year 2010, the Post-9/11 GI 
Bill payment accuracy was 95 percent.

    Question 2C. What factors caused VA to make excessive or duplicate 
payments to schools?
    Response. Manual processing that is reliant on multiple manual data 
entries to release payment.

    Question 2D. What steps could be taken to reduce the possibility of 
these overpayments in the future? Will the long-term solution contain 
mechanisms to limit or prevent these types of overpayments?
    Response. VA anticipates that the automated rules-based 
functionality in the long-term solution (LTS) will significantly reduce 
the possibility of overpayments under the Post-9/11 GI Bill. Release 3, 
scheduled for delivery on September 30, will eliminate most of the 
manual entry for fiscal transactions (payment amounts).

    Question 2E. What are schools expected to do with tuition or fee 
payments they should not have received? Has clear guidance on that been 
distributed to schools? If so, please provide the Committee with a 
copy.
    Response. Under current VA policy, a school should return tuition 
and fee payments to VA if the school receives an erroneous payment 
under the Post-9/11 GI Bill. Specifically, we instructed all schools to 
return payments to VA if a student never attended; the school received 
a duplicate payment for an individual; the school received a payment 
for an individual who did not enroll; or the student died during the 
term and would have been due a refund. Please see the attached VA 
Policy Advisory titled ``Tuition and Fee Return Payments'' dated 
November 23, 2009. [See response to Question 5 from Senator Akaka.]
    The statute provides that the Post-9/11 tuition and fee payment is 
based on the established charges for the program of education.
    The term ``established charges'' is defined in statute to mean 
actual charges for tuition and fees that similarly circumstanced non-
veterans would be required to pay. Statutes governing Department of 
Education funding restrict VA (and any other Federal or local benefit 
program) from considering Title IV funding when determining benefit 
payments. VAOPGCPREC 3-2010 indicates that such assistance may not be 
taken into account in determining ``actual charges.'' Please see the 
attached copy of VAOPGCPREC 3-2010. [See response to Question 5 from 
Senator Akaka.]

    Question 2F. When a school returns funds to one of VA's regional 
processing offices, are there policies requiring the regional 
processing offices to notify any other VA offices, such as the Debt 
Management Center? If so, are those policies being followed?
    Response. If the school returned funds because the student withdrew 
and the school reports the withdrawal to VA, VA credits the returned 
funds to the overpayment. Debt Management Center (DMC) is not involved, 
as no debt is reported to DMC. Some school officials assume that some 
of the returned funds should be credited to the advance payment debts. 
When crediting is appropriate, VA does credit the funds. However, if a 
school returned a duplicate payment, VA cannot credit those funds to an 
advance payment debt.

    Question 2G. Under what circumstances is the Debt Management Center 
supposed to create an overpayment in the veteran's name when the school 
is paid too much? In practice, when is that being done?
    Response. If the school receives a duplicate payment, VA does not 
``charge'' the student with an overpayment.
    Our Regional Processing Offices (RPOs) create a debt on a student's 
record when VA receives notice from the school that the student reduced 
his or her enrollment or withdrew from school. In these instances, the 
school received the proper amount based on the student's enrollment. 
The statute provides that VA may not provide funds for a course that 
the student is not pursing. Thus, VA will recalculate the amount the 
student is due and any amount over that becomes a debt of the student. 
For example: A student enrolls full-time and the charges are $10,000. 
VA processes the enrollment certification and releases a $10,000 
payment.
    Subsequently, the student drops two classes after the school's 
drop/add period. VA will recalculate the amount due. In this case, 
assume the student was only due $5,000. VA will create a debt on the 
student's record for $5,000. The Debt Management Center is responsible 
for the collection of the debt.
    These procedures are being followed.

    Question 2H. When VA receives a check from a school, how does VA 
determine the reason the check is being sent back and whether it is an 
appropriate amount?
    Response. VA must review the student's record. If the school 
previously reported a change in enrollment, VA generally will have all 
necessary information to recalculate the amount the student was 
entitled to, calculate the debt, and credit the returned funds toward 
the debt. However, many times the funds are returned by the Bursar's 
office and VA does not know why the funds were returned. We must 
contact the school for additional information.

    Question 2I. Has guidance been provided from the General Counsel on 
how to credit payments returned from schools? If so, please provide the 
Committee with a copy.
    Response. Although VAOPGCPREC 3-2010 does address certain issues 
relating to the return of payments, it does not provide specific 
guidance regarding how VBA should credit these returned payments.

    Question 2J. What lessons have been learned about how to make this 
recoupment process more hassle-free for veterans and their families?
    Response. The recoupment process was complex this year because of 
the special advance payments made to over 122,000 individuals. Our 
systems needed modification to recoup the advance payments so that VA 
did not offset tuition and fee payments for the spring term sent to the 
school on the student's behalf. Additional system modifications had to 
be made so that students' entire housing benefits were not withheld to 
recoup the advance payments.
    As VA is more timely processing claims and the impact of the 
initial startup is behind us, the need to release emergency advance 
payments has dissipated. As such, the recoupment process will be less 
complex.

    Question 3. It is my understanding that, when VA started to recoup 
advance payments, the Education Service sent a detailed letter to 
veterans explaining their options for repaying VA, including the option 
to take no action and allow VA to start recouping $750 per month from 
future housing allowance checks. The Debt Management Center later sent 
a letter to those veterans that included much less information and 
instructed veterans either to pay the debt in full or to contact the 
Debt Management Center to set up a payment plan. It did not include the 
``do nothing'' option.

    Question 3A. Why did VA provide two different letters with 
different information to some veterans?
    Education Service: The two letters had different purposes. The 
initial letter was to notify recipients that we would begin collecting 
the advance payment on April 1 in the amount of $750 per payment. The 
letter provided information on how to return advanced payment checks, 
as VA was made aware some individuals had not yet cashed their advance 
payments. Additionally, that letter informed them that they would 
receive a separate letter from Debt Management Center (DMC) that would 
notify them of their rights and responsibilities.
    Our initial letter informed the recipients they did not have to 
take action if they had repaid the advance payment. They did not need 
to contact the DMC unless they wanted an alternative repayment plan.

    Question 3B. What steps will be taken in the future to ensure that 
veterans are provided with accurate and useful information in a manner 
that is less likely to cause confusion?
    Response. If VA were to consider emergency advance payments in the 
future, we would use any lesson learned from the past to improve the 
process.

    Question 4. One of those letters about recouping advance payments 
included contact information for the Education Service and the other 
included contact information for the Debt Management Center. A veteran 
from North Carolina told my office that, when he called the Education 
Call Center, he was told to call the Debt Management Center and, when 
he called the Debt Management Center, they told him to call the 
Education Call Center.

    Question 4A. Why were veterans provided with two different contact 
numbers?
    Response. VA provided the Education Call Center number to assist 
individuals with general questions or concerns regarding advance 
payment recoupment. The Debt Management Center (DMC) number was 
provided for specific information about collections that only DMC staff 
were qualified to answer or to establish alternative repayment plans. 
Sometimes, a caller has questions that are outside the expertise of the 
individual assisting the caller. As such, the caller is referred to 
another VA representative.

    Question 4B. Was clear guidance provided to VA employees on how to 
direct calls from veterans who received these letters? If so, please 
provide the Committee with a copy of that guidance.
    Response. VA issued a policy advisory to VA employees that outlined 
the advance payment recoupment procedures. VA prepared and issued a 
detailed Question and Answer (Q&A) script for use by the Call Center 
employees and for those responding to e-mail inquiries. We also posted 
a series of Q&A's on our Web site. Please see attached Policy Advisory 
titled ``Advance Payment Recoupment'' dated February 3, 2010. [File was 
not attached.]

    Question 4C. What steps have been taken or could be taken to make 
sure both veterans and VA employees have the correct information about 
who should be contacted regarding overpayments of education benefits?
    Response. VA did provide employees with correct information and 
will continue to address any training deficiencies. For callers, VA 
will continue to direct callers to the Debt Management Center for 
specific collection questions. Instances will remain when callers will 
be re-directed from one source to the other based on individual 
circumstances. The Regional Processing Offices establish the debts and 
can best provide information on the current enrollment status, whereas 
the Debt Management Center (DMC) specializes in the collection status, 
repayment plans, and measures DMC will take if the debt is not 
recovered.
    VA plans to conduct additional training for our Education Call 
Center staff to help them become more knowledgeable about DMC general 
procedures and better assist individuals with overpayment issues.

    Question 5. It is my understanding that the Debt Management Center 
was overwhelmed with calls after VA sent letters about recouping 
advance payments, which made it difficult for veterans to get through. 
In fact, the Debt Management Center posted a note on its Web site 
acknowledging it was receiving a high level of calls and providing 
advice to veterans who could not get through.

    Question 5A. What was the blocked call rate at the Debt Management 
Center after those letters were sent?
    Response. DMC contacted Sprint to obtain a report showing the 
blocked-call rate for their toll-free number. The report received from 
Sprint did not reflect the actual call volumes handled by DMC. We 
therefore are not able to provide information on the blocked-call rate.

    Question 5B. How many employees were answering phones at the Debt 
Management Center when these letters were first sent and how many are 
answering the phones now?
    Response. The Debt Management Center had 26 employees assigned to 
24 toll-free telephone lines at the time the letters were sent. 
Currently there are 25 employees assigned because one employee is on 
extended sick leave.

    Question 5C. What, if anything, would VA consider to be the 
``lessons learned'' from this experience?
    Response. If emergency advance payments are needed in the future, 
VA would consider all the information we learned from the past in 
making a decision as to how best administer advance payments and 
collection. The short timeframe to collect funds during spring 
enrollment resulted in large mailings and thus high call volumes.

    Question 6. There was a lot of frustration expressed at the 
inability to get through to VA at its Educational Call Center after VA 
shifted call center employees to processing claims back in December. 
Also, there has been some frustration that the call center was not 
providing accurate information.

    Question 6A. What was the blocked call and dropped call rate while 
a compressed Monday to Wednesday schedule was in effect at the 
Education Call Center?
    Response. The compressed Monday to Wednesday schedule was in effect 
from December 10, 2009 to February 18, 2010. During this period, the 
blocked call rate was 82.9 percent. The abandoned or dropped call rate 
was 20.1 percent.

    Question 6B. In total, how many calls went unanswered during that 
time?
    Response. There were approximately 1.9 million blocked calls and 
90,000 abandoned calls during this period. These numbers obviously 
include large volumes of redials.

    Question 6C. What is the current blocked call rate?
    Response. The blocked-call rate for March 2010 was 15 percent. For 
April 2010 the blocked-call rate was 2.1 percent.

    Question 6D. What was the average experience level of the employees 
handling calls during the Fall 2009 semester?
    Response. During the fall semester, the average experience level 
for telephone representatives was 14 months.

    Question 6E. Has any additional training been provided to these 
employees?
    Response. The Muskogee Education Call Center conducts monthly 
refresher training sessions to ensure our call center agents provide 
complete and accurate responses to all callers. Employees are reminded 
of the necessity to remain courteous, compassionate, and professional 
at all times. In addition, the Regional Processing Office addresses 
immediate issues with training or instruction as needed.

    Question 7. In their written testimony, the National Association of 
Veterans Program Administrators provided this feedback: ``Tuition and 
fee payments for multiple enrollment periods are lumped into a single 
payment, with no clarifying information attached. It is very difficult 
for schools to reconcile lump sum payments and accurately post the 
funds to the appropriate enrollment periods.''

    Question 7A. What, if any, explanation is provided to schools along 
with the payments received from VA? Does it explain how the amounts 
were calculated?
    Response. Checks and electronic payments received by schools 
include the abbreviated name of the individual, the file number, and 
the dates of the period covered by the payment (if payments are lumped 
together the period shown on the check will cover multiple enrollment 
periods). The schools also receive a weekly ``Vet Rep List'' of the 
payments issued. The Vet Rep List does not provide a breakdown of 
payment amounts by term. Schools do not receive notification of how VA 
calculated the amounts payable.

    Question 7B. Are any efforts being made in the near term to 
increase the information provided to schools?
    Response. Our intent is that the final phases of the long-term 
payment system will include the capability for school officials to have 
limited access to specific payment information. Currently, developers 
and subject matter experts are fully engaged in the development of the 
claims processing aspects of the system. Future enhancements will be 
designed upon completion of claims processing and payment components.

    Question 7C. Will any efforts be made to provide additional details 
to schools when the long-term solution is in place?
    Response. See response to question 7B.

    Question 8. It is my understanding that some tuition and fee 
payments may have been inadvertently sent to the wrong schools because 
of errors made by claims processing staff in recording the identifying 
information for the schools. In fact, VA provided guidance to schools 
on what to do if they ``received payment for an individual that is not 
a student at your school.''

    Question 8A. How many, if any, payments have been made to the wrong 
schools? If incorrect schools have been paid, what led to these errors? 
How does VA learn of the mistake if the wrong school was paid?
    Response. We believe that as with any processing system that 
involves manual data entry there is some likelihood for errors to 
occur. Erroneous payments could also result if the student enrolled and 
subsequently changed schools after the initial school submitted an 
enrollment certification. Generally, we learn of such mistakes directly 
from schools.

    Question 8B. If this has happened, what is being done to prevent it 
from reoccurring in the near term?
    Response. When more automation is provided, less opportunity for 
human error will exist. VA conducts quality reviews of claims 
processing. Any areas that require improvement are identified and 
referred to the Regional Processing Office for correction and to 
address any training deficiencies.

    Question 8C. Will the long-term solution provide any mechanisms to 
prevent this type of error from happening?
    Response. VA expects the delivery of automated processing with the 
long-term solution will reduce the errors attributed to manual data 
entry.

    Question 9. If a veteran is eligible for an older education 
program, like the Montgomery GI Bill, and decides to change to the 
Post-9/11 GI Bill, that decision to change programs is irrevocable. I 
have heard concerns from some North Carolinians that veterans are 
making the decision to opt into the new program without adequate 
information or guidance.

    Question 9A. Are you aware of any veterans who opted into the Post-
9/11 GI Bill and then realized they would have received higher benefits 
under one of the older programs?
    Response. The Post-9/11 GI Bill overlays existing benefits and can 
cause confusion when individuals are trying to understand the nuances 
of the education benefits. Since each individual's situation is 
different, VA provides a side-by-side comparison of benefits under each 
program on the GI Bill Web site. In addition, a benefits calculator and 
extensive benefits information are available on the Web site. This 
information helps an individual determine which of the programs provide 
the greatest benefit in an individual situation.
    VA is aware of a few Veterans who elected the Post-9/11 GI Bill and 
subsequently learned they would be limited to the number of months of 
entitlement remaining under their relinquished education program. The 
public law enacting the Post-9/11 GI Bill limits the entitlement of 
those individuals electing to transfer from the Montgomery GI Bill. 
Such individuals may receive only the number of months of Montgomery GI 
Bill entitlement they have remaining at the point they elect benefits. 
In some instances, individuals may realize it would be better to 
utilize all their Montgomery GI Bill before electing the Post-9/11 GI 
Bill. However, even though information was available to help them make 
that decision, some may not have considered that information when 
electing to transfer before their Montgomery GI Bill was exhausted.
    Additionally, in states with low basic housing allowances, a 
student might not directly receive as much as he or she did under a 
previous program.
    While the information is available on our Web site, in fact sheets, 
and at schools, the complexity and variances between the multiple 
programs may cause some students to make a decision to elect a new 
benefit assuming it was a better benefit without fully reviewing the 
available materials.

    Question 9B. What steps does VA take to counsel veterans on the 
pros and cons of switching to the Post-9/11 GI Bill before they make a 
decision? Is there more that could be done in this regard?
    Response. As stated in the response to question 9A, VA provides 
information on the GI Bill Web site to assist Veterans in determining 
the pros and cons of each education program. Veterans can also contact 
the Education Call Center for guidance regarding the different VA 
education programs.
    Streamlining the existing benefits into one program with less 
complex rules would assist students in planning. Even though VA 
personnel can assist in the decision, if the student changes schools, 
the elected benefit might not have been the best choice. VA is willing 
to work with Congress to streamline the programs to better serve 
Veterans and their families.

    Question 10. Under the Post-9/11 GI Bill, VA makes payments 
directly to a school for the amount of the veteran's tuition and fees.

    Question 10A. If a school did not actually charge the veteran 
because, for example, the veteran had scholarships, had an employer 
paying for school, or received a waiver of fees because of his or her 
veteran status, do the schools ever try to return those payments to VA?
    Response. We are aware that some schools have returned such 
payments. Please refer to the attached copy of VAOGCPREC 3-2010 which 
discusses this matter. [See response to Question 5 from Senator Akaka.]

    Question 10B. If so, what happens in those circumstances and how 
often has that happened?
    Response. When VA receives returned tuition and fee payments for 
reasons other than those listed in the response to question 2E, we have 
to determine why the money was sent and how to credit the money to the 
student's VA account. The money is first credited into a general 
account until we can determine how the money should be credited to the 
student's account. In those instances where the money was returned 
because the student's enrollment changed, VA will credit the returned 
money to reduce any overpayment of tuition and fees. We do not have 
available the number of cases involved, as the school sometimes returns 
one large payment. However, it is happening routinely, especially as 
more and more aid is available to Veterans. VA will issue guidance in 
the near future to schools and credit monies or return monies as 
appropriate.
    Because VA's other education benefit programs have been paid as 
monthly allowances, VA was not aware of the multitude of programs that 
provide aid to student Veterans. Some aid is specifically for tuition 
and fees and other aid can be applied to any cost of education. As more 
and more questions came from school officials, and schools began 
returning money, VA requested legal guidance to address the issue. The 
issue is further complicated because some aid comes in after schools 
certify enrollment to VA and some aid is available before 
certification.

    Question 11. According to VA's testimony, the first release of the 
long-term solution was deployed on March 31, 2010, but it did not 
include all of the functionality that VA originally expected it to 
contain and was released as a limited pilot. At the hearing, VA 
testified that 16 employees are currently using that system but that it 
will be rolled out to other offices.

    Question 11A. Is there a process in place for soliciting and 
receiving feedback from the employees using the first release? If so, 
what type of feedback has VA received?
    Response. Yes and we are receiving mostly positive feedback from 
our customers.

    Question 11B. Please provide a timeline for when the first release 
will be rolled out to other offices.
    Response. Limited Release 1 of the LTS deployed March 31, 2010, to 
one of the four RPOs per VBA's deployment plan. The application 
deployed to the remaining RPOs on April 12, 2010, and April 19, 2010.

    Question 11C. Are there other planned releases of the long-term 
solution that are expected to have less functionality than originally 
planned?
    Response. As stated in the Honorable Roger Baker's testimony of 
January 21, 2010, Release 1of the LTS was scheduled for deployment on 
March 31, 2010. VA expected Release 1 to include functionality for a 
number of items, including the ability to complete original claims and 
the ability to process amended awards. As our subject matter experts 
worked with the SPAWAR team, new software requirements were identified 
and the complexity of the amended awards functionality was better 
understood. It became clear these requirements could not be 
incorporated into Release 1 by the March 31, 2010, milestone date.
    Therefore, a decision was made in conjunction with VBA, our 
customer, to deliver reduced functionality in order to make the 
milestone date. The reduced functionality included the ability to 
complete original claims and many other capabilities. Another important 
consideration in this decision was the critical need for VA staff to 
use the LTS software for production work in order to provide assurance 
the software was acceptable and reliable for the long term.
    Release 2, currently scheduled for June 30, 2010, will serve as the 
foundation from which the VA will retire the Interim solution and 
automate the Education Benefits business process. The scope of Releases 
3 and 4, currently scheduled for September 30, 2010, and December 31, 
2010, respectively, will contain interfaces to education legacy systems 
in order to pre-populate data and automate payment. The final scope for 
these releases is not set.
    It is important to recognize that the methodology we are using to 
deliver this system to our VBA partners is based on agile approach. It 
is based on making tradeoffs between schedule and functionality. We 
have fixed the schedule so that there is a release every three months. 
To accomplish this we adjust the delivered functionally to what can be 
done--not what we would like to do. This is a significant change to how 
VA and most of the Federal Government has managed IT development 
projects previously. As a result, today we can report that the system 
works, it is in limited production, and we are getting positive 
feedback from our customers.

    Question 11D. What level of assurance can VA provide that the 
planned December 2010 full implementation date for the long-term 
solution will be met?
    Response. Based on the project schedule, VA has full confidence we 
will deliver the system functionality expected by the business 
community by December 2010.

    Question 12. At the hearing, VA discussed the fact that the monthly 
housing allowance payments being sent by VA in 2010 do not yet reflect 
a cost-of-living adjustment made to the Basic Allowance for Housing 
rates and that a fix to that problem likely would not occur until July 
2010. A witness at the hearing expressed concern about veterans 
receiving ``less money than originally budgeted.''

    Question 12A. Did VA notify current participants in the Post-9/11 
GI Bill program that their monthly housing allowance payments would not 
reflect the cost-of-living adjustment until July? If so, please provide 
a copy of the notification.
    Response. VA has not notified Post-9/11 GI Bill beneficiaries that 
their monthly housing allowance payments would not reflect the cost-of-
living adjustment until July.

    Question 12B. Are there any policies in place to more quickly 
provide the correct amount of housing allowance payments to veterans 
who may be experiencing financial difficulties?
    Response. Because of limited automated support at implementation 
and because January 2010 rates were not available from DOD until 
December 2009, VA only had the capability of creating a single rate 
table for 2009. In December, VA's Office of Information and Technology 
and SPAWAR were fully engaged in development of the long-term solution. 
Additional comprehensive changes to the interim solution were not 
undertaken. The system capabilities to accommodate more than one rate 
table and perform multiple calculations are included in release 2 of 
the long-term solution. Release 2 is scheduled for delivery on June 30, 
2010. Release 2 will provide the capability to pay 2009 and 2010 rates, 
as well as any future increases.
                                 ______
                                 
 Response to Post-Hearing Questions Submitted by Hon. Mike Johanns to 
Keith Wilson, Director, Education Service, U.S. Department of Veterans 
                                Affairs
    Question 1. Calls to the main call center in Oklahoma too often 
result in no information and no other recourse for Post-9/11 recipients 
with claim problems. Call center staff are apparently not empowered to 
pass callers to higher-level supervisors for resolution of unique 
problems. In fact, constituents have told my staff they were advised to 
``call their congressman'' by call center staff. Until the call center 
can actually initiate action to resolved issues it will continue to 
receive repeat calls on the same problems. What is the VA doing to make 
the call centers more responsive to real problems?
    Response. Education Call Center personnel receive ongoing training 
on telephone skills, customer service, and procedural updates. Agents 
should not advise callers to contact their Congressional 
representatives to resolve a claim related issue. However, an agent may 
explain to a caller that only Congress can make changes to legislative 
issues. For example, the call center received many calls from former 
servicemembers who left service prior to August 1, 2009, who wanted to 
transfer their benefits to family members. Such callers would be 
informed that Congress would need to change the law in order for VA to 
make payment.
    In the event a call center agent is not able to resolve a 
particular issue, procedures are in place to transfer the call to an 
Education Case Manager. Since October 1, 2009, over 1,500 calls have 
been transferred in this manner.

    Question 2. Constituent calls to the debt collection center to 
reconcile incorrectly generated debt notices are usually told all the 
debt center does is issue notices based on requests from other offices 
in the VA. There does not seem to be a mechanism for working issues 
between claim processing and debt collection. What is the VA doing to 
better coordinate debt generation offices with debt collection offices 
to preclude persistent debt collection notices after problems have 
already been solved?
    Response. We are not aware of callers routinely being advised that 
the Debt Management Center (DMC) only issues notice based on requests 
from other offices in VA. DMC telephone agents spend the majority of 
their time on the telephone assisting Veterans in reconciling 
differences and understanding their benefit payments and accounts. If 
an issue exists where DMC cannot assist a Veteran due to additional 
paperwork or documentation required by the Education Regional 
Processing Offices, the debtor is advised to call the Education Call 
Center for further assistance.

    Question 3. I would also like to know if VA is considering greater 
use of state points of contact for dealing with Post-9/11 benefit 
issues. Some of the issues are school specific that can be quickly 
identified and worked at the state level while going unnoticed at 
national call center.
    Response. VA has a designated an education liaison representative 
to serve as the point of contact for each state. In addition, each 
state appoints a State Approving Agency (SAA) for the purpose of 
approving programs of education or training for Veterans (and other 
eligible persons) who receive education benefits from VA. The SAAs 
operate under contract with VA. SAAs also assist with outreach and 
provide information and support to school officials.
    To address the high inventory of claims this past fall, VA's ELRs 
were temporarily diverted from their main duties of liaison with the 
schools to assist with claims processing. The ELRs have returned to 
their primary duties, and schools now have better access to their 
representative.

    Chairman Akaka. Thank you very much, Mr. Wilson.
    Now, Mr. Warren, we would please proceed with your 
statement.

   STATEMENT OF STEPHEN WARREN, PRINCIPAL DEPUTY SECRETARY, 
INFORMATION TECHNOLOGY, VETERANS BENEFITS ADMINISTRATION, U.S. 
                 DEPARTMENT OF VETERANS AFFAIRS

    Mr. Warren. Good morning, Mr. Chairman, Senator Tester.
    Chairman Akaka. Good morning.
    Mr. Warren. As stated by Mr. Wilson, we partnered with 
SPAWAR to actually build this long-term solution for the future 
while the VA worked with an interim solution to meet the 
commitments that had been made.
    Four phases. We deployed that first phase on March 31, as 
we had committed to. Even though it was a limited deployment, 
the functionality that was contained in it was actually quite 
extensive. It was able to calculate new original awards; 
automate the calculation of awards, including tuition and fees, 
housing, books and supplies, Yellow Ribbon, Chapter 30, 1606 
kickers; the automated calculation for awards for overlapping 
terms and intervals, including interval rules for summer terms 
and demographic and service data from the VA DOD repository 
where we share information.
    We did a limited deployment to make sure that what actually 
deployed out became that platform for the future, as Mr. Wilson 
mentioned. So when that next increment comes out at the end of 
June, it will be able to retire that interim solution. As Mr. 
Wilson mentioned, it is four different systems that have to be 
used today in terms of fitting those two together, and the 
June 30 deployment will then pick that up, retire the old 
system, and simplify what efforts the examiners need to go 
through.
    The feedback that we are receiving today is that this first 
increment offers an ease of use and increased efficiency. We 
are looking at reductions in time from 15 to 25 percent to 
process those, so that is a great start, again, in a limited 
deployment to make sure it is ready going forward.
    We still have that second release to release--or second 
increment to release the end of June. The third one is 
scheduled for the end of September and the final one for 
December. So those are still on track.
    There are a number of challenges in deploying this long-
term solution. One of the things that is key to recognize is 
the methodology that we are using to deploy this system, one 
that is using something called an agile methodology. It 
involves short increments in defined periods of time. So the 
commitment we have made is every 3 months we will deliver more 
functionality.
    So instead of going many, many years as IT projects in the 
government have done in the past--many years without really 
getting something--we are on a path to deliver functionality on 
3-month increments. We delivered the first increment; it works. 
So instead of something that may have happened, we delivered 
capability. The next increment comes out in 3 months. The next 
increment comes out in 3 months. So we are building on 
successes to ensure that our partners in the Veterans Benefits 
Administration have the tools they need.
    This ends my verbal remarks, and I will answer any 
questions.
    Chairman Akaka. Thank you very much, Mr. Warren.
    Mr. Osendorf, your statement, please.

 STATEMENT OF DAN OSENDORF, DIRECTOR, DEBT MANAGEMENT CENTER, 
              U.S. DEPARTMENT OF VETERANS AFFAIRS

    Mr. Osendorf. Good morning, Chairman Akaka, Senator Tester 
and Members of the Committee. I appreciate this opportunity. My 
testimony will address the recruitment of advance payments.
    In October 2009, the VA began issuing advance payments to 
veterans and servicemembers who had not received their VA 
benefits for the fall enrollment period. This was done to 
ensure that they could focus on their academic studies and not 
be burdened with their financial concerns. VA notified advance 
payment recipients in late January and February of the 
reimbursement process for the advanced payments. Notification 
explained that $750 would be deducted from their monthly 
education payments beginning April 1, and they could make 
arrangements with the Debt Management Center for a reduced 
withholding if the $750 was causing a financial hardship. 
Individuals not currently enrolled in school receive 
notification on how payment arrangements could be made to 
satisfy the debt.
    Anticipating a large number of requests for lower 
withholding for the April 1 check, DMC added six telephone 
lines and eight operators and extended telephone service hours 
an additional hour to handle the increased volume.
    In addition, we created a form that allowed them to request 
a reduced withholding and could be e-mailed to DMC. This was 
also furnished to the VBA education Web site so they could take 
telephone calls and forward the forms to us. We created special 
mailboxes where they could send the forms to; we could process 
them through. In addition, VBA added the form to its education 
Web site so individuals could go online, fill out the form 
themselves, and then e-mail it to DMC.
    On April 1 we had processed approximately 12,000 requests 
for lower withholding. We continue to receive requests for 
partial withholdings of the April 1 check and reduce 
withholdings from future checks. To provide the greatest 
flexibility to our veterans, repayment plans are being set 
retroactive to April 1 and refunds of amounts collected above 
the requested payment amount are being refunded. Through mid 
April, requests have totaled over $22,000. Of the $355.5 
million issued to advance payment recipients, we have collected 
over $75 million through payments and offsets.
    Mr. Chairman, this concludes my statement. I would be 
pleased to answer any questions you or the Members may have.
    Chairman Akaka. Thank you very much, Mr. Osendorf.
    Mr. Clark, please proceed with your statement.

STATEMENT OF ROBERT E. CLARK, ASSISTANT DIRECTOR FOR ACCESSION 
POLICY, OFFICE OF THE UNDER SECRETARY OF DEFENSE FOR PERSONNEL 
           AND READINESS, U.S. DEPARTMENT OF DEFENSE

    Mr. Clark. Good morning, Chairman Akaka, Senator Tester, 
Senator Brown. I am pleased to appear today to discuss the 
Department of Defense's role in the implementation of the Post-
9/11 GI Bill. There is little doubt that this new educational 
assistance program represents the most sweeping change in post-
service education benefits since World War II. As the Chairman 
eloquently discussed, he believes that he would not be here 
today were it not for that landmark bill.
    The original GI Bill of Rights, created at the end of World 
War II, gave returning servicemembers a comprehensive package 
of benefits to compensate for opportunities lost while in the 
military and to ease their transition back into civilian life. 
That GI Bill offered returning soldiers, sailors, Marines, and 
airmen payment for tuition, fees, books and supplies, along 
with a living stipend at the educational institution of the 
veteran's choice.
    Although there have been several GI Bills since the 
original, the Post-9/11 GI Bill is the first to directly mirror 
this original milestone program, again offering returning 
soldiers, sailors, Marines, and airmen payment for tuition, 
fees, books and supplies along with a living stipend at the 
educational institution of the veteran's choice. However, one 
difference is that the original GI Bill was designed to ease 
the transition to civilian life from a conscripted military 
during a massive drawdown, during a short period of time.
    Today's military is different. Since 1973, we have defended 
this Nation with a volunteer force, and our military force has 
maintained a consistent level of stability without massive 
drawdowns. Therefore, along with the codified purpose to assist 
veterans in readjusting to civilian life after wartime service, 
the Post-9/11 GI Bill also is designed to have a positive 
effect on recruitment for the Armed Forces.
    For today's hearing, you asked me to comment on the role 
DOD has played in the implementation of the Post-9/11 GI Bill 
and how DOD and the Department of Veterans Affairs have and 
continue to work together to ensure success in the 
administration of this new program. This strong relationship 
between DOD and VA during the first year of the Post-9/11 GI 
Bill has clearly been a team effort benefiting servicemembers, 
veterans and their families.
    Specifically, DOD has three major roles in implementation. 
The first role in successful implementation of the Post-9/11 GI 
Bill is the sharing of service data with VA. We recognize the 
road to becoming a veteran always entails passage through 
service in the military. Accurate reporting of that service is 
vital to the determination of eligibility for post-service 
education benefits. We recognize our role in that reporting.
    The second and third roles DOD plays in the Post-9/11 GI 
Bill implementation both stem from two special provisions in 
the statute: the ability to offer a supplemental educational 
benefit, commonly referred to as a kicker; and the ability to 
offer career servicemembers the opportunity to share or 
transfer their earned but unused education benefits to 
immediate family members.
    Following the model of the very effective Montgomery GI 
Bill college funds used since the 1980s, kickers allow the 
services to supplement the monthly education assistance for 
members we recruit or retain with critical skills or 
specialties and for incentivizing further service. The existing 
MGIB college funds are funded by the military services but 
administered and paid by VA through the use of the DOD 
education benefits fund.
    Unfortunately, even though kickers are authorized under the 
Post-9/11 GI Bill, the authority to use this fund was not 
included in the statute. We have requested a technical 
amendment to allow use of that fund for kickers associated with 
the Post-9/11 GI Bill education benefits to rectify this 
situation in our 2011 legislative proposal package for the 
fiscal year 2011 National Defense Authorization Bill.
    DOD's third major role is the implementation of the 
provision that allows the Secretary of Defense, for the purpose 
of promoting recruitment and retention, to permit members of 
the Armed Forces to elect to transfer all or a portion of their 
unused educational entitlement to a spouse and/or child. Family 
members and quality-of-life groups throughout the Department 
have requested such transferability for many years, and we 
believe this will have a significant impact in our retention 
efforts.
    The transferability process is a shared responsibility with 
DOD accepting and approving the request to transfer and VA 
administering the transferred benefit just as they administer 
benefits for servicemembers and veterans. In implementing our 
responsibilities under this provision, we established a web-
based paperless process for approval and submission to VA. To 
date, over 105,000 requests from career servicemembers have 
been approved, transferring unused benefits to over 240,000 
family members.
    DOD is committed to the success of the Post-9/11 GI Bill. 
From the beginning, we started outreach to both our internal 
and external audiences. To support recruiting, the Post-9/11 GI 
Bill has become an integral part of both service recruiting 
programs and joint advertising. To support retention, we 
established a special page on the Defense Link Web site for the 
Post-9/11 GI Bill, participated in numerous interviews and 
round tables resulting in articles in almost every military 
installation newspaper, published a final rule in the Federal 
Register, and printed information and links to both the VA Web 
site for the Post-9/11 GI Bill and the DOD Web site on leave 
and earnings statements for all military members. We have been 
working very closely with VA Education Services since the 
enactment and will continue to work side-by-side with staff.
    I thank the Committee for the continued dedicated support 
to men and women everywhere who currently serve and to those 
who have served our great Nation. This concludes my testimony. 
I will be glad to answer any questions you may have.
    [The prepared statement of Mr. Clark follows:]
Prepared Statement of Robert E. Clark, Assistant Director for Accession 
  Policy, Office of the Under Secretary of Defense for Personnel and 
                 Readiness, U.S. Department of Defense
    Good afternoon, Mr. Chairman and esteemed Members of the Committee. 
I am pleased to appear before you today to discuss the Department of 
Defense's (DOD) role in the implementation of the Post-9/11 GI Bill, as 
enacted in Public Law 110-252, and codified in Chapter 33, title 38, 
United States Code. There is little doubt this new educational 
assistance program represents the most sweeping change in post-service 
education benefits since World War II.
    The original ``GI Bill of Rights,'' created at the end of World War 
II, gave returning Servicemembers a comprehensive package of benefits 
to compensate for opportunities lost while in the military, and to ease 
their transition back into civilian life. The noted economist, Peter 
Drucker, described that GI Bill by saying, ``Future historians may 
consider it the most important event of the 20th century.'' Perhaps the 
most far-reaching provision of the GI Bill was the financial assistance 
it made available for veterans to attend college. The GI Bill offered 
returning Soldiers, Sailors, Marines, and Airmen payment for tuition, 
fees, books, and supplies, along with a living stipend, at the 
educational institution of the veteran's choice. With over 7.8 million 
veterans receiving education or training, this landmark program changed 
the face of higher education, and many have said directly led to the 
creation of the American middle class.
    Although there have been several GI Bills since the original, the 
Post-9/11 GI Bill is the first to directly mirror this original 
milestone program, again offering the returning Soldiers, Sailors, 
Marines and Airmen payment for tuition, fees, books, and supplies, 
along with a living stipend, at the educational institution of the 
veteran's choice. However, one difference is the original GI Bill was 
designed to ease the transition to civilian life from a conscripted 
military force during a massive drawdown during a short period of time. 
Today's military is much different--since 1973, we have defended this 
Nation with a volunteer force, and our military forces maintain a 
consistent level of stability without massive drawdowns. Therefore, 
along with a codified purpose to ``* * * assist veterans in readjusting 
to civilian life after wartime service * * *'' the Post-9/11 GI Bill 
also is designed to have a positive effect on recruitment for the Armed 
Forces.
    The Montgomery GI Bill (MGIB) has been a cornerstone of our 
military recruiting efforts since 1985, and a major contributor to the 
success of the All-Volunteer Force. Money for future education has been 
and remains at the forefront of reasons young Americans cite for 
joining the military. There is no doubt that the Post-9/11 GI Bill will 
continue to have this impact.
    For today's hearing, you asked me to comment on the role DOD has 
played in the implementation of the Post-9/11 GI Bill, and how DOD and 
the Department of Veterans Affairs (VA) have and continue to work 
together to ensure success in the administration of this new program. 
This strong relationship between DOD and VA during the first year of 
the Post-9/11 GI Bill has clearly been a team effort benefiting 
Servicemembers, veterans, and their families. Specifically, DOD has 
three major roles in this implementation.
    The Department's first role in the successful implementation of the 
Post-9/11 GI Bill is the sharing of service data with VA. We recognize 
the road to becoming a veteran always entails passage through service 
in the military. Accurate reporting of that service is vital to the 
determination of eligibility for all post-service education benefits. 
We recognize our role in that reporting.
    Since 2003, the Department has been providing automated daily 
updates to Servicemember and veteran personnel data to VA. From the day 
the person enlists or is commissioned into the military, DOD sends a 
record to VA, and we update this information as it changes. All of this 
is stored in VA's VA and DOD Information Repository (VADIR). This is 
accomplished by means of a once-daily replication of the Defense 
Enrollment and Eligibility Reporting System (DEERS) to VADIR. With the 
implementation of the Post-9/11 GI Bill, we have included the 
identification and transfer of those family members to whom the 
Servicemembers have elected to transfer their educational benefits in 
VADIR. This provides VA with daily updates to approved Servicemember 
transfers of this benefit, and allows VA to administer payments.
    For those instances where there are questions about a 
Servicemember's or veteran's record, we have in place an effective and 
direct line of communication between the VA Regional Processing Offices 
and each of the Service Components. DOD provides VA a list of Service 
Points of Contact who are able to provide immediate responses either 
via telephone or e-mail. Through this formalized process, VA claims 
examiners have the ability to quickly get updates or clarifications.
    The second and third roles DOD plays in Post-9/11 GI Bill 
implementation both stem from two special provisions in the statute--
the ability to offer a supplemental educational benefit, commonly 
referred to as ``kickers,'' and the ability to offer eligible career 
Servicemembers the opportunity to share or transfer their earned, but 
unused, education assistance benefits to their immediate family 
members.
    ``Kickers'' as authorized in section 3316, title 38, United States 
Code, allow the Services to provide additional monthly educational 
assistance to recruit or retain members with critical skills or 
specialties and for incentivizing additional service. Following the 
model of the very effective MGIB ``College Funds'' used since the 
1980s, these ``kickers'' will assist the Services in recruiting high 
quality youth into critical and hard-to-fill military specialties, 
encourage these young men and women to serve for longer terms of 
service, and incentivize service in the Selected Reserve for those who 
separate. Unfortunately, even though ``kickers'' are authorized under 
the Post-9/11 GI Bill, the statute as written does not allow us to use 
them. The current MGIB ``College Funds'' are funded by the military 
Services, but administered and paid by VA through the use of the DOD 
Education Benefits Fund (EBF). For each ``College Fund'' offered, the 
Service makes an actuarially determined deposit into the EBF, and when 
the Servicemember or veteran uses the benefit, VA includes the 
supplemental amount in the payment to the individual and draws 
reimbursement from the EBF. To allow the Services to use Post-9/11 GI 
Bill ``kickers,'' we requested a technical amendment in our 2011 
legislative proposal package for the FY 2011 National Defense 
Authorization Bill to allow the Service to make deposits into the EBF 
and for VA to draw reimbursement from the EBF for ``kickers'' 
associated with the Post-9/11 GI Bill education benefits.
    DOD's third major role is the implementation of the provision that 
allows the Secretary of Defense, for the purpose of promoting 
recruitment and retention, to permit certain members of the Armed 
Forces to elect to transfer all or a portion of their unused 
educational entitlement to a spouse and/or child. Family members and 
quality of life groups throughout the Department have supported 
transferability of education benefits. Due to the requirement that 
members must commit to additional service to be eligible to transfer 
unused education benefits, transferability is a significant incentive 
for continued service. The transferability process is a shared 
responsibility--with DOD accepting and approving the request to 
transfer, and VA administering the transferred benefit just as they 
administer benefits for Servicemembers and Veterans.
    In implementing our responsibilities under this provision, DOD 
established a Web-based paperless process for approval and submission 
to VA, the Transferability of Educational Benefits (TEB) system. Career 
Servicemembers, either active duty or selected reservist, log into TEB, 
a secure site, with their common access card or unique ID and password. 
TEB provides them a screen that shows all family members who are 
enrolled in DEERS and eligible for military benefits. The individual 
may then select the family member(s) and enter the number of months of 
benefit each receives. This request goes to the Service for approval. 
The Service verifies the member has completed the required additional 
service commitment and approves the request. Approved requests are 
shared with VA on a nightly basis through VADIR, as earlier described. 
Transferability has been well received by our career force. To date, 
over 105,000 requests from career servicemembers have been approved--
transferring months of benefit eligibility to over 240,000 family 
members.
    DOD is committed to the success of the Post-9/11 GI Bill. From the 
beginning, we started outreach to both our internal and external 
audiences. To support recruiting, the Post-9/11 GI Bill has become an 
integral part of both Service and joint advertising. To support 
retention, we established a special page on Defense Link for the Post-
9/11 GI Bill, participated in numerous interviews and roundtables, 
published a final rule on DOD implementation in the Federal Register, 
and printed information and links to VA Post-9/11 GI Bill web sites on 
Leave and Earnings Statements for all military members. The Department 
has been working very closely with the VA Education Service since 
enactment, and will continue to work side-by-side with VA staff. The 
Post-9/11 GI Bill will have major impacts on DOD recruiting and 
retention. Recruiting and retention are the critical goals that guide 
how we implement this program. We recognize our duty to staff the All-
Volunteer Force with high-quality, motivated, and well-trained men and 
women. As we move through the 21st Century, we must continue to 
buildupon the remarkable legacy of the visionaries who crafted the 
original and preceding versions and improvements to the GI Bill. I 
thank this Committee for its continued, dedicated support to the men 
and women everywhere who currently serve and to those who have served 
our great Nation. I will be happy to answer any question you might have 
at this time.

    Chairman Akaka. Thank you very much, Mr. Clark.
    Before we move on here, I would like to ask Mr. Wilson 
whether you would like to go through some of your slides before 
we get to other statements and questions.
    Mr. Wilson. I am prepared to do that now, Mr. Chairman. We 
are flexible. One of the key things that we were asked to talk 
about was the claims examiner experience. So the slides will 
give you and the Committee an understanding of what our claims 
examiners are going through to provide the benefits to the 
students. If you are prepared for that now, I can do that.
    Chairman Akaka. Well, if this is appropriate for you, will 
you run the slides please?
    Mr. Wilson. Yes, sir.
    The VA has prepared four slides that provide an overview of 
what it takes to provide benefits to students as compared to 
what it takes to provide students under our other programs, 
most specifically the Montgomery GI Bill.
    The first slide entitled ``Benefits Payments'' is a side-
by-side comparison of the structure and needs under the 
Montgomery GI Bill versus the Post-9/11 GI Bill. Under the 
existing benefit payment structures existing prior to the Post-
9/11 GI Bill, we were looking at essentially a single monthly 
benefit payment specifically to the individual. One payment 
went out each month directly to the individual. Benefit 
payments were paid essentially according to a fixed-rate scale. 
There were some variations in that, but basically, it was a 
one-size-fits-all type of program, and it still is. All 
benefits were paid again directly to the beneficiary.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Under the Post-9/11 GI Bill, there are up to five different 
benefit payments per beneficiary, and there is no set rate. I 
think that is one of the key messages on this slide, the actual 
payment amounts that are going out will be unique to each 
individual. If two individuals receive the exact same payment 
amounts, it will be purely coincidental because their tuition 
and fee charges will be different; they will be living in 
different ZIP codes for the housing rates, et cetera.
    There is, as you are aware, lump sum payment for tuition 
and fees at the beginning of the semester. There is also a 
monthly payment that goes to the student for their housing 
allowance. There is also a single payment, the books and 
supplies stipend, that is paid at the beginning of the 
semester.
    In addition to that, if an individual is eligible for 
kickers under any of the other benefit programs, then, as 
applicable, those kickers are paid separately to the 
individual.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The next slide, entitled ``Claims Processing Comparison,'' 
gives in terms of time, clock time, what it takes to actually 
process a claim. And I would point out two numbers on this 
slide. The first, under Chapter 30 is the 15 minutes per claim. 
Chapter 30 processing of an original claim with an enrollment 
certification takes about 15 minutes. There are approximately 
16 manual steps of data entry into one system.
    Compared with the Post-9/11 GI Bill, it takes about 82 
minutes on average to process the same work, an original claim 
again with an enrollment certification. About 31 manual actions 
are required for that claim: it requires data entry, separate 
data entry, and keystroking information into four separate 
systems. Those systems do not interface.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The next two slides give more specificity. The first titled 
``Chapter 30 Claims Processing Tasks'' is a line-by-line 
breakdown of the steps that an individual needs to take to 
administer a Chapter 30 payment and whether that process is 
automated to some degree or whether it is manual to some 
degree. As you can see, the 16 steps are listed here that are 
required for the Chapter 30 process. Again, this is a summary. 
These are the details of what occurs during those 15 minutes to 
process a Montgomery GI Bill claim.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Turning to the last slide, titled ``Chapter 33 Claims 
Processing Tasks,'' you can see that there are many more steps 
to process a Chapter 30 claim, noting the 33 steps that I 
talked about. And these are the individual steps that go into 
the 82-minutes it takes to process a claim under Chapter 33. As 
you can see, some of those are automated. The majority of those 
are manual, requiring a lot of manual keystroking for our 
claims examiners.
    All total right now, we have about 1,100 individuals 
processing claims for all our benefit programs. That is for the 
Post-9/11 GI Bill as well as the other education programs we 
administer.
    I would be happy to answer any questions that you or any 
member may have, sir.
    Chairman Akaka. Thank you very much, Mr. Wilson. Let me 
begin.
    Mr. Wilson, what one change do you believe would be most 
important to make in order to streamline and simplify the 
implementation of a new program?
    Mr. Wilson. I have to limit that to one? The program itself 
is a fabulous program, and anything that I would say, I would 
not want to detract from the significance of this program.
    From the user perspective--the students, the veterans' 
perspective--what I hear a lot about is the confusion of having 
more than one GI Bill program. As you are aware, the programs 
that we had prior to the Post-9/11 GI Bill are still in 
existence, and individuals need to make those decisions on what 
the best program is for them based on their unique situations. 
It is not always the Post-9/11 GI Bill; it is not always the 
Montgomery GI Bill, but that decision process causes a lot of 
confusion for our students, and it makes it that much more 
cumbersome for us to administer.
    There are a lot of other technical issues with the payment 
structure and timing. For example, paying the tuition and fees 
and setting the tuition and fee structure at the beginning of 
the year causes us a lot of problems because at the time that 
the States are setting their tuition rates, that is the same 
time that schools are submitting enrollment information to us 
and we want to pay correct benefits. So, the crunch time that 
occurs in the fall with the establishment of rates is very 
challenging.
    Chairman Akaka. Mr. Warren, could you please describe in 
more detail what the purpose of a Web interface is and how that 
will improve the process?
    Mr. Warren. Thank you, Mr. Chairman. The processes that 
were laid out on the charts for Mr. Wilson actually reflect the 
steps that the employees are going through today for the 
interim approach. The interim approach was a manually augmented 
effort. With the time we had for implementation, that was the 
best we could do: four different tools, multiple screens.
    The long-term solution that we are working through, the 
first increment that has been deployed and is in use, takes all 
those steps and automates them. The goal is to give a single 
environment which the education employee can go through and 
things happen for them. So, the goal is to take all those steps 
and reduce the time.
    We are seeing some benefit with the first release that is 
out on the table in terms of usability and access. We still 
have the different data feeds, which is a large part of this. I 
need to look in different systems to make decisions. Those get 
pulled in as we go forward. So as we hit Increment 2 the 
majority of those manual steps should be retired, so it becomes 
automated.
    So, that is looking at it from the VBA or the VA employee's 
standpoint. There also is the intent of putting a self-service 
portal out there for the veteran to use as well, so that they 
can access information. So Increment 4, looking in the December 
timeframe or the one after, offers the ability for the veteran 
to log in and actually see where they are in the process, so 
there would be a little bit more confidence regarding when the 
check will come, if something is missing, and where it is in 
process. So hopefully, that answered your question, sir.
    Chairman Akaka. Thank you.
    Mr. Osendorf, could you explain what happened on April 1 
when VA recovered the wrong amount of emergency pay from 6,000 
veterans? Also, what steps have been taken to ensure that this 
will not happen moving forward?
    Mr. Osendorf. It was a glitch in the system that if the 
veteran was ending his entitlement in that semester, the system 
would grab the entire last check and ignore the deduction that 
was set on the account. When the VA discovered that, they 
immediately identified those particular people and got checks 
issued to them for the difference between what should have been 
withheld and what was actually withheld. That glitch has been 
fixed.
    Chairman Akaka. Thank you.
    Mr. Clark, when new recruits enter the service, what advice 
are they given about the need to make a $1,200 contribution to 
the Montgomery GI Bill?
    Mr. Clark. Thank you, Mr. Chairman. As Mr. Wilson stated, 
the Montgomery GI Bill still remains in effect even though the 
Post-9/11 GI Bill has come online. And by law, by statute, 
every new member who enters the military who is eligible is 
automatically enrolled in the Montgomery GI Bill. They must 
make a positive step to disenrolling.
    From the very beginning we put word out to all of the 
training sites to ensure that these new members realized that 
there are limitations on the ways that the Post-9/11 GI Bill 
can be used. It is limited to institutions of higher learning, 
where the Montgomery GI Bill can be used for on-the-job 
training, apprenticeship programs, vocational programs, flight 
training, and many other ways of training. So, we have advised 
them to keep in mind what their post-service options may be.
    I am pleased to report that although they have dropped off 
a little bit, traditionally for the last 10 or so years over 95 
percent of our new recruits have decided to stay enrolled in 
the Montgomery GI Bill. We are still seeing between 90 and 95 
percent of our new recruits remaining enrolled in the 
Montgomery GI Bill to retain their options. We tell them even 
if you enroll and remain enrolled in the Montgomery GI Bill, 
you can always convert over to the Post-9/11 GI Bill if that 
would be a better post-service program for you.
    Chairman Akaka. Thank you very much.
    Let me call on our Ranking Member for his statement and 
questions.

        STATEMENT OF HON. RICHARD BURR, RANKING MEMBER, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Burr. Thank you, Mr. Chairman. Aloha, and my 
apologies for my tardiness today. I would ask unanimous consent 
that my opening statement be a part of the record.
    Chairman Akaka. Your statement will be made a part of the 
record.
    [The prepared statement of Senator Burr follows:]
       Prepared Statement of Hon. Richard Burr, Ranking Member, 
                    U.S. Senator from North Carolina
    Good morning, Mr. Chairman, and thank you for calling this hearing 
to discuss the implementation of the Post-9/11 GI Bill. I also want to 
thank our witnesses for being here today. Your input will help us 
understand what worked well and where mistakes were made in standing up 
this new education program. More importantly, it will help us identify 
how veterans and their families can be better served as we move 
forward.
    This education program was created for those who have served in the 
Armed Forces since the devastating attacks on September 11, 2001. When 
these brave men and women choose to pursue their educational goals, 
their benefits need to be accurate, timely, and hassle free.
    Unfortunately, the first semester of this program did not go 
smoothly for many of these veterans. As we'll discuss today, some 
veterans experienced long delays, frustrations, and financial strains 
while waiting to receive their education benefits. And many schools had 
to find ways to accommodate veterans while waiting for VA to pay the 
bills.
    Recognizing these unacceptable delays, VA took a number of steps to 
get benefits to veterans more quickly. For instance, VA issued over 
120,000 emergency advance payments and redirected more than 150 
employees from VA's Education Call Center to processing claims. 
Although those and other measures did speed up the payments, they also 
created other problems.
    Some veterans initially had a hard time cashing VA's handwritten 
emergency checks and many emergency payments were sent to individuals 
who were not eligible to receive them. Also, there was a significant 
amount of frustration caused by the fact that calls to VA went 
unanswered.
    Other veterans ran into difficulties in paying VA back for the 
emergency advance payments. Some received two separate letters from VA, 
containing different information about the repayment process. And those 
who tried to call VA to discuss their options may have reached only a 
busy signal. On top of that, thousands of veterans initially had more 
money withheld from their April housing checks than VA had agreed to 
hold back.
    In addition, some veterans have faced problems resulting from 
incorrect payments sent to their schools. As an example, a veteran from 
my home state of North Carolina had his monthly housing allowance 
cutoff by VA in order to recoup a duplicate tuition payment made to his 
school--even though the college had already sent the money back to VA. 
Unfortunately, as we'll hear today, that was not an isolated incident.
    In light of these and other issues surrounding the implementation 
of the Post-9/11 GI Bill, I hope to have a candid discussion today 
about what went wrong, what steps have already been taken to deal with 
those problems, and, more importantly, what else can be done to improve 
the delivery of these benefits to veterans in North Carolina and across 
the country.
    In that regard, I am encouraged by signs that the current semester 
is proceeding more smoothly and I appreciate the hard work of VA 
employees in making that happen. But, even with those improvements, I 
think it is important to fully understand what stumbles occurred in 
standing up this program. That way VA, Congress, and other stakeholders 
have the opportunity to learn from these experiences and try to ensure 
that veterans will not endure similar problems in the future.
    On a final note, Mr. Chairman, I want to mention how pleased I am 
to be working with you on a draft bill to make technical changes to the 
Post-9/11 GI Bill. I believe that draft will be a useful starting point 
in discussing how we may be able to improve this program for our 
Nation's veterans and their families.

    Thank you again, Mr. Chairman. I yield back.

    Senator Burr. Thank you. I would point out to the Chair 
that the last paragraph of my opening statement praises his 
willingness to work with me as we try to draft a technical 
corrections bill, and I thank you, Mr. Chairman, for that.
    After the February hearing on the progress--or excuse me; 
it was actually on the budget request--I sent a number of post-
hearing questions to the VA. Since then, I have received 
answers to a small handful of those questions.
    Now, that was February, March, April, 60 days. So I am 
going to take the opportunity today to try to get some answers 
to some questions. OK? And if you would like to continue not to 
provide answers to them, then I am going to make a request to 
the Chairman that he peruse my questions to see if this should 
not be a request that we make from the Committee because I 
think that these are important questions, hence, important 
answers for us to do the proper oversight of any agency or any 
program.
    So, how many individuals received advance payments and were 
later determined not to be eligible to receive those payments? 
And I will open it up to whomever.
    Mr. Wilson. I will do the best I can to take a shot at 
that. First of all, let me apologize for the responses not 
being provided to you. That is not the way we like to do 
business, and I will follow up when I get back to the office.

    [Responses were not received within the Committee's 
timeframe for publication.]

    We have preliminary data, but the core issue that we are 
looking at right now is validating the data. The Inspector 
General, VA Inspector General Office, is looking at the Post-9/
11 GI Bill payments, including the advance payments, and once 
they have validated the information, then we will be able to 
have something solid that we can talk about with a level of 
confidence.
    Senator Burr. How much in total was disbursed to 
individuals who were not entitled to advance payments?
    Mr. Wilson. I would not know the answer to that. We need 
that information from the Inspector General before we can 
determine how many individuals and then by extension how much 
money that would have been.

    [Responses were not received within the Committee's 
timeframe for publication.]

    Senator Burr. So would it be safe to say that you also 
would not know how much has been recouped?
    Mr. Osendorf. I have got total recoupment: $75 million on 
all advance payments that were issued, but I do not have any 
information as to whether they were eligible or ineligible in 
my system.
    Senator Burr. So what other advance payments would we have 
recovered if they were not entitled? Why would we have 
recovered other dollars? We overpaid?
    Mr. Wilson. For every individual that received an advance 
payment, when their claim was processed the total amount that 
was due, based on their claim situation, was paid. So they were 
paid $3,000 in addition to the amount that they were entitled 
to, based on their enrollment status. So our process for 
recouping the payments is to recoup that $3,000 that they were 
paid beyond what they were entitled to under the program.
    Senator Burr. But at $75 million worth of recouped money, 
we still do not know whether we have recovered everybody's 
$3,000 advance.
    Is that an accurate statement?
    Mr. Osendorf. We have not collected everybody's $3,000 
advance.
    Senator Burr. So if, in fact, we intended to overpay by 
$3,000, the total value of overpayments of $3,000 made would be 
what?
    Mr. Osendorf. That's $355.5 million in total advance 
payments made.
    Senator Burr. Can you break that down for me for 
individuals? My math is not real good.
    Mr. Osendorf. I believe it is 121,095.
    Senator Burr. OK. So we do not know of that population who 
was ineligible to receive a payment?
    Mr. Wilson. That is correct.
    Senator Burr. Does VA intend to provide advance payments in 
the future?
    Mr. Wilson. The short answer to that is no. We did not like 
going down the advance payment road to begin with, but we felt 
it was something that we had to do to make sure our students 
were receiving the money they needed to stay in school.
    Since we worked our way through the fall enrollment in 
August, our ability to process claims has greatly increased. We 
believe we have the resources in place to continue to provide 
timely payments. At the beginning of the fall semester, we were 
processing, and had the capability of processing, about 1,800 
claims a day. Opening into the spring semester, it was about 
7,000 a day which, obviously, our timeliness is that much 
better. We expect to be able to maintain that level of 
performance.
    Senator Burr. If somebody does not repay that advance 
payment that is owed back, what recourse do you have?
    Mr. Osendorf. They will go through the regular VA 
collection process. They will get a series of letters. They 
will be referred to a credit reporting agency. They will be 
referred to the Treasury Offset Program for----
    Senator Burr. Will their tuition payment for next year go 
out?
    Mr. Osendorf. It should be offset against the overpayment.
    Senator Burr. Should be or will be?
    Mr. Osendorf. It will be. The system is automatically 
designed to do that.
    Senator Burr. During the Fiscal Year 2011, how many full-
time individuals will be assigned to the Education Call Center?
    Mr. Wilson. I will have to get those numbers for the 
record, Senator. I am not aware of the exact numbers. What I 
can tell you is we do not expect a decline. We have no plan to 
decline the number or trickle down the number of people that 
are in the call center. It is approximately 200, but I will get 
the exact number.
    Senator Burr. Does the 2011 budget request include funding 
for sufficient education claims processing staff so that the 
Education Call Center employees will not be redirected to 
claims processing?
    Mr. Wilson. I do not have any direct information on the 
2011 budget. I would be happy to provide those numbers for the 
record.

    [Responses were not received within the Committee's 
timeframe for publication.]

    Senator Burr. I thank you.
    Mr. Chairman, my time has expired, but I would ask the 
Chair to consider talking with me about a formal Committee 
request of the questions. I submitted 300 questions to the 
Veterans Administration. I got 111 responses after well over 60 
days. As you can tell from some of these, there are budgetary 
issues. They are issues that will affect future payments of 
eligible individuals. There may be individuals that lack an 
understanding that they were overpaid.
    Until we get answers to questions, we do not know the next 
questions to ask. Therefore, we are going to have individuals 
that are in precarious situations. And if, in fact, we are 
going to go through a technical corrections bill, we ought to 
figure out what is broken, and that is why we need the answers 
to the questions. I look forward to working with the Chair and 
thank the Chair.
    Chairman Akaka. Thank you.
    Senator Tester.
    Senator Tester. Yes, thank you, Mr. Chairman. I appreciate 
it, and I appreciate the panels being here.
    The GI Bill that we passed is a major accomplishment. I 
think you folks know that, and you have pointed it out in your 
testimony. Making sure that we have the education assets 
available to our veterans returning from the war zone so they 
can integrate back into civilian life and be a success is as 
equally important in my mind as the health care benefits that 
they are offered and living up to that obligation.
    But I have my concerns. I have talked to students and 
school personnel about the program, the new GI Bill. Their top 
complaint is communication. They do not believe that the VA is 
doing a good enough job listening. Part of the problem in 
Montana is there is no VA employee on the ground to deal with 
this. I have requested one several times, in fact. We have been 
turned down. We have been told that they need to go to VA 
personnel in St. Louis because that is who can handle that 
problem. To be blunt, it ain't working.
    For example, Montana State University has seen one 
certifying officer in the last year. I think it is fair to say 
that many of the tribal colleges where you have high, high, 
high enrollment in the Armed Services and a large number of 
veterans, have not had a visit from the VA, period, since this 
bill has been started.
    So we have some problems there. I think the bottom line is 
this, we need to get some VA personnel on the ground listening 
to Montanans about the concerns they have with implementation 
of this program.
    Do you have any comment in regard to that?
    Mr. Wilson. I would agree conceptually with what the school 
certifying officials have been raising concerns about.
    Senator Tester. OK.
    Mr. Wilson. As you are aware, we were in a situation in the 
fall that we did not like being in. We had an all-hands-on-deck 
effort. We had our education liaison representatives--the 
school's key VA contact--working claims, processing claims. We 
had a lot of our call center folks processing claims as well. 
We did not like doing that, but it is a tough decision we made 
to get the checks out the door.
    Senator Tester. How about moving forward?
    Mr. Wilson. Yes.
    Senator Tester. The past is done. We need to move forward.
    Mr. Wilson. Yes, and we have----
    Senator Tester. Can I get any sort of commitment we are 
going to get some folks on the ground, additional folks? And I 
am not just going to say Montana. I am going to say rural areas 
because I think they are all in the same boat.
    Mr. Wilson. I will be happy to take that message back and 
have discussions with the operational folks. I cannot provide 
you an answer on the here and now.
    Senator Tester. I appreciate that, and we will probably be 
approaching it from our end again, too. I think it is 
critically important. We have got a high percentage of vets 
that live in rural America. There are geographic issues that 
fall into a State like Montana and other rural areas that need 
to be addressed, and if we do not address them, people cannot 
take full advantage of the benefits that they have earned from 
being in the service.
    Mr. Warren, you had talked about the systems interface. 
Right now, it is manual. Over the long term, it is going to be 
automated. When is the automation going to occur?
    Mr. Warren. The automation. So the first phase has rolled 
out, and there is some automation in it for a limited number.
    Senator Tester. Not much by the charts.
    Mr. Warren. That actual chart shows just the interim. It 
does not show what functionality or capability came with 
Release 1 because----
    Senator Tester. All right. So when is the first interim 
going to happen?
    Mr. Warren. The first full set of capability is in that 
June 30 timeframe. So I would----
    Senator Tester. This year?
    Mr. Warren. This year, so----
    Senator Tester. And how many of those will have checkmarks 
in the automated column then?
    Mr. Warren. I would say it is probably close to 80 percent.
    Senator Tester. Eighty percent. So, 80 percent of those on 
that list that we are looking at right there, that says 
``Chapter 33 Claims Processing Tasks,'' will be automated.
    So how much do you anticipate that will cut down on the 
time, the 82 minutes it takes to process the claims?
    Mr. Warren. I would like to confirm the 80 percent for the 
record.
    [The information requested during the hearing follows:]
 Response to Request Arising During the Hearing by Hon. Jon Tester to 
Stephen W. Warren, Principal Deputy Assistant Secretary for Information 
          and Technology, U.S. Department of Veterans Affairs
    For the record the Mr. Warren offers the following updates 
regarding systems interface. These percentages represent a steady 
increase and vast improvement in the system:

    <bullet> Release 1 deployed 5%
    <bullet> Release 2, to perform at 20% on or before June 30, 2010
    <bullet> Release 3, will operate at almost 50% on or before 
September 30, 2010
    <bullet> Release 4, to perform at 80% on or before December 30, 
2010

    Thank you for the opportunity for confirmation and I am happy to 
provide additional information or content upon request.

    Senator Tester. That is fine.
    Mr. Warren. I will go back and do that.
    The improvement we are seeing right now for a clean claim, 
we are looking at 15 and 20 minutes based upon whether it is a 
certificate of eligibility or processing. So it is a reduction 
of about 15 to 20 percent. Now, that is a clock time for a 
simple one.
    Senator Tester. OK.
    Mr. Warren. For the average one, to be honest, we actually 
need to see the steps that the VCE goes through as they process 
it. But the expectation is, we are at 15 to 20, we are moving 
to 50 or more. But again, until it is actually on the ground 
and the user----
    Senator Tester. So you know how it works.
    When is it going to be 100 percent automated or will it 
ever be 100 percent automated?
    Mr. Warren. The majority of capability from the VA employee 
standpoint should be automated by December.
    Senator Tester. This year?
    Mr. Warren. This year. So again----
    Senator Tester. And will that cut the time for processing 
down to 15 minutes or less, like the old program? I mean, you 
must have goals. I mean, automated processing should save you 
something.
    Mr. Warren. Yes, the goal is to reduce it down to a 
reasonable amount of time. I think it is difficult to compare 
something which is a single thing to multiple decisions that 
need to be made. But with bringing automation on board, yes, it 
should bring it down to something comparable.
    Senator Tester. OK. That is fine.
    Mr. Wilson. If I could add to that, please.
    Senator Tester. Sure, absolutely.
    Mr. Wilson. In terms of making sure that we are clear on 
the expectations for the June release and the ultimate full 
automation, what June will do, as Mr. Warren indicated in his 
testimony, will get us off our current environment.
    Senator Tester. Yes.
    Mr. Wilson. But in June, there will still be a lot of 
manual work from our claims examiners.
    Senator Tester. Sure. But less than you have now.
    Mr. Wilson. Pardon me?
    Senator Tester. But less than you have now.
    Mr. Wilson. There will be probably about 10 to 15 percent 
less.
    Senator Tester. OK.
    Mr. Wilson. But the manual process as we have it right now 
will largely be intact in June. So we will still be doing this 
by brute force largely in June. Now, the next steps that will 
occur will be moving into automation. It will be pre-population 
of data in Release 3. It will be integration of the existing 
data feeds. And what that will ultimately do--our goal is to 
process claims without human intervention.
    Senator Tester. Perfect.
    Mr. Wilson. And if that happens, then that gets us away 
from the whole issue of timeliness because a human being will 
not need to touch it and slow it down. Ultimately, that is our 
goal.
    Senator Tester. I am with you. I am just curious what the 
timeframe is to reach that goal, what the expectations are, 
because ultimately at the end, it will cut down administrative 
costs. We can flow more of these dollars to the veterans on the 
ground. That is the bottom line, plus they will get better 
service.
    Mr. Wilson. We will go into next fall largely a manual 
process, and we have made the commitment to keep the people on 
board. The process is in place right now, so that we can at 
least maintain the level of performance we had in the spring.
    Senator Tester. Thank you.
    I have run way over. I have more questions. I hope to do a 
second round, Mr. Chairman.
    Chairman Akaka. We will have a second round.
    Thank you, Senator Tester.
    Senator Brown, you have questions?

                STATEMENT OF HON. SCOTT BROWN, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Brown of Massachusetts. Thank you, Mr. Chairman. I 
appreciate the opportunity to be here and on this Committee.
    I am new here, but, obviously, in the military, I 
understand the issues pretty succinctly back home from dealing 
with a lot of VA and education issues in Massachusetts for 
Guard and Reservists. I know this does not apply, per se, 
obviously to that situation.
    But one of the things that I have been wondering is do you 
have the tools and resources to do your job and do it more 
effectively and more efficiently?
    Mr. Wilson. We believe we have the tools and the resources 
in place now to continue to provide services commensurate with 
what we did in the spring, which obviously was much better than 
the fall. In terms of the next step for that, in terms of 
effectiveness, we are funded for the full development of the IT 
that we are in the process of rolling out right now. And I 
would ask Mr. Warren to correct me if you believe this is 
incorrect, but I believe we have the funding to improve that 
effectiveness and productivity.
    Senator Brown of Massachusetts. And one of the things that 
has been brought to my attention, which I have always kind of 
been concerned with, is that the VHA rates were announced in 
mid-December for the upcoming year and they were implemented by 
the January 15 paycheck. And the veterans attending college on 
the Post-9/11 GI Bill should have received the same increase at 
the same time. For example, somebody going to UMass Boston 
would have received an extra $261 plus in January. It is 
obviously April 21 now, and that veteran has not seen that 
increase and nor has anyone else.
    Now, I understand the VA announced this past Monday to fix 
the plan, fix the problem. But that veteran still will not see 
the additional money until July. So I am wondering, number 1, 
how did this happen? Number 2, are those accurate dates? And, 
number 3, how are you going to ensure it does not happen again?
    Mr. Wilson. I will talk about it from probably a higher 
level and ask Mr. Warren to get into any IT details.
    The interim solution that we had talked about, the method 
in which we are paying claims right now in the timeframe we 
were given, we had the capability of creating a single rate 
table. And the tool that we are using right now only has the 
capability for the 2009 rates. There is no relationship and no 
ability to create a relationship to more than one rate.
    What will occur with our Release 2 which we have been 
talking about that is scheduled for June 30, is that 
functionality. It provides that relationship to more than one 
rate table, and that is what would give us the ability of 
paying the multiple rates, 2009 and 2010 rates.
    Mr. Warren. And the July timeframe, to your point, bringing 
the tool on place allows us to simplify what the VA employee 
has to go through. Now, to go back and do the recalculation, we 
need to convert all of the data sets for all of the folks that 
received a benefit. So the July timeframe is to give us the 
opportunity--once the new system is online that holds multiple 
rates in it, we would take all the previous payments and all 
the previous files and convert them into the new system, so 
then we can calculate.
    Senator Brown of Massachusetts. Right. So do you think it 
is going to be resolved by July or is this something we are 
going to systemically have a problem with every year?
    Mr. Warren. The capability will come online in this tool 
such that it has the ability to change rates as we go forward. 
So the tool that we are deploying is something for the future 
that allows us the ability to work with multiple rates. It is 
able to actually automate this whole process based on rules. 
What we had before was an augmented manual process. With the 
time that was available to put it in place, we built the tools 
we could.
    Senator Brown of Massachusetts. I understand. So how do you 
address the back pay issue? Is there going to be an issue of 
people receiving monies that were due? How are you going to 
bring them current?
    Mr. Wilson. There will be no issue of individuals receiving 
the payment. They will be made whole when we have that 
capability to process those claims. Right now, we would be 
processing those claims manually after June 30. We are looking 
at methods in which we can try to automate that so that we do 
not have a negative impact on the timeliness of our other 
processing work or a negative impact on our schedule for 
rolling out all of the IT tools we need.
    Senator Brown of Massachusetts. And what about dealing with 
modifications to offer apprenticeship programs, technical 
training, flight training, prep courses for college admission? 
Is there any plan to do that, and, if so, when and how?
    Mr. Wilson. There is no plans from the perspective of we 
are administering the program as it is laid out in the statute 
right now. Mr. Warren can probably speak to that better than I, 
but my understanding of the IT system is that it is developed 
in an architecture that gives us a wide degree of flexibility. 
So, as things do change, we have the ability to quickly account 
for those changes and pay benefits, continue to pay benefits 
timely without a negative impact on service.
    Senator Brown of Massachusetts. One final question, Mr. 
Chairman, and then I will be done. I appreciate your 
indulgence.
    As a Guardsman presently serving, and also many of my 
brothers and sisters who serve, when they are activated under 
Title 32, they are not eligible for the Post-9/11 GI Bill, as 
you know. If, in fact, through our efforts we make any changes 
to that, are you able to absorb those additional 32,000 or 
whatever amount, that may potentially be eligible?
    Are you able to handle that type of influx?
    Mr. Wilson. Subject to the IT functionality, yes.
    Senator Brown of Massachusetts. Great.
    Mr. Wilson. We currently are able, as I believe you are 
aware, to pay benefits to those individuals under the 
Montgomery GI Bill on our other programs.
    Senator Brown of Massachusetts. Correct.
    Thank you, Mr. Chairman.
    Chairman Akaka. Thank you very much, Senator Brown.
    Senator Burris, for your questions, please proceed.

              STATEMENT OF HON. ROLAND W. BURRIS, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Burris. Thank you, Mr. Chairman, and good morning, 
gentlemen. I just have a few quick questions. I hope we can 
deal with that so that I can then ask some more.
    Now, are payments, any payments made directly to the 
schools? How are the payments made?
    Mr. Wilson. The payments are made through our current 
fiscal transaction process, and they go directly through EFT, 
electronic funds transfer, assuming the school has an EFT 
account, into their bank account that they indicated to us.
    Senator Burris. To the school or to the student?
    Mr. Wilson. To the school. The tuition and fee payments go 
directly to the school. The housing payments and book payments 
go directly to the student.
    Senator Burris. Housing and book payment. How do you do 
verification? If I tell you my rent is $500 a month and really 
rent is $300 a month, how do you do the verification of that?
    Mr. Wilson. We do not verify the actual payment amounts. 
The statute allows us to pay a flat rate that is equal to the 
DOD basic allowance for housing rate for an E-5 with 
dependents.
    Senator Burris. I thought you said it was based on 
individuals, so each individual might have a different 
situation. So now you are saying that it is a flat rate for 
their rent that they pay.
    Mr. Wilson. No. What I am referring to, Senator, is the 
entire cadre of payments that go out to an individual will be 
unique to them, taking into account the housing allowance that 
they receive directly.
    Senator Burris. So how do you measure the housing 
allowance?
    Mr. Wilson. That payment goes directly to them. The school 
is paid the tuition and fee amount on the veteran's behalf 
based on the actual charges from the institution.
    Senator Burris. Mr. Wilson, if I lived in Chicago and I was 
going to Loyola or DePaul and I am a veteran, my rent would be 
higher than if I lived in Carbondale, IL, and went to Southern 
Illinois University. So please give me a quick overview of how 
you verify the information I put on my application? How do you 
determine that that stipend will be comparable to my living 
standards?
    Mr. Wilson. We pay the stipend based on the zip code of the 
school. We know that school, and we have a relationship with 
the school certifying official that verifies attendance for us.
    Senator Burris. OK. But you cannot verify what the veteran 
has put on his application that he is paying in rent.
    Mr. Wilson. No, we are not required to do that under the 
statute.
    Senator Burris. OK. So how do you determine the flat 
amount?
    Mr. Wilson. We determine the flat amount based on the zip 
code of the school that the individual is attending and its 
relationship to DOD's basic allowance for housing rates.
    Senator Burris. OK. That was more complicated than I 
anticipated. I thought I could get through that quickly.
    You said that there are 1,100 processors working on claims. 
Where are they located; here in Washington or throughout the 
country?
    Mr. Wilson. They are at four locations across the country, 
Buffalo, NY; Atlanta, GA; St. Louis, MO, and Muskogee, OK. We 
also have individuals from some of our other regional offices 
assisting currently.
    Senator Burris. I was talking to General Shinseki and he 
told me how you got inundated with all of these applications, 
which just overloaded the system. So, there are four processing 
locations where all this is happening.
    If I was going to Southern Illinois University in 
Carbondale, where would I file my application if I was a 
veteran?
    Mr. Wilson. I believe for Illinois it would be St. Louis, 
but I would have to get that information for the record.
    Senator Burris. And now we are a suburb of St. Louis, 
right?
    Mr. Wilson. Yes.
    Senator Burris. OK. Just a little joke. Smile, Mr. Wilson.
    Are there any type of verifications that you folks do for 
students? I know with a lot of these Pell grants and other 
grants to go to universities and colleges, there is a lot of 
fraud going on.
    Who is doing some of the verification? Is it all left up to 
the Inspector General or how are we doing any verification? I 
guarantee you that there is going to be a percentage of 
individuals who maybe are not even a veteran, but they claim to 
be a veteran, that try to game the system.
    Are we prepared for that?
    Mr. Wilson. We are. In terms of the veteran's status, we 
receive real-time data directly from DOD, and we validate the 
person's veteran status based on that. That is the first thing 
we do. Number 2, we do not pay any benefits until a school 
certifying official located at that specific schools reports to 
us that that student is enrolled. They give us the training 
time. They give us the exact tuition and fee amounts. So the 
school independently reports those numbers.
    Now, in terms of oversight for that mechanism, there are 
two ways of doing that. VA has individuals that go out to 
schools and we actually verify the information. We look at 
their records. We verify the information they report to us. In 
addition to that, the State Approving Agencies that have been 
under contract to VA since 1947 at the State level do that same 
type of work. They are out at schools looking at their records 
as well.
    Senator Burris. Very good.
    Now, Mr. Wilson, as you know, a major problem this year 
stemmed from tying living expenses to certification of 
enrollment and tuition payments. How can we ensure that a 
similar situation will not occur next year?
    Mr. Wilson. The core method that we have in place to ensure 
that that does not happen again is our processing capability 
that we currently have. We went into the spring being able to 
process 7,000 claims a day, which is far in excess of what we 
went into the fall with: being able to process 1,800 claims a 
day.
    So that capacity to keep up with the workload coming in at 
those peak periods is there. That is at the core of the process 
we have in place. In addition, as we receive additional 
functionality, as more IT functionality is delivered, that 
builds on that capability.
    Senator Burris. Mr. Chairman, may I have the liberty to ask 
one more question because I will have to leave to preside. I 
just want to have one more question.
    Is it possible?
    Chairman Akaka. Fine.
    Senator Burris. Thank you, Mr. Chairman.
    Mr. Wilson, my office has received reports that the 
overworked VRE and the counselors are pushing veterans to the 
GI Bill despite the fact that many of the service-disabled 
veterans might need the supportive services that VRE provides.
    Mr. Wilson, are you aware of the problems? And if so, what 
is being done about it?
    Mr. Wilson. All of the voc rehab counselors across the 
country have been trained in great detail on VA's education 
programs, which includes the Post-9/11 GI Bill. As an 
individual indicates that he or she wants to pursue training in 
the voc rehab program, or Chapter 31 program, the counselors 
sit down with those individuals and they work one-on-one to 
determine what is the best program. They look at things both 
from a financial basis as well as a non-financial basis, taking 
into account their disabilities, such things as their length of 
delimiting date for their GI Bill benefits, things like that. 
So it is decided on a case-by-case basis. I am not aware of any 
mechanisms that exist to try to funnel people into any specific 
program.
    Senator Burris. Thank you, Mr. Chairman. I appreciate the 
opportunity.
    Thank you very much, Mr. Wilson.
    Chairman Akaka. Thank you very much, Senator Burris.
    Now, Senator Isakson, please proceed with your questions.

               STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Thank you, Mr. Chairman.
    Mr. Wilson, isn't it true that on the question that Senator 
Burris asked regarding housing that the Veterans Administration 
establishes a housing allowance rate per zip code around the 
country, and then the solider is reimbursed or the veteran is 
reimbursed based on that assignment? If the housing they are 
renting is actually more, they pay the difference; if it is 
less, the money is theirs.
    Is that not correct?
    Mr. Wilson. Yes, that is correct.
    Senator Isakson. Which is the same as most per diem 
allowances in terms of the government system.
    Explain the Yellow Ribbon program to me.
    Mr. Wilson. The Yellow Ribbon program is a unique portion 
of the Post-9/11 GI Bill. At its core, the GI Bill allows us to 
pay the maximum in-state undergraduate costs at any public 
institution in each State. So at its core, anybody pursuing an 
undergraduate degree at a public institution is covered fully. 
We pay for that.
    Now, if an individual is in a situation where they have 
expenses that exceed that, that is where the Yellow Ribbon 
kicks in. Situations that may exceed that would be: an 
individual pursuing training at a private school, for example; 
or they are pursuing graduate training where the charges are 
higher than undergraduate charges; or they are being charged 
out-of-state tuition.
    In those types of situations, the Yellow Ribbon agreement 
allows the VA to enter into agreements with specific schools 
uniquely to each school. And under those agreements, the school 
can agree to waive up to the half of the difference between 
their charges and what the State maximum is, and VA will match 
the amount that the State offsets. So if a school wanted to 
participate fully in the Yellow Ribbon program, any student's 
charges would be fully covered at that private institution as 
well.
    Senator Isakson. Explain where there would be an 
application of an out-of-state tuition.
    Mr. Wilson. Each State has different policies, procedures, 
local regulations on----
    Senator Isakson. The time of residence then, they may not 
have been there long enough to qualify. OK.
    Mr. Wilson. That is exactly the type of thing, yes.
    Senator Isakson. And in your Yellow Ribbon agreement, let's 
just take a situation where a university has a $10,000 
differential for out-of-state tuition. It allows them to waive 
up to $5,000 and the VA to match it.
    Is that what I understand?
    Mr. Wilson. Yes, that is correct.
    Senator Isakson. So if a veteran did not reside in Georgia 
long enough to qualify for in-state tuition at the University 
of Georgia, and if that out-of-state tuition was $10,000, you 
would reimburse up to half of that out-of-state tuition?
    Mr. Wilson. That is correct.
    Senator Isakson. But you do that through a negotiated 
contract with the university.
    Mr. Wilson. Yes.
    Senator Wilson. And I would assume most universities are 
cooperative in negotiating that; is that correct?
    Mr. Wilson. We have about 1,300 Yellow Ribbon agreements 
across the country at about 1,100 schools.
    Senator Isakson. OK. With regard to States where there is a 
tuition benefit that a veteran may earn, Georgia has the HOPE 
Scholarship program; I know California has free tuition 
programs, do you offset benefits based on that State benefit?
    Mr. Wilson. It will depend on the mechanics of how that 
program is administered in the State. Broadly speaking, yes. 
What we pay under the Post-9/11 GI Bill is actual charges. Now, 
whether or not those charges would exist in a State, that would 
impact what we would pay, how much we would pay under the Post-
9/11 GI Bill. So those type of programs, if there is no 
charges, then we make no payments.
    Senator Isakson. So, unlike the assignment of a value for 
housing per zip code, in the case of tuition, you would 
actually verify whether or not there is a benefit the veteran 
is receiving, and then only reimburse the non-benefit amount?
    Mr. Wilson. That is correct. The school certifies to us the 
amount of the charges.
    Senator Isakson. Thank you very much to all of you.
    Thank you, Mr. Chairman.
    Chairman Akaka. Thank you very much, Senator Isakson.
    Senator Begich, your questions, please.

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you very much, Mr. Chairman.
    I have a few, but first I apologize for being late, so let 
me ask. I always give my colleague next to me a lot of 
harassment. He probably took my binder, asked all my questions. 
He did. See? But let me ask first a general question.
    Do you or are you in the process of surveying the students 
who have accessed the Post-9/11 Bill in getting some sort of 
response on issues that they say are problems or positive 
things? Can anyone answer that?
    Mr. Wilson. We are constantly working with our 
stakeholders, most specifically our students. We receive 
information on their concerns several ways. First of all, they 
can contact us directly and do that. We also have our existing 
relationships with the school certifying officials at the 
schools, with the State Approving Agencies in the States, as 
well as services organizations.
    For example, the Student Veterans of America is an 
organization that has groups on over 150 campuses across the 
country. We have regular interchanges with them, and we receive 
information.
    Senator Begich. But do you do like a large business would 
do? When I go get service on my car, I get a customer service 
survey to ask me how did it work, what went on, what were the 
problems you had. Do you have a system like that? And the 
reason I ask you that is it gets you direct information from 
the consumer rather than through stakeholders and through other 
means.
    Is that something that you would be interested in doing or 
do you do in any form?
    Mr. Wilson. If I could answer that from a little bit 
broader perspective first and then answer that specifically.
    Senator Begich. OK.
    Mr. Wilson. We have a very aggressive outreach mechanism in 
place. It goes back to the time when an individual was in the 
service. We do four direct mailings to an individual during 
their active duty, one 6 months into service, 2 years into 
service, 6 months prior to separation and at separation. So we 
give them redundancy in the information. That is a push of 
information.
    We also work very hard----
    Senator Begich. If I can interrupt for a second, that is to 
get them connected to know what those benefits are.
    Mr. Wilson. That is correct. We have also worked very 
aggressively over the spring on a specific outreach campaign to 
make sure we are hitting those issues hard again. We provided 
information through print media, radio stations, posters, et 
cetera, directly to campuses, to make sure individuals have 
information on what they can help us with in terms of 
administering the program effectively.
    Now, in terms of specifically a customer satisfaction 
survey, we are in the process of doing that. We are close to 
having the questions finalized, and we will be rolling that 
out.
    Senator Begich. Excellent, great. In that vein, do you--to 
step once more on what you are talking about with the 
stakeholders, with universities--and I am going to walk through 
just a couple concerns from our University of Alaska because 
they have some issues--do you have a process when a university 
has issues? What do you do? Walk me through that just so I 
understand it.
    The university says look, we are not getting this kind of 
response from the VA. Several of these items that they have 
listed to me, they may get notification. For example, the 
consumer gets notified that there is an overpayment and so then 
they have to--but the university may have already sent the 
overpayment back to the VA.
    So how do you--walk me through that first step of what you 
do with a university or a college.
    Mr. Wilson. There are actually several mechanisms in which 
this could be addressed. At its core, the first contact for a 
school that has a question like this is their education liaison 
representative for that State. As was indicated, not 
necessarily in that State, but we do have education liaison 
representatives, at least one assigned to each State. So that 
is the first place where that communication would occur.
    Additionally, depending on the status, if there is 
currently an overpayment, et cetera, our processing office 
staffs work with Mr. Osendorf's staff to work out the 
relationship between any debt that may exist and any payment 
that is due or not due from the schools.
    If I could add one other thing. As mentioned already, we 
work with the school certifying officials as well. They have a 
professional organization, the National Association of Veteran 
Program Administrators that we have a strong relationship with, 
and we work with them specifically on those type of issues as 
well.
    Senator Begich. Last question because my time is just about 
up.
    If there are overpayments to students, and also the 
emergency payment that was done, the $3,000, if there are 
hardships created by repayment or recalculation, how is the VA 
working through that?
    Mr. Osendorf. The individual will normally contact the Debt 
Management Center to discuss the debt. We will work with him. 
We normally try to recoup a payment within a 1-year timeframe.
    Senator Begich. OK.
    Mr. Osendorf. We can go up to three years. If it is going 
to go over a year, we ask them to fill out a financial status 
report and indicate what the issues are.
    Senator Begich. But you will work with them on the 
overpayment so it is not an immediate recoup.
    Mr. Osendorf. Most definitely.
    Senator Begich. Ideally the student should not have spent 
it, but they probably did not realize that they had that 
payment. So your job then is, again, collect in 1 year, or if 
after 1 year, up to 3 years, but that requires kind of their 
financial capacity.
    Is that what you are trying to judge there?
    Mr. Osendorf. Correct, correct.
    Senator Begich. OK. I will end on this, how would you judge 
those kind of complaints or concerns that people have in 
regards to that issue? In other words, because of the $3,000 
payment, is that kind of bumped up or is it pretty much not an 
issue?
    Mr. Osendorf. You have seen a spike because of the volume 
of advanced payments, but I think once we get through the 
spring semester into the fall, it is going to smooth out.
    Senator Begich. OK. Let me end there. Thank you, Mr. 
Chairman.
    Chairman Akaka. Thank you very much, Senator Begich.
    We will begin our second round now.
    Mr. Wilson, the slides up on the screen show more than 30 
steps that would be eliminated by the automated system in 
Release 1. But Release 1 is only available in one of the 
processing centers.
    When will it be released to the other three?
    Mr. Wilson. The rollout for Release 1 was modified to be a 
limited release because in the timeframe, to stay on schedule, 
we simply did not have the capacity of putting in all the 
functionality that we could. The group of claims that we can 
process under Release 1 are only original claims. So those 
individuals that we are already paying benefits to, we will not 
be able to move them into this new system until Release 2 when 
the data conversion occurs for that.
    The initial release--there is a total of 16 people across 
the country that are using the system. There is a group that 
was first rolled out in Muskogee, and we are also rolling it 
out to our other offices, again, on a limited basis, on a 
defined basis, so that each of our four offices do get 
experience working the new tool. But again, at each of the 
offices it will only be original Chapter 33 claims that they 
would be working. But it is going to be rolled out by all four 
stations.
    Chairman Akaka. To build on what Senator Burris was saying, 
and to clarify, the VA is making three payments on behalf of 
each student, one for a living allowance monthly to the 
veteran, another for books annually, and a third to the school 
for tuition.
    How many schools are receiving these payments?
    Mr. Wilson. How many schools? It is at least 247,000 
schools because that is the number of Chapter 33 students that 
we are paying. Now, we do know that there are about 40,000 
students who are attending more than one school. So in addition 
to that 247,000 schools that we know we are paying, you can add 
another 40,000 for the second school that some of those 
students are attending.
    Chairman Akaka. Mr. Clark, does the Department have a view 
on the effectiveness of transferability as a retention tool; 
that is, have any evaluations been undertaken or is any of that 
planned?
    Mr. Clark. Mr. Chairman, the newness of the program has not 
allowed an evaluation yet, although we do plan on continually 
evaluating it. However, anecdotally, we do know that this 
provision allowing our career servicemembers to share their 
benefits with those who they love is very popular. The numbers 
that I had in my opening statement, over 105,000 career 
servicemembers have been approved, and they have shared that 
with over 240,000 of their immediate family members, many of 
them already in school. I hear almost daily from someone 
talking about how wonderful this is and how much it helped them 
make a decision to continue on.
    So, we will be continually monitoring this and we will do 
formal evaluations after we have time to what we call ``police 
up'' the battlefield, get over the initial rush and start 
seeing how the program affects the retention of our career 
members.
    Chairman Akaka. Well, thank you. I may have further 
questions, but let me pass it on to Senator Tester for his 
questions.
    Senator Tester. Thank you, Mr. Chairman. I very much 
appreciate it.
    The overpayment issue is something that has been questioned 
by many people on this Committee. I am going to give you an 
example of what is happening in Montana. I know you guys have 
expressed different things happening. Maybe a different thing 
happens in the region you live in. But let me give you an 
example.
    The VA strategy, as it applies to a university like Montana 
State University if there is an overpayment for tuition and 
fees, is to tell the university to keep it, put it in the 
veteran's account, and the VA will put the veteran into 
overpayment status. There are some problems with being in 
overpayment status. Then VA will tell the veteran that he is in 
overpayment status via letter. I think this is unacceptable 
because it puts the veteran in an overpayment status that I do 
not think is right.
    Can you tell me why this is done, if it is done with 
regularity, and if there are any plans to change the way this 
is done?
    Mr. Wilson. I have limited information, but I will provide 
what I do have.
    Senator Tester. OK.
    Mr. Wilson. The mechanism we have set up took into account 
the best mechanism we knew at the time, making assumptions 
early on, on how these types of issues would be addressed. We 
recognize that it is not a perfect situation, and it is complex 
with money flowing for more than one part. We are happy to look 
at a different way of doing it, but we were really looking at 
what--we made assumptions based on what we knew, but if we need 
to change those assumptions, we can do that.
    Senator Tester. We all agree that this new GI Bill is a 
good thing, and we all agree that it is going to have its 
glitches as it moves forward. It has its glitches. I mean, you 
cannot fix stuff until you know what is wrong.
    My question is more moving forward, is putting veterans in 
overpayment status something that the VA is going to continue 
to do or are we going to fix that?
    Mr. Wilson. We would prefer not to have veterans in 
overpayment status.
    Senator Tester. So we are going to fix it.
    Mr. Wilson. We will do everything that we can to put them 
in a status other than an overpayment status.
    Senator Tester. We will continue to have that dialog if it 
continues to occur, and I want to thank you for that.
    Last question, and this deals with colleges and 
universities that are not notified because of a change in 
beneficiary status. The question is, why would you simply 
notify the school administrator when you change the veteran's 
eligibility rating?
    Now, let me give you an example. I have got a case in my 
office where a student received a letter from the VA saying 
they were 100 percent eligible. He turned it into the school. 
The school is expecting a check for 100 percent, but they only 
got a 40 percent check. And so the student suddenly has a big 
debt to the school. The school is surprised. No one really 
knows what transpired to have this take place.
    How can we improve that process?
    Mr. Wilson. Part of our new IT strategy,. Mr. Warren 
alluded to this earlier, is a web self-service portal, the 
ability for an individual to go onto a Web site without having 
to communicate over phone or letter to us and pull information 
down. That is the mechanism that we can use to provide that 
type of information. Once an individual is in our system, we 
would like the individuals to be able to pull revised 
eligibility information down whenever they need it.
    Senator Tester. As I said in my opening round of questions, 
communication is the biggest problem we have got right now from 
our perspective in Montana. The communication thing cannot be 
fixed from St. Louis, MO. If you would do your best to get that 
fixed, I would sure appreciate it. Thank you.
    Mr. Wilson. Thank you.
    Chairman Akaka. Thank you very much, Senator Tester.
    Senator Begich.
    Senator Begich. Just some quick follow-ups. I want to just 
follow up on what Senator Tester just asked in regards to 
overpayments. I want to make sure we are clear, Mr. Wilson, 
that your comment was happy to look at a different approach. 
You want to fix the overpayment, yes, no?
    Mr. Wilson. Yes. It is never a good situation for veterans 
to be in an overpayment status.
    Senator Begich. That is first.
    Second, do you believe--like Senator Tester, we had similar 
situations within our own university system of overpayments and 
it puts people--any time you get a letter, I do not care who it 
is from, but if it is from the government and it says you owe 
us money, it is not a good feeling, no matter what. And so I 
think that is the point Senator Tester is trying to get to, is 
we have got to figure out a different system here.
    I am familiar with a lot of loan activities. I was the 
chair of the Alaska Student Loan Corporation for 7 years. We 
dealt with these issues on a regular basis. It is about the use 
of technology and how the stakeholders or in this case, the 
educational institutions, respond and participate.
    Institutions love to hold that money because it is cash-
flow for them, even though it is the student's money. We had to 
deal with this all the time. We have had the big universities 
come in. They explained to us why we could not change the 
student loan program: because it was basic cash-flow to them, 
and when they can control that money it is in their best 
interest rather than to keep it in, ``the student's account.''
    My view was the consumer should not be the one penalized at 
the back end. And I want to echo what Senator Tester said, it 
is critical that we move forward to try to figure out a system 
here.
    Do you think there is a time table you could state for the 
record of when you could report back to the Committee on how 
that process would work, or when you feel that there is a new 
system or an improved system on overpayments, that you could 
report to us?
    Mr. Wilson. Anything I would put out here would be 
speculation on my part, so I do not feel comfortable providing 
any dates at this point. I would echo and agree completely with 
what you said. The key of what we want to do is get veterans in 
school and get them to graduate. If they do not graduate, 
nobody is the winner on this.
    Senator Begich. Right.
    Mr. Wilson. Anything that distracts them from being able to 
study and graduate is not a good thing. As a recipient of 
government letters about overpayments, I know full well what 
that does, and we are going to do everything that we can to 
keep that from happening.
    Senator Begich. Can you for the record at some point here 
submit to us what you think a time table will be? Because what 
I have learned also, as a person who has been a mayor, who has 
managed resources, if you do not have a time table--I do not 
want to say nothing gets done, but it sure does take a long 
time.
    So could you submit something to us that says here is what 
you think this issue could be focused on to be resolved or at 
least significantly resolved?
    Mr. Wilson. I would be happy to do that.

    [Responses were not received within the Committee's 
timeframe for publication.]

    Senator Begich. OK. And the last question, do you have any 
data points or measurements for overpayments? In other words, 
if I asked you right now how many overpayments have you had and 
what percentage of your total volume and how much cash volume 
that is, is that data you have somewhere within your realm of 
information? Maybe not right this second, but is it something 
that you might have?
    Mr. Wilson. My gut feeling is yes. I will take that back, 
and I will have to do a work-up on it and provide a response 
for the record.

    [Responses were not received within the Committee's 
timeframe for publication.]

    Senator Begich. OK. And if you do not it is an obvious 
answer to the question, and that is, it is a metric that is a 
great way to measure success; if, obviously, you have less, 
both in volume of dollars and also quantity of customers, 
because they are two different measurements.
    So I would be interested in those numbers, and then if you 
do not have a metric that you are going to be measuring by in 
the future, I would encourage you to I am just thinking back to 
my days when I was chair of the Student Loan Corporation for 7 
years. These are some of the metrics we used to just make sure 
we were achieving success with our customer. Because at the end 
of the day, the university was important, but the customer is 
the student.
    The university or the college or the voc ed program was the 
conduit to the student, and our priority was always the 
student. There is always a confusion among the institutions 
where they think they are the customers, and they are not. So 
those institutions that might be represented in the audience 
here, I want to make that very clear, that customers are the 
people who actually have to pay the loan. It is standard with a 
lot of corporations around the country that deal with student 
loans, that there is a confusion of who is ultimately the 
customer. But I have a great sense that you clearly understand 
that.
    I will leave off at that, Mr. Chairman. Thank you.
    Chairman Akaka. Thank you very much, Senator Begich.
    Mr. Wilson, I want to thank you and your staff, especially 
the claims processors in the four regional centers, for the 
hard work. On the whole, I believe VA has done a rather 
remarkable job in a very short period of time of getting a 
program up and running. So please send our gratitude to them. 
Also, Mr. Clark, we want to thank DOD for your part in this.
    There have been some problems, some of which have been 
critical, but at the end of the day nearly 250,000 individuals 
have received benefits under the new program. At this point, I 
would like to tell you, the panel, that I have the expectation 
that you will continue to strive to meet your time limits and 
accuracy goals. And we will try to do our best, also, here.
    So thank you again very much, and I want to thank this 
panel. We may have some questions for you for the record. Thank 
you.
    I will call up our second panel this morning, which 
includes representatives from some, but certainly not all, of 
the many shareholders. So we will have our panelists come 
forward.
    [Pause.]
    Chairman Akaka. First, let me introduce Faith DesLauriers 
who will present testimony on behalf of the National 
Association of Veterans' Program Administrators, an 
organization of school officials who have the most face-to-face 
contact with veteran students.
    Second, William Stephens, the president of the National 
Association of State Approving Agencies. These agencies are 
closely involved with both the schools and VA as they fulfill 
their responsibilities under the law.
    Mr. Robert Madden from the American Legion is joining us as 
well today. The American Legion held a symposium several weeks 
ago, which included a day-long session on the new GI Bill. Mr. 
Madden will give us an overview of that.
    And finally, we are pleased to welcome Marco Reininger, an 
Army veteran who served in Afghanistan and is now attending 
Columbia University with the benefits he earned under the Post-
9/11 GI Bill. Mr. Reininger will share his personal 
observations and experiences, plus those of his fellow 
veterans.
    I want to thank you for your service and welcome you to the 
Committee.
    Ms. DesLauriers, please begin with your statement.

STATEMENT OF FAITH DESLAURIERS, LEGISLATIVE DIRECTOR, NATIONAL 
        ASSOCIATION OF VETERANS' PROGRAM ADMINISTRATORS

    Ms. DesLauriers. Good morning, Chairman Akaka, Ranking 
Member Burr, and Members of the Committee. NAVPA appreciates 
the opportunity to share the experiences of our membership as 
it relates to the issues we have encountered as veteran program 
administrators on colleges and university campuses nationwide, 
as well as the shared concerns of the population we serve.
    I think it important to note that the membership I 
represent here today are the people who have the most contact 
with individuals eligible to train under this new GI Bill. 
Veteran program administrators, often referred to as certifying 
officials, are the face of the GI Bill and are working untold 
hours to assist in the administration of this program and to 
maintain compliance with the rules governing all veterans 
education programs.
    It is not business as usual. The program complexities, 
counseling, fiscal and reconciliation responsibilities 
associated with this GI Bill have increased the processing time 
for each claim approximately 300 percent. Skills now required 
to accomplish these tasks overlap institutional areas which are 
separate and distinct administrative functions. In order that 
educational institutions may comply with the statutory and 
regulatory requirements governing this GI Bill, written 
policies and procedures need to be documented by the VA, shared 
efficiently and consistently throughout their administrative 
structure and disseminated quickly to the institutions for the 
implementation.
    We are advised that the VA remains unable to credit 
returned payments to veterans' accounts pending general 
counsel's guidance. When duplicate or erroneous tuition and fee 
payments are returned to VA, the funds are not being credited 
to the students' accounts. Consequently, a debt or overpayment 
is created and payments withheld from the living and book 
stipends to recoup that debt, a debt which does not exist. 
Additional guidance for students who need to dispute the debt 
is not clear.
    Inconsistent guidance and practices exist regarding how and 
when Chapter 30 recipients should apply for their irrevocable 
conversion to Chapter 33. Schools continue to defer tuition and 
fees for students who are or appear to be eligible for the 
Post-9/11, pending payment from the VA. However, these students 
came to college campuses with the understanding that they would 
receive a monthly living allowance to supplement or in some 
cases cover their living expenses.
    The current system of certification has and will continue 
to delay monthly living stipend payments. Books and housing 
stipends should not be tied to the certification of tuition and 
fees. NAVPA maintains that there is a mechanism in place and 
VBA should allow schools to report anticipated enrollment data 
sufficient to determine the student's rate of pursuit in order 
that book and housing stipends are processed prior to the start 
of the term and paid throughout the certified period of 
enrollment without unnecessary interruption.
    We further recommend that the actual tuition and fees 
charged to the student be reported at the end of the school's 
published drop/add period. This change in processing could 
sharply reduce the number of overpayments. In addition, this 
would potentially reduce the number of actions required by the 
VA claims examiners and school officials, on average, 
approximately 50 percent.
    Education institutions will continue to work with the men 
and women who serve our country and appreciate and respect 
VBA's position, but there should not be an expectation that 
schools will carry account balances indefinitely or that they 
will continue to defer payments without verification of 
entitlement. In keeping, some claims such as Yellow Ribbon 
cannot be processed until the school can verify that the 
student is eligible at the 100 percent tier, making a 
certificate of eligibility key to timely and accurate 
processing.
    Schools have created a wide range of new policies, internal 
processes and mechanisms to identify veterans early in the 
admissions process, track and reconcile Chapter 33 claims in an 
effort to limit potential overpayments, ensure payments are 
correct, and that student financial records with the school, as 
well with the student, are not negatively impacted while VA 
processing occurs.
    While we understand it is a shared responsibility, the 
crucial role of school officials in the education benefits 
process could better be reflected in the wording used in VA 
publications and Web sites to ensure that the students 
recognize the need to identify themselves as a veteran, a 
service person or a dependent, and to seek out their school 
certifying official as soon as possible.
    Educational institutions have an increased awareness and 
sensitivity to the needs of our veterans and are making 
continued efforts to fund and develop programs and systems not 
only to welcome our heroes home but to assist in their 
transition from military to civilian and college life. It has 
been suggested by veterans organizations that college and 
universities are or should serve as social service agencies 
trained in identifying mental health issues for veteran 
students, as well as be able to provide other support services 
and programming on campuses.
    The limited resources available on most campuses are 
strictly designed to promote the well-being of all students 
with a goal of increasing student academic success. Students in 
need of more intensive social support services must look to the 
community for these services, and it is our responsibility as 
academic professionals to assist those students to more easily 
access those local, State, Federal and private agencies who can 
best meet their needs.
    NAVPA further recommends that the Department of Veterans 
Affairs continue the development of the education Web portal. 
We are very pleased to hear that the VA is working on this 
project, sir. Schools are overwhelmed with the volume of calls, 
misinformation from the call center, and the limited ability to 
assist our students in determining the status of their claims 
or even eligibility. We believe that the implementation of this 
Web portal will not only enhance the service to veterans, but 
it will bring efficiencies to the Department of Veterans 
Affairs. This concept is needed now more that ever.
    In closing, NAVPA requests that the rules, policies and 
procedures governing the administration of the Post-9/11 GI 
Bill be made consistent with the final regulations and 
consistently communicated nationwide. Only then can every 
veteran be assured of receiving the same benefit consideration 
no matter what school, State or RPO is responsible for 
processing that claim.
    Again, thank you for this opportunity to share our 
experiences as professional GI Bill administrators, to make 
recommendations for improvements, and for your support of 
meaningful legislation, which would provide equity in all 
aspects of the delivery and simplicity of the administration of 
the GI Bill. I would be pleased to answer any questions you may 
have.
    [The prepared statement of Ms. DesLauriers follows:]
Prepared Statement of Faith DesLauriers, Legislative Director, National 
             Association of Veterans Program Administrators
    Chairman Akaka, Ranking Member Burr and Members of the Committee, 
NAVPA appreciates the opportunity to share the experiences of our 
membership as it relates to the issues we have encountered as Veterans' 
Program Administrators on college and university campuses, as well as 
the shared concerns of the population we serve.
    I think it important to note that the membership I represent here 
today are the people who have the most contact with individuals 
eligible to train under this new GI Bill. Veterans' Program 
Administrators, often referred to as Certifying Officials are the face 
of the GI Bills and are working untold hours to assist in the 
administration of this program and to maintain compliance with the 
rules governing all veterans' education programs. It is not business as 
usual. The program complexities, counseling, fiscal and reconciliation 
responsibilities associated with this program have increased the 
processing time for each claim approximately 300%.
                  rules, guidelines, and communication
    Written policies and procedures need to be documented by VA, shared 
efficiently and consistently throughout their administrative structure, 
and disseminated quickly to institutions for implementation. As of 
early April, the VA's processing manual M22-4 does not include rules 
for the administration of the Post-9/11 GI Bill.
    Some states and some RPOs issue policy advisories that are never 
duplicated in other regions. This creates different procedures among 
various parts of the country leading to veterans receiving different 
benefits based on where they attend and what instruction--if any--has 
been received by their school.
    Some policy advisories and information forwarded to schools 
contradicts what we read in 38CFR. Non-duplication of Federal benefits 
and overseas study are two examples that come immediately to mind. 
Guidance for veterans who need to dispute a debt is not clear. 
Instructions received from various VA sources indicate students should 
write to either the Debt Management Center or the RPO, or both. There 
does not seem to be a clearly articulated process even for this most 
critical situation.
                      va processing and procedures
    As of this writing we are advised that the VA remains unable to 
credit returned payments to veterans' accounts, pending General Counsel 
guidance. When tuition and fee payments (which are paid to the school 
on the students' behalf) are confirmed by VA to be a duplicate payment 
or grossly erroneous; schools are instructed to return the funds to VA. 
Schools are complying and confirming when the checks are cashed. 
However, the returned funds are not being credited to the veteran on 
whose behalf they were paid and returned. Consequently, a debt or 
overpayment is created on the veteran and future payments withheld from 
their living and book stipends to recoup the debt which does not exist; 
one which has already been satisfied by the school.
    Tuition and fee payments for multiple enrollment periods are lumped 
into a single payment, with no clarifying information attached. Schools 
must calculate the expected award, often based on estimates because we 
are not privileged to the eligibility tier on which the payment is 
based, and the student is otherwise eligible. It is very difficult for 
schools to reconcile lump sum payments and accurately post the funds to 
the appropriate enrollment periods.
    The web based certification tool (VA-ONCE) should allow the school 
to switch a student from Chapter 33 to Chapter 33 Yellow (i.e. Yellow 
Ribbon) without duplicating certifications. School should be able to 
put zero in Yellow Ribbon block rather than moving the student record 
back to a regular Ch 33 program once the annual maximum contribution 
has been matched.
    Inconsistent guidance and practices exist regarding how and when a 
Chapter 30 recipient should apply for their irrevocable conversion to 
Chapter 33 to maximize their entitlement. The procedures for 
determining the effective date of the conversion are not consistent. 
This process can put veterans in the position of losing up to 12 months 
of benefit if not done exactly right--clarification of an equitable 
solution is critical.
    The majority of educational institutions are deferring tuition and 
fees (in the amount due from the VA) for students who are, or appear to 
be eligible for the Post-9/11 GI Bill. However, these students came to 
college campuses with the understanding, a promise if you will that 
they would receive a monthly living allowance to supplement or in some 
cases cover living expenses. The current system of certification (one 
term at a time) will and has delayed monthly living stipend payments.
    The living stipend/housing allowance under the Post-9/11 GI Bill 
should not be tied to the certification of tuition and fees. The Post-
9/11 GI Bill requires that schools certify one term/semester at a time 
in order that actual tuition and fees be reported, rather than 
estimated. NAVPA maintains that the VA should create a mechanism that 
would allow schools to report ``anticipated enrollment'' data, 
sufficient to determine the students' rate of pursuit (training time) 
in order that the book and housing stipends are processed prior to the 
start of the term and paid throughout the certified period of 
enrollment, without interruption.
    We further recommend that the actual tuition and fees charged to 
the student be reported at the end of the schools published drop/add. 
This change in processing could sharply reduce the number of changes in 
reported charges due to drop/add activity which now creates very large 
numbers of overpayments to students. In addition, this would 
potentially reduce the number of actions required of VA claims 
examiners and school officials, on average, fifty percent (50%).
    Payment of tuition and fees must be made to the school in a timely 
manner. The VA defines timely as 30 days from the occurrence. Education 
institutions will continue to work with the men and women who serve our 
country and appreciate the VBA's position; but, there should not be an 
expectation that schools will carry account balances indefinitely, or 
that they will continue to defer payments without verification of 
entitlement (Certificate of Eligibility). In keeping, some claims such 
as Yellow Ribbon cannot be processed until the school can verify that 
the student is eligible at the 100% tier, making the Certificate of 
Eligibility key to timely and accurate processing.
            educational veterans' office processes and roles
    In order to reconcile CH 33 payments to schools, institutional 
officials have had to create internal processes that duplicate much of 
the VA`s function. We must make a preliminary determination of 
eligibility, estimate tuition, fees and Yellow Ribbon awards, track 
payments on each student's account and reconcile the payments to insure 
the amounts paid on their behalf are accurate. If the student payment 
does not appear to be the full amount the school must coordinate that 
correction with the VA. Overpayments, to include duplicate payments 
must be returned to the VA by some means that is not consistent from 
one Region to another. Some schools have had to continue the practice 
of loaning institutional funds to students in situations described 
herein until VA can audit their account and correctly calculate the 
student debt, if any.
    Assisting students with collecting the information they need to 
dispute a debt with VA takes an inordinate amount of time and 
concentration by the school administrator and combines expertise in 
enrollment certification/reporting, VA claims processing, and good 
accounting principles. Schools have created a wide range of new 
internal processes and mechanisms to track Chapter 33 claims in an 
effort to ensure payments are correct and that student financial 
records with the school are not negatively impacted while VA processing 
occurs.
    Schools have created new policies to ensure students are not 
negatively impacted by any delays in receipt of tuition and fee 
payments by VA--not as great an issue now as this was in fall 2009, but 
still in effect. As the only face-to-face contact point in the process, 
schools have devoted a great deal of time and energy to working 
directly with students who are trying to evaluate their options when 
eligible for multiple GI Bill programs. While there is a great deal of 
general information available on the GI Bill Web site, this is such an 
individual situation that the process must take into consideration many 
state programs, reserve component benefits, etc, that students require 
one-on-one assistance on each of their unique circumstances. This has 
been done by schools with little training beyond possible attendance at 
a single conference or full comprehension of the DVA 38 CFR Part 21 
Post-9/11 GI Bill; Final Rules.
    The crucial role of school officials in the education benefits 
process could be better reflected in the wording used in VA 
publications and Web sites to ensure students recognize the need to 
seek out their School Certifying Official as soon as possible. Schools 
are also working to create processes by which student veterans are 
identified and communicated with as early in the admissions/
matriculation process as possible to ensure they know the steps still 
remaining to be accomplished in order to receive their education 
benefits.
    Veterans' Program Administrators/School Certifying Officials are 
now more involved in working with parents of students with the advent 
of transferred entitlement. This adds another new dimension to their 
work. The skills now required to accomplish their tasks overlap 
institutional areas including registrar, financial aid, admissions, 
academic advising, and student accounting and disability services. 
These are separate and distinct administrative functions in most 
schools. Veterans' Program Administrators must now more than ever, 
receive institutional training in all these areas or have staff members 
assigned in each area to accomplish the required analysis for each GI 
Bill student.
    It has also been suggested by veterans' organizations that colleges 
and universities are or should serve as social service agencies; 
trained in identifying mental health issues for student veterans as 
well as be able to provide other support services and programming on 
campuses. These skills are well beyond the scope of responsibilities of 
the average Veterans' Program Administrator as the position is 
currently viewed on most campuses.
    Providing intensive social support services are beyond the scope of 
the purpose, funding and function of our institutions and its staff. 
The limited resources available on most campuses are strictly designed 
to promote the well being of students with the goal of increasing 
students' academic success. Students in need of more intensive services 
must look to the community for support services and it is our 
responsibility as academic professional to assist students to more 
easily access those local, state, Federal and private agencies who can 
best meet their needs. It is the responsibility of the Department of 
Veterans' Affairs to make these resources known to all institutions 
approved for veteran training.
    NAVPA recommends that the Department of Veterans Affairs develop an 
Education Web Portal for easy and accurate access to VA Records 
pertaining to Veterans' Education Benefits. Veteran students do not 
have an electronic means of accessing meaningful and useful information 
from the Department of Veterans' Affairs on their education benefits, 
usage and remaining entitlement from their VA records. Educational 
institutions are overwhelmed with the volume of calls, misinformation 
from the VA Call Center and limited ability to assist students in 
determining the status of their claims or even eligibility. Above all, 
eligible individuals/students should have access to their VA records. 
All information relative to their VA education benefits, eligibility, 
applications, enrollment certifications and payments should be made 
available to them through this portal. Information should include at 
minimum information sent to the veteran via the U.S. mail at the 
beginning and throughout each academic year as contained in the Award 
letter and now the Certificate of Eligibility under the Post-9/11 GI 
Bill.
    Designated school officials should have secure access to the portal 
for veteran students so they may provide counseling and assistance. VA-
ONCE and WAVE have partially covered these issues; however, all 
information is still not available. Veterans should be able to view all 
pending issues to include receipt of documentation and current status, 
reasons for any delays in processing should also be addressed on this 
WEB portal.
    We believe the implementation of a secure web portal will enhance 
service to veterans, bring efficiencies to the DVA with a corresponding 
reduction in telephone service personnel. The efficiencies in personnel 
utilizations realized would benefit processing time. This concept is 
needed now more than ever with the extreme delays in processing claims 
and the complexities of the Post-9/11 GI Bill.
    In closing, NAVPA requests that the rules, policies and procedures 
governing the administration of the Post-9/11 GI Bill be made 
consistent, nationwide. Due to the complexities of this program schools 
are currently working with limited to non-existent information. Often 
what little they have was received through informal channels outside 
their state and RPO areas of responsibility. It is imperative that VA 
create policies consistent with the published final rules, document 
them thoroughly, and distribute them consistently at all levels from VA 
Central Office through RPOs and ELRs down to the institutions that must 
implement them. Only then can every veteran be assured of receiving the 
same benefit consideration no matter what school, state, or RPO is 
responsible for the processing of their claim.
    Again, thank you for the opportunity to share our experiences as 
professional GI Bill administrators, to make recommendations for 
improvements in the administration of the GI Bills and for your support 
of meaningful legislation that would provide equity in all aspects of 
the delivery and simplicity of administration of the Post-9/11 GI Bill. 
I would be pleased to answer any questions you may have.

    Chairman Akaka. Thank you very much, Ms. DesLauriers.
    And now we will ask Mr. Stephens to proceed with your 
statement.

STATEMENT OF WILLIAM STEPHENS, PRESIDENT, NATIONAL ASSOCIATION 
                  OF STATE APPROVING AGENCIES

    Mr. Stephens. Mr. Chairman, Members and staff of the 
Committee, on behalf of the National Association of State 
Approving Agencies, we appreciate this opportunity to appear 
before you.
    There is no question that the Post-9/11 GI Bill is a 
tremendous step forward, and it is a good benefit for those 
brave men and women who have served our country or are 
currently serving our country. There is also no question that a 
lot of the implementation became very challenging for all three 
of the partners involved in that. The school certifying 
officials, they are the front line. They are the ones that the 
veterans, dependents, and Reservists talk with.
    As State Approving Agencies, we are the face of the GI Bill 
at the State level. What we do is interface between the Federal 
Government, the VA, and the certifying officials, and we do 
this in many different ways.
    In response to some of the questions asked earlier of the 
first panel, we do annual visits to check and see how things 
are going with that. We do a tremendous amount with outreach. 
That can vary all the way from mailings that individual States 
do to returning veterans, to mass productions of DVDs on the 
new GI Bill, to liaison with other organizations to providing 
training for certifying officials. The third partner, the VA, 
definitely has a very challenging situation with the increased 
workload that has occurred.
    Looking back, the fall of 2009 was challenging for all 
three partners. Speaking for State Approving Agencies, the 
first challenge we faced was the establishment of the highest 
tuition and fees in each State. Now, what may have seemed like 
a relatively straightforward exercise turned out to be 
something very complicated. We ran into a timeliness issue. 
With many State fiscal years beginning July 1, it is not 
possible to establish that highest fee. We also ran into 
different issues as far as providing the necessary assistance 
to our certifying officials and our veterans. In short, our 
workload increased.
    Moving forward, looking at things that can be done to 
improve the system: first, utilize State Approving Agencies as 
far as expanding their outreach efforts, their training efforts 
for certifying officials. When we do the supervisory visits, we 
can provide additional guidance. We can also look for 
additional things then.
    Second, since we visit the institutions, we are a good 
feedback tool. We can provide you information with that.
    Three other changes we would like to bring forward which 
would improve the administration of the GI Bill. First, and 
this has already been mentioned, is to find a way to break the 
tuition and fee payments to the schools and the housing and the 
book allowance to the veterans. With States having fiscal years 
that begin July 1, it is unlikely, although it does happen, 
that the highest tuition and fees will be established by 
July 1. Many times, it is later than that. In 2009, there were 
States that did not have their highest tuition and fees 
established until August. That creates an immediate backlog. 
So, by doing whatever can be done to improve that situation 
would be a good thing.
    Expand the role of the State Approving Agencies to include 
entering the approved programs directly into the VA computer 
system for the approvals, which can then be reviewed by the 
Education Liaison Representative. This will avoid duplication 
of effort.
    Third, provide State Approving Agencies with the 
opportunity to have read-only access to the VA computer 
systems. We get a substantial number of calls from veterans and 
from school officials. It is not uncommon to have the school 
official call with the veteran sitting there. And perhaps when 
the VA has been very overworked, well, that could knock it to a 
toll-free number if we had that access. We already have the 
necessary security training since we are contracted with the 
VA.
    Mr. Chairman, Members of the Committee, and staff, we 
appreciate this opportunity. Two other items just to suggest as 
an overview of things, which have already both been mentioned. 
First, the GI Bill needs to be combined and simplified. Right 
now, they are very complicated, Chapter 33 especially. So there 
needs to be an effort in that area.
    The second thing is, there needs to be expansion so that 
eligible veterans going to the non-college degree institutions, 
enrolled in apprenticeship, on-the-job training programs and 
other similar things need to be included in with the increased 
benefits.
    That concludes my statement. Thanks again very much. Any 
questions you have I would be glad to answer.
    [The prepared statement of Mr. Stephens follows:]
    Prepared Statement of William D. Stephens, President, National 
                Association of State Approving Agencies
                              introduction
    Chairman Akaka and Members of the Committee, I am pleased to appear 
before you today on behalf of the National Association of State 
Approving Agencies (NASAA) to provide input on the implementation of 
the Post-9/11 GI Bill and to discuss various ideas/suggestions for 
moving forward to improve the delivery of earned benefits for those 
brave men and women who have served or are currently serving our 
country.
    State Approving Agencies have been an integral part of the 
administration of the various GI Bills since shortly after the 
inception of the original GI Bill in June 1944. It has been our 
distinct pleasure and honor to have the opportunity to contribute to 
the success of these programs. In short, State Approving Agencies are 
``the face of the GI Bill at the state level.''
                               background
    There is no question that the events of September 11, 2001, changed 
the United States forever. For almost nine years, the role of the 
military has expanded as a direct result of our war on terrorism. As 
you are aware, there are many different GI Bills that provide benefits 
for veterans/reservists/dependents. Beginning August 1, 2009, the 
newest GI Bill (the Post-9/11 GI Bill also known as Chapter 33) started 
paying increased benefits. This ``war time'' GI Bill has greatly 
increased both the access to higher education and the number of 
individuals using their earned benefits. The 2009 fall semester brought 
many challenges for all those involved in providing the necessary 
assistance of the administration of the various GI Bills. When we look 
at the administration of the various GI Bills, there are three 
components/partners. The ``front line'' for administration of the GI 
Bills are the Certifying Officials located at the institutions/
establishments. They are the ones that the veterans/eligible 
individuals look to for answers to their questions. Because of the 
complexity and other new requirements necessary for effective 
implementation, special training and support was needed and continues 
to be necessary. The second partner is the State Approving Agencies. As 
stated above, we are ``the face of the GI Bill at the state level.'' In 
addition to approving the various institutions/establishments as well 
as the programs at those facilities, we also have extensive interaction 
with the Certifying Officials. That includes annual visits to active 
institutions/establishments, various outreach activities designed to 
increase GI Bill utilization, various training workshops for Certifying 
Officials, as well as liaison with many organizations to improve the 
delivery of benefits. The third partner is the Department of Veterans 
Affairs. Their role includes not only establishing eligibility and 
paying the benefits for eligible veterans/individuals but also working 
with both the State Approving Agencies and the Certifying Officials. 
All three partners are necessary for the effective delivery of 
benefits.
                              looking back
    The 2009 Fall Semester was very challenging for all three partners. 
Due to both the complexity of the Post-9/11 GI Bill and the increased 
volume of claims, Certifying Officials, State Approving Agency staff, 
and Department of Veterans Affairs staff were overwhelmed with 
questions, inquiries, and situations they had never experienced before. 
At the institution level, staff other than Certifying Officials became 
actively involved in the process. This is especially true for Bursars 
and other fiscal staff because the tuition and fees are paid directly 
to the institution under Chapter 33. State Approving Agencies were 
tasked with determining the highest tuition and fees at a public 
institution for an undergraduate in-state student. While this may have 
seemed straightforward, there were many complications with establishing 
those figures. In addition, there is a timeliness issue.
    Many state's fiscal year begins on July 1st of each year. Because 
the highest tuition (and sometimes fees) are not set until after the 
state budget is finalized, it was not possible for the Certifying 
Officials for many public (and some private institutions who 
participate in the Yellow Ribbon Program) to submit their enrollment 
certifications. This caused a delay in their processing and payment of 
benefits. Department of Veterans Affairs had the challenging and 
complex task of processing the enrollment certifications. This 
processing included reviewing the enrollment certifications submitted 
by institution officials, verifying that the programs had been approved 
by the State Approving Agency, establishing eligibility, and then 
paying the veteran/individual. Department of Veterans Affairs hired a 
substantial number of additional staff to accomplish this task. In 
addition, we are pleased that Department of Veterans Affairs is working 
on updating their electronic process. This will improve their 
efficiency. Updating the Department of Veterans Affairs electronic 
systems is long overdue. We highly encourage the use of technology 
wherever possible.
    Institution officials responded to this new challenge with 
increased effort and determination. They reviewed their internal 
procedures to determine what needed to be changed, worked with 
veterans/individuals to assist them wherever possible, ensured that the 
fiscal staff at their institution was aware that the payment of tuition 
and fees was delayed, and assisted both the State Approving Agency and 
the Department of Veterans Affairs with identifying problems/issues to 
be addressed. State Approving Agencies provided both training and 
individual assistance for the institution officials, conducted various 
outreach activities to inform eligible veterans/individuals of this new 
GI Bill, and worked with Department of Veterans Affairs staff to 
identify problems/issues and recommend solutions. Department of 
Veterans Affairs staff at the state level (Education Liaison 
Representatives and Compliance Survey Specialists) worked closely with 
State Approving Agency staff and, where possible, Certifying Officials 
to provide the best possible service. At the Regional Processing 
Offices, staff worked diligently to process the increased volume of 
complex claims. At the national level, Central Office staff worked to 
ensure proper guidance was provided to ensure everyone understood 
exactly what was needed. Due to the ``interaction'' of the new GI Bill 
with already existing regulations and policies, this was a challenge to 
accomplish. In addition to the above, we want to acknowledge the 
Department of Veterans Affairs decision and implementation of the one-
time emergency advance payment of benefits that enabled veterans to 
remain in school until they received their housing allowance and book 
stipend. In short, a need was seen and Department of Veterans Affairs 
reacted to serve veterans/eligible individuals.
    Even with all of the challenges, we feel the implementation went 
fairly well. Obviously many lessons were learned; and by all three 
partners working together, service can be improved.
                             moving forward
    Looking ahead to changes that can be made to improve the delivery 
of service, we feel the following should be considered:

    Additional training and support for Certifying Officials. As the 
``front line,'' Certifying Officials need to have all of the tools 
necessary to serve their veterans/eligible individuals. Training should 
be in various formats including: training workshops sponsored by 
Department of Veterans Affairs, training provided by the various 
Certifying Official organizations, training provided by State Approving 
Agencies staff (this can be especially effective because many 
Certifying Officials cannot travel out of state for training), as well 
as on-line training.
    Concerning State Approving Agencies, there are two areas that would 
improve the overall effectiveness of the GI Bill. First, increased 
emphasis on outreach and training of Certifying Officials. State 
Approving Agencies are in the unique position to be able to provide 
direct training tailored to the needs of their Certifying Officials. 
Second, since State Approving Agency staff visit the institutions on a 
regular basis, they could provide additional assistance with ensuring 
compliance. Currently State Approving Agency staff does a limited 
review of veteran records to ensure institutions are following their 
approved policies and procedures. This could be expanded to a more 
detailed review and increased number of records to review. In addition, 
State Approving Agency staff could also review the fiscal records to 
determine if the correct tuition and fees are being charged and are 
properly credited for the appropriate veteran/individual. Both of the 
above would require increased funding for State Approving Agencies. 
State Approving Agency funding has remained the same for five (5) years 
while the workload has increased drastically. Just as the amount of 
time Certifying Officials and Department of Veterans Affairs staff must 
spend on the new GI Bill, State Approving Agency time has increased. As 
a general statement, if it takes 10 minutes to ``respond'' to 
questions/issues for the other chapters of the GI Bill (Chapter 30, 
1606, 1607, etc.), it takes at least four times as long to respond to 
Chapter 33 questions/issues.
    There are three changes that would definitely improve the 
administration of veteran's educational benefits.

    1. Expand the role of the State Approving Agencies (with increased 
funding) to include entering approved programs directly into the Web 
Enhanced Approval Management System (WEAMS). Currently all approval 
actions are forwarded in paper form to an Education Liaison 
Representative who must then enter the approved program list. This is 
very time consuming. A system could be established that permits the 
State Approving Agency to directly enter the approved programs, and 
they can then be reviewed by the Education Liaison Representative. This 
will avoid duplication of effort.
    2. Separate the payment of tuition and fees from the payment of the 
housing allowance by allowing Certifying Officials to certify prior to 
the establishment of the highest tuition and fees for that state. 
Currently Certifying Officials must wait until the maximum state 
tuition and fees are established for Post-9/11 GI Bill recipients. For 
those states with a fiscal year that begins July 1, there is a major 
complication. For some states, it was not possible for enrollments to 
be sent to DVA until well into August. Prior to this year, Certifying 
Officials could submit enrollment information up to 120 days prior to 
the start of the semester/term. Many of the larger institutions did 
this and thus the workload for Department of Veterans Affairs was more 
evenly distributed throughout the year. NASAA recommends that DVA 
seriously consider permitting Certifying Officials to certify veteran's 
enrollment prior to the state establishing their highest tuition and 
fees. This would allow processing of the housing allowance and book 
allowance in a timely manner. Following the establishing of the highest 
tuition and fees for the state, the institution would submit the 
necessary information to DVA for the payment of the tuition and fees.
    3. Permit State Approving Agencies ``read only'' access to 
Department of Veterans Affairs computer systems so we could more 
effectively respond to veterans/individuals inquiries. All State 
Approving Agency staff have completed the necessary security training 
as required in our annual contract with the Department of Veterans 
Affairs. This will also provide staff detailed information on which 
records to review which will assist in reducing fraud, waste, and 
abuse.

    The above three items are provided simply as suggestions to improve 
service to veterans/eligible individuals. We realize that there would 
be technology and other challenges to implementing these; however, once 
implemented the system would be more effective in serving veterans/
reservists/dependents.
    Concerning the Department of Veterans Affairs, we suggest they 
continue to work toward establishing effective policies/guidance for 
the implementation of Chapter 33. They have provided various guidance 
that has improved the effectiveness. There are still some areas that 
need guidance. These include but are not limited to: establishment of a 
list identifying the fees that are considered acceptable to be covered 
under Chapter 33, clarifying guidance concerning establishing what is 
greater than \1/2\ time for accelerated and summer programs, 
clarification of the payment of benefits for non-college degree clock 
hour programs at degree granting institutions, and other areas as 
identified by State Approving Agencies and Certifying Officials. We 
also feel strongly that the continuation of using focus groups that 
include representatives from the various organizations that are 
comprised of Certifying Officials and State Approving Agency 
representatives provides a great base to ensure the perspective from 
the ``field'' is represented. We would also suggest including 
Department of Veterans Affairs staff from both the Regional Processing 
Offices and staff assigned in the various states. Their unique 
perspective is very valuable.
                                closing
    Mr. Chairman and Members of the Subcommittee, we thank you for the 
opportunity to address you today. Two other items we would suggest 
serious consideration be given. First, combining and simplifying the 
various GI Bills would not only increase veterans/eligible individuals 
understanding of their benefits but also would assist Department of 
Veterans Affairs processing of claims. Second, the Post-9/11 GI Bill 
needs to be expanded to include increased benefits for eligible 
veterans/individuals who enroll in programs at nondegree institutions 
and apprenticeship/on-the-job training establishments. They have served 
and earned benefits the same as those veterans who attend degree 
granting institutions.

    We are always willing to provide our unique perspective and would 
be pleased to respond to any questions that you have.

    Chairman Akaka. Thank you very much, Mr. Stephens.
    Mr. Madden, please proceed with your statement.

   STATEMENT OF ROBERT MADDEN, ASSISTANT DIRECTOR, NATIONAL 
            ECONOMIC COMMISSION, THE AMERICAN LEGION

    Mr. Madden. I would like to thank Chairman Akaka and 
Ranking Member Burr and the Members of the Committee for giving 
the American Legion the opportunity to report on the 
implementation of the Post-9/11 GI Bill.
    The American Legion has been the lead supporter of the 
Post-
9/11 GI Bill but has also been a concerned advocate of the 
implementation. The 111th Congress has held hearings on the 
long-term and short-term implementation strategies for 
administration of the Post-9/11 GI Bill by the Department of 
Veterans Affairs. These hearings updated Congress on VA's 
development of the information technology components for the 
new law and the progress that has been made toward its 
implementation.
    The American Legion testified before Congress earlier last 
year about its concerns regarding VA's implementation 
strategies and made a recommendation that VA be ready to 
fulfill its administrative duties right the first time on 
August 1, 2009.
    Since the passage and implementation of the Post-9/11 GI 
Bill, VA has had a rough and rocky start. Thinking that they 
were fully prepared to implement the biggest changes in GI Bill 
history, VA sought to put their best foot forward in August 
2009. What they soon found out was that the system was flawed 
and there was no easy way to process the certificate of 
eligibility or an actual claim. With a small amount of staff 
along with the actual time a claim took to be processed, this 
caused VA to present itself an ever-growing backlog of 
education claims. Unfortunately, many of these veterans were 
waiting weeks and months just to get their certificate of 
eligibility, let alone their claim to be processed.
    These men and women gave up their jobs in order to better 
their employment chances by going to school. This means that 
veterans who recently left the military were without a job and 
without their education benefit from the VA. The American 
Legion received hundreds of calls and e-mails a month to 
discuss their financial difficulties, even the possibility of 
becoming evicted or homeless. The American Legion responded to 
a number of these veterans with our temporary financial 
assistance, one of our many programs to assist veterans and 
their families.
    America's veterans are relying upon this benefit to get 
their education to create a stable environment for themselves 
and their families. In turn, VA responded to this issue and 
made an executive decision to provide individuals who were in 
school an emergency payment of $3,000. The American Legion 
applauded and still agrees that this was a smart decision to 
make but now has seen the backlash from this decision.
    Now there are reports of veterans and their family members 
losing all of their future payments instead of the proposed 
$750 reduction the VA promised from the payment plan. The VA 
has taken steps to rectify the situation, but some of the 
damage has already been done.
    The American Legion takes pride in assisting them but needs 
VA's cooperation to get issues resolved. The American Legion 
believes that there needs to be more oversight on decisions 
that are made to ensure proper implementation so that the 
veteran or his or her family member is not the one who suffers.
    With all the great benefits the Post-9/11 GI Bill offers, 
it has unfortunately left out a few educational choices. The 
American Legion is a strong supporter of allowing the Post-9/11 
GI Bill to be used for non-degree-granting institutions. This 
employment path is a more traditional choice, but vocational 
apprenticeships, on-the-job training and flight training are 
not payable by the current bill or the Post-9/11 bill.
    This disparity has caused much concern for the American 
Legion. We have found that not every veteran has the time or is 
considering attending a 4-year college. They might have a 
family member and need to become gainfully employed as soon as 
possible, which is something that non-degree-granting 
institutions offer.
    Most of these education paths consist of a shorter training 
time and can led to immediate employment. The American Legion 
believes that veterans should never be limited in the manner 
they use their educational benefits.
    In addition, the American Legion supports the addition of 
the housing allowance for distance learning, the inclusion of 
Title 32 active Guard/Reserves to be included, and the 
arbitrary date for a transfer of educational benefits to be 
eliminated. These fundamental changes would provide equity in 
the Post-9/11 GI Bill.
    Even with some missteps and challenges, the American Legion 
is a constant supporter of VA and is working with them to 
ensure that veterans and their families get the necessary 
assistance during this education transition. What we have found 
was a large number of student veterans in academia did not have 
sufficient information about the Post-9/11 GI Bill benefits. 
The American Legion believes that VA needs to provide more 
outreach to colleges and universities around the country to 
ensure that student veterans have a full range of knowledge 
concerning their education benefits.
    The VA has taken all the necessary steps in order to 
provide a fluid transition for veterans and their families. We 
have seen numerous bumps along the way, but the VA has had to 
make some tough choices such as the emergency payment to 
correct those problems.
    The American Legion will continue to monitor the continued 
transition for the Post-9/11 GI Bill and appreciates the 
opportunity to report on our findings. The American Legion 
appreciates the opportunity to present this statement for the 
record. Again, thank you, Chairman Akaka, Ranking Member Burr 
and Members of the Committee for allowing the American Legion 
to present its views on this very important issue.
    [The prepared statement of Mr. Madden follows:]
   Prepared Statement of Robert Madden, Assistant Director, National 
                Economic Commission, The American Legion
    Chairman Akaka, Ranking Member Burr and Members of the Committee: 
Thank you for this opportunity to present The American Legion's views 
on the implementation of the Post-9/11 Veterans Educational Assistance 
Act of 2008 today. The American Legion commends the Committee for 
holding a hearing to discuss this very important and timely issue.
    American men and women are serving in two wars, while also serving 
this great nation in various capacities across the globe. For veterans 
who have served since September 11, 2001; they are entitled to 
education benefits. Not just any education benefits, but the most 
comprehensive benefits since the Servicemen's Readjustment Act of 1944. 
The original WWII benefit is said to have produced 50 years of economic 
prosperity for America. With over 2 million servicemembers having 
served since 2001, the Post-9/11 GI Bill can do the same thing for this 
country and give this new ``Greatest Generation'' an education.
    The American Legion has been a lead supporter of the Post-9/11 GI 
Bill, but has also been a concerned advocate of the implementation. The 
111th Congress has held hearings on the long-term and short-term 
implementation strategies for administration of the Post-9/11 GI Bill 
by the Department of Veterans Affairs (VA). These hearings updated 
Congress on VA's development of the information technology components 
for the new law and the progress that has been made toward its 
implementation. The American Legion testified before Congress earlier 
last year about its concerns regarding VA's implementation strategies 
and made a recommendation that VA be ready to fulfill its 
administrative duties `right the first time' on August 1, 2009.
    Since the passage and the implementation of the Post-9/11 GI Bill, 
VA has had a rough and rocky start. Thinking that they were fully 
prepared to implement the biggest changes in GI Bill history, VA set 
out to put their best foot forward in August 2009. What they soon found 
out was that the system was flawed and that there was no easy way to 
process a Certificate of Eligibility or an actual claim. A processor 
for the old Montgomery GI Bill needed only around 30 minutes to process 
a claim, but for the components of the Post-9/11 GI Bill, that amount 
ballooned to close to 2 hours per claim. Without the right amount of 
staff, along with the actual time a claim took to be processed, this 
caused VA to present itself with an ever growing backlog of education 
claims.
    Unfortunately, many of these veterans were waiting weeks and months 
just to get their Certificate of Eligibility, let alone their claim to 
be processed. These men and women gave up their jobs in order to better 
their employment chances by going to school. It should be noted, to be 
able to get the most out of the benefit, a veteran or family member 
needs take a course load of over half-time. This means that veterans, 
who recently left the military, were without a job and without their 
education benefit from VA. The American Legion received hundreds of 
calls and emails a month to discuss their financial difficulties; even 
the possibility of becoming homeless. The American Legion responded to 
a number of these veterans with Temporary Financial Assistance, one of 
our many programs to assist veterans and their families. America's 
veterans are relying upon this benefit to get their education to create 
a stable environment for them and their families.
    In turn, VA responded to this issue and made an executive decision 
to provide individuals, who were in school, an emergency payment of up 
to $3,000. The American Legion applauded and still agrees that this was 
a smart decision to make, but now is seeing the backlash from this 
decision. Now, there are reports of veterans and their family members 
losing all of their future payments instead of the proposed $750.00 
reduction VA promised from the payment plan. VA has taken steps to 
rectify this situation, but some of the damage has already been done. 
Many veterans and their families called The American Legion because 
they cannot get through to VA and need information. We take pride in 
assisting them, but need VA's cooperation to get issues resolved. The 
American Legion believes there needs to be more oversight on decisions 
that are made to ensure proper implementation, so that the veteran or 
his/her family member is not the one who suffers.
    Another recurring issue is over payment. There have been reports of 
schools being overpaid, which is why many of schools are waiting for 
the add/drop period before sending in the veteran's enrollment 
certification. In spite of this move by the schools, the veteran is 
still being overpaid; consequently, the schools send back the money, 
but it is not being reported back to the VA in a timely manner. 
Ultimately, the veteran is then denied their housing allowance and 
books stipend, until their payment is recouped by VA. This causes an 
undue burden for the veteran and his/her family and causes, again, 
another financial hardship. Every time a mistake happens, it does not 
affect VA, but does manage to cause problems for the veteran. Closer 
oversight on these issues would be the fix to many of these problems.
    One of the main challenges VA faces is communication. One Regional 
Office (RO) says the veteran can do something one way and then another 
RO says the veteran cannot. Second, a veteran or family member will 
call the 1-800 numbers for education assistance and will ask a 
question. That same veteran will call back, get a different operator 
and ask the same question. What the veteran receives, on occasion, is 
multiple answers. The veteran needs to receive the same answer, so he/
she can properly navigate the education process.
    The American Legion also would like to bring to the Committee's 
attention a flaw that exists in the Post-9/11 GI Bill. With all the 
great benefits the Post-9/11 GI Bill offers, it has unfortunately left 
out a few educational choices. The American Legion is a strong 
supporter of allowing the Post-9/11 GI Bill to be used for non-degree 
granting institutions. This employment path is a more traditional 
choice, but vocational, apprenticeship, on-the-job training and flight 
training are not payable by the current bill (Post-9/11). This 
disparity has caused much concern for The American Legion. We have 
found that not every veteran has the time or is considering attending 
college. They might have a family and need to become gainfully employed 
as soon as possible, which is something that vocational, on-the-job 
training, apprenticeship and flight training offer. Instead, a veteran 
may choose a more traditional path and attend a non-degree institution, 
but cannot use their Post-9/11 GI Bill benefits to complete these 
courses. Most of these education paths consist of a shorter training 
time and can lead to immediate employment. The American Legion believes 
that veterans should never be limited in the manner they use their 
educational benefits.
    Currently, there are two bills, H.R. 3813 and S. 3171, which are 
companion measures. These bills propose changes to the Post-9/11 GI 
Bill to allow veterans to use their educational benefits at non-degree 
granting institutions. The American Legion supports both of these 
bills. Veterans should be free to choose their school and get the 
education they believe is best for them and their family.
    Even with some challenges and missteps, The American Legion is a 
constant supporter of VA and is working with them to ensure that 
veterans and their families get the necessary assistance during this 
education transition. The American Legion recently held the ``Veterans 
on Campus'' education symposium, which tried to identify best practices 
on how to assist veterans in their transition from the military to 
college life. What we found was a large number of student-veterans and 
academia did not have sufficient information about the Post-9/11 GI 
Bill benefits. The American Legion believes that VA needs to provide 
more outreach to colleges and universities around the country to ensure 
these student-veterans have a full range of knowledge concerning their 
education benefits.
    The VA has taken all the necessary steps in order to provide a 
fluid transition for veterans and their families. We have seen numerous 
bumps along the way, but VA has had to make some tough choices, such as 
the emergency payment, to correct those problems. The American Legion 
will continue to monitor the continued transition for the Post-9/11 GI 
Bill and appreciates the opportunity to report on our findings.

    The American Legion appreciates the opportunity to present this 
statement for the record. Again, thank you Chairman Akaka, Ranking 
Member Burr, and Members of the Committee for allowing The American 
Legion to present its views on this very important issue.

    Chairman Akaka. Thank you very much, Mr. Madden.
    Mr. Reininger, please proceed with your statement.

  STATEMENT OF MARCO REININGER, IAVA MEMBER, STUDENT VETERAN, 
                      COLUMBIA UNIVERSITY

    Mr. Reininger. Chairman Akaka, Senator Begich, staff of the 
Ranking Member Burr and the Members of the Committee, as a 
member of Iraq and Afghanistan Veterans of America, the 
Nation's first and largest group dedicated to the troops and 
veterans of the wars in Iraq and Afghanistan, and on behalf of 
the quarter of a million student veterans who have taken 
advantage of the new GI Bill this year, it is an honor to be 
able to address you today.
    I want to especially thank Senator Webb and Chairman Akaka, 
and the other Members of this Committee whose hard work and 
commitment to veterans secured the largest increase in 
veterans' education benefits since World War II. Your 
investment in us will help make us the next greatest 
generation.
    The new GI Bill has unlocked many doors for me that I never 
dreamed were possible while I was serving in Afghanistan 
conducting investigations into IED attacks. It has always been 
my dream to attend an Ivy League university that would 
challenge my full academic potential. Today, I am living that 
dream as a student at Columbia University studying political 
science with aspirations of working with you as a congressional 
staffer.
    As the vice president of the Columbia University U.S. 
Military Veterans group (MilVets) and an active member of IAVA, 
I have firsthand knowledge of the successes and failures of the 
new GI Bill implementation. I am pleased to report that the 
VA's implementation has improved since last fall, but there is 
still much to be done.
    I applied for my new GI Bill benefits on May 1. When my 
first living allowance check was significantly late, I was 
incredibly worried. I did not live on campus and had to count 
on the generosity of my landlord to forgive my late rent 
payments. That was not the case for all student veterans. A 
fellow Army veteran was unenrolled from courses shortly before 
his final exams because of overdue account balances.
    I am thankful the VA finally started issuing emergency 
checks in October. When I stood in line at the local New York 
City VA office for my advance payment, many of my fellow 
veterans from all over the region were extremely hesitant to 
accept the emergency payment. They were concerned that it would 
come back to haunt them in the future.
    I finally started receiving my GI Bill benefits in November 
2010. Sadly, many of my friends and fellow students had to 
struggle to make ends meet because their GI Bill checks never 
arrived. A fellow Columbia veteran friend of mine just received 
his first check last month, and that is from enrollment in 
fall.
    Interestingly enough, the most common complaint I hear from 
fellow student veterans is that they did not know when their GI 
Bill checks would arrive. Not knowing when your check will 
arrive and not being able to get an answer from the VA can 
wreak havoc on your life. You have to plan for the worst. A 
fellow veteran of mine ate canned beans and sardines three 
meals a day for an entire semester trying to scrape up gas 
money for his wife and two children back home. How could he 
possibly thrive at school when he was consumed with the 
responsibility of providing for his family? The new GI Bill was 
meant to relieve him of that burden.
    So far, this semester has been significantly better. My 
fellow student veterans have been receiving their GI Bill 
benefits with fewer delays. However, there remains great 
uncertainty among vets about their individual accounts and 
amounts of future payments. Many of our new incoming student 
veterans are still confused about the complicated benefit 
calculations, which is a product of misinformation during their 
separation process. And some of my veteran friends from Upstate 
New York have told me about GI Bill payments that do not 
reflect the actual BHA rate for 2010. They have budgeted based 
on one number, but now they are receiving something else.
    Greater transparency could go a long way, and here is an 
idea. The VA could start by posting a widget on their homepage 
that reads, ``Now working on GI Bill claims from'' and then 
fill in the date. This widget will give student veterans some 
idea of where they are in the GI Bill queue. This kind of 
information we can count on and plan around.
    I also strongly believe that VA needs to do a better job 
helping veterans monitor their own GI Bill benefits. If I can 
never predict when the VA makes a payment to my school, it is 
difficult to account for what individual checks are covering my 
tuition and fees. We need a mechanism that would allow me to 
track my GI Bill claim from the moment I file to the day when 
it actually pays.
    Probably one of the biggest surprises throughout the whole 
process of using my GI Bill benefits was how confused some of 
the school financial aid officials were. I expected the VA to 
informally train these school certifying officials. The VA must 
properly incentivize schools to prioritize processing of GI 
Bill paperwork. If the school cannot turn in the paperwork 
accurately on time, a student veteran will suffer the 
consequences. Thankfully, we were able to turn to IAVA's GI 
Bill resource, newgibill.org, where we found answers to our 
questions. IAVA has the most up-to-date Web site with the most 
accurate benefits calculators and a robust frequently asked 
questions page, and also, 24/7 counseling via e-mail and 
Twitter. All these things could be implemented on the VA's 
side.
    I recently received a letter from the VA Debt Management 
Center warning me that they were planning to take back the 
emergency payment they loaned me in the fall. They advised me 
that they would be deducting $750 per month from my living 
allowance unless I made other arrangements. Thankfully, I was 
reminded by IAVA that I needed to turn in my paperwork by the 
April deadline. It was not the VA that told me. Other student 
veterans did not have it so smoothly. Some tried to set up 
payment plans but still had the full $750 deducted from their 
living allowance check even though the VA actually still owed 
them money.
    There are still major shortfalls such as including Title 32 
active duty and streamlining the Yellow Ribbon program by, for 
example, removing the separation of tuition and fees. The Post-
9/11 GI Bill is changing lives, and it will change our country 
for the better. The question is, how do we make it as easy as 
possible for our veteran students to focus on their studies and 
not on collection notices.
    Mr. Chairman, this concludes my testimony. I would be 
delighted to answer any questions you or the Committee may 
have.
    [The prepared statement of Mr. Reininger follows:]
Prepared Statement of Marco Reininger, IAVA Member, Student Veteran at 
                          Columbia University
    Mr. Chairman, Ranking Member, and Members of the Committee, as a 
member of Iraq and Afghanistan Veterans of America, the Nation's first 
and largest group dedicated to the Troops and Veterans of the wars in 
Iraq and Afghanistan and on behalf of the quarter of a million student 
veterans who have taken advantage of the new GI Bill this year it is an 
honor to be able to address you today. I want to especially thank 
Senator Webb, Chairman Akaka and the other Members of this Committee 
whose hard work and commitment to veterans secured the largest increase 
in veterans' education benefits since WWII. Your investment in us will 
help make us the next greatest generation.
    The new GI Bill has unlocked many doors for me that I never dreamed 
were possible, while I was serving in Afghanistan, conducting 
investigations into IED attacks. It has always been my dream to attend 
an Ivy League university that would challenge my full academic 
potential. Today, I am living that dream as a student at Columbia 
University, studying political science, with aspirations of working 
with you as a Congressional staffer. I want to help Senators like you 
craft new and innovative programs that are crucial for my fellow 
veterans.
    As the Vice-President of the Columbia University Military Veterans 
group and an active member of Iraq and Afghanistan Veterans of America, 
I have firsthand knowledge of the successes and failures of the new GI 
Bill implementation. I am pleased to report that the VA's 
implementation has improved since last fall, but there is still much to 
be done.
    I will address the following four issues:

    1. Late GI Bill checks mean no rent checks and sleepless nights;
    2. School certifying officials are overworked and undertrained;
    3. Emergency check recoupment is inaccurate and not transparent; 
and
    4. Living allowances have not been adjusted for the COLA increase.
Late GI Bill checks mean no rent checks and sleepless nights.
    I applied for my new GI Bill benefits on May 1st, shortly after 
being accepted to Columbia University. I knew that living in New York 
City and attending a private school meant that I could not afford any 
delays in my benefits. When my first living allowance check was 
significantly late, I was incredibly worried. I did not live in 
university housing and had to count on the generosity of my landlord to 
forgive my late rent payments. Columbia University was also very 
accommodating and did not penalize student veterans for late VA checks. 
That wasn't the case for all student veterans. A fellow Army veteran 
was un-enrolled from courses shortly before his final exams because of 
overdue account balances.
    I am thankful the VA finally started issuing emergency checks in 
October. Without this stop-gap measure, I would have quickly gotten 
into severe financial distress. When I stood in line, at the local New 
York City VA office, for my $3,000 advance payment, many of my fellow 
veterans from all over the region were extremely hesitant to accept the 
emergency payment. They were concerned that it would come back to haunt 
them in the future. This engrained distrust of the VA is not unusual 
among my peers.
    I had no choice but to accept the emergency payment. I took the 
hand written check and a letter from the VA to my bank, so they 
wouldn't place a hold on the check when I deposited it.
    In addition to the VA checks, members of our student veterans' 
community supported one another by lending each other cash in order to 
get by, avoid bad credit scores and collection agencies.
    I finally started receiving my GI Bill benefits in November 2010. 
Last fall, I was one of the lucky ones who received their GI Bill in a 
somewhat timely manner. Sadly, many of my friends and fellow students 
had to struggle to make ends meet because their GI Bill checks never 
arrived. A fellow Columbia veteran pal of mine just received his first 
check last month.
    Interestingly enough the most common complaint I hear from fellow 
student veterans is that they didn't know when their GI Bill checks 
would arrive. Student veterans can scrimp and save in a pinch, 
photocopying assigned readings instead of buying the textbooks or being 
content to eat Ramen noodles for another week instead of going out to 
dinner with our classmates. We can make due, but only if we know that 
our GI Bill check is going to arrive on a particular day. Not knowing 
when it will arrive and not being able to get an answer from the VA can 
wreak havoc on your life. You have to plan for the worst. I know some 
veterans who took some drastic measures. A fellow veteran ate canned 
beans and sardines three meals a day for an entire semester, trying to 
scrape up gas money for his wife and children back home. How could he 
possibly thrive at school when he was consumed with the responsibility 
of providing for his family? The new GI Bill was meant to relieve him 
of that burden.
    So far, this semester has been significantly better. My fellow 
student veterans have been receiving their GI Bill benefits with fewer 
delays. However, there remains great uncertainty among vets about their 
individual accounts and amounts of future payments. Many of our new 
incoming student veterans are still confused about the complicated 
benefit calculations, which is a product of misinformation during their 
separation process. And some of my veteran friends, from upstate New 
York, have told me about GI Bill payments that do not reflect the 
actual BAH rate for 2010. They have budgeted based on one number, but 
received something else.
    Uncertainty is demoralizing, distracting from studies, and 
financially perilous. Greater transparency can go a long way. Here's an 
idea: The VA could start by posting a widget on their homepage that 
reads: ``Now working on GI Bill claims from (fill in the date).'' This 
widget will give student vets some idea of where they are in the GI 
Bill queue. This is information we can count on and plan around.
    I also strongly believe the VA needs to do a better job helping 
veterans monitor their own GI Bill benefits. If I can never predict 
when the VA makes a payment to my school, it is difficult to account 
for what individual checks are covering in my tuition and fees. We need 
a mechanism that would allow me to track my GI Bill claim from the 
moment I file, to the day when it actually pays. I can track a book 
from an Amazon.com warehouse to my apartment, why can't I get the same 
transparency from the VA?
School certifying officials are overworked and undertrained.
    Probably one of the biggest surprises, throughout the whole process 
of using my GI Bill benefits, was how confused some school financial 
aid officials were. I expected the VA to have formally trained these 
School Certifying Officials. I assumed that the school officials would 
have answers, but they were frantically trying to figure out how the 
new GI Bill worked, just as we were.
    Thankfully we were able to turn to IAVA's GI Bill resource 
(www.newgibill.org), where we found answers to our questions. IAVA has 
the most up-to-date Web site, with the most accurate benefits 
calculators, a robust Frequently Asked Questions page, and 24-7 
counseling via email and Twitter.
    Working with school certifying officials it often feels like 
processing GI Bill paperwork is an additional burden for them, on top 
of an already heavy workload. I was shocked to find out that my school 
was only being reimbursed by the VA at the rate of $7/veteran. That is 
considerably less than minimum wage. We must properly incentivize 
schools to prioritize processing of GI Bill paperwork. If the school 
can't turn in the paperwork accurately or on time, a student veteran 
will suffer the consequences.
Emergency check recoupment is inaccurate and not transparent.
    I recently received a letter from the VA Debt Management Center 
warning me that they were planning to take back the $3,000 emergency 
payment they loaned me in the fall. They advised me that they would be 
deducting $750/month from my living allowance check unless I made other 
arraignments. Thankfully, I was reminded by IAVA that I needed to turn 
in my paperwork by the April deadline, otherwise the VA would have 
deducted the $750 automatically from my living allowance. It wasn't the 
VA that told me, it was IAVA. I emailed the VA Debt Management Center, 
and they set up a payment plan of $150/month, which is within my means.
    Other student veterans didn't have it so smoothly. Some tried to 
set up payment plans but still had the full $750 deducted from their 
living allowance check. When you are living on a tight budget, $750/
month can mean the difference between focusing on studies and looking 
for a second job. Other veterans had their debt applied to their 
accounts, even though the VA owed them money.
    In preparation for this testimony I read on the VA's and IAVA's Web 
site that the VA would be taking care of this problem and that the 
``checks would be in the mail.'' Frankly, anytime anyone who makes a 
mistake tells me not to worry because ``the check is in the mail'' I 
worry even more. I hope this issue is fully resolved soon. Our veterans 
need your help.
Living allowances have not been adjusted for the COLA increase.
    Last, and I hope not to sound too petty, I believe the VA owes me 
some money. The military Basic Allowance for Housing (BAH) rates went 
up on January 1st, but I never saw an increase in my living allowance 
checks. I know the rates for Columbia's ZIP code increased slightly. So 
what happened?
    I ask because I know if I owed the VA money (which I do), they 
would certainly be in quite a hurry to collect (which they are). But 
when the VA owes me money, I can't seem to get any answers. 
Furthermore, in some of my veteran friends' areas the difference is 
quite significant, particularly when one receives less money than 
originally budgeted.
    The Post-911 GI Bill is changing lives and it will definitely 
change our country for the better. The questions are: how much trouble 
will this change be? How difficult must it get before student veterans 
give up on their education? How do we make it as easy as possible for 
our veteran students to focus on their studies and not on collection 
notices?

    Chairman Akaka. Thank you very much, Mr. Reininger.
    This question is to each of you. In your testimony you have 
made some statements about your experience thus far with the 
Post-9/11 GI Bill. We all are looking for ways to improve it. 
So my question to each of you is, if you could make a single 
change to streamline and improve the new program, what would it 
be?
    Mr. Madden?
    Mr. Madden. Thank you, Mr. Chairman. I appreciate the 
opportunity to answer the question.
    I think someone mentioned earlier here today but--during 
the education symposium that we held at the end of February and 
the beginning of March, one of the main components that came 
out of that was clear communications. Some of the reports, some 
of which is anecdotal, we are getting reports from individuals 
saying, well, I called Muskogee and I get somebody, and I get 
an answer; and then I call back again and I get a different 
answer. There does not seem to be the same answer that the 
veteran needs to get his claim processed or get his payment as 
soon as possible. That is one of the main components that came 
out, was that the individual needs to hear clear and concise 
answers from everybody and get the same answer from everybody.
    Chairman Akaka. Thank you.
    Mr. Stephens?
    Mr. Stephens. If I had to pick one thing, what I would say 
is to include the non-college degree institutions, the 
apprenticeships and on-the-job trainings, the flight and 
correspondence schools, and the other programs that were left 
off.
    As I have visited various schools and institutions, and we 
visit all different types, I have had to tell veterans who are 
not in an institution of higher learning, not in a degree-
granting institution, that they do not have increased benefits. 
And I have had them look at me and ask why. I served in Iraq. I 
served in Afghanistan. I did the same as the other men and 
women there. Why do I not have those? To be quite honest with 
you, my answer is because it is not currently in the law, but I 
recommend you contact your Member of Congress and try to get it 
put in there.
    So if I had to make one change, that is the change I would 
suggest.
    Chairman Akaka. Thank you very much, Mr. Stephens.
    Mr. Reininger. Mr. Chairman, if your question pertains to 
streamlining----
    Chairman Akaka. Mr. Reininger?
    Mr. Reininger [continuing]. The process, one of my 
suggestions would be to remove the separation of tuition and 
fees. Because the bill as it is reads that public education at 
a public university has to be covered for the veteran. I do not 
understand why the VA cannot just go ahead and pay a public 
university for the veteran's tuition.
    Then as it pertains to the Yellow Ribbon program, if there 
were a national baseline established for the Yellow Ribbon 
program, it would streamline the whole process because there 
would be no more States certifying their tuition and fees for 
the current fiscal year. There would be more separation of the 
two. It is just one payment to the school if it is a public 
school and one payment to the school if it is a private school. 
I believe that would maybe even be a cost-neutral solution 
because it will save many man-hours at the VA.
    Chairman Akaka. Thank you very much.
    Do you have a comment to make?
    Ms. DesLauriers. I am glad that my colleagues spoke before 
me because they filled in all the gaps for me. But I think the 
most important thing at this time, an immediate issue that 
needs to be resolved is the certification of tuition and fees 
being separated from the report of enrollment status in order 
that our veteran students can receive their living stipend 
without interruption.
    Chairman Akaka. Well, thank you for that. Let me pose 
another question to all of you. I think each of you has touched 
on the importance of more outreach, more outreach and exchange 
of information. My question to all of you is, what form do you 
believe this outreach should take?
    Mr. Madden?
    Mr. Madden. Thank you very much, Mr. Chairman. I know that 
Faith DesLauriers can speak more to this, but we understand 
that certifying officials are the go-to people and the 
individuals who the student veterans rely on on a daily basis, 
not only for their claim but for information regarding the 
school and how to navigate the process. I think if the VA can 
coordinate and provide more training beyond what is already 
being provided to the certifying officials, that they will get 
the information and it only benefits both parties.
    Chairman Akaka. Mr. Stephens?
    Mr. Stephens. If I could echo that sentiment also and add a 
couple of other things. The training of certifying officials is 
very important. They are the front line. Yet we also need to 
emphasize what I call the electronic means of communications. 
Today's young veterans are on Facebook, Twitter, and all those 
things I will never understand--me personally. We need to 
continue to do that, put information out there, publish 
different written publications, do welcome home letters, do 
whatever we can to get the word out there.
    Chairman Akaka. Mr. Reininger?
    Mr. Reininger. Mr. Chairman, I would like to continue that 
thought also. In terms of modern media, Facebook and tools 
available on the Internet: if the VA would transition to 
implementing those cutting edge technologies, it would create 
so much more of an interactive process.
    I heard earlier that by December there would be an 
opportunity for the veteran to log in and actually check their 
account and see what is going on. That kind of information, 
that kind of accessibility and transparency, really puts the 
veteran at ease. Everybody knows what is going on, and hours 
are being saved by doing so. So I believe modern technology is 
probably the best idea.
    For example, when the new GI Bill was rolled out initially, 
IAVA had a Web site with a very simple calculator that told the 
veteran exactly how much benefits they were entitled to and 
they were supposed to receive. I do not understand why the VA 
was not able to do that. If a nonprofit organization with much 
less funding can do that within a week, I do not understand why 
the second largest government agency is not able to do that 
just as well. Thank you, sir.
    Chairman Akaka. Thank you very much.
    Ms. DesLauriers?
    Ms. DesLauriers. Yes, sir. Again, my colleagues are making 
it very easy for me today. I think that the development of a 
Web portal is imperative to this program because the VA is 
overwhelmed with the number of phone calls/inquiries it gets. 
We certainly appreciate and admire all the work that is being 
done and the volume of work this program has put on the VBA. I 
believe that the Web portal capturing all relevant information 
so that both schools and students can identify whether a 
student is eligible and what they are eligible for, can 
certainly reduce the anxiety that goes with applying, 
receiving, and administering these programs. So I think the Web 
portal is very, very important.
    Chairman Akaka. Well, I want to thank you. This has been a 
good hearing; and I want to thank all of our witnesses, the 
first panel as well.
    It is clear that the issues involved are quite complex, and 
working toward making this program more streamlined, efficient, 
and equitable will not be an easy thing to do. But we can put 
our minds together and continue to strive at this. I was 
interested in a comment, that every 3 months, that programs are 
tried and new ones are put in place if it is needed. And that 
is one way of moving those along as quickly as we can.
    I would note, too, that VA's witnesses have remained here 
for this second panel, so they have heard you directly with 
your concerns, and we look forward also to an exchange among 
you. And we are grateful that all this happened.
    As I noted at the opening of the hearing, I will be 
introducing--I want to repeat that--introducing legislation 
before the Memorial Day break to begin the process of moving 
forward in a very deliberate way. I look forward to working 
with all of you in this effort.
    The record of this hearing will remain open for 1 week for 
the submission of written statements, questions, and responses 
to questions in writing.
    Again, I thank you. This has been a good hearing. This 
hearing is adjourned.
    [Whereupon, at 11:36 a.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              


Prepared Statement of Captain Gerard M. Farrell, USN (Ret.), Executive 
Director, Commissioned Officers Association, U.S. Public Health Service
                              introduction
    My name is Gerard Farrell. I am a retired Navy Captain and the 
Executive Director of the Commissioned Officers Association of the U.S. 
Public Health Service (COA). I represent the views of this 
Association's 7,000 members, all of whom are active-duty or retired 
officers of the Commissioned Corps of the U.S. Public Health Service 
(USPHS).
    I am limiting my comments to one element of the Post-9/11 GI Bill. 
It is the provision that permits eligible servicemembers to transfer 
their unused GI Bill educational benefits to their dependent family 
members. I respectfully ask this Committee to extend this popular 
entitlement and powerful recruiting and retention tool to the USPHS 
Commissioned Corps and the Commissioned Corps of the National Oceanic 
and Atmospheric Administration (NOAA). The USPHS Commissioned Corps has 
an active-duty force of 6,500. The NOAA Corps has an active-duty force 
of only 300.
                                summary
    As a matter of law and precedent, USPHS and NOAA Corps officers 
have been included in all GI Bill programs for the past 60 years. USPHS 
and NOAA officers are veterans under both Title 10 and Title 42 of the 
U.S. Code. Section 213(d) of Title 42 states clearly that USPHS 
officers are entitled to ``all'' programs administered by the Veterans 
Administration.
    USPHS and NOAA officers are entitled to Post-9/11 GI Bill benefits, 
with one exception: transferability. At present, they cannot transfer 
their own, unused educational benefits to dependent family members. 
This is because the statute gives transferability authority to the 
Secretaries of Defense, Army, Navy, Air Force, and Homeland Security. 
But it does not mention the Secretary of the Department of Health and 
Human Services, which is the home of the USPHS Commissioned Corps, or 
the Secretary of Commerce, which is the parent agency of the NOAA 
Corps. A powerful recruitment and retention tool is thus inaccessible 
to the Nation's two smallest uniformed services.
    The transferability option was designed as a tool to retain mid-
career servicemembers with critical skills. There is no area of Federal 
service more desperately in need of such important retention tools as 
the Public Health Service. The critical condition of the Nation's 
public health workforce is well-documented.
    Because both uniformed services are so small, the cost to the U.S. 
Treasury of extending transferability to USPHS and NOAA officers would 
be minimal relative to the overall cost of the Post-9/11 GI Bill. I 
want to emphasize this point because I am told that cost has, in fact, 
recently been raised as an obstacle. No other reason for excluding 
USPHS and NOAA has ever been advanced over the 19 months we have urged 
Members of Congress and the Administration to find a way to extend 
transferability to these two services.
    Transferability is a potentially powerful aid not only to USPHS 
recruiting, but also, indirectly, to the Department of Defense. That is 
because DOD relies increasingly on mental health specialists from the 
USPHS to treat traumatized and brain-injured servicemembers returning 
from Iraq and Afghanistan.
                               background
    In the original Post-9/11 GI Bill, approved by Congress and signed 
by the President in June 2008, USPHS and NOAA were left out entirely. 
The reason is not clear. Our assumption always has been that it was an 
unintentional oversight, given the fact that both services had been 
included in the Montgomery GI Bill.
    The Association first brought this matter to the attention of this 
Committee on July 11, 2008, with letters to all Committee members and 
their key staff people. Senator Webb's staff kindly facilitated a 
meeting with the Committee's professional staff on July 24. In 
addition, I had the great pleasure of meeting personally with the 
Chairman on September 23. I left that meeting much encouraged.
    The Veterans Administration partially corrected the original 
oversight when it developed implementing regulations last year. Its 
final rule was published on March 31, 2009. The agency cited 42 U.S.C. 
213, with regard to USPHS, and 33 U.S.C. 3002 and 3072, with regard to 
NOAA. The agency said its own General Counsel interpreted these 
statutory provisions as expanding the definition of `Armed Forces' in 
38 U.S.C.101(10) to also include USPHS and NOAA for purposes of 
benefits administered by VA. The agency concluded that service as a 
commissioned officer of USPHS or NOAA meets the `active duty in the 
Armed Forces' service requirement in section 3311 of Title 38, U.S. C. 
It said, ``We agree that commissioned officers of PHS and NOAA are 
eligible for benefits under the Post-9/11 GI Bill.''
    Well, not entirely. The agency went on to explain that ``while VA 
is responsible for administering payment of transferred benefits, the 
Department of Defense is responsible for determining eligibility for 
transfer of the entitlement to dependents. Specifically, the statute 
provides that the Secretary of Defense may authorize the Secretary of 
the Army, Secretary of the Navy, Secretary of the Air Force, and the 
Secretary of Homeland Security * * * to determine if individuals 
serving in the Armed Forces in their respective departments are 
eligible to transfer their entitlement to dependents.'' In short, the 
agency decided it had no authority to determine eligibility for 
transferring educational benefits under the Post-9/11 GI Bill. It would 
defer to the Defense Department.
    In a courtesy call shortly before the final rule was published, the 
agency's educational affairs director explained to COA why the agency 
did not see a way to include USPHS and NOAA officers in 
transferability.
    Since the VA ruling last year, this Association has appealed to 
Congress and to the Administration. We continue to seek support for 
corrective action that would fix the rest of the problem by extending 
transferability to USPHS and NOAA.
    In September, I was pleased to see the introduction in the House of 
H.R. 3657, which would accomplish that. It is under review by the House 
Veterans' Affairs Committee's Subcommittee on Economic Opportunity. 
There is no Senate companion.
    This Association has written to the President and to the Secretary 
of Health and Human Services. I have met personally with the Assistant 
Secretary for Health and the Surgeon General on several occasions. In 
all oral and written communications, the Association has emphasized the 
importance of asking Congress for transferability authority. To date, 
no such departmental request has been made, and we do not know why.
                     why transferability is needed
    The Department of Health and Human Services currently faces serious 
challenges in recruiting and retaining qualified health professionals, 
particularly physicians and dentists. This is especially true of the 
Indian Health Service. In just one region of one sparsely populated 
state, for example, there are more than 200 vacancies. In hard-to-fill 
positions, vacancies are likely to remain for two years.
    For the first time in many years, the number of physicians in the 
USPHS Commissioned Corps has dropped below 1,000. There is also an 
acute shortage of dentists.
    It is unclear to this Association whether existing incentive 
programs do not work or have not been seriously pursued. In any event, 
we understand that HHS recently awarded a contract to a major 
consulting firm, directing it to develop a recruiting program to fill 
500 vacancies for physicians, dentists, and nurses.
    The HHS Department's own need for scarce health care professionals 
reflects, in part, an increasing need on the part of the Defense 
Department. DOD relies to a significant degree on the USPHS to provide 
mental health care to traumatized and brain-injured soldiers and 
marines who are returning from Iraq and Afghanistan. In 2008, for 
example, HHS agreed to detail 200 USPHS mental health experts to the 
Defense Department in order to deliver improved clinical care to these 
servicemembers.
    The Military Coalition, a consortium of 34 military and veterans' 
organizations, wrote to this Committee in September and emphasized this 
fact. The letter (attached) requested a technical change that would 
authorize HHS and Commerce to use transferability as a career incentive 
for USPHS and NOAA Corps officers. The letter pointed out that ``HHS is 
experiencing critical medical and other specialty expertise shortages 
in the USPHS at a time when the Service is providing unique 
capabilities to the Nation.''
    The Military Coalition's letter referred not only to the need for 
better treatment of wounded warriors, but also to new USPHS 
responsibilities in the areas of emergency preparedness and disaster 
response. This includes stepped-up training of first-responders to 
protect the public's health in case of a natural disaster or terrorist 
attack.
                   why transferability is so popular
    Transferability is the GI Bill benefit that matters most to active-
duty USPHS officers, all of whom are credentialed health 
professionals--doctors, dentists, nurses, engineers, mental health 
specialists, and others. When they receive their commissions, they 
already hold college degrees. In many (if not most) cases, they also 
hold advanced or terminal degrees in their fields. While some USPHS 
officers choose to use their GI Bill benefits to pursue doctorates in 
nursing, psychology, environmental health, or other health-related 
disciplines, the vast majority would prefer to transfer their own 
unused benefits to their children. That is why transferability 
represents potentially powerful recruiting tool. It is also why 
transferability is the top legislative priority of COA and its members.
    From the perspective of HHS, there would appear to be no downside 
to asking for transferability authority from Congress. The HHS 
Secretary could use this tool as selectively as she might wish; she 
could use it a lot or not at all. As a recruiting and retention aid, 
transferability might work where other incentives apparently have 
failed. One thing is certain, however: seeking transferability would 
demonstrate to active-duty USPHS officers that their HHS leaders 
support them. From the Association's perspective, a greater boost to 
morale is difficult to imagine.
                               conclusion
    According to Federal law and agency regulations, USPHS and NOAA 
officers are--at least theoretically--entitled to all benefits 
administered by the Veterans Administration. As a practical matter, 
however, they are excluded from the Post-9/11 Bill benefit that means 
the most to them. This is the option of transferring their own unused 
educational benefits to dependent family members. This inequity can be 
remedied by this Committee.
    No plausible and substantive reason for not remedying it has been 
expressed by anyone.
    On behalf of dedicated USPHS and NOAA officers stationed here and 
around the world, I respectfully ask the chairman and Members of the 
Committee on Veterans Affairs to extend GI Bill transferability to 
these two Federal uniformed services.

    Thank you for your attention and consideration.
                                 ______
                                 
   Prepared Statement of Tim Embree, Legislative Associate, Iraq and 
                    Afghanistan Veterans of America
    Mr. Chairman, Ranking Member, and Members of the Committee, on 
behalf of Iraq and Afghanistan Veterans of America's one hundred and 
eighty thousand members and supporters, thank you for allowing us to 
submit written testimony to this Committee.
    The Post-9/11 GI Bill is the greatest investment in veterans and 
their families since World War II. This historic benefit has the 
opportunity to send hundreds of thousands of new veterans to college, 
and change the economic future of an entire generation of Americans. 
The Post-9/11 GI Bill promises to be the cornerstone for building the 
``Next Greatest Generation.''
    Since its landmark passage, IAVA has been assisting student 
veterans navigate this generous, yet complicated, new benefit. More 
than 250,000 people have visited our premier GI Bill resource, 
www.newgibill.org. Through NewGIBill.org, we offer the most accurate 
benefits calculators, Frequently Asked Questions, and one-on-one 
support through email and Twitter. Every day, we are helping more and 
more student veterans find answers to their GI Bill questions. Just 
last week, a servicemember's spouse wrote, ``Just wanted to thank you. 
You have no idea how many Web sites I've visited-including VA, DOD, 
which didn't have the answers you provided or haven't been updated 
since * * * August 2009!''
    IAVA interacts daily with veterans and their families struggling to 
navigate the new GI Bill. As a result, we've gained unique insight into 
where implementation has succeeded and where it has failed. While many 
of our members now have had the opportunity to attend school thanks to 
the new GI Bill, this success has been tempered by the largest backlog 
of GI Bill claims since the VA started tracking their performance. We 
have seen how well veterans are served when the VA is collaborative and 
communicates with key stakeholders and veterans. But we have also 
witnessed the catastrophe of non-communication and bureaucratic 
isolationism. By reviewing the VA's rocky implementation of the new GI 
Bill, we have identified some key lessons learned for the upcoming 
school year:

    1) An ounce of good information will prevent a pound of phone 
calls: The VA must be diligent about communicating the latest 
information on the new GI Bill to new veterans and their families. This 
will help set realistic expectations and prevent VA phone queues from 
dragging on indefinitely.
    2) The VA is not an island: The VA must look beyond itself to 
correct lingering problems with the new benefit. It can start with key 
stakeholders, such as the VSO community.
    3) Don't rob MGIB to pay NGIB: Veterans using the GI Bill deserve 
timely benefits and we should not put the old GI Bill on the back 
burner because the media is covering the new GI Bill.
    4) Benefits must be paid on time: The VA cannot decide to not pay 
earned benefits, such as the 2010 living allowance rates because they 
don't know how to issue the checks correctly.
    5) Slow is smooth, smooth is fast: Hastily processing GI Bill 
claims to ``clear the deck'' leads to numerous errors, confusion and 
appeals.
    6) Only as fast as the VA's slowest computer: The future of this 
new GI Bill depends heavily on successful implementation of the VA's 
long term IT solution.

    Despite the VA's initial missteps, they still have made some 
incredible progress over the past year implementing this new program. 
However, there are still several key actions that the VA must take to 
streamline implementation of the new Post-9/11 GI Bill.
    IAVA recommends that the VA:

    <bullet> Involve VSO and other key stakeholders in the development 
of future GI Bill rules, marketing campaigns, Web site redesigns and IT 
development.
    <bullet> Post a waiting time widget on the VA's GI Bill homepage 
stating, ``Now working on GI Bill claims from (fill in the date).''
    <bullet> Retroactively pay student veterans who are owed additional 
living allowance payments due to the new BAH rates and hold harmless 
any student veterans who would have received a lower living allowance 
check.
    <bullet> Reauthorize the Veterans Advisory Council on Education 
(VACoE).
    <bullet> Reinstitute the practice of disclosing the date of the 
oldest pending GI Bill claim in the Monday Morning Workload report.
    <bullet> Conduct an audit of common GI Bill processing mistakes in 
order to prepare for the summer training sessions and public report the 
results.
    <bullet> Collaborate with key stakeholders in the development of 
the student veteran portal.
    <bullet> Achieve a proper balance of resources dedicated to 
processing both new and old GI Bill and publicly report the number of 
old GI Bill users as it currently does with the new GI Bill.

    The new GI Bill has helped over 250,000 students attend colleges 
and universities. And it offers a generous benefit: the average Post-9/
11 GI Bill user has already received $11,159 this year alone. To put 
that in perspective, the average payout under the new GI Bill is 20% 
higher than the most a student veteran could receive under the old GI 
Bill. Student veterans are finally getting enough money to attend 
college.

1) An ounce of good information will prevent a pound of phone messages.
            ``I never got through, the volume of calls was at an 
                    ``unprecedented'' level and nobody was available to 
                    help. I tried, every three minutes for 6 hours 
                    straight. Four days in a row.''--IAVA Vet
    Last Fall, student veterans were getting desperate. Their rents 
were due, schools were threatening to not let them register for classes 
and the VA wasn't answering the most important question, when will 
their GI Bill checks arrive? ``They told me just to keep waiting,'' an 
IAVA vet wrote. The biggest problem facing the VA last term was not the 
fact that the GI Bill checks were late, though that was an enormous 
problem, it was the fact that the VA couldn't tell veterans when the 
checks would arrive.
    This uncertainty sparked a panic among student veterans. If the VA 
was a bank in the 1920's, we would have seen student veterans flocking 
in droves to the VA regional centers trying desperately to get at least 
some of their benefits. Instead they tried reaching out to the VA the 
only way that was available by calling the GI Bill Hotline (888) 
GIBILL1. Over a million student veterans called the GI Bill hotline in 
December alone and nearly 90% of those calls were met with busy 
signals. Of those lucky enough to get through, 30% dropped the call 
because the hold time was just too long.\1\ I bet not even Barry 
Manilow at his peak ever got that type of phone traffic for a concert.
---------------------------------------------------------------------------
    \1\ http://www.armytimes.com/news/2010/01/military--va--
droppedcalls--012210w/
---------------------------------------------------------------------------
    With the phones ringing off the hook they cut their losses and 
closed the call center for two days a week redirecting those staff 
toward processing claims. While IAVA supported this novel approach, we 
fault the VA for failing to give student veterans a reasonable 
expectation of when they would receive their benefits. The phone lines 
told veterans that they would need to wait up to 12 weeks at the same 
time the VA was testifying that the average processing time was 47 
days.\2\ The VA kept telling veterans hang on. ``They told me just to 
keep waiting.''
---------------------------------------------------------------------------
    \2\ House Committee on Veterans' Affairs; Subcommittee on Economic 
Opportunity; Education Roundtable; VA Director of Education Services 
Keith Wilson's slide presentation, December 3, 2009.
---------------------------------------------------------------------------
     ``VA has my paperwork but, can tell me absolutely no timeline 
     in which I will receive my funds. No money for rent, lights, 
                    you name it.''--Susan (IAVA Vet)
    While it goes without saying that if the VA had delivered the 
checks in a timely manner there would not have been a panic, we believe 
this over simplification of the problem misses the most important 
lesson learned from last Fall. There will always be a new error in the 
system or reason for a late check but striving to give veterans the 
most accurate and up to date information will help them have realistic 
expectations of what is to come and most importantly allow veterans to 
make plans accordingly. Knowing your GI bill check will be late 5 days 
is infinitely easier to deal with than not knowing when the check will 
come at all.
    Thankfully, the VA has begun to act on this learning point and 
launched an aggressive second semester information campaign that 
started with a firm promise of when a veteran's GI Bill check would 
arrive. We would argue that this firm promise to pay all GI Bill claims 
received by January 19th on February 1st not only sent a powerful 
message to all student veterans and VA employees but the certainty of 
the date was more important than the actual date of delivery. It 
restored confidence in a shaken program and we have not seen the wide 
scale panics we dealt with last term.
    The VA has some developed some powerful information delivery tools 
over the past year including a completely revamped GI Bill Web site, a 
GI Bill Facebook fan page with over 16,000 fans, and even a Twitter 
account with almost 850 followers. The VA even launched a nationwide 
campaign to advertise their GI Bill resources to student veterans 
across the country. IAVA has applauded the VA for taking each of these 
critical steps toward becoming the GI Bill information hub which they 
must become.
    Regrettably, after a bright start to this term, the VA is slipping 
back into old habits. Veterans calling the GI Bill hotline are being 
told they need to wait 4-6 weeks and the VA has not announced their 
average processing time since December. IAVA recommends posting a GI 
Bill waiting time widget on the VA's GI Bill homepage saying, ``Now 
working on GI Bill claims from (fill in the date)'' and reinstituting 
an old VA practice of disclosing the dates of the oldest pending GI 
Bill claims which were reported weekly in the Monday Morning Workload 
reports up until last September. Telling veterans how many checks you 
have processed and not how long they will have to wait is not helpful 
at all. Like a hungry customer waiting to order a deli sandwich, it 
always better to know how far down you are in the line then how many 
sandwiches the Deli has made for other customers.
2) The VA is not an island.
    When student veterans needed help with their GI Bill the VA's phone 
lines were nearly impossible to get through. Veterans felt like there 
was nowhere to turn to get the answers they needed. Instead of training 
a cadre of GI Bill experts among veterans groups and schools to help 
disseminate quality GI Bill information the VA's answer was to have all 
GI Bill questions go through their fatally flawed phone system.
    Why is it that the new GI Bill's tuition benefit is more 
complicated to understand than the plot line of an episode of LOST? 
Because the VA refused to consult any students, schools or veterans 
organizations in the development of their policy and the result was a 
completely unexpected system that few truly understand. The VA's 
dependence on its own internal insulated wisdom in making critical 
decisions about the GI Bill has led to some bizarre and unfortunate 
results.
    We need to start working together if we want to build the ``Next 
Greatest Generation.'' The GI Bill and the promises it brings are 
bigger than any one of us and sadly it seems like personalities, pride 
and sometime laziness stand in the way of true collaboration. It is 
commonly accepted that the world is inexplicitly interconnected and 
that all of our actions affect everyone else. We can and must do better 
to work together for the sake of all student veterans.
    In the beginning, the VA's efforts to collaborate could have served 
as a model for other agencies. IAVA was inspired when the VA took to 
the road last January and held gigantic town halls in Los Angeles, DC 
and Chicago to collect feedback on their proposed regulations. 
Additionally VA rulemakers carefully weighed public comments and 
drafted well informed GI Bill rules. VA held focus groups with VSOs and 
student veterans which helped convince the VA, among other things, to 
strike the first line of a letter intended for all 2 million GI Bill 
eligible veterans that read, ``Public Law 110-252 created a new 
educational assistance program called the Post-9/11 Veterans 
Educational Assistance Act of 2008.`` The Veterans Advisory Council on 
Education (VACoE) held its final meeting discussing the necessity of 
public outreach and the impact of excluding certain groups of veterans 
such vocational student from the new GI Bill.
    The door to collaboration slammed shut in February when the VA 
released their preliminary tuition chart. The VA's proposed tuition 
scheme was incredibly flawed because it was confusing and inequitable. 
Students, schools, VSOs and legislators were all surprised at the 
proposed tuition numbers which had student veterans from some states 
receiving as little as $2,000/year and other states receiving over 
$40,000/year. Even more surprising is that the VA never consulted 
anyone outside of the VA about such a radical departure from the 
original language of the law. Once the VA released their proposal 
publicly they were unwilling to heed our concerns because they feared a 
public backlash. What could have been resolved in an hour long 
discussion with key stake holders is now an entrenched policy.
    ``I was confused * * * and I was wondering why there is a huge 
    difference in tuition coverage for schools that cost relatively 
                 the same amount.''--Joshua (IAVA Vet)
    When the delayed payment crisis peaked last Fall the lines of 
communications were still closed. There didn't even appear to be a 
``red phone'' where the VA could just call the VSOs and discuss offline 
the problems they were facing. So what happened next? Friction, 
acrimony, name calling and a lot of bad blood. While the intense media 
pressure forced the VA's hand to act and issue emergency checks, the VA 
was even less willing to collaborate then before. And while we 
acknowledge that unlike the tuition example, friction over the delayed 
checks was inevitable the level of frustration and complete lack of 
professional and productive dialog Could have been avoided.
    More recently the VA has been dealing with the recoupment of these 
same emergency checks. Once again we were frustrated to learn the VA 
was not consulting with VSOs on a major policy decision, how much 
should the VA withhold from the veterans' monthly living allowances. We 
were forced to seek information about this issue from personal VA 
sources and the initial reports were disturbing. Thankfully VA 
leadership heeded our private complaints before we were forced to take 
the complaints publicly. Although this issue resolved itself we believe 
that this continued lack of collaboration is simply unsustainable.
    We want to be partners with the VA to ensure the successful 
implementation of this great new program. In order to ensure 
collaboration, IAVA strongly recommends that the VA consistently 
involve key stakeholders (including VSOs) in ``development'' of future 
GI Bill rules, marketing campaigns, Web site redesigns and IT 
development. We also believe the VA would greatly benefit from the 
advice of outside industry experts and we recommend reauthorizing the 
Veterans Advisory Council on Education (VACoE) which historically 
provided that expertise.
3) Don't rob MGIB to pay NGIB.
    The VA has made remarkable progress this term processing new GI 
Bill claims. The backlog which capped out at over 65,000 pending new GI 
Bill claims last November is now only 6,000. IAVA applauds the VA's 
hard work toward accomplishing this incredible feat. However, we are 
concerned that the VA may be focusing a disproportionate amount of 
energy on the new GI Bill while the old GI Bill claims are lagging 
behind. As the chart below illustrates nearly 91% of the current 
backlog is made up of old GI Bill claims with nearly 60,000 claims 
outstanding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Furthermore, while the GI Bill backlog is significantly better than 
last term the backlog is still the highest it has ever been at this 
point in the school year since the VA started publishing weekly reports 
back in 2003. The chart below outlines the 2009-2010 backlog and 
compares it with the high and low watermarks of GI Bill backlogs from 
2003-2009. In a nutshell, we still have a serious backlog.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    As the VA is planning resources for next year we encourage the VA 
to continue working toward alleviating the GI Bill backlog, while 
paying particular attention toward achieving a proper balance of 
recourses dedicated toward processing both new and old GI Bill claims.
4) Benefits must be paid on time.
            ``The VA lady told me that they had not updated the system 
                    to the 2010 BAH rates yet and that we were still 
                    getting the 2009 rate. Is this correct?''
                    --Scarlett (IAVA Vet)
    On January 1st the military increased their living allowance rates 
2.5% nationally and consequently student veterans using the new GI Bill 
should have also received an increase in their living allowance checks. 
However, the VA simply ignored these mandatory rate changes and never 
made any formal announcements either way. The only mention of the issue 
by the VA was a tweet on the VA's Twitter account on December 18th.
    DeptVetAffairs: For GI Bill students: BAH rates will remain the 
same to begin the spring semester. Any changes won't happen until later 
in the spring.
    This announcement never made it on the VA's GI Bill Web site, their 
FAQ page or even the GI Bill Facebook page. IAVA believes that major GI 
Bill announcements such as tuition rate changes which have happened 
seven times since August 1st and policies concerning living allowance 
rates warrant front page news on the VA's GI Bill Web site.
    While 2.6% average increase might not seem like something to get 
worked up about, please keep in mind that some veterans are owed over a 
$1,000 this Spring alone. For example a student veteran attending 
University of Massachusetts, Lowell, would have received an increase of 
$261/month.
    The VA has informally defended their actions by saying they didn't 
want to lower GI Bill rates for those students attending schools where 
the BAH rate decreased. However, IAVA's analysis of the 2010 BAH rates 
shows that over 4,000 schools would receive an increase in living 
allowance rates. The VA has also conceded that they didn't have the 
computing capacity to modify their payment system in time for the new 
term. While, IAVA is sympathetic to these concerns it does not absolve 
the VA from making a formal promise to these student veterans to pay 
the difference once the system is up and running. This is exactly what 
the VA did when they implemented the Chapter 1607 REAP program.
    IAVA recommends that the VA formally announce that they will 
retroactively pay student veterans who are owed additional living 
allowance payments due to the new BAH rates. The VA should also 
announce that they plan to hold harmless any student veterans who would 
have received a lower living allowance check because the VA did not 
have their system in place in time.
5) Slow is smooth, smooth is fast.
            ``The VA says they paid my tuition twice, but the school 
                    says they only received one payment. Until this is 
                    all straightened out the VA is with holding my 
                    monthly allowance. This is what I live on. It has 
                    been three weeks now and still not resolved and the 
                    VA said it could take months. I cannot afford to 
                    not get my allowance for months. And I don't 
                    understand why I am being held responsible since 
                    this is all between the school and the VA.''--Corey 
                    (IAVA Vet)
    When the VA makes a mistake processing a GI Bill claim, student 
veterans like Corey are plunged into a bureaucratic nightmare. Student 
veterans are forced to fight with the VA and their schools 
simultaneously. While often these problems could be solved by a simple 
phone call or two the VA phone lines are usually busy.
    Here at IAVA we have fielded thousands of questions from student 
veterans about their GI Bill benefits including Corey's above. We have 
received so many of these types of issues that we were forced to create 
separate categories called ``VA processing mistakes'' and ``WITC4'' 
(What Is This Check For) to track the resolution process. While local 
VA regional staffs have been gracious enough to start handling these 
cases for us, we are concerned that in the VA's rush to get the checks 
out the door many processing mistakes are being made.
    IAVA encourages the VA to incorporate into their corporate culture 
a key lesson that every deploying servicemember to Iraq and Afghanistan 
is taught, ``slow is smooth, smooth is fast.'' This credo is taught to 
servicemembers as they are learning everything from overcoming an 
obstacle to breaching a building. Servicemembers are reminded that 
getting it right the first time is more important than rushing through 
and making mistakes.
    IAVA acknowledges that many of the problems will be alleviated when 
the VA institutes its automated processing system, however that system 
will not be up and running until at the earliest December and student 
veterans like Corey can't wait that long to get these issues 
straightened out. IAVA recommends that the VA should conduct an audit, 
or at least a comprehensive sampling, of common GI Bill processing 
mistakes in order to prepare for the summer training sessions of their 
GI Bill claims processors. The VA should also publicly report the known 
error rates so that veterans like Corey don't feel like they are alone 
when they have to say to the VA and their school that something is 
wrong.
6) Only as fast as the VA's slowest computer:
            ``Can the VA be persuaded to make GI Bill account 
                    information available to the Vet for review? 
                    Something that lists all the transactions actions 
                    that have occurred. Providing this information 
                    would alleviate anxiety about claims status, reduce 
                    the volume of calls and provide more transparency. 
                    I find it very difficult to comprehend my GI Bill 
                    account and have NO idea if it being handled 
                    correctly. If there is an error, I have no way to 
                    know until the VA sends me a bill or my school 
                    contacts me.''--Chief Petty Officer Gerns
    The VA's long term IT solution to processing the new GI Bill has a 
lot of promise, including an answer to Chief Gerns' request above. The 
long term IT solution is supposed to automate the processing of new GI 
Bill claims lowering processing times dramatically while providing a 
portal for students to monitor their GI Bill claim similar to how UPS 
will let someone track a package. IAVA cannot stress enough how 
critical the successful implementation of a fully functioning and 
customer friendly IT system will be toward building the next greatest 
generation.
    To ensure that the long term solution lives up to its full 
potential we implore the VA to start collaborating with key 
stakeholders, especially in the development of the student veteran 
portal. Working together we will be able to develop a model VA benefits 
delivery portal that veterans will see as an invaluable resource in 
their quest for higher education.
7) The new GI Bill must be upgraded and simplified.
    Although the following section is a little outside the scope of 
this hearing we believe that any discussion about moving forward with 
the new GI Bill must directly deal with the gaps in coverage and 
confusing provisions that leave many veterans with a bitter taste in 
their mouths and other struggling to afford higher education.
    The Military Coalition (TMC) and IAVA recommend the following key 
upgrades to the new GI Bill:

    A. Valuable Job Training: Grant Post-9/11 GI Bill benefits to 
veterans who enroll in vocational programs, apprenticeships and On the 
Job training (OJT) because a veteran studying to become an EMT or a 
mechanic is denied the generous new GI Bill.
    B. Full Credit For Full Time Service: Authorize the new GI Bill for 
Title 32 Active Guard Reservists (AGRs) because a National Guardsman 
working full-time in an armory will be denied the new GI Bill while his 
Reservist counterpart working is eligible for the full GI Bill.
    C. Fairness For Disabled Veterans: Provide living allowances for 
full-time distance learners based on the zip code in which the veteran 
lives because a disabled veteran taking online classes is currently 
denied the means to support himself.
    D. Untangle The Yellow Ribbon Program: The tuition benefit is so 
confusing that it would give a tax lawyer a headache to decipher. We 
must simplify the benefit by fully covering the cost of tuition at any 
public school, while setting a baseline for the Yellow Ribbon program 
for all private and graduate schools.

    These proposed upgrades will reduce VA processing times, by pruning 
unnecessary bureaucratic steps, and also grant many veterans the access 
to this generous benefit that they have sacrificed so much to earn. We 
also propose the following upgrades to help upgrade and simplify the 
new GI Bill:

    <bullet> Extend Yellow Ribbon to National Guard
    <bullet> Grant Active Duty a book stipend
    <bullet> Authorize transfer of GI Bill to adult children
    <bullet> Expand the number of certificate tests covered
    <bullet> Allow medically discharged & retirees to transfer GI Bill
    <bullet> Implement fair change over process from the old to the new 
GI bill
    <bullet> Count Boot Camp toward GI Bill eligibility
    <bullet> Ensure enlistment bonuses are paid
    <bullet> Allow PHS & NOAA officers to transfer GI Bill
    <bullet> Align character of discharge requirements with WWII GI 
Bill


                 IMPROVEMENTS TO THE POST-9/11 GI BILL

                              ----------                              


                         TUESDAY, JULY 21, 2010

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:31 a.m., in 
room 418, Russell Senate Office Building, Hon. Daniel K. Akaka, 
Chairman of the Committee, presiding.
    Present: Senators Akaka, Rockefeller, Murray, Tester, 
Begich, Burris, Burr, Isakson, and Brown of Massachusetts.

     OPENING STATEMENT OF HON. DANIEL K. AKAKA, CHAIRMAN, 
                    U.S. SENATOR FROM HAWAII

    Chairman Akaka. This hearing on the Senate Committee on 
Veterans' Affairs will come to order.
    Aloha and good morning to all of you here, especially our 
panel and the Members of the Committee. Welcome each of you to 
this hearing on the proposed Post-9/11 Veterans' Educational 
Assistance Improvements Act of 2010.
    As one of the only three current senators who received 
benefits under the original GI Bill after World War II, I know 
firsthand the value of this program. That is why I was so 
pleased to join Senator Webb in cosponsoring the bill that 
created this important new education benefit which became 
effective August 1 of last year. We know that there is a great 
value to this new benefit for the veterans who are currently 
taking advantage of it. We have come to understand, however, 
that there are significant and complex issues relating to this 
new benefit package.
    Since the original legislation did not have the usual 
vetting by the Committee, it has come to light that there are a 
number of provisions in need of modification. Keeping in mind 
that the goal is to have a streamlined program for 
beneficiaries and administrators, a number of improvements are 
also in order so that benefits are delivered in a timely, 
accurate, and equitable way.
    When I introduced my legislation, I intended for it to 
serve as a starting point for discussion about needed changes. 
That outcome has been realized. Veteran servicemembers, 
institutions of higher learning, and many others have come 
forward with suggestions and ideas for improvements. It is 
important that we all work together to address issues involved 
in a considered and a deliberate way.
    What we will hear this morning will help us continue toward 
that goal. I stress, however, that this legislation will not 
mark a stopping point for work on the New GI Bill. Through the 
discourse generated by the introduction of this bill, 
additional concerns have been raised. These include addressing 
fraud and abuse and ensuring that only programs offering 
legitimate education and training are approved for benefits.
    Another important issue is eligibility for benefits for 
members of the Guard and Reserve. These are important issues, 
but it is vital that we move now to put the proposed 
streamlining and operational improvements in place as soon as 
possible.
    As chairman, I will continue to work on the remaining 
concerns. So I look forward to hearing from the witnesses and 
my colleagues. So let me call now on our ranking member, 
Senator Burr, for his opening statements.
    Senator Burr?

        STATEMENT OF HON. RICHARD BURR, RANKING MEMBER, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Burr. Aloha, Mr. Chairman.
    Chairman Akaka. Aloha.
    Senator Burr. And thank you for this hearing. Thank you to 
all of our witnesses. I welcome you today, and I apologize to 
you upfront that I'm going to have to periodically go out. I 
have got an energy markup that is in another building, and 
unfortunately, sort of overlays with this, and the majority 
leader is so insistent on bringing energy to the floor, I do 
not want to be left out of the debate.
    I want to thank you, Mr. Chairman. I appreciate the 
opportunity to join with you to discuss this important topic, 
and most importantly, how we can improve the post-9/11 GI Bill 
so it will work better for our military personnel, veterans, 
and their families.
    Mr. Chairman, before I discuss that, I want to comment on 
an ongoing problem with getting information from the Department 
of Veterans Affairs. On Monday, I noticed with interest that 
the VA issued a press release touting VA's commitment to 
transparency. Because it's updated, it's open government plan, 
and I would tell the representatives from the VA here today, 
while I think it's great that the VA had made a commitment to 
transparency, I'm much more interested in whether the agency is 
actually keeping these commitments. After all, keeping a 
commitment is the most important part. I hope this press 
release is an indication that the VA will be more responsive to 
inquiries from this Committee, the Senate Veterans' Affairs 
Committee.
    As primary example, VA's lack of transparency to date, and 
I would point to the VA's continued failure to answer my 
questions about the VA's fiscal year 2011 budget. After the 
Committee's budget hearing in February, I sent over 300 
questions to the VA, asking for more information about portions 
of that important budget. It took three-and-a-half months for 
VA to provide answers to the bulk of those questions. But even 
then, many of the responses did not contain the information I 
had requested or required further clarification. So nearly a 
month ago, I sent more than 30 follow-up questions to the VA. 
To date, I have not received an answer to over two dozen of my 
original questions about the VA's budget, and I have not 
received answers to any of my follow-up questions. On top of 
that, the VA has not responded to a number of other requests 
for information, data, and briefings from my office.
    Mr. Chairman, for this Committee to perform its oversight 
and legislative functions, we need the full cooperation of the 
administration. Receiving accurate, timely, candid responses 
from VA is essential to our effort to improve the lives of 
veterans, their families, and their survivors. I have asked 
each VA nominee if they would live up to the standard, and all 
have agreed. But, clearly, that's not happening.
    Mr. Chairman, the situation simply can not be allowed to 
continue. I appreciate the efforts you have already made to 
help with the problem, and hope that we can continue to work 
together to find the solution.
    Let me just add on a personal note to my colleagues, having 
gone through the last 4 months of exchanges, it's become very 
clear to me why veterans get frustrated with the Veterans' 
Administration. We have got to see the human face behind what 
we do in everything that we do, and it's obvious that decisions 
are made as it relates to this Committee, to our functions, and 
people within the Veterans' Administration do not feel that 
we're an important part of the process. That will change.
    As for today's topic, Mr. Chairman, there's no doubt that 
the Post-9/11 GI Bill provides valuable benefits for many 
veterans and their families. But as we will discuss today, this 
new program also has a number of shortcomings, including 
complexities, inequities of benefits, and technical flaws.
    In fact, I have heard from veterans in North Carolina who 
are concerned that some Guard members are not eligible for 
these benefits. That veterans may not receive fair benefits if 
they attend school online, and that students taking vocational 
training might not receive any benefits at all.
    Another North Carolinian was frustrated that he would have 
received more benefits if he had switched to the Post-9/11 GI 
Bill after using up his benefits under an older education 
program--a pitfall VA did not help him avoid.
    All of this shows that there's a lot of work to be done so 
that this program will provide fair, user-friendly benefits, 
and more importantly, will allow veterans and their families to 
make the educational choices that best meet their needs. In our 
effort to make improvements, we should carefully consider 
whether any proposed changes will advance those specific goals.
    On a final note, Mr. Chairman, I want to say a few words 
about the path forward. At a hearing in April, you mentioned 
how important it was that we all work together to fix the 
problems with the Post-9/11 GI Bill. I agree, and in fact, 
committed at that hearing to working with you on legislation to 
do just that. So it was disappointing that you then proceeded 
alone at introducing the bill.
    As we move forward, I hope we can truly work together to 
improve the educational benefits for our Nation's veterans and 
for their families. I thank the Chair.
    Chairman Akaka. Senator Tester, for your opening statement?

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Yes. Thank you, Mr. Chairman. I want to 
thank you for holding this hearing today. I know you have to 
leave early, so I'll try to be brief.
    When we discussed the implementation of the New GI Bill 
back in April, and I thought it was one of the better hearings 
that we have had around here, many of us on this Committee had 
some real questions and concerns about the limitation of the 
Post-9/11 GI Bill. To its credit, the VA addressed many of 
them, and has made some suggestions about how we can address 
more issues. I hope that we can expect the process for veterans 
and for the VA to be a bit smoother this fall than it was last 
year.
    The Chairman has introduced a very good bill, which 
addresses some of the concerns that I have heard from 
Montanans. Most importantly, the Chairman's bill makes eligible 
for GI benefits a number of National Guardsmen who had been 
inadvertently left out of the original bill. It also creates a 
modified housing allowance for folks who are enrolled in online 
courses. That's important in a highly-rural State like Montana, 
where many folks take their courses online.
    The Chairman's bill would add a host of new educational 
opportunities to the GI Bill eligibility, including more 
vocational opportunities. That's important. And it increases 
the processing payments to colleges and universities to help 
make sure they have the resources to handle veterans' claims. 
Those are all critical elements, and that's why I intend to 
cosponsor this bill offered by Chairman Akaka.
    I would like to also add that for a great many veterans it 
is a college veterans' education representative who is the face 
of the GI Bill, not the VA, and it's important to remember 
that. The schools are the ones who must help the veteran 
navigate through the red tape. The colleges are the ones who 
tell the veteran how their claim is proceeding within the VA. 
That means that communication between the VA and the schools 
must be perfect, nothing less.
    From what I understand, it's getting better. We still have 
a ways to go, but I do believe that things are getting better, 
and I hope that trend continues.
    With that, Mr. Chairman, I appreciate the hearing.
    Chairman Akaka. Thank you very much, Senator Tester.
    Senator Brown from Massachusetts?

                STATEMENT OF HON. SCOTT BROWN, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Brown of Massachusetts. Good morning, Mr. Chairman. 
Good morning to the folks who are here to testify.
    I'm just eager to start the hearing, Mr. Chairman, so, I'll 
defer and get right at it. Thank you.
    Chairman Akaka. Thank you very much, Senator Brown.
    Senator Murray?

                STATEMENT OF HON. PATTY MURRAY, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Murray. Mr. Chairman, thank you so much for holding 
this hearing today on legislation to improve the Post-9/11 GI 
Bill.
    We all know that education benefits are one of the most 
important tools for our military to recruit and retain our 
troops. If we're really committed to maintaining our Nation's 
ability to recruit and retain the best and the brightest, we 
have got to make sure that the education benefits offer real 
incentives to our servicemembers and to their families, but we 
have also got to make sure that these benefits meet our 
commitment to provide a smooth transition between military 
service and the civilian world for veterans.
    The Post-9/11 GI Bill was a big step forward in meeting 
this obligation, and I was delighted to work with many people 
on this Committee and in this room in getting it passed, and I 
look forward to working with this Committee now to improve it 
in the coming months. We know the implementation of this was 
far from perfect and this Committee does need to learn from the 
missteps as we work to improve the program. We know the bill 
was just beginning to address these issues, as many of our vets 
coming back from Iraq and Afghanistan find that this bill does 
not meet their educational needs.
    Veterans have told me, as well, about being unable to use 
their GI Bill benefits for apprenticeship programs in 
particular that they tell me would help them get better jobs. 
I, too, have heard from veterans who were not able to use the 
benefits to pay for needed distance learning education 
programs. And, of course, we have all heard about the red tape 
and delays that faced a lot of our veterans who are trying to 
get their new benefits.
    So I look forward to working with everyone to improve this 
program so all of our veterans can really realize the full 
benefits of the Post-9/11 Bill. But when it comes to making 
sure that veterans have the ability to make it in the civilian 
world and the civilian workplace, education benefits are just 
one piece of this larger challenge.
    Mr. Chairman, I introduced the Veteran Employment 
Assistance Act earlier this year to try and address this 
challenge comprehensively. Far too often, our veterans go from 
the battlefield to the working world, and they face really 
unique challenges. I have talked to a number of veterans in my 
State, who are disciplined, who are technically-skilled 
workers, yet time and time again, they are facing real 
difficulties in getting a job in this market.
    In fact, some veterans have told me that they leave off of 
their resume the fact that they are a veteran because they 
believe there is a stigma for veterans trying to get 
employment. National Guard members, too, have told me about 
coming home to find out they've been laid off from the job they 
had because it does not exist at the company anymore, and a lot 
of them have told me that the Pentagon and VA Transition 
Programs are not working for them. They tell me that they 
struggle to have employers in the civilian world really 
understand what skills they have learned in the military and 
how to translate them to a resume.
    So all of those stories have really convinced me that we 
need a broad new legislative approach, and the bill I 
introduced includes a series of proposals to create new 
employment programs, expand some good existing ones, and assess 
how to improve the ones that we have now.
    One of my bill's provisions is actually before the 
Committee today in the form of Senator Klobuchar's Post-9/11 
Veterans' Job Training Act. I worked with Senator Klobuchar to 
include the Post-9/11 Veterans' Job Training Act in my package 
because I believe it provides a really important benefit to 
veterans. What it does is expand the Post-9/11 GI Bill to allow 
returning veterans to use their benefits for apprenticeship and 
worker training programs, and that will help them get the 
skills they need so they can provide a stable job for their 
families. I think it's a great commonsense provision that will 
benefit our veterans, our employers, and our local communities. 
I will be working with all of you in the coming weeks to move 
that and move the entire Veteran Employment Assistance Act as a 
whole forward in the Senate.
    So, thank you very much, Mr. Chairman, for having this 
really important hearing. I appreciate it.
    Chairman Akaka. Thank you very much. I would like at this 
time to welcome our first panel this morning, representatives 
from VA and DOD.
    Our first witness is Keith Wilson, the director of VA's 
Education Service. With him is John Brizzi, Assistant General 
Counsel. Now, from the Department of Defense, we're joined by 
Robert Clark, assistant director of Accession Policy.
    Before we get started, I also want to extend my sincere 
thanks to each of you for the valuable assistance you have 
provided to the Committee staff on this important issue. It has 
been really helpful to us, and I welcome each of you. But 
before I call on you for your testimony, let me ask Senator 
Begich for any opening statement that you may have.

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. I'll pass, Mr. Chairman.
    Chairman Akaka. Thank you.
    Mr. Wilson, will you please proceed with your statement?

    STATEMENT OF KEITH WILSON, DIRECTOR, EDUCATION SERVICE, 
  DEPARTMENT OF VETERANS AFFAIRS; ACCOMPANIED BY JOHN BRIZZI, 
                   ASSISTANT GENERAL COUNSEL

    Mr. Wilson. Thank you, and good morning Mr. Chairman, 
Ranking Member Burr, and other Members of the Committee. I'm 
pleased to appear before you today to provide views on several 
bills affecting VA's education programs, most notably S. 3447. 
I am accompanied today by Mr. John Brizzi of VA's Office of 
General Counsel.
    Let me start by congratulating you, Mr. Chairman, and your 
staff, as well as many other senators who have worked hard to 
put forward legislation to make improvements in education 
programs administered by VA. The Department appreciates your 
and your staff's consultation throughout the entire process.
    Implementation of the historic Post-9/11 GI Bill was and is 
a top priority. Since inception of this new historic program, 
VA has issued nearly $4 billion in payments to over 295 
individuals and their educational institutions. Mr. Chairman, 
your bill, S. 3447, would enhance certain provisions of the 
Post-9/11 GI Bill, as well as make improvements in other VA 
Educational Assistance Programs.
    Section 2 contains potential impact on military recruitment 
and retention, and VA respectfully defers to DOD as well as the 
Coast Guard regarding the merits of those proposed changes. 
However, we do note that the amendment would be consistent with 
qualifying requirements under the Montgomery GI Bill and the 
Reserve Educational Assistance Program. We also note that this 
section would generate PAYGO costs, which would require an 
appropriate and acceptable offset.
    Concerning Section 3, VA supports the streamlining of 
tuition and fee benefits for students attending public 
institutions and establishing a maximum payment cap for 
students attending private institutions. The manner in which 
institutions assess charges varies wildly from State to State 
and from school to school. VA also does not object to expansion 
the program to permit payment of vocational, flight, 
correspondence, and apprenticeship or on-the-job training 
programs, subject to Congress identifying appropriate and 
acceptable PAYGO offsets. However, we believe several technical 
corrections to the bill as drafted would be necessary to enable 
VA to administer this section properly.
    Section 4 of S. 3447 would permit individuals to make more 
than one licensing and certification test. VA does not oppose 
this proposed amendment subject to identifying PAYGO offsets.
    VA respectfully defers to DOD concerning Section 5, since 
this section impacts military recruitment and retention.
    Section 6 would authorize DOD to permit an individual to 
transfer his or her entitlement to benefits under the Post-9/11 
GI Bill after an individual is no longer a member of the Armed 
Forces. The Administration is still reviewing this section and 
we will provide written reviews once VA completes a cost 
estimate of the entire bill.
    Section 7 of the bill would prevent individuals eligible 
for National Call to Service Incentives and the Post-9/11 GI 
Bill from receiving payments concurrently. VA supports this 
provision. VA has also identified other areas of potential 
duplication of benefits, and would be pleased to work with the 
Committee to include language that would ensure against 
duplication of benefits.
    Section 8 of the bill would provide VA not approved, non-
accredited courses of education pursued in whole or in part by 
distance learning. This change would be similar to the existing 
rule for courses of education pursued by independent study. VA 
currently does not approve non-accredited distance learning 
programs of education. Nonetheless, we would not object to this 
amendment.
    VA does not object to the proposed increase in the 
reporting fee contained in Section 9 subject to identifying 
appropriate offsets. In addition, however, VA believes this 
section should be further amended to include language requiring 
educational institutions to use the reporting fee to support 
veterans' programs and VA certifying official activities.
    Section 11 of the bill would remove VA's authority to make 
interval payments, payments between breaks, terms, quarters, et 
cetera. VA does not support this amendment because the interval 
payments are paid to the individuals to help with their living 
expenses during breaks between enrollment periods. Currently, a 
student is not eligible for interval pay if the break is more 
than 8 weeks long.
    We note that the amendment proposed in S. 3447 would be 
effective the date of enactment. VA is working aggressively on 
a new payment system to support existing Post-9/11 GI Bill 
provisions.
    Since we have concerns about changes to the eligibility 
criteria impacting our current efforts, as well as our ability 
to implement the provisions on the effective date of enactment, 
we strongly recommend the amendments made by this bill take 
effect no earlier than August 1, 2011.
    Mr. Chairman, we will provide the Committee with our 
estimates in the entire bill for the record. In the interest of 
time, I will defer oral comments on S. 1785, 2769, 3082, 3171, 
and 3389, and respectfully refer the Committee to my written 
testimony.
    Mr. Chairman, this concludes my statement. I'd be happy to 
answer your questions or any questions of the Committee. Thank 
you.
    [The prepared statement of Mr. Wilson follows:]
  Prepared Statement of Keith M. Wilson, Director, Education Service, 
                  U.S. Department of Veterans Affairs
    Good morning, Mr. Chairman, Ranking Member Burr, and other Members 
of the Committee. I am pleased to be here today to provide the 
Department of Veterans Affairs' (VA) views on several bills that would 
affect educational assistance benefits for Veterans, Servicemembers, 
and their dependents--most notably, S. 3447. I am accompanied today by 
Mr. John Brizzi of VA's Office of the General Counsel.
    Let me start by congratulating you, Mr. Chairman, and your staff, 
as well as the many other Senators who have worked to put forward 
legislation to make improvements to the educational programs VA 
administers on behalf of our Nation's Veterans. The Department 
appreciates your staff's consultation throughout the entire process. 
Implementation of the historic Post-9/11 GI Bill was, and is, a top 
priority for President Obama, Secretary Shinseki, and the entire 
Department. Secretary Shinseki is committed to making sure that all 
eligible student Veterans who are interested receive the education 
benefits they earned in defense of our Nation. Since inception of this 
historic new program, VA has issued nearly $4.0 billion in Post-9/11 GI 
Bill benefit payments to over 295,000 individuals and their educational 
institutions.
                                s. 3447
    Mr. Chairman, your bill--S. 3447, the ``Post-9/11 Veterans 
Educational Assistance Improvements Act of 2010''--would enhance 
certain provisions of the Post-9/11 GI Bill (chapter 33 of title 38, 
United States Code), as well as make improvements in other VA 
educational assistance programs.
    Under the Post-9/11 GI Bill, individuals with qualifying periods of 
active duty of 36 months or more are eligible for payment of tuition 
and fees up to the highest in-state public school tuition for an 
undergraduate degree, monthly housing allowances, and books and 
supplies stipends. Individuals with less than 36 months of service are 
eligible, in general, for the same benefits. However, their benefits 
are proportionately lower (ranging from 90 percent to 40 percent) based 
on their length of service. In addition, as a retention incentive, the 
Department of Defense (DOD) may permit a member of the Armed Forces to 
transfer all or a portion of his or her Post-9/11 GI Bill benefits to a 
spouse and/or children. S. 3447 would amend the Post-9/11 GI Bill by 
expanding eligibility for certain individuals and by modifying the 
amount of assistance and types of approved programs.
    Section 2 of the bill would amend the eligibility criteria under 
chapter 33 by modifying the definitions of qualified active service 
performed by members of the Guard and Reserve. The changes would: (1) 
clarify that Active Guard Reserve (AGR) members serving under title 10, 
United States Code, ``for the purposes of organizing, administering, 
recruiting, instructing, or training the reserve components of the 
Armed Forces,'' are covered, and provide that all other active service 
under title 10 must be in support of a contingency operation (as 
defined in 10 U.S.C. Sec. 101(a)); (2) extend coverage to include full-
time National Guard service under title 32, United States Code, for the 
purposes of organizing, administering, recruiting, instructing, or 
training the reserve components of the Armed Forces; and (3) extend 
coverage to National Guard members serving under section 502(f) of 
title 32 when ordered to active service by the President or the 
Secretary of Defense for the purpose of responding to a national 
emergency declared by the President and supported by Federal funds.
    This section also would clarify that an honorable discharge would 
be required to establish eligibility under the Post-9/11 GI Bill in the 
case of an individual who is released from active duty in the Armed 
Forces: (1) due to a medical condition that preexisted service and that 
is not service-connected; (2) for hardship; or (3) for a physical or 
mental condition that was not characterized as a disability and did not 
result from an individual's own willful misconduct, but did interfere 
with the individual's performance of duty, as determined by the 
Secretary concerned in accordance with regulations prescribed by the 
Secretary of Defense.
    Finally, section 2 would amend 38 U.S.C. Sec. 3311(d)(2) to exclude 
attendance at the Coast Guard Academy as qualifying service under the 
Post-9/11 GI Bill and expand the definition of entry-level and skill 
training for the Army to include ``One Station Unit Training.''
    Because of their potential impact on military recruitment and 
retention, VA respectfully defers to DOD and the Coast Guard regarding 
the merits of the proposed changes to qualifying active-service 
requirements. However, we note that this section will generate PAYGO 
costs, which would require an appropriate and acceptable offset.
    We note that the amendments regarding qualifying title 10 service 
and extending coverage to Guard members under title 32, United States 
Code, would be consistent with qualifying active service under the 
Montgomery GI Bill (MGIB) and the Reserve Educational Assistance 
Program (REAP). In addition, the proposed amendment clarifying that 
certain service must result in an honorable discharge, described above, 
is similar to the honorable discharge requirements applicable to other 
covered individuals. Last, the amendment excluding, as qualified active 
service, attendance at the Coast Guard Academy is also similar to 
existing provisions that exclude attendance at the other military 
service academies.
    Section 3 would modify the amount of educational assistance payable 
in the following areas: With regard to tuition and fee payments (which 
would still be subject to the 40-100 percent payment tiers in 38 U.S.C. 
Sec. 3313(c)), for those enrolled in a public institution of higher 
learning, VA would pay tuition-and-fee benefits based on the charges 
reported. This would include students enrolled in graduate programs and 
students charged out-of-state tuition rates. For those enrolled in a 
private or foreign institution of higher learning, VA would base 
payment on the lesser of the charged tuition and fees or a maximum 
tuition-and-fee cap. The maximum cap would be computed based on figures 
obtained from the Department of Education's National Center for 
Education Statistics. The figure used would be the average of 
established charges at all institutions (public and private) in the 
U.S. for a baccalaureate degree for the most recent academic year.
    With regard to housing stipends (which would still be subject to 
40-100% payment tiers in 38 U.S.C. Sec. 3313(c)), for individuals 
enrolled in institutions of higher learning in resident programs, the 
monthly housing stipend would be prorated based on training time. For 
example, a student training at the three-quarter-time rate would 
receive three fourths of the monthly housing stipend rather than the 
full monthly housing stipend. Students enrolled at foreign institutions 
would be subjected to the same rule. However, if the housing allowance 
based on training time is greater than the national average basic 
housing allowance, VA would pay the lesser amount. For students 
enrolled in a distance learning program at more than the half-time 
rate, VA would pay 50 percent of the housing allowance otherwise 
payable.
    Section 3 would also expand benefits to include payment for 
enrollment in programs offered by vocational schools, correspondence 
school-training establishments, on-the-job training and 
apprenticeships, and flight schools. For those individuals pursuing 
programs offered by vocational schools, VA would pay the lesser of the 
established charges or a maximum fee cap. That cap would be computed 
based on figures from the Department of Education's National Center for 
Education Statistics. The figure used would be the average of 
established charges at all institutions (public and private) in the 
U.S. for a baccalaureate degree for the most recent academic year. In 
addition, VA would pay a monthly housing allowance based on the 
military's basic allowance for housing (BAH) of an E-5 with dependents 
based on the Zip Code of the institution.
    For those individuals pursuing a program of apprenticeship/on-the-
job training, trainees would receive two monthly stipend payments. One 
would be based on the military's basic allowance for housing (BAH) for 
an E-5 with dependents. VA would pay the lesser of the BAH rate for the 
Zip Code of the employer or the national average of BAH rates. The 
other payment would be based on one twelfth of the average established 
charges for tuition and fees at all institutions (public and private) 
in the U.S. for a baccalaureate degree for the most recent academic 
year. The figure would be obtained from the National Center for 
Education Statistics. Both payments would decrease over the length of 
program. During the first six months of training, the trainee would 
receive 75 percent of the monthly stipends. During the second six 
months, the trainee would receive 55 percent of the monthly stipends. 
For the duration of the program, the trainee would receive 35 percent 
of the monthly stipends.
    An individual pursuing a course of flight training would receive 
assistance in an amount equal to the lesser of the established charges 
for the program or 60 percent of the average established charges for 
tuition and fees at all institutions (public and private) in the U.S. 
for a baccalaureate degree for the most recent academic year. The 
figure would be obtained from the National Center for Education 
Statistics.
    An individual pursuing a program of education through 
correspondence courses would receive educational assistance in an 
amount equal to the lesser of the established charges for the program 
or 55 percent of the average established charges for tuition and fees 
at all institutions (public and private) in the U.S. for a 
baccalaureate degree for the most recent academic year. The figure 
would be obtained from the National Center for Education Statistics. VA 
would charge one month of entitlement for each month of assistance 
provided.
    Finally, section 3 would provide for lump-sum payments for books 
and supplies to Servicemembers using VA education benefits while on 
active duty and to spouses using transferred benefits while the 
servicemember is on active duty. The total amount payable in an 
academic year would be $1,000.
    VA supports streamlining the tuition-and-fee benefits for students 
attending public institutions and establishing a maximum payment cap 
for students attending private institutions. The manner in which 
institutions assess charges varies widely from state to state and from 
school to school. VA also does not object to expansion of the program 
to permit payment for vocational, flight, correspondence, and 
apprenticeship or on-the-job training programs, subject to Congress 
identifying appropriate and acceptable offsetting PAYGO cost savings. 
However, we believe several technical corrections to the bill as 
drafted would be necessary to enable VA to administer this section 
properly. For example, it would be beneficial to streamline the two 
monthly stipends payable to an individual pursuing a program of on-the-
job training or apprenticeship into a single monthly benefit. In 
addition, as drafted, the assistance proposed in section 3 for certain 
types of courses at other than institutions of higher learning would 
not be subject to the 40-100 percent tier levels that reflect the 
length of an individual's qualifying active-duty service. As a result, 
individuals pursuing programs of education under the new provisions 
apparently would receive higher housing and tuition benefits than 
students attending degree-granting institutions. We would be pleased to 
work with the Committee to address identified areas of concern.
    Section 4 of S. 3447 would amend 38 U.S.C. Sec. 3315 to permit 
individuals to take more than one licensure or certification test. 
Currently, individuals are eligible to receive a reimbursement of up to 
$2,000 for a single licensure or certification test, with no charge 
being made to their Post-9/11 GI Bill entitlement. As part of the 
amendment to section 3315, an individual's entitlement would be charged 
based on each reimbursement made. VA would base the entitlement charge 
on a dollar amount provided by the National Center for Education 
Statistics (NCES) that represents the average established charges for 
tuition and fees at all institutions (public and private) in the U.S, 
for a baccalaureate degree for the most recent academic year. VA would 
charge one month of entitlement for each reimbursement equal to one 
twelfth of the annual NCES figure. VA does not oppose this proposed 
amendment, subject to the identification of appropriate and acceptable 
PAYGO offsets for any resulting additional costs.
    Section 5 of the bill would amend 38 U.S.C. Sec. 3316 to provide 
that individuals eligible to receive supplemental education assistance 
(i.e., ``reenlistment kickers'') under the Montgomery GI Bill--Active 
Duty (MGIB-AD) or the Montgomery GI Bill--Selected Reserve (MGIB-SR), 
would remain eligible for such assistance if the individual elected to 
receive the Post-9/11 GI Bill instead of the MGIB. The supplemental 
assistance would be paid as an increase to the monthly housing 
allowance, and based on the individual's benefit level. Thus, only 
individuals eligible for a monthly housing stipend would be eligible to 
receive such supplemental assistance. The Department of Defense would 
reimburse VA for any supplemental assistance paid. VA defers to DOD as 
to the merits of this section.
    Section 6 would authorize DOD to permit an individual to transfer 
his or her entitlement to benefits under the Post-9/11 GI Bill after 
the individual is no longer a member of the Armed Forces. Under current 
law, DOD must approve such a transfer while the individual is still a 
member of the Armed Forces. This section would also extend the 
transfer-of-entitlement option to members of the Public Health Service 
and the National Oceanic and Atmospheric Administration. In addition, 
this amendment would require the Secretaries of Defense, Health and 
Human Services, and Commerce to reimburse VA for the amounts VA pays 
family members. Currently, VA is not reimbursed for payments made to 
family members utilizing transferred benefits. The Administration is 
still reviewing this section, and we will provide written views once VA 
completes a cost estimate for the entire bill.
    Section 7 of the bill would amend 38 U.S.C. Sec. 3322(a) to prevent 
individuals eligible for National Call to Service (NCS) incentives and 
the Post-9/11 GI Bill from receiving payments concurrently. VA supports 
this provision. However, we have identified other areas of potential 
duplication of benefits, and would be pleased to work with the 
Committee to include language that would ensure against duplication of 
benefits.
    Section 8 of the bill would amend 38 U.S.C. Sec. 3676(e) to provide 
that VA may not approve non-accredited courses of education pursued in 
whole or in part by distance learning. This change would be similar to 
the existing rule for courses of education pursued by independent 
study. This change is not necessary because current definitions of 
resident training and independent study in VA regulations encompass 
distance learning. As a result, VA currently does not approve non-
accredited distance learning programs of education. Nonetheless, we 
would not object to this amendment.
    Section 9 of S. 3447 would amend 38 U.S.C. Sec. 3684(c), which 
provides that VA may pay an annual reporting fee to any educational 
institution that furnishes education or training and submits reports or 
certifications to VA. Under current law, the reporting fee is computed 
each calendar year by multiplying $7 by the number of individuals 
enrolled in VA education and Vocational Rehabilitation and Employment 
programs. In addition, the law also provides for the payment of $11 for 
each individual whose educational assistance checks are sent to a 
school for temporary custody and delivery at the time of registration. 
These amounts have not been increased since October 1, 1977. Section 9 
proposes to increase the respective amounts for such payments from $7 
to $12, and from $11 to $15.
    VA does not object to the proposed increase in the reporting fees, 
subject to Congress identifying appropriate offsets. In addition, 
however, VA believes that section 3684(c) should be further amended to 
include language requiring educational institutions to use the 
reporting fees to support Veteran programs and VA certifying-official 
activities.
    Section 10 of the bill would amend 38 U.S.C. Sec. 3108(b) to 
authorize Veterans pursuing a vocational rehabilitation program under 
Chapter 31 to elect payment of an amount equal to the national average 
of the monthly amount of basic allowance for housing payable under 
section 403 of title 37 for a member with dependents in pay grade E-5 
in lieu of the subsistence allowance payable under Chapter 31. We will 
provide written views for the record regarding this section.
    Section 11 of the bill would amend 38 U.S.C. Sec. 3680(a) to remove 
VA's authority to make interval payments (payment between breaks in 
terms, quarters, or semesters). This amendment would apply to the Post-
9/11 GI Bill, the Montgomery GI Bill, the Reserve Educational 
Assistance Program, the Survivors' and Dependents' Educational 
Assistance Program, and the Vocational Rehabilitation and Employment 
program. However, an exception would exist to make interval payments 
between consecutive terms when a student changes schools and the break 
does not exceed 30 days. VA does not support this amendment because the 
interval payments are paid to the individuals to help with their living 
expenses during breaks between enrollment periods. Currently, a student 
is not eligible for interval pay if the break is more than 8 weeks. 
Discontinuing interval payment would mean a student would have to seek 
employment during the break between fall and spring semester; thus, we 
do not support this section as drafted. VA would be pleased to work 
with the Committee to identify changes to interval payment that would 
not result in a hardship to students.
    We note that the amendments proposed in S. 3447 would be effective 
on the date of enactment of the Act. VA is working aggressively on a 
new payment system to support the existing Post-9/11 GI Bill 
provisions. Since we have concerns about changes to the eligibility 
criteria impacting our current efforts as well as our ability to 
implement the provisions effective the date of enactment, we strongly 
recommend the amendments made by this bill take effect no earlier than 
August 1, 2011.
    Mr. Chairman, we will provide the Committee with our estimate of 
the cost of enactment of S. 3447 for the record.
                                s. 1785
    S. 1785 would amend 38 U.S.C. Sec. 3675(a) to mandate State 
approving agency (SAA) approval of courses of education that have been 
accredited and approved by a nationally-recognized accrediting agency 
or association if the courses also meet other criteria specified in 
section 3675(b), including maintenance of certain records, and certain 
other criteria specified in 38 U.S.C. 3676(c). We believe the 
amendments proposed in S. 1785 would have no practical impact on SAA 
approval activities; thus, we do not support its enactment. SAAs 
currently approve accredited courses if they meet all of the criteria 
set forth in section 3675. SAAs rarely disapprove accredited courses; 
however, if an accredited course were to be disapproved, the most 
likely reason would be a failure to meet the requirements of section 
3675(b), which already apply to all approvals under section 3675. As 
such, we believe enactment of this bill would not result in any 
additional cost.
                                s. 2769
    S. 2769, the ``Veterans' Job Training Act of 2009,'' would provide 
for payment of a monthly benefit to individuals pursuing full-time 
programs of apprenticeship and on-the-job training (OJT) under the 
Post-9/11 GI Bill using a graduated structure similar to that under 
other VA educational assistance programs, including the Montgomery GI 
Bill--Active Duty (MGIB-AD) and Selected Reserve (MGIB-SR) programs, 
and the Post-Vietnam Era Veterans Educational Assistance program. The 
measure also would amend current law to include apprenticeship or other 
OJT training programs as approved programs of education for purposes of 
the Post-9/11 GI Bill.
    Pursuant to S. 2769, for each of the first 6 months of an 
individual's pursuit of an apprenticeship or other OJT program, the 
individual would be paid 75 percent of the ``monthly benefit payment 
otherwise payable to such individual'' under chapter 33. For the second 
6 months of such pursuit, the individual would be paid 55 percent of 
such amount, and for each of the months following, the individual would 
be paid 35 percent of such amount. In addition, this bill would 
authorize payment to such individuals of a monthly housing stipend 
equal to the monthly amount of the basic allowance for housing payable 
for a servicemember with dependents in pay grade E-5 residing in the 
military housing area that encompasses all or the majority portion of 
the ZIP code area in which the individual resides. We note that, unlike 
the monthly housing stipend authorized under 38 U.S.C. Sec. 3313, this 
section contains no provision requiring payment of reduced amounts of 
such monthly stipend in cases where individuals' aggregated active-duty 
service is less than 36 months in duration. For each month an 
individual receives a benefit under this bill, VA would charge the 
individual's entitlement at a rate that reflects the applicable 
percentage (i.e., 75, 55, or 35 percent, as appropriate).
    The amendments made by S. 2769 would take effect as if included in 
the enactment of the Post-9/11 Veterans Educational Assistance Act of 
2008 (Title V, Public Law 110-252). That is, the effective date would 
be August 1, 2009. While VA supports the intent to improve Post-9/11 GI 
Bill benefits, VA cannot support enactment of this bill as drafted.
    The bill would provide a monthly assistance benefit plus a monthly 
housing stipend amount to trainees. This would be in addition to any 
wages a trainee may receive. Further, as noted, S. 2769 provides that 
the monthly benefit would be equal to a percentage ``of the monthly 
benefit payment otherwise payable'' to an individual under chapter 33. 
However, unlike the MGIB-AD, which provides for monthly payments of 
educational assistance, no ``monthly'' benefits other than housing 
stipends are payable to a student or trainee under the Post-9/11 GI 
Bill. VA's payment of educational assistance under 38 U.S.C. Sec. 3313 
(for actual charges of an individual's tuition and fees) is made 
directly to the institution of higher learning on a lump-sum basis for 
the entire quarter, semester, or term. Thus, it is unclear to what 
monthly benefit the provision refers in order to determine the amount 
of any payment to an individual.
    If enacted, this bill would take effect as if it had been included 
in Public Law 110-252, the Post-9/11 Veterans Educational Assistance 
Act of 2008. VA would have to manually re-work all apprenticeship and 
OJT cases for individuals wishing to elect to receive assistance under 
the Post-9/11 GI Bill for training that occurred on or after August 1, 
2009. VA is currently programming a new payment system to implement the 
provisions of the Post-9/11 GI Bill. Adding new payment provisions 
before full deployment of the payment system would severely hamper 
deployment efforts. In addition, it would impact service delivery by 
adding additional rules while VA is manually processing claims 
augmented by limited automated tools. We recommend postponing 
significant changes to the Post-9/11 GI Bill until August 2011 so that 
enhancements to the program do not have a negative impact on service 
delivery. This will also allow VA to complete the long-term payment 
system developed to support the Post-9/11 GI Bill program.
    We estimate that the enactment of S. 2769 would result in a 
benefits cost of $154.5 million during the first year, $806.6 million 
over 5 years, and $1.7 billion over 10 years.
                                s. 3082
    S. 3082 would amend 38 U.S.C. Sec. 3485(a)(4) to authorize 
individuals who are pursuing programs of rehabilitation, education, or 
training under chapters 30, 31, 32, 33, or 34 of title 38, United 
States Code, or chapters 1606 or 1607 of title 10, United States Code, 
to receive work-study allowances for certain activities conducted at 
the offices of Members of Congress. These work-study participants would 
distribute information concerning VA benefits and services, as well as 
other appropriate governmental and non-governmental programs, to 
members of the Armed Forces, Veterans, and their dependents. In 
addition, the work-study participants would prepare and process papers 
and other documents, including documents to assist in the preparation 
and presentation of claims for VA benefits.
    VA has no objection to the enactment of S. 3082, subject to the 
identification of appropriate and acceptable PAYGO offsets for the 
resulting additional costs. We have no objection to work-study 
participants participating in and promoting the outreach activities and 
services contemplated by the bill. We also have no objection to work-
study participants assisting in the preparation and processing of 
papers 
and other documents, ``including documents to assist in the preparation 
and presentation of claims for VA benefits'' (emphasis added) under 
proposed new section 3485(a)(4)(G)(ii). We note that work-study 
participants would be subject to the 38 U.S.C. chapter 59 limitations 
on representing claimants for VA benefits.
    We estimate that the enactment of S. 3082 would result in a 
benefits cost of at least $727,000 during the first year, $3.6 million 
over a 5-year period, and $7.3 million over 10 years.
                                s. 3171
    S. 3171, the ``Veterans Training Act,'' would amend the Post-9/11 
GI Bill definition of an approved program of education to include those 
offered by an institution, which has: (1) postsecondary instruction 
that leads to an associate or higher degree and the institution is an 
approved institution of higher learning; or (2) instruction that does 
not lead to an associate or higher degree and the institution is an 
approved educational institution.
    VA supports the intent to improve the Post-9/11 GI Bill benefits. 
However, because the provisions in this bill would unduly complicate 
the current Post-9/11 GI Bill program, we are unable to support it.
    S. 3171 does not provide specific payment rules for non-degree 
granting educational institutions. Under current law, the amount 
payable under the Post-9/11 GI Bill is limited to an amount equal to 
the maximum charges for an in-state public undergraduate program. To 
accommodate various fees and the differences between states, VA 
established a maximum credit-hour charge for tuition and maximum fee 
charges per term. This ensured that VA made payments in accordance with 
the intent of the initial legislation, so an individual eligible for 
the 100 percent payment at a public undergraduate institution would not 
have to pay tuition and fees.
    Most non-degree programs are offered based on clock-hour 
measurement with tuition charged for the entire program. However, most 
degree-granting institutions charge tuition based on enrollment for the 
term, quarter, or semester. For example, a Veteran enrolled in a 
specialized computer-training program lasting six months could be 
charged $10,000 for the program. The bill does not indicate how VA 
should determine the maximum amount payable for such a program.
    Current law provides that individuals who transfer from other VA 
educational assistance programs to the Post-9/11 GI Bill may be paid 
for courses offered by non-degree-granting institutions. However, the 
payment of assistance thereunder is limited to the monthly educational 
assistance allowance the individual would have received if he or she 
remained under the program from which he or she transferred. Thus, this 
new legislation would create a payment discrepancy between those who 
were eligible to elect the Post-9/11 GI Bill over a different 
educational assistance program versus those individuals who are only 
eligible for Post-9/11 GI Bill benefits.
    VA is aggressively working on a new payment system to support the 
existing Post-9/11 GI Bill benefits. Adding new payment provisions 
before full deployment of the payment system would severely delay 
deployment. As stated earlier, VA respectfully recommends making any 
significant changes to the Post-9/11 GI Bill effective after August 1, 
2011, so that enhancements to the program do not have a negative impact 
on service delivery.
    As always, subject to Congress identifying appropriate and 
acceptable offsetting PAYGO cost savings, we would be pleased to work 
with the Committee to improve the Post-9/11 GI Bill while eliminating 
existing payment complexities after deployment of the Post-9/11 GI Bill 
payment system.
    We estimate that enactment of S. 3171 would result in a benefits 
cost of $169.2 million in the first year, $863.0 million over 5 years, 
and $1.8 billion over 10 years.
                                s. 3389
    S. 3389 would amend section 3695 of title 38, which currently 
limits individuals to 48 months of entitlement under two or more 
education benefit programs. This measure would exclude individuals who 
have served at least four years on active duty in the Armed Forces from 
the current 48-month limitation if they are eligible to receive either 
the Post-9/11 GI Bill or Montgomery GI Bill--Active Duty, and the 
Montgomery GI Bill--Selected Reserve or Reserve Educational Assistance 
Program (REAP) benefits. Individuals eligible for two or more of these 
programs would be able to receive up to 72 months of education benefits 
combined. This amendment would apply retroactively and be effective 
upon the date of enactment.
    VA does not support enactment of this legislation because it would 
allow individuals to use the same period of active-duty service to 
qualify for and use two education benefit programs. For example, an 
individual could use active-duty service performed from October 1, 
2001, to October 1, 2005, to qualify for REAP and the Post-9/11 GI 
Bill, thus earning up to 72 months of entitlement for the same period 
of service.
    Mr. Chairman, we will provide the Committee with our estimate of 
the cost of enactment of S. 3389 for the record.

    This concludes my statement, Mr. Chairman. I would be happy to 
respond to any questions you or the other Members of the Committee may 
have.
                                 ______
                                 
Response to Post-Hearing Questions Submitted by Hon. Daniel A. Akaka to 
Keith Wilson, Director, Education Service, U.S. Department of Veterans 
                                Affairs
    Question 1. There has been some discussion about making VA the 
payer of last resort. Could you explain this in a bit more detail?
    Response. The Department of Veterans Affairs (VA) became one of 
various programs that provide funds designated to cover, in whole or 
part, a Veteran's tuition and fees. Other programs providing funding 
include: Department of Defense (DOD) Reserve Officer Training Corps 
(ROTC) scholarships, DOD Health Professionals Scholarships, Merit 
Scholarships, employer paid tuition, and State tuition reductions 
provided for State National Guard members.
    Often the money from the other programs is credited to a student's 
account before VA receives an enrollment certification from the school. 
Currently, schools submit their enrollment certifications and report 
the established charges for the program. Thus, when the school receives 
VA payment, an overage exists. Some schools have been returning 
overages to VA, some have been refunding money to the student, and 
others have requested that VA determine which money should be applied 
first.
    Asking the schools to report only the charges the student was 
required to pay with his or her own funds is a way to eliminate 
duplication of benefits, provide clear rules for students and schools, 
and streamline the process. Establishing VA as the payer of last resort 
will allow schools to report only charges that are not covered by other 
programs (other than title IV programs) and would otherwise be paid by 
students' individual funds. The Department is committed with working 
with Department of Education to ensure that change in this law does not 
impact Title IV awards or create inefficiencies between two programs.

    Question 2. If VA were to only make payment to institutions after 
all other educational assistance were paid, how would you handle small 
scholarships and awards that individuals might receive--for example, a 
$150 grant from a local church or a $500 scholarship from the local 
V.F.W. post?
    Response. A legislative change would be required for VA to consider 
all tuition-and-fees-based assistance received by the school when 
determining payment under the Post-9/11 GI Bill. However, if a change 
were implemented and a third-party (e.g., local church, V.F.W. Post) 
provided funds directly to the school on behalf of a student, then the 
school would be required to exclude such funds when reporting to VA the 
total charges that the veteran-student owed. This would only apply when 
the other funds were designated as solely applicable to tuition and fee 
charges. Some scholarship funds may be used for other education 
expenses. VA does not want to disadvantage a Veteran from receiving aid 
for purposes other than tuition and fee charges. VA is solely 
interested in elimination of duplication of tuition and fee payments 
such as DOD-paid tuition.
    VA does not currently receive or request information regarding 
scholarships, grants or other funds paid directly to the student for 
educational expenses. As such, VA has no way of knowing whether any 
funds paid to the school by the student were received from personal 
sources or from an organization.

    Question 3. Moving forward, what do you see as the role of State 
Approving Agencies?
    Response. VA would utilize State Approving Agencies (SAA) to 
perform compliance and oversight visits, increase outreach, and approve 
on-the-job training programs and non-accredited courses. To do so, 
legislation is necessary to permit the Secretary to accept courses 
offered by public institutions, accredited institutions, flight courses 
offered by schools holding a Federal Aviation Administration Pilot 
School Certificate, and Department of Labor Registered Apprenticeship 
programs as approved. Currently, the statute provides that SAA must 
approve these programs. VA recently submitted a legislative proposal 
that would provide the Secretary this authority. The proposal also 
meets with Government Accountability Office and Congressional 
recommendations that VA eliminate SAA approval of programs that are 
approved by other entities.
                                 ______
                                 
 Response to Post-Hearing Questions Submitted by Hon. Richard Burr to 
Keith Wilson, Director, Education Service, U.S. Department of Veterans 
                                Affairs
    Question 1. In May, VA issued a General Counsel Precedent Opinion 
that addressed this question: ``If a VA payment is received by a school 
after all or a portion of the tuition and fees have been paid by 
another entity, should the school refund the excess to the student?'' 
The General Counsel's answer to that question indicated, in part, that 
schools could ``reapply the assistance to the educational expenses of 
other students.''

    Question 1A. To clarify, does that mean, if VA pays a school for 
tuition or fees on behalf of a Veteran, the school could in some 
circumstances use those funds to pay the expenses of a non-Veteran?
    Response. No, schools may not use VA funds for non-VA students. 
General Counsel (GC) stated this in its opinion. When referring to 
``reapplying the assistance to the educational expenses of other 
students,'' GC was referring to the ``other'' educational assistance 
that had been applied to the Veteran's account.
    For example, if the tuition and fees incurred by the Veteran at a 
private institution totaled $10,000 and the Veteran received a $10,000 
merit scholarship, then the Veteran's tuition and fees would be paid in 
full. However, if the Veteran was also eligible for the Post-9/11 GI 
Bill and VA paid $8,000 toward the Veteran's tuition and fees (maximum 
in-state tuition and fees payable for that state), the school could 
apply the full $8,000 VA paid toward the Veteran's account and reduce 
the Veteran's merit scholarship from $10,000 to $2,000. In this 
instance, the school could reassign $8,000 of the merit scholarship 
funds (no longer being utilized by the Veteran) to another student.

    Question 1B. If so, what legislative or administrative changes 
would be needed to avoid that situation?
    Response. If Congress would like to clarify that VA funds are to be 
used only for reducing the tuition and fee charges of the individual 
for whom VA submitted the payment, Congress could amend section 3313(g) 
to so state.

    Question 2. One of the witnesses on the second panel mentioned in 
her written testimony that educational institutions have tried 
unsuccessfully to initiate an on-going dialog between schools and VA.

    Question 2A. How frequently do personnel from the Education Service 
meet with schools?
    Response. VA meets frequently with school officials. VA officials 
attended more than 100 training and informational conferences since the 
enactment of the Post-9/11 GI Bill to provide training, disseminate 
information, and answer questions from participants. We also conducted 
webinar training sessions and continue to participate in schools' 
national, regional, and local conferences.
    VA also has employees who are responsible for maintaining direct 
contact with participating schools. VA's education liaison 
representatives (ELRs) are the primary points of contact for school 
officials. ELRs have a wide range of responsibilities in support of 
education benefits programs and work closely with school officials to 
inform them of changes in VA policies and procedures.
    SAAs also assist in outreach and dialog efforts between VA and 
schools. Under statute, VA contracts with each state to approve 
programs of education and support outreach. The SAAs provide 
information to schools, students, and employers.

    Question 2B. In the future, will these types of meetings be held on 
a regular basis?
    Response. VA will continue the dialog with schools through its ELRs 
and conduct outreach efforts to ensure Veterans and school officials 
are informed about the Post-9/11 GI Bill.

    Question 3. The written testimony from Veterans of Foreign Wars 
included this information: ``Interval payments come at a cost to the 
Veteran, requiring the Veteran to consume GI Bill monthly eligibility 
over Christmas break or over summer vacation without providing the 
maximum [of] 36 months of benefit[s] available.''

    Question 3A. In order to ensure that the record on this issue is 
complete, please explain the circumstances under which VA now provides 
interval pay and how entitlement is charged for interval pay.
    Response. Interval payments are educational assistance benefits 
paid during the break (also called interval) between terms at a school 
or between terms when transferring from one school to another while the 
student is in the same program. Generally, VA will automatically pay 
benefits over qualifying breaks that do not exceed eight weeks. 
Individuals on active duty and training less than half time are not 
eligible for interval payments.
    The entitlement of an individual to educational assistance is 
charged for the interval period at the rate of one day of entitlement 
for each day of full-time pursuit. For the purpose of calculating 
entitlement, each month consists of 30 days.
    For example, an individual is pursuing training full-time for the 
fall semester and is entitled to a $1,200 monthly housing allowance. If 
the fall semester ends on December 13, and the individual is not 
entitled to (or requested not to receive) interval pay, he or she will 
receive a monthly housing allowance payment in the amount of $520 and 
be charged 13 days of entitlement. However, if the individual is 
entitled to interval pay between the fall and spring terms, then he or 
she would receive the full $1,200 monthly housing allowance for the 
month of December and be charged a month on entitlement.
    Historically, Veterans and eligible dependents have received 
payment for breaks between their enrollment periods to help with their 
living expenses.

    Question 3B. What steps, if any, does VA take to inform Veterans 
about the pros or cons of accepting interval pay and their ability to 
decline to receive it?
    Response. VA provides information on interval payment in the 
Frequently Asked Questions section on the GI Bill Web site. This 
includes information regarding when intervals are payable, what an 
individual must do to receive interval pay, and when VA does not 
provide payment for intervals. While an individual can specifically 
request not to receive interval pay, he or she must make this request 
before VA authorizes payment for the interval. 38 CFR 21.4138(f)(2)(1) 
states that VA will make no payment for an interval described in 
paragraph (f)(2) of this section if:

    (i) The student is training at less than the half-time rate on the 
last date of his or her training during the term, quarter, semester or 
summer term preceding the interval;
    (ii) The student is on active duty;
    (iii) The student requests, prior to authorization of an award or 
prior to negotiating the check, that no benefits be paid for the 
interval period;
    (iv) The student will exhaust his or her entitlement by receipt of 
such payment, and it is to the advantage of the individual not to 
receive payment; or
    (v) The interval occurs between school years at a school which is 
not organized on a term, quarter or semester basis.

    VA also provides technical information on interval payment to 
school certifying officials during school conferences throughout the 
year. School officials and Veterans can contact the Education Call 
Center staff for guidance regarding interval payment.

    Question 4. I heard from a constituent who was concerned that he 
lost out on benefits when he switched into the Post-9/11 GI Bill with a 
month or so of benefits remaining under the Montgomery GI Bill. What 
steps does VA take to inform Veterans that, under current law, they 
might receive less total benefits if they switch into the Post-9/11 GI 
Bill before exhausting their old benefits?
    Response. The Post-9/11 GI Bill is structured differently than 
other VA education benefit programs, and can cause confusion when 
individuals are trying to compare payment types and amounts, 
eligibility criteria, and other factors to determine which benefits 
program would be most advantageous. Since each individual's situation 
is different, VA provides a ``Road Map to Success'' tool and a side-by-
side comparison of benefits under each program on the GI Bill Web site. 
In addition, a benefits calculator and extensive benefits information 
are available on the Web site. This information provides a step-by-step 
guide through the benefit selection and application process, and helps 
a student determine which of the programs provide the greatest benefit 
in an individual situation.
    VA is aware of a few Veterans who elected the Post-9/11 GI Bill and 
subsequently learned they would be limited to the number of months of 
entitlement remaining under their relinquished education program. The 
public law enacting the Post-9/11 GI Bill limits the entitlement of 
those individuals electing to transfer from the Montgomery GI Bill. 
Such individuals may receive only the number of months of Montgomery GI 
Bill entitlement they have remaining at the point they elect benefits. 
In some instances, individuals may realize it would be better to 
utilize all their Montgomery GI Bill before electing the Post-9/11 GI 
Bill. However, even though information was available to help them make 
that decision, some may not have considered that information when 
electing to transfer before their Montgomery GI Bill was exhausted.
    While the information is available on our Web site, in fact sheets, 
and at schools, the complexity and variances between the multiple 
programs may cause some students to make a decision to elect a new 
benefit assuming it was a better benefit without fully reviewing the 
available materials.
                                 ______
                                 
  Response to Post-Hearing Questions Submitted by Hon. Mark Begich to 
Keith Wilson, Director, Education Service, U.S. Department of Veterans 
                                Affairs
    Question 1. Mr. Wilson, A Veteran in Alaska told me he does not 
want to go to college, he wants to start his own business, have you 
explored giving funds to start businesses for the vets that do not want 
to go to college, but believe they deserve to have some access to the 
Post-9/11 GI Bill?
    Response. On June 10, 2010, VA testified before the House Committee 
on Veterans' Affairs on pending legislation that included the Veterans 
Entrepreneurial Transition Business Benefit Act (H.R. 114). This 
legislation proposes to allow a Veteran, eligible under chapter 30 to 
elect to use any of his/her financial educational assistance to 
establish, own, and operate a business as their primary source of 
income. Currently, there are no provisions under any Department of 
Veterans Affairs (VA) education benefit program for payment of benefits 
for individuals to establish, own, and operate a business. While VA 
strongly supports assisting in, and advocating for, Veterans' 
opportunities in the areas of small business and self-employment, VA 
does not support such legislation. VA believes GI Bill education 
benefits should be preserved and the program administered as currently 
established.

    Question 2. Mr. Wilson: do you have numbers of schools that have 
been taken off the list of VA approved schools for not providing the 
education the vets paid for or for any other reason, would like these 
numbers for the last 10 years. Do you have numbers of the default 
rates? What are they?
    Response. VA identified 376 schools that have been removed from the 
approved list of VA schools during the last 10 years for various 
reasons, including school closure. However, we have not identified any 
schools that were removed for not providing an adequate educational 
product. VA does not maintain data regarding default rates.

    Question 3. Is there a reason that the VA and USDOE do not 
coordinate the accreditation process for loans?
    Response. VA does not administer or approve any loan programs. 
Generally we accept any program recognized as accredited by the 
Secretary of Education.

    Question 4. For VA: I would like data on Muskogee service center: 
in the last 6 months how many disconnects, wait time?
    Response. The National Call Center answered 1,480,499 calls from 
February 2010 through July 2010. During this period, VA had 218,235 
abandoned calls (disconnected calls); which was 14.7 percent of all 
calls received during this period. The average wait time was 3 minutes 
and 37 seconds.
                                 ______
                                 
 Response to Post-Hearing Questions Submitted by Hon. Roland W. Burris 
   to Keith Wilson, Director, Education Service, U.S. Department of 
                            Veterans Affairs
    Question 1. Can you tell me the status of the $3,000 advance 
payment checks that went out to Veterans and Servicemembers in 
October 2009, to those who had not yet received their VA benefits for 
the fall enrollment period?

    Question 1A. How much of the money have you recouped?
    Response. As of August 16, collections total approximately $170 
million with a remaining balance of $182 million to collect. The full 
amount has been collected for 35,187 Veterans and Servicemembers, and 
the remaining 85,957 Veterans and Servicemembers have an outstanding 
balance.
    VA expects a surge of collections in August and September when 
students return to school. Recipients who do not return to school must 
make other arrangements with VA's Debt Management Center to repay the 
balance on their advance. Any recipients who do not make repayment 
arrangements or from whom we have not collected any amount have been or 
will be referred to the Department of Treasury for offset of any 
Federal payments and collection action by private contractors.

    Question 1B. How do we ensure that we don't have to do second round 
of emergency payments going into the next school year, is it an 
internal VA policy that needs to be made or can we fix it 
legislatively?
    Response. The decision to issue emergency payments for the fall 
2009 term was an internal VA policy decision. Emergency advance 
payments were not needed for the spring and summer 2010 terms, and we 
do not anticipate needing emergency advance payments for the 2010/2011 
school year that begins this month.
    We encouraged schools to submit enrollment certifications earlier 
this year, asking them to submit the certifications even if their fall 
tuition and fees schedule had not been finalized. Doing so allows VA to 
timely process students' housing allowance and books and supplies 
stipend. The school may subsequently submit certification of the 
tuition and fees to receive payment. In addition, many students are 
returning students that VA previously determined eligible for the Post-
9/11 GI Bill program, making the award and payment process much 
simpler.

    Question 2. The implementation process of the Post-9/11 GI Bill has 
not been a smooth journey; but we are starting to make progress. It is 
disturbing though, to hear stories about phone lines having long hold 
times and are even dropped, a lack of communication between schools and 
the VA, and a lack of standardization in policies.

    Question 2A. How do we proceed from here to make sure that not only 
the process becomes more standardized and streamlined, but that there 
is an open communication process between the VA and schools?
    Response. VA made a substantial effort to engage various 
stakeholders in the Post-9/11 GI Bill implementation process. The 
aggressive timeline required for Post-9/11 GI Bill implementation, 
coupled with the use of interim manual claims processes, did impact 
VA's ability to provide the highest level of service to stakeholders in 
some instances.
    VA continues to attend professional and educational conferences to 
discuss the Post-9/11 GI Bill, hold training for school certifying 
officials who work with Veterans at schools, and update the GI Bill Web 
site to provide the most comprehensive information available to a 
variety of audiences. VA also sent informational letters and made 
direct contact with university officials, state Veterans affairs 
directors, Veterans service organizations, Members of Congress, and 
other stakeholders to discuss the status of Post-9/11 GI Bill 
implementation and the potential impacts of this benefit program on 
each stakeholder.

    Question 2B. How do we put this into legislation?
    Response. Over the past several months, VA instituted numerous 
streamlining procedures to improve processing timeliness during 
implementation using the manual Interim Solution toolset and initial 
releases of the Long Term Solution (LTS). Many of these procedures 
involved revising policy guidance to ensure that employees are able to 
process claims as efficiently as possible with these systems while 
continuing to meet quality standards.
    VA continues to evaluate current staffing and business processes 
and make modifications wherever possible to facilitate timely 
processing of claims. Upon full deployment of the LTS IT system in 
December 2010, which will automate Post-9/11 GI Bill processing, VA 
will be able to achieve a greater level of consistency.
    Policy aimed at standardizing processes is established in VA 
Headquarters and distributed to each of the four regional processing 
offices. When we learn of any inconsistency, we address the concern and 
provide additional training as needed.
    We believe the majority of the comments about standardized 
processes are related to Veterans' receipt of other aid for tuition and 
fees in addition to VA payments. VA is not able to direct schools on 
how all the various types of financial aid should be handled. For 
example, VA cannot always provide direction on which expenses other 
financial aid may cover or the timing of receipt of the financial aid. 
One suggestion to address these issues is to make VA the last payer of 
tuition and fee expenses. VA is willing to work with Congress to 
address duplication of financial aid and establish clear rules to 
address these concerns.

    Question 3. It is my impression that prior to the Post-9/11 GI 
Bill, tuition payments were just between the VA and the schools. Why 
are students a component of this payment system, and why can't the VA 
deal exclusively with the school to calculate and make payments?
    Response. Educational assistance allowances under other VA 
programs, excluding Vocational Rehabilitation, are paid directly to the 
student. The assistance is paid based on a single rate that changes 
only with the student's number of credit hours.
    Generally, students training under the Post-9/11 GI Bill are 
entitled to a direct payment for books and supplies and monthly housing 
payments. School officials are responsible for certifying the student's 
enrollment. The appropriate payment amounts are calculated based on the 
length of the student's enrollment period, number of credit hours, 
length of the student's service, and location of the student's school. 
Only tuition and fee payments are paid directly to the school.

    Chairman Akaka. Thank you very much, Mr. Wilson.
    Mr. Clark, will you please proceed with your statement?

STATEMENT OF ROBERT E. CLARK, ASSISTANT DIRECTOR FOR ACCESSION 
POLICY, OFFICE OF THE UNDER SECRETARY OF DEFENSE FOR PERSONNEL 
           AND READINESS, U.S. DEPARTMENT OF DEFENSE

    Mr. Clark. Good morning, Chairman Akaka, Ranking Member 
Burr, and esteemed Members of the Committee. I'm pleased to 
appear before you today to discuss the potential improvements 
to the Post-9/11 GI Bill as proposed in S. 3447 and related 
bills.
    As I stated this past April before this Committee, post-
service education benefits have been a cornerstone of our 
military recruiting efforts since 1985 and a major contributor 
to the success of the all-volunteer force. Money for education 
has been and remains the forefront of reasons young Americans 
cite for joining the military. There's no doubt that the Post-
9/11 GI Bill will continue to have this impact, and we're 
seeing that happen with unprecedented recruiting success.
    For today's hearing, you asked me to comment on S. 3447, a 
bill that offers a series of changes to Chapter 33, Title 38. 
In respect of time, I will limit my comments to those changes 
that most effect the Department of Defense.
    Section 2 of S. 3447 makes changes to the definition of 
qualifying active-duty and appears to correct omissions in the 
original statute. As written, this subsection would include as 
qualifying active-duty the full time National Guard duty 
currently eligible for either the Montgomery GI Bill or the 
Reserve Educational Assistance Program. DOD does not object to 
this section, provided Congress provides identified, 
appropriate, and acceptable offsets for the additional benefits 
cost. We support equivalent benefits for equivalent service, 
and this change would make that go.
    The section also makes a technical correction to the 
definition of entry- and skill-level training for the Army's 
One Station Unit Training, a specific form of initial entry 
training without a break between basic combat training and 
advanced individual training. DOD is already reporting this 
training as entry-level, and we support this technical 
correction.
    Another provision in this section clarifies that all 
separations to remain eligible for the Post-9/11 GI Bill be 
characterized as honorable to be eligible and we support that 
provision.
    Finally, this section excludes the statutory period of 
active service incurred by graduates of the U.S. Coast Guard 
Academy. This aligns graduates of the Coast Guard Academy with 
the U.S. Military Academy, Air Force Academy, and Naval 
Academy, and we support this provision as it provides equity 
across the Armed Services.
    Today's military stands ready, willing, and able to defend 
this Nation, as well as its values and principles. Our young 
servicemembers, all volunteers, and we must remember that, are 
deployed across the Gulf, many in harm's way. Post-service 
education benefits have been a major contributor to recruiting 
achievements and retention achievements over the past 25 years.
    Additionally, these post-service education benefits have 
been an invaluable asset to thousands of veterans, providing 
them with funding to enhance their education and increase their 
employability and income-earning opportunities while assisting 
their transition to civilian life. The Department of Defense is 
an education employer. We hire educated, young people, we 
invest in them while in service, and we encourage them to 
invest further in themselves when they leave. The VA-
administered education benefits, in particular the Post-9/11 GI 
Bill, facilitate that investment.
    Few things, if any, are more important to the secretary and 
to the services than recruiting and retention. We recognize our 
duty to man the all-volunteer force with high-quality, 
motivated, well-trained, young men and women. The Post-9/11 GI 
Bill remains a key to our success. As we move forward in the 
21st Century, we must seize the opportunity to build on this 
remarkable legacy given to us by the visionaries who crafted 
each preceding version of the GI Bill.
    I thank this Committee for its unflagging support of the 
men and women who have served in providing for the national 
defense and look forward to your questions.
    [The prepared statement of Mr. Clark follows:]
Prepared Statement of Robert E. Clark, Assistant Director for Accession 
   Policy, Office of the Under Secretary of Defense for Personnel & 
                 Readiness, U.S. Department of Defense
    Good afternoon, Chairman Akaka, Ranking Member Burr, and esteemed 
Members of the Committee. I am pleased to appear before you today to 
discuss the potential improvements to the Post-9/11 GI Bill as proposed 
in S. 3447, ``Post-9/11 Veterans Educational Assistance Improvements 
Act of 2010,'' and related bills.
    As I stated earlier this year in testimony, post Service education 
benefits have been a cornerstone of our military recruiting efforts 
since 1985, and a major contributor to the success of the All-Volunteer 
Force. Money for education has been and remains at the forefront of 
reasons young Americans cite for joining the military. There is no 
doubt that the Post-9/11 GI Bill will continue to have this impact and 
we are seeing that happen--with unprecedented recruiting success.
    For today's hearing, you asked me to comment on S. 3447, ``Post-9/
11 Veterans Educational Assistance Improvements Act of 2010'' and 
related bills. S. 3447 offers a series of changes to chapter 33, title 
38, United States Code. Since both funding and administration of the 
Post-9/11 GI Bill fall under the purview of the Department of Veterans 
Affairs (VA), I will focus my comments on those changes that will 
affect the Department of Defense (DOD) and generally defer to VA to 
provide responses on those with no significant DOD impacts.
 s. 3447, ``post-9/11 veterans educational assistance improvements act 
                               of 2010''
Section 2. Modification of Entitlement to Educational Assistance.
    Subsection (a) makes changes to the definition of qualifying active 
duty for Post-9/11 GI Bill entitlement and appears to correct omissions 
in the original statute. As written, this sub-section would include as 
qualifying active duty the full-time National Guard duty currently 
eligible for either the Montgomery GI Bill or the Reserve Educational 
Assistance Program. DOD does not object to this section, provided 
Congress identifies appropriate and acceptable offsets for the 
additional benefits costs. DOD supports equivalent benefits for 
equivalent service and this change would meet that goal. This 
subsection also makes a technical correction to the definition of entry 
level and skill level training for the Army by adding One Station Unit 
Training (OSUT), a specific form of entry level training without a 
break between Basic Combat Training and Advanced Individual Training. 
DOD is already reporting OSUT as entry level training and supports this 
technical correction.
    Subsection (b) clarifies that all separations must be characterized 
as ``honorable'' to be eligible for Post-9/11 GI Bill entitlement. DOD 
supports this provision.
    Subsection (c) excludes the statutory period of service incurred by 
graduates of the U.S. Coast Guard Academy (USCGA) as qualifying active 
duty for Post-9/11 GI Bill entitlement. This aligns graduates of the 
USCGA with graduates of the U.S. Military Academy, the U.S. Naval 
Academy, and the U.S. Air Force Academy. DOD believes this provision 
provides equity across the Armed Services and supports the provision.
Section 3. Modification of Amount of Assistance and Types of Approved 
        Programs of Education.
    This section modifies the amount of assistance and types of 
programs eligible for the Post-9/11 GI Bill. DOD defers to VA, the 
agency responsible for administration and funding of the program, for a 
response.
Section 4. Modification of Assistance for Licensure and Certification 
        Tests.
    This section expands and makes changes to the entitlement charge 
for licensing and certification tests. Again, DOD defers to VA for a 
response.
Section 5. Transfer of Entitlement to Supplemental Educational 
        Assistance to Post-9/11 Educational Assistance.
    This section appears to change the procedure for payment of 
Supplemental Educational Assistance earned under the provisions sub-
chapter III, chapter 30, 38 U.S. Code for individuals who choose to 
convert from the MGIB to the Post-9/11 GI Bill from a single payment 
each academic term to a monthly payment in conjunction with the monthly 
stipend. Since this procedural change could have an impact on the 
administration of Post-9/11 GI Bill we would defer to VA, the agency 
responsible for administration and funding of the program, for a 
response.
Section 6. Transfer of Unused Education Benefits to Family Members.
    The Administration is still reviewing the section and will not 
determine an Administration position on this section until VA completes 
a cost estimate for the entire bill. We will provide written views once 
the cost estimate is complete.
Section 7. Limitations on Receipt of Educational Assistance under 
        National Call to Service (NCS) and Other Programs of 
        Educational Assistance.
    The section clarifies that VA administered educational assistance 
benefits-under the NCS enlistment option cannot be used simultaneous 
with any other VA administered educational assistance program, thus 
aligning NCS with other VA administered programs. DOD defers to VA, the 
agency responsible for administration and funding of the program for 
comment.
Sections 8, 9, 10, and 11 have no impact on DOD; therefore, we defer to 
        VA for comment.
    Of the other bills listed on the agenda, only S. 3389 has any 
impact on DOD. This bill would change the 48-month rule for 
Servicemembers or Veterans with four years or more of active service 
who also received educational benefits through either the Montgomery GI 
Bill--Selected Reserve (MGIB-SR, chapter 1606, 10 U.S.C.) or the 
Reserve Educational Assistance Program (REAP, chapter 1607, 10 U.S.C..) 
The 48-month rule limits Servicemembers or Veterans with eligibility 
under more than one VA administered education programs from receiving 
more than 48 months of educational assistance. While this provision 
could have minor impact on usage of MGIB-SR and REAP, the major fiscal 
impact would be increased usage of the Post-9/11 GI Bill. Therefore, 
DOD defers to the Department of Veterans Affairs, the agency 
responsible for administration and funding of the program for comment.
    Today, the military stands ready, willing, and able to defend our 
Nation, as well as its values and principles. Our young Servicemembers, 
all volunteers, are deployed across the globe, many in harm's way. Post 
Service education benefits have been a major contributor to recruiting 
achievements over the past 25 years. Additionally, these post service 
education benefits have been an invaluable asset to thousands of 
veterans, providing them with funding to enhance their education and 
increase their employability and income-earning opportunities, while 
assisting their transition to civilian life. The Department of Defense 
is an ``education'' employer. We hire educated young people, invest in 
them while in Service, and we encourage them to invest further in 
themselves when they leave. The VA-administered education benefits, and 
in particular the Post-9/11 GI Bill, facilitate that investment.
    Few things, if any, are more important to the Secretary and to the 
Services than recruiting and retention. We recognize our duty to man 
the All-Volunteer Force with high-quality, motivated, and well-trained 
young men and women. The Post-9/11 GI Bill remains a key to our 
success. As we move forward in the 21st Century, we must seize the 
opportunity to build on the remarkable legacy given to us by the 
visionaries who crafted each preceding version of the GI Bill. I thank 
this Committee for its unflagging support of the men and women who 
serve, or who have served, in providing for the national defense. I 
look forward to your questions.

    Chairman Akaka. Thank you very much, Mr. Clark.
    One fast question. Are you satisfied that there are 
sufficient safeguards in place to make sure that programs of 
education are legitimate?
    Mr. Wilson. We do believe that there are satisfactory 
safeguards in place. We have a robust mechanism in place in 
conjunction with our partners within the States at the State 
Approving Agencies. The statute also supports mechanisms to 
allow us to weed out inappropriate schools, for instance, the 
existing 2-year requirement that's in the statute requiring an 
institution to be in place for 2 years. I believe we do have 
sound mechanisms in place. Yes, sir.
    Chairman Akaka. Mr. Wilson, VA has proposed to accept VA 
Title IV approvals for purposes of GI Bill Programs. While I'm 
inclined to agree with this proposal, I'm concerned that this 
could potentially open the door for some fraud and abuse.
    Do you share this concern, and if so, how would you guard 
against it?
    Mr. Wilson. We would share the concern and guard against it 
by ensuring that we continue to keep the flexibility we 
currently have. In other words, while we will accept 
accreditation for Title IV purposes, in some cases for program 
approval, we would never want to take off the table our ability 
to continue to go into a school and make sure that they are 
doing what they are supposed to in support of our veterans, and 
if not, we will continue to have the authority to remove 
approval for VA purposes, if needed.
    Chairman Akaka. Mr. Clark, I understand the Department's 
opposition to my proposal that DOD reimburse VA for the cost of 
transferred benefits. That said, I do believe that DOD has too 
broadly extended this benefit to all servicemembers as they 
reach the required minimum length of service. I believe a more 
targeted use of the benefit was envisioned in order to retain 
individuals in critical skill areas or difficult-to-replace 
personnel.
    Would you comment on this, please?
    Mr. Clark. Yes, Mr. Chairman. The Department, as you are 
well aware, in the development and all discussions leading up 
to the Post-9/11 GI Bill had concerns about the generous 
benefit being more of a draw for first-term members to leave in 
order to use this benefit, and we were very pleased to see the 
transferability which allows our career servicemembers to share 
this benefit that they have earned with their family members, 
and we did not believe that this benefit for family members was 
to be limited to any specific targeting. We believe that every 
soldier, sailor, airman, and Marine that chooses to stay, and 
we want to stay, should have the same opportunity to share 
their earned benefit with those family members.
    Chairman Akaka. Thank you.
    Mr. Wilson, could you please comment on the extent to which 
you believe that basing many benefits on the national average 
would make administration of the program easier?
    Mr. Wilson. Certainly. The Post-9/11 GI Bill is a fabulous 
benefit, and at its core, it's going to provide the opportunity 
for many individuals to attend college that they otherwise 
would not have even under our previous programs. Taking into 
account though all the specific nuances of how charges are made 
within each school and within each State, it makes the 
administration very complex.
    Now, the administration of the program, of course, is one 
issue, and that's VA's responsibility, and we will continue to 
do our utmost to do that. But the other side of that complexity 
is that students have to understand the program in order to get 
the best use of it. That complexity, all of those ins and outs, 
make it very complex a lot of times for the students to 
understand how they can best use the benefit.
    Chairman Akaka. Thank you very much.
    Senator Brown, your questions?
    Senator Brown of Massachusetts. Thank you, sir.
    So, I guess it's kind of a follow-up, and any of the folks 
who are testifying can comment on this. The Post-9/11 GI 
benefits for veterans and servicemembers who want to pursue 
vocational training to 4-year degree programs, et cetera, how 
soon would the VA and State Approving Agencies be able to 
implement these programs do you think?
    Mr. Wilson. We're recommending right now that the effective 
date for the enactment be August 1, 2011. That's based on our 
current status with implementing the new pay system for the 
initial implementation of the Post-9/11 GI Bill. We have had 
two releases of the functionality. We will complete the last 
core release for functionality around the end of December of 
this year, and then we have got some policing of the 
battlefield issues that we need, but we believe that we can 
meet an August 1, 2011, timeframe.
    Senator Brown of Massachusetts. And as a follow-up to 
Senator Burr, I'm not having that same experience, but would 
the additional workload and resources and the redirection of 
resources currently in place in providing assistance to 
veterans, is that an accurate portrayal? Do you have the tools 
and resources you'll need to implement the program?
    Mr. Wilson. I believe we do. We have currently in place in 
excess of 1,400 individuals processing claims at our four 
offices around the country. I would be the first to say very 
clearly that we underestimated the complexity of what we needed 
to do going into last fall, and there were unacceptable delays 
in the processing of claims.
    To give you a little picture of where we're at right now, 
going into the fall, we could process about 1,800 claims a day 
around the country. Going into the spring semester, which was 
very successful, we could process in excess of 6,000 a day. So 
we believe by bringing in those additional resources that we 
have, streamlining our processes, we were cautiously optimistic 
that we're going to have a good fall semester enrollment period 
for individuals. We are continuing to be very rigorous in our 
oversight on that.
    Long-term, we will continue to move down the path of 
automating a lot of this work, and that will better allow us to 
address the seasonal nature of our work, the high workloads in 
the fall periods and the spring periods.
    Senator Brown of Massachusetts. On a side note, obviously, 
we're getting ready to begin the fall semester, and many more 
students will be requesting benefits than they did in January.
    Are you ready to handle this influx of potential new 
requests? And, if so, what type of improvement do you think 
we'll see over the previous time period?
    Mr. Wilson. We believe we are ready. We did several things 
following the beginning of last fall. As I mentioned, we have 
significantly more resources on it and our productive capacity 
is much higher than it was going into last fall. So we're in 
very good shape there.
    Additionally, we implemented an initiative over the summer 
that we believe helps us out, as well. We allowed schools 
beginning June 1 to begin submitting the enrollment certs for 
the fall to VA. We're allowing them to submit that information, 
even if they do not have their tuition and fee rates in place. 
They can simply submit zero tuition and fees and report those 
tuition and fees later to us. That's important because many 
States in the July-August timeframe are just at that point 
deciding what their tuition and fees are going to be. We have 
already processed through completion about 50,000 fall 
enrollments under that initiative. So we believe we're in a 
very good position.
    Senator Brown of Massachusetts. One final question. I have 
a little bit of time left. Being the new guy, well, not 
anymore. I'm actually not the new guy anymore as of yesterday, 
which is nice. [Laughter.]
    Yes. We have an inordinate amount of veterans' issues that 
we're dealing with in the Boston area. We have a couple of 
people working full-time on it directly, and I would just 
encourage, yes, you're making strides, but the backlog, the 
frustration that we're getting from people that are calling and 
dealing with your organization. I do not want to hurt your 
feelings or anything, but they are pretty upset. Then that 
comes to me, and then I have to pass it down the food chain and 
up the food chain. I would just suggest that you do whatever 
you have to do to drop some of the fluff stuff and just focus 
on the real issues when people are hurting and they need help.
    Some of it's very simple. It's such a quagmire of paperwork 
and bureaucracy. So instead, I suggest someone picking up the 
phone--a warm body--and saying hey, I got your claim, I am on 
it, I just want to let you know that. Sometimes, that's all it 
takes, and to get that is just like pulling teeth.
    So, that's kind of my message and the sense that I am 
getting from being here for over 6 months now; and being in the 
military and a JAG, as somebody who knows how to maneuver the 
system, I can tell you I am having the same problem.
    If you could please pass that on to the folks that work for 
you to step above and beyond, that would be helpful.
    Mr. Wilson. I'd be happy to pass that on. Just one comment 
in terms of a response, the secretary has significant, major 
issues underway throughout the Department right now, to use his 
term, ``Break the back of the backlog.'' He and the rest of the 
organization are very, very aggressive on this issue, and we're 
confident that we can make strides in that area.
    Senator Brown of Massachusetts. I appreciate that.
    Chairman Akaka. Thank you. Thank you very much, Senator 
Brown.
    Senator Murray?
    Senator Murray. Thank you, Mr. Chairman.
    Dr. Clark, I wanted to ask you a question because in my 
conversations with the veterans as I travel around my State, a 
lot of them express a real frustration that they can not make 
their military experience relate to any kind of post-education 
or professional goal. So, in the bill that I have introduced 
which I have talked about a few moments ago, the Veteran 
Employment Assistance Act, one of our primary goals was to 
examine how to take military experience and training and link 
it up to civilian education and certification and licensure 
requirements.
    Does the Department of Defense consider comparable civilian 
credit, licensure, and certification requirements when they 
create or update their military training curricula?
    Mr. Clark. Senator Murray, I would have to take that back.
    Senator Murray. So----
    Mr. Clark. I do not work in that--I know there is a lot 
that is done in military transcripts and a lot of crosswalk to 
try to do this, but it being in another office, I would prefer 
to take that one for the record.

    [Responses were not received within the Committee's 
timeframe for publication.]

    Senator Murray. OK, I would really like a response back to 
that because I think it's very relevant to what our men and 
women face when they come home. And as part of that, I wanted 
to ask, and maybe you will not answer it then, is if there is a 
concern within the Department of Defense that if they modify 
current course curriculum to provide for that civilian 
education credit or licensure certification requirement that, 
somehow, it affects retention.
    Mr. Clark. Again, I can not see a direct link to that and 
the affect on retention, but not being that familiar with that 
separation and the transcript work that is done to try to 
crosswalk military training and education with civilian, I 
would prefer to take that for the record.
    Senator Murray. OK, well, sir, I think we need to have eyes 
open on this, that sometimes some of the training, et cetera, 
is not designed to help somebody get a job when they get home 
because of retention concerns. But in today's world, we have to 
make sure that what our military men and women are doing as 
they transition does transition. They come home to a very tough 
job market, and we can not just dump them on the street and say 
tough. We need to make sure that what they get actually works 
for them in the real world, and I think we really have to work 
on that.
    So Mr. Chairman, I will yield with this time and wait for 
the next panel. Thank you.
    Chairman Akaka. Thank you very much, Senator Murray.
    Senator Isakson?

               STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Thank you, Mr. Chairman.
    I apologize for missing your testimony. I do have really 
one question that I would like to ask. Do you have any idea, 
and this is for anybody that would know, do you know the 
breakdown under the New GI Bill of people going to residential 
education environments versus online environments? Do you know 
the breakdown in that?
    Mr. Wilson. I do not know the breakdown off the top of my 
head. We can certainly do some researching and get back to you. 
I'd be happy to do that.
    One comment I would offer though is that the break is not 
as clean as either/or. Many of our students are taking hybrid 
training. They'll take some courses in residence, but then they 
are also taking a class or two at night. Perhaps, even at the 
same institution online. So it does get a little bit more 
complex.
    Senator Isakson. Staying on that same vein for a second, 
eArmyU I think is the term you used for the active-duty online 
education. Is that not correct?
    Mr. Wilson. Yes, that's correct.
    Senator Isakson. As I recall, there were about 32 4-year 
colleges or universities that were participating in delivering 
content to our active-duty personnel.
    Are those the same institutions to which people can get 
online education through the GI Bill, or is there a different 
way of certifying institutions that can offer it and those that 
can not?
    Mr. Wilson. There would be a different mechanism for 
approving the program, but making an assumption that these are 
accredited institutions or institutions that VA normally works 
with otherwise, those programs would have been approved through 
VA's approval process to use for VA purposes.
    Senator Isakson. That answers my question. But if you would 
give me the information, and I do understand the hybrid nature 
in particular of some of the online content while being a 
residential student, but I'd like to know the number that are 
full-time online and the number that are full-time residential 
just for my information, if you would.
    Mr. Wilson. I'd be happy to.

    [The information requested during the hearing follows:]
 Response to Request Arising During the Hearing by Hon. Johnny Isakson 
   to Keith Wilson, Director, Education Service, U.S. Department of 
                            Veterans Affairs
    Response. VA does not have data that provides a breakout of the 
number of students attending in residence and online courses.

    Senator Isakson. Thank you. Thank you, Mr. Chairman.
    Chairman Akaka. Thank you very much, Senator Isakson.
    I regret very much that due to signing of the financial 
reform legislation, I am going to have to leave a bit early 
today. Senator Tester has graciously agreed to chair the 
balance of the hearing in my absence, and I want to thank him. 
Thank you very much, Senator Tester for that. In addition, I 
want to extend my deepest thanks to all our witnesses this 
morning for your insights and input. You've been very, very 
helpful prior to this and now with the Committee's work, as 
well. So again, I want to say thanks. Let me now turn the gavel 
over to Senator Tester.
    Senator Tester [presiding]. Well, thank you, Chairman 
Akaka, and if I may, I'll just ask questions from here and then 
take your seat after you go. I want to thank you for your 
leadership, as always, and good luck at the signing.
    Mr. Wilson, this is kind of a follow-up on Senator Brown 
from Massachusetts' questions. In April, you talked about the 
targeting for full functionality of the claims, Automated 
Claims System, December 2010. Is that on target? You talked 
about functionality. Is that what you meant? It is going to be 
fully functional by December 2010?
    Mr. Wilson. That's correct.
    Senator Tester. OK.
    Mr. Wilson. That's what we're on target for, is providing 
the functionality to process claims by the end of December.
    Senator Tester. Perfect. You also talked about the 
Chairman's bill would be much better if it were delayed until 
August 2011.
    Do you anticipate the upgraded IT system will be adequately 
ready to handle the delivery of new benefits proposed by this 
bill?
    Mr. Wilson. We believe it will be. That's what our estimate 
of August 2011 is based on.
    Senator Tester. Good. You raised the issue of complexity. I 
am glad that you did. I think one of the problems we had last 
fall, one of the problems we have today is implementation being 
complex for the veteran, and it's been complex for the school.
    The question is, what kind of outreach are you doing to 
help the schools, particularly in rural parts of the country, 
to better understand how to handle certain cases? And what 
specifically is the VA doing in terms of listening to the 
concerns of school administrators?
    Mr. Wilson. There are several mechanisms in place for 
training. First of all, all school officials receive online 
training from VA. That's VA-sponsored training in terms of 
providing the technical information that they need to provide 
the VA so that we can pay benefits.
    Senator Tester. OK.
    Mr. Wilson. Additionally, we have individuals stationed 
throughout the country, our Education Liaison Representatives, 
who are the first point of contact for all school officials 
within their State of jurisdiction. In addition to those 
individuals, I think you're aware we have had a longstanding 
relationship with the State Approving Agencies. The State 
Approving Agencies are also on the ground at the States 
providing training and resources.
    Senator Tester. OK. So if a school has a concern, they go 
to the VA employees that you talked about?
    Mr. Wilson. That's correct.
    Senator Tester. OK. That's exactly the point I am getting 
at. Those VA employees are in four different places in the 
country, and correct me if I am wrong. We have a number of 
schools in Montana, where it's a long journey to get to those 
folks. If you have four people in a number of schools in 
Montana, you extrapolate that out to all the States in the 
union, and the further away you get, the bigger the problem is.
    I have advocated for a VA education rep in Montana. It's 
for prestige; it's because, as Senator Brown said, we're the 
ones that catch the input, and I think it would behoove us to 
have folks on the ground to be able to hear the challenges that 
are going on in these schools because I think that's how you're 
going to get to solutions. If you could take that message back, 
it would be very much appreciated.
    Mr. Wilson. I can do that. Could I make a clarification 
point?
    Senator Tester. Sure. Go ahead.
    Mr. Wilson. We do process claims at four locations around 
the country. However, we have our liaison representatives 
stationed throughout the country, not at those four sites. I 
believe our individual responsible for Montana is working out 
of our St. Paul Regional Office, and then the State Approving 
Agency individual works out of Helena, I believe.
    Senator Tester. St. Paul is 1,000 miles away.
    Mr. Wilson. Understood.
    Senator Tester. OK. All right. During our last hearing on 
the subject, you testified--this is Mr. Wilson again--that the 
VA had been giving the wrong living stipend because the 
military housing allowances were not revised within the 
computer system that took effect January 1. You projected the 
issue would be resolved by last month.
    How's it going?
    Mr. Wilson. The payment of the housing allowance is tied to 
the functionality and the data conversion involved with Release 
2. The technical functionality was delivered on July 3, as 
scheduled. The conversion is occurring throughout the month of 
July. We have completed conversion of about 153,000 cases to 
date. The remainder of the conversion of cases is currently 
scheduled to occur next week, the upcoming weekend, and the 
following week, and that conversion, that successful conversion 
is what allows us to pay that housing allowance.
    Senator Tester. Of those 153,000, how many were 
overpayments?
    Mr. Wilson. None of the 153,000 had overpayments. That 
first group that we converted were the individuals who we had 
determined eligible, but had not received any payments yet.
    Senator Tester. OK. What have been the results of your 
review?
    Mr. Wilson. Our 153,000 conversion was successful.
    Senator Tester. OK, how about looking into the folks who 
were overpaid and underpaid?
    Mr. Wilson. As part of the conversion, the additional 
things that we will get, in addition to the conversion into the 
new tool, is the complete list of individuals that are due the 
increase, and that payment of the increase is going to be 
automated.
    Senator Tester. OK.
    Mr. Wilson. We will push a check for the difference they 
are owed directly to the individual.
    Senator Tester. I guess the question is that I think it was 
this month you were going to finish looking into who was 
overpaid and who was underpaid.
    Has that been done?
    Mr. Wilson. Yes, yes.
    Senator Tester. And what has been the result of that?
    Mr. Wilson. There's an estimated 150,000 individuals that 
are due some type of additional payment.
    Senator Tester. OK, so, that's 150,000 you were talking 
about.
    And how are you handling those overpayments?
    Mr. Wilson. There won't be overpayments.
    Senator Tester. OK.
    Mr. Wilson. There's about 150,000 underpayments.
    Senator Tester. Underpayments.
    Mr. Wilson. That we will be resolving.
    Senator Tester. So, there were no overpayments?
    Mr. Wilson. No. In terms of overpayments, we are following 
the same policy that DOD has in place. If an individual is 
residing in an area that has a decrease, we grandfather them 
into their current rate.
    Senator Tester. Thank you.
    Mr. Wilson. So that would cover everyone who lives in that 
area when the decrease occurs.
    Senator Tester. Thank you.
    Senator Begich?
    Senator Begich. Let me just do a quick run. So people who 
have received an overpayment, are they being requested to pay 
back? Isn't that the ultimate question?
    Mr. Wilson. The overpayments, and perhaps I need to seek a 
little clarity on the specifics--if an individual has an 
overpayment for pursuing VA education benefits, we pursue 
collection of that overpayment, and that's the same thing we do 
for Montgomery GI Bill, et cetera.
    Senator Begich. Right. So that's the question I think was: 
How many of those people? How many were in that category?
    Mr. Wilson. OK. I understood the question to be related to 
the BAH increase, and the BAH increase does not cause 
overpayments for those individuals that were in that housing 
zone when the decrease occurred because we grandfather them 
into the old rate. So we do not pay a decrease, so, there would 
be no overpayment for those individuals. And perhaps, I am not 
being clear, and if not, I apologize if I am missing the 
question.
    Senator Begich. I am going to hold that because I have 
about six questions I want to rapid fire. I might come back to 
that, depending on time, because I want to pursue that.
    First, let me get two kind of Alaskan issues out of the 
way. Muskogee area and how we respond, that's one of the 
service centers; I think of the four, that's our area. We just 
get a pile of complaints of service or lack of response or slow 
response or delayed response.
    Do you have any metric that you keep track of? For example, 
call time, wait time, response time, letter response time, e-
mail response time? Do you keep those kind of data points?
    Mr. Wilson. We do.
    Senator Begich. Do you do that on a regular basis?
    Mr. Wilson. Yes, we do.
    Senator Begich. So, for example, if I asked you to give the 
last 6 months of how long people stay on hold, how many 
disconnects there are, in other words, people who hang up 
because they are frustrated, how that's been improved or not 
improved, do you have those kind of data points?
    Mr. Wilson. We do. I'd be happy to provide it to you.

    [Responses were not received within the Committee's 
timeframe for publication.]

    Senator Begich. I would love that. If you could get those 
numbers for that office, specifically for the last at least 6 
months--and I recognize there's a high enrollment request, but 
I want to see through those data points how the flow is.
    The second is: Do you coordinate with the Direct Student 
Loan folks within the Federal Government to determine--because 
yours is not a loan, it's basically a grant to allow folks to 
move on to higher education--do you have any connection with 
understanding because theirs is watching default rates or 
watching capacity of these universities, they are basically 
taking money and not doing really the job they should be doing.
    What is your way to coordinate to make sure we're not 
offering GI benefits at schools that over here are being 
questioned on their ability to perform? Do you do that?
    Mr. Wilson. Yes, we do that. The mechanisms by which we 
approve our programs are separate and distinct, and they are 
codified in Title 38. And I would argue actually that our 
mechanisms are more robust. Even for a school that is 
accredited, there is a mechanism by which they are required to 
seek approval for their programs for VA purposes in addition to 
that.
    Senator Begich. Can I ask you a question? Have you ever 
kicked a school off the program?
    Mr. Wilson. I do not know the exact answer to that.
    Senator Begich. Could you get that for the record?
    Mr. Wilson. I'd be happy to find out.

    [Responses were not received within the Committee's 
timeframe for publication.]

    Senator Begich. Because in the perfect world, everything is 
good, but I used to chair the Student Loan Corporation for the 
State of Alaska for 7 years, Post Secondary Education 
Commission. Despite the great schools that are in our country 
here and overseas, there are some that just have a lack of 
ability to understand what they should be doing with the monies 
that the Federal Government provides for these students. So I 
would like to see in the last 5 years or 10 years, you pick the 
period of time, if anyone's ever been taken off the program and 
benefited from the GI benefit?
    Mr. Wilson. OK.
    Senator Begich. Universities, school, certification 
program, it does not matter, just what's the skinny there?
    Mr. Wilson. We'd be happy to provide a response. Just in 
terms of a clarification, we approve each individual program. 
We do not approve the institution overall. We approve specific 
programs. There have been, I know, programs that we have not 
approved initially. I just do not know whether we have yet 
pulled approval once a program has been approved.
    Senator Begich. What happens if you have a program that 
let's say it's a good program, but the school is in a serious 
situation with, for example, the other side of the equation, 
the folks that are doing the Pell Grants and the student loans 
on the other side. In other words, they've been booted off a 
grant program.
    Do you still fund the program within a school like that?
    Mr. Wilson. We will still allow a veteran to pursue 
training at that institution, making the assumption that they 
still have to meet our approval criteria. That approval 
criteria is still out there for our purposes, and we can go out 
whenever we need to, to survey whatever's needed to ensure the 
veteran's quality of education is still there.
    Senator Begich. OK. My time has expired, but if you could 
follow-up and give me some information on that.
    Senator Murray talked about certification and how we make 
that connection between what services they receive in the 
military and then how they can move that forward. My 
understanding is--and you can get back to me for the record on 
this later--my understanding is the Coast Guard has developed a 
program to do that. I am pretty sure it's the Coast Guard, 
where they've been able to ensure some of the work they do and 
the training that goes on there can literally transfer right 
over into certain certifications that then can be utilized in 
the private sector without additional expense and cost to 
Coasties. So could you follow-up on that and----
    Mr. Wilson. I would be happy to look at that. Just in terms 
of amplifying a little bit more on Senator Murray's comments, 
it does get, based on our experience, a little bit more complex 
than one list in the military and another list on the outside. 
It's one thing and much cleaner if there is a DOD 
certification, for example, and then externally one national 
certification.
    Senator Begich. Correct.
    Mr. Wilson. However, our experience is that most of the 
certifications that we deal with are at the State level, and 
there's obviously very many different State----
    Senator Begich. No, I understand that, but I think the 
Coast Guard has done something on the national level. I do not 
know why--some discussion I had sometime, and it's just coming 
back to me here. So, great. Thank you very much. Thanks for 
your testimony.
    Mr. Chairman?
    Senator Tester. Senator Burris.

              STATEMENT OF HON. ROLAND W. BURRIS, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Burris. [Microphone malfunction] I'd like to 
welcome Judy Flink from the University of Illinois for making 
her way here to testify today. Her expertise, over 30 years of 
experience in student financial services and higher education, 
should include the invaluable [microphone malfunction] and 
provide input on how we can make the Post-9/11 GI Bill the best 
bill that it can be. [Microphone malfunction.]
    And Mr. Wilson, could you provide that information that 
Senator Begich requests to all of us on the Committee, please?
    Mr. Wilson. I'd be happy to.
    Senator Burris. [Microphone malfunction] do that. OK.
    Could you tell me [microphone malfunction] registered with 
the University of Phoenix?
    Mr. Wilson. We do. Yes.
    Senator Burris. And that's [microphone malfunction] online 
education.
    Have you approved that university?
    Mr. Wilson. That's correct. The University of Phoenix 
conducts both online and resident training.
    Senator Burris. Can you tell me the status of the $3,000 
advance payment checks that went out to veterans and the 
servicemembers in October 2009 and those who have not yet 
received their VA benefit for the fall enrollment period? How 
much of the money have you recouped?
    Mr. Wilson. I do not know the exact numbers. I'd be happy 
to provide a response for the record, Senator.

    [This question was duplicated in Post-Hearing Questions 
from Senator Burris.]

    Senator Burris. Would you please do that for us? And how do 
we ensure that we will not have to do a second round of 
emergency payments [microphone malfunction] the next school 
year? Is that an internal VA policy that we need to [microphone 
malfunction] or can we fix it?
    Mr. Wilson. We believe we're in a much better place going 
into this fall than we were last fall, as witnessed by our 
success last spring. We will do whatever it takes to make sure 
individuals are paid their benefits. However, because we have 
been able to increase our productive capacity significantly and 
have taken steps to work with schools to begin processing 
enrollment certs earlier, we believe we are much better 
positioned this fall and believe that we can provide timely 
benefits this fall. We will continue to monitor that day by day 
very aggressively.
    Senator Burris. Now, Mr. Wilson, the implementation process 
of the Post-9/11 GI Bill has not been a smooth journey, which 
you said. But we are starting to make progress. It is 
disturbing though to hear stories about phone lines, hold times 
or even dropped calls, a lack of communication between schools 
and the VA, and the lack of standardization of policies.
    How can we proceed from here to make sure that not only the 
process become more standardized and streamlined, that there's 
an open communication process between the VA and the schools?
    Mr. Wilson. We have worked very hard, and we'll continue to 
work hard to make sure that we have an effective relationship 
with the school officials. The school officials are crucial to 
veterans being able to obtain their benefits timely. They are 
the ones on the ground at the school. They, as well as the 
State Approving Agencies are the folks on the ground where 
these students are. We work very aggressively with the school 
certifying officials through our Education Liaison 
Representatives around the country, as well as providing 
material online, as well as the State Approving Agencies 
working with the school officials.
    Senator Burris. Mr. Wilson, I understand though when a 
payment would go to the school, and you correct me if we have 
misinformation on this, and let's just say that there's some 
overpayment to the school, rather than the check coming back to 
the VA, the check comes back to the student. The student does 
not understand what the check is for, and the student may have, 
in fact, spent that check, thinking it was a refund of 
overpayment that he or she has made. Now, have we gotten our 
handles on that issue?
    Mr. Wilson. There are a lot of moving parts concerning how 
VA pays tuition and fee amounts to the schools, and there are 
also non-VA-related requirements. For example, we are always 
paying the tuition and fee payment toward the beginning of the 
semester now, based on the charges that the school official 
certifies to us. Anytime there is a change in enrollment status 
during that semester, there will have to be an adjustment of 
that amount of tuition and fees.
    Sometimes, for instance, the school could have a policy 
that says that they refund half of the tuition and fee amounts 
if a person drops within a certain amount of time. They will 
certify those new tuition and fee amounts to us, and since we 
have already paid the full tuition and fee amount upfront at 
the beginning of the semester, those situations are going to 
result in an overpayment, and those overpayments----
    Senator Burris. And the refund would go back where? To the 
student or back to us?
    Mr. Wilson. If there's a refund, whether the refund goes to 
the student or the VA will depend on the circumstances of the 
payment amount and who----
    Senator Burris. Do you have any data from what information 
we have been able to ascertain as to students who now are 
getting refunds which they are not entitled to, and they are 
spending those refunds, and now the VA is trying to collect 
money from the students.
    Mr. Wilson. I am not aware of information, but I'll be 
happy to----
    Senator Burris. Would you please check on that?
    Mr. Wilson [continuing]. Do research on that and provide a 
response.

    [Responses were not received within the Committee's 
timeframe for publication.]

    Senator Burris. That's the information we are getting. 
Thank you, Mr. Chairman. I am going to have to leave to 
preside.
    Senator Tester. OK.
    Senator Burris. Thank you.
    Senator Tester. The senior senator from West Virginia, 
Senator Rockefeller. Finally.

           STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Rockefeller. You see, bullying takes place 
everywhere. That's what he's doing to me because he's my 
friend, and because he's so small.
    We have been trying to do a lot of what you're talking 
about in West Virginia at Concord University, Mountain State 
University, to create sort of a veteran-friendly atmosphere, 
and we're taking it very seriously, they are taking it very 
seriously. Mr. Chairman, I'd like to put my statement in the 
record, with your permission.
    Senator Tester. Without objection.
    [The prepared statement of Senator Rockefeller follows:]
          Prepared Statement of Hon. John D. Rockefeller IV, 
                    U.S. Senator from West Virginia
    Mr. Chairman, I commend you for holding this hearing and your 
strong commitment to oversight and improvement in our existing program. 
This is an important role for our Committee and I appreciate all your 
efforts.
    It is essential to improve the implementation of the GI bill and 
make the changes necessary on living allowances, transfer of benefits 
to dependents and clear rules on unique circumstance like foreign 
study.
    But I also want to mention that my state of West Virginia is 
working to make our campuses ``veteran friendly'' in a variety of ways. 
Some institutions are having introductory classes of all veterans, 
others are creating veteran lounges or hiring new outreach counselors 
with military experience. This is important work to ease the transition 
from combat in Kabul or Basra to a quiet campus with a different set of 
rules and discipline.
    Next week, thanks to technology, I will be participating in the 
Returning Veterans Symposium next week at Concord University. This 
event will bring together West Virginia educators and the VA officials 
from our VAMCs and Vet Centers to discuss ways to support our veterans 
and provide for the best transition. I am proud of West Virginia's 
efforts and I am committed to helping them in every way.
    We must get the funding right to cover tuition and living allowance 
as the Chairman's bill does. I also want to begin the discussion about 
the non-financial ways to help our veterans in their transition and 
their studies. I look forward to the testimony.

    Senator Rockefeller. We need help. I mean, we always need 
help on these things. West Virginia is 4 percent flat, 96 
percent mountainous. People do not like to travel. A lot of 
people, they can not easily go to Web sites, particularly in 
our rural areas. A lot of coal miners and others do not have 
time for Web sites, and sometimes, they do not have money for 
Web sites.
    So I appreciate very much what you say about the pending 
legislation, but I'd also like to ask about other ways that the 
VA and the DOD can support our military personnel and our 
veterans as they come back and make this absolutely impossible 
transition. My State is working, as I say, to create veteran-
friendly campuses. I am very proud of that effort, and I know 
these folks can use help. I am wondering in what ways VA and 
DOD can be helpful in taking States that are working in good 
faith to try to help veterans make this transition. I know it's 
a very general question, but it's a very important question for 
me.
    Mr. Wilson. The key, I believe, to success at the State 
level is the relationship VA has with the State Approving 
Agencies. Those individuals are on the ground with VA's 
Education Liaison Representatives in the States.
    We do not have a physical ELR in every State, as Senator 
Tester is aware. But those individuals are on the ground, they 
are funded to provide outreach services. Can the outreach 
services be more robust? Absolutely. We're constantly looking 
at how we can do a better job of getting out there, not just at 
campuses, but reaching individuals before they make the 
decision on where they want to go to the school. What's key, I 
believe, is those individuals that are on the ground in the 
States.
    Senator Rockefeller. Isn't that sort of like the difference 
between a veterans' hospital and a Vet Center? At least in our 
State in Appalachia people are afraid of going into big 
buildings, universities, colleges, hospitals. They're just not 
accustomed to doing that.
    There are some that have never been in an elevator before, 
and I love them for that because they are so busy trying to 
survive and make things come together so that when you say the 
word ``outreach,'' I understand your intention. I understand 
your good intentions, but outreach is really hard when trying 
to convince a veteran to go do something to get themselves 
improved. That's why VA Vet Centers work so well, because they 
are always on the ground floor, they are always on the corner, 
they are in an old Kroger store or something of that sort. They 
walk in there and they know they are going to meet fellow 
veterans. They are immediately comfortable, and they 
immediately go. Well, universities are not like that.
    And so, the outreach, I just want to persist on that. You 
do not have enough people on the ground, you do not have all 
kinds of things that you'd want to have and need to have. But 
outreach to me is a very sensitive subject in West Virginia. 
You have to somehow connect with the veteran, and I do not know 
how that happens. We have so many Vet Centers, they are heavily 
used, and we have four visions all going in different 
directions, which I never quite understood, but which I accept. 
But some people do not like to go to big places.
    So talk to me about the rural veteran. He has a lot of them 
in his State, too.
    Mr. Wilson. I certainly did not want to imply that we 
believe the veterans should be coming to us, coming to a 
regional office, coming to a VA hospital. That's not our goal 
for outreach. Our goal of outreach is being out in the 
locations where those individuals are.
    The State Approving Agencies are the ones that know those 
States best. They know where the veterans are located. If that 
means that we go to Vet Centers or they go to Vet Centers, then 
that's what they do. They go to Vet Centers. If it means that 
they are aware that there's a veteran stand down at a local 
service office or hall, a VFW hall----
    Senator Rockefeller. Mr. Wilson, make the case to me that 
these approving agencies in the States--I mean, I was a 
Governor for 8 years, and I can not say that all agencies were 
the most efficient that ever were. There are a lot of things 
that pay better than State government. So when you say that 
they know where the veterans are, I have to relate to that, I 
have to believe you, because we're not very good at tracking 
people. Some people do not want to be tracked, or make it 
difficult to be tracked. Do you understand what I am asking?
    Mr. Wilson. I believe I do.
    Senator Rockefeller. I am asking an impossible question, of 
course.
    Mr. Wilson. Yes. I believe I do, and I do not think I can 
provide an adequate response. You're absolutely right. Some 
States and some locations in VA are better at providing 
outreach services than others. That's a fact. We are always 
working on improving that. I think the key is, of course, not 
requiring individuals to come to us. We have to find the 
mechanism to be out where they are.
    I mentioned being on campuses, but I think it's important 
to be able to reach the veterans before they show up on campus 
because the fact is, a lot of folks do not use the GI Bill 
benefits. Even though our usage rate for the Montgomery GI 
Bill, which is the most recent statistics we have is 70 
percent, 70 percent of individuals that are eligible use the 
program. That's the highest in history, but that also means 
that 30 percent of the individuals for whatever reason are not 
using the benefit. Those are the individuals we need to do a 
better job of trying to make aware of the programs.
    Senator Rockefeller. Yes, and I am over my time. I respect 
the 70 percent that are using, and I regret the 30 percent that 
are not using it. On the other hand, we're obviously moving in 
the right direction, and word of mouth, the VSOs, there are a 
lot of things in rural States have to be done informally. And I 
think that's going to end up somehow being our answer. People 
who keep the statistics, who know where these folks supposedly 
are, and then others who just through word of mouth reach out 
because I think veterans know where veterans are.
    Mr. Wilson. Understood. One of the things that we have done 
also to address it is brought in a firm to help us with the 
national marketing strategy for the Post-9/11 GI Bill on a 
national level, doing the type of research that we have not 
done in the past concerning where veterans are at, how do we 
reach veterans, and I think most importantly, perhaps, is how 
do we reach the veterans' family, looking at the issue broader 
than just the individual.
    Senator Rockefeller. Yes.
    Mr. Wilson. How do we reach those family members? They've 
done a very good job, and we're just at the beginning of this, 
placing information concerning the Post-9/11 GI Bill in local 
and national media, getting ads on radio.
    One of the things that they came up with, which I am very 
proud of, is helping sponsor a NASCAR during one of the recent 
NASCAR events. We were able to get several portions of the car 
with GI Bill on it and the contact information on how to get a 
hold of us. Our Web site traffic went up one-third.
    Senator Rockefeller. That's amazing. Excuse me, Mr. 
Chairman, but I mean, this is America now. You put your number 
on a NASCAR, and if you----
    Mr. Wilson. It worked, sir.
    Senator Rockefeller. And if you see the darn thing pass and 
you can write it down.
    [Laughter.]
    Mr. Wilson. Yes.
    Senator Rockefeller. Because I guess it goes around so many 
times, you can sort of do number by number.
    Mr. Wilson. Well, it's interesting, and we're learning a 
lot in this area. But what we found out is as you create these 
relationships, and it's more than just our Web site going by, 
but it's the commentator talking about what's on the car. It's 
the driver talking about our GI Bill Program during press 
interviews. Their research showed that one in three of our 
potential students or their family members are NASCAR 
followers. So those are the type of things that really allow us 
to get out there, albeit informally.
    Senator Rockefeller. Yes.
    Mr. Wilson. Getting back to your message.
    Senator Rockefeller. No, and I do not mean to be joking 
because NASCAR is huge in West Virginia, and I am sure it is in 
Montana. Right?
    Senator Tester. Yes, it is, actually.
    Senator Rockefeller. And you've got cars, do not you?
    Senator Tester. Yes. Yes.
    [Laughter.]
    Senator Rockefeller. Thank you, Mr. Chairman.
    Senator Tester. Thank you, Senator Rockefeller. I just have 
a couple more questions before we wrap this panel up, unless 
you have more questions, Senator Rockefeller.
    First thing, as far as the educational rep in St. Paul, did 
it just get moved to St. Paul because it was in St. Louis?
    Mr. Wilson. Let me go back for the record----
    Senator Tester. OK. That's fine.
    Mr. Wilson [continuing]. And provide a full response.
    Senator Tester. Through the efforts of technology, I was 
just informed that the ed rep that's either in St. Louis--the 
ed rep from Montana retired earlier this year, and there will 
not be a new one until December.
    Mr. Wilson. OK.
    Senator Tester. I just heard at a previous hearing I was at 
that Iraq and Afghanistan vets are coming back, and their 
unemployment rate is about 12.5 percent, which is higher than 
the national average. I mean, there's got to be people out 
there that can do this job. Why are we waiting until December 
to fill it? We're missing a whole semester in Montana.
    And to back up a little bit, it was about 2 or 3 months ago 
I had a session in Montana with the college folks that go 
through the red tape. This is a big issue. I mean, there was an 
incredible amount of frustration in the room. They did not have 
access to people that could answer their questions. They did 
not fully understand the program to a point where they could 
answer the veterans' specific questions. We have got a problem. 
How are we going to deal with it? In a place like Montana--and 
by the way, Montana probably is not the only State which the 
education liaison impacts--how can this continue?
    Mr. Wilson. It can not. I'll take the message back; I'll 
look into it more.
    Senator Tester. OK.
    Mr. Wilson. Unfortunately, I can not provide an adequate 
response.

    [The information requested during the hearing follows:]
 Response to Request Arising During the Hearing by Hon. Jon Tester to 
Keith Wilson, Director, Education Service, U.S. Department of Veterans 
                                Affairs
    Question. Clarification on where the Education Rep/Liaison is for 
Montana (St. Louis or St. Paul).
    Response. Ms. Judy Davis was the Education Liaison Representative 
for Montana. She recently retired, and the new Education Liaison 
Representative for Montana is Mr. Christopher Sutherland. His office is 
in the Denver Regional Office, and he works for the St. Louis RPO.

    Senator Tester. OK. Fine. One last thing. We had a pretty 
good discussion about overpayments last time around in April, 
and I appreciate the frankness and your realistic statements 
about what you can guarantee and what you could not. Following 
that hearing, Senator Begich and I wrote a letter to your boss, 
Deputy Undersecretary Cardarelli, and I have got the letter 
here. Unfortunately, we have not received a response. Just to 
be clear, I do not blame you for that. It's something we'll 
take up with Acting Undersecretary Wilkoff. But, in the 
meantime, it rightly or wrongly falls to you to have you to 
address this significant challenge.
    So where are we in fixing the problems so that veterans are 
not immediately placed in overpayment? Now, I heard the 
conversation with Senator Burris. I can also go back and tell 
you that the testimony that we received, because I have it 
right in front of me from the hearing back in April, was 
something like this. My question was, ``Moving forward, is 
putting veterans in overpayment status something that the VA is 
going to continue or are we going to fix that?'' Your response 
was, ``We would prefer not to have the veterans in overpayment 
status.'' I said, ``Are we going to fix it?'' You said, ``We 
will do everything we can to put them in a status other than 
overpayment status.'' That's not what I heard here today. I 
heard that they are still going into overpayment status.
    Do we understand what kind of fix we're putting the vets in 
by doing that?
    Mr. Wilson. I believe we do. In my own personal experience, 
I have been in debt to the Federal Government. You do not want 
to be in that situation.
    Senator Tester. Yes.
    Mr. Wilson. We fully realize the difficulty that that puts 
an individual in. The core issue with overpayments is we will 
see more overpayments under the Post-9/11 GI Bill than we have 
under our other education programs. Unless there's a statutory 
change, because of the manner in which the payments are 
structured, we're paying the total charges at the beginning of 
the semester.
    Senator Tester. Yes.
    Mr. Wilson. Since we're frontloading those payments, which 
we have never done in the past, anytime there is a training 
time change, whether that be a reduction or a withdrawal from 
class, any time during that semester, there will be some type 
of adjustment in the payments.
    Senator Tester. OK.
    Mr. Wilson. Since they are all out the door for tuition, a 
lot of times it will result in an overpayment.
    Senator Tester. So what you're saying is that the VA can 
not handle this problem without a statutory change?
    Mr. Wilson. That's correct.
    Senator Tester. Could you give us recommendations on what 
that statutory change would say?
    Mr. Wilson. Yes. We have been working with the Committee. 
We'd be happy to continue to work with the Committee on that 
issue.

    [The information requested during the hearing follows:]
 Response to Request Arising During the Hearing by Hon. Jon Tester to 
Keith Wilson, Director, Education Service, U.S. Department of Veterans 
                                Affairs
    Question. VA comments regarding the need for statutory changes to 
prevent as many overpayments in the future.
    Response. The decision to issue emergency payments for the fall 
2009 term was an internal VA policy decision. Emergency advance 
payments were not needed for the spring and summer 2010 terms, and we 
do not anticipate needing emergency advance payments for the 2010/2011 
school year that begins this month.
    We encouraged schools to submit enrollment certifications earlier 
this year, asking them to submit the certifications even if their fall 
tuition and fees schedule had not been finalized. Doing so allows VA to 
timely process students' housing allowance and books and supplies 
stipend. The school may subsequently submit certification of the 
tuition and fees to receive payment. In addition, many students are 
returning students that VA previously determined eligible for the Post-
9/11 GI Bill program, making the award and payment process much 
simpler.

    Senator Tester. That'll be good. Thank you very much. I 
appreciate the panel and appreciate your testimony. Mr. Clark, 
I wish we could have fired more questions at you, but you got 
enough, I guess. So, thank you very much for being here. Thank 
you.
    Now we welcome the second panel that will include 
representatives from many of the GI bill shareholders. First on 
the panel will be Eric Hillman, national legislative director 
of the VFW. He'll lead off with the views of that organization. 
He will be followed by Tim Embree, legislative associate for 
the Iraq and Afghanistan Veterans of America. I want to 
especially thank you and your organization for the help, input, 
and development of this legislation.
    Our third witness today is Terry Hartle, senior vice 
president of the American Council on Education. Fourth, we're 
joined by Judy Flink, executive director of Student Financial 
Aid Service at the University of Illinois. Finally, Captain 
Gerard Farrell is here, representing the Commissioned Officers' 
Association of the U.S. Public Health Service.
    With that, if you folks would take your seat, and we'll 
start out with Mr. Hillman.
    Mr. Hillman. Good morning, Senator Tester.
    Senator Tester. Good morning. Good to have you all here. 
Whenever you are ready, Eric, you can rock and fire.

  STATEMENT OF ERIC HILLEMAN, DIRECTOR, NATIONAL LEGISLATIVE 
               SERVICE, VETERANS OF FOREIGN WARS

    Mr. Hilleman. Senator Tester, thank you for the opportunity 
to testify today. We certainly thank Chairman Akaka, Ranking 
Member Burr, and the Members of this Committee.
    On behalf of the 2.1 million men and women of the Veterans 
of Foreign Wars and our auxiliaries, we are pleased to testify 
on this important issue of GI Bill implementation and upgrades, 
specifically commenting on improvements to the Post-9/11 GI 
Bill and the legislation introduced by Senator Akaka.
    We would like to begin by thanking Senator Webb, Senator 
Akaka, and all the Members of the Senate Veterans' Affairs 
Committee. Because of their work, their leadership, the Post-9/
11 GI Bill came into being. It is educating hundreds of 
thousands of veterans around the Nation.
    The VFW is proud to have worked with Congress to pass this 
GI Bill. A generation of veterans is now better equipped to 
seek higher education. With this huge success behind us, it is 
time to reexamine the Post-9/11 GI Bill with an eye toward 
simplifying, strengthening, and providing better benefits to 
veterans.
    The VFW believes a number of changes should be made to the 
Post-9/11 GI Bill to address the needs of today's 
servicemembers and their families. The original GI Bill 
provided training, apprenticeships, OJT, and vocational 
training to the World War II generation of veterans. We believe 
the Post-9/11 GI Bill should also provide those same 
opportunities in the skilled trades to our servicemembers. The 
VFW supports the standardization with an eye toward equitable 
benefits for equitable service.
    The VFW priorities for standardization, simplification, and 
strengthening of the GI Bill are as follows: we need to expand 
eligibility of programs that currently do not qualify for 
Chapter 33 or lump sum payments, vocational training, distance 
learning; and Title 32 AGR Guard and Reserve service.
    With the increased reliance on the Guard and Reserve to 
wage war, secure our borders, and grapple with national 
disasters, we need to reward this continuous, noble service 
with GI Bill eligibility. Chapter 33 should include certified 
vocational programs, non-degree-granting institutions. The 
opportunity to learn a skilled trade while receiving a tuition 
allowance, book stipend, and BAH would greatly improve the 
lives of individuals who are seeking technical degrees. We 
should incentivize veterans to invest in technical educations, 
as these are the skill sets that help build our cities, connect 
our communications, and drive our economy.
    Further, on-the-job training should be included in Chapter 
33. OJT Apprenticeship Programs should receive a living 
allowance based on BAH of the ZIP code of the program; and a 
book stipend, which help them purchase tools, equipment, and 
pay dues.
    Programs such as Helmets to Hardhats have successfully 
placed veterans in skilled trades from across the Nation. This 
public-private partnership is paving the way for a generation 
of tomorrow's journeymen. Further, we believe that redefining 
full, three-quarter, and half-time enrollments will help to 
address some of the inequities within the legislation.
    We must equitably adjust this mechanism. Current law does 
not pay the living allowance for half-time students, yet, 
students enrolled in one credit or more of half-time receive a 
full living stipend. We encourage the Committee to consider 
basing BAH payments on stair step programs similar to that 
under the Montgomery GI Bill benefit.
    The VFW is very enthusiastic about S. 3447. This 
legislation is taking the GI Bill in a new direction, a 
stronger direction. It recognizes the service of hundreds of 
thousands of National Guard members activated in support of 
national emergencies. It also seeks to address the important 
vocational apprenticeship and on-the-job training programs as 
outlined in my written statement. Further, it addresses 
multiple issues, such as distance education, correspondence 
courses, active-duty book stipends, retention kickers, and 
stipends for disabled veterans.
    Senator Tester, this legislation will address every area of 
concern the VFW has with improving the GI Bill. We can not say 
enough about the noble efforts of this legislation. Our written 
testimony offers a number of simple suggestions to help 
improve, simplify, and strengthen this legislation with a goal 
of equitable benefits for equitable service. We look forward to 
continuing to work with this Committee, its staff, and the 
Congress to improve this valuable benefit that makes a life-
changing difference to so many veterans.
    Senator Tester, thank you for this opportunity to testify. 
That concludes my statement. I am happy to take any questions.
    [The prepared statement of Mr. Hilleman follows:]
  Prepared Statement of Eric Hilleman, Director, National Legislative 
         Service, Veterans of Foreign Wars of the United States
    Chairman Akaka, Ranking Member Burr and Members of the Committee: 
Thank you for the opportunity to provide testimony on Improvements to 
the Post-9/11 GI Bill. The 2.1 million men and women of the Veterans of 
Foreign Wars of the U.S. and our Auxiliaries appreciate the voice you 
give them at this important hearing.
    Senator Webb, Senator Akaka, and all the members of Senate 
Veterans' Affairs Committee; the VFW would like this opportunity to 
thank you for your leadership and the creation of the Post-9/11 GI 
Bill. The VFW is very proud to have worked with the Congress to pass 
the Post-9/11 GI Bill. A generation of veterans is now better equipped 
to seek higher education, with hundreds of thousands of veterans in 
schools across the Nation directly benefiting from the dedication, work 
and leadership of this Committee and its staff. With this huge success 
behind us, it is time to reexamine the Post-9/11 GI Bill with an eye 
toward improving, simplifying and strengthening the benefits it 
provides.
    The VFW believes a number of changes should to be made to the Post-
9/11 GI Bill to address the needs of today's servicemembers and their 
families. The original GI Bill provided training apprenticeships and 
vocational training for World War II veterans. We believe the Post-9/11 
GI Bill should also provide veterans the same opportunity to seek 
careers in skilled trades. The VFW supports the standardization with an 
eye toward equitable benefits for equitable service.
 vfw priorities for standardization, simplification and strengthening 
                         the post-9/11 gi bill
    Expanded eligibility: currently, there are a number of programs 
that qualify for education and training under Chapter 30 (lump sum 
payments, vocational training, distance learning), but are not 
authorized under Chapter 33. We support crediting Title 32 AGR 
eligibility as qualifying active duty time for the Chapter 33. With 
increased alliance on the Guard and Reserve to wage war, secure our 
boarders and grapple with national disasters we need to reward this 
continuous noble service with GI Bill eligibility.
    Vocational Programs: Chapter 33 should include certified Vocational 
Programs (non-degree granting institutions) to allow veterans the 
opportunity to learn a trade while receiving a living allowance, 
tuition and book stipend. Many veterans have technical skills and 
transferable credit that gives them a head start on earning a technical 
education. We should incentivize veterans to invest in technical 
educations as these skill sets help to build our cities, connect our 
communications and drive our economy.
    On-the Job Training: further, Chapter 33 should include On-the-Job 
Training (OJT)/Apprenticeship programs. Veterans in these programs 
should receive a living allowance based on BAH and the zip code of the 
OJT program. The living allowance should be tiered similarly to the 
MGIB. A book stipend should be paid every six months to aid the veteran 
in covering the cost of tools, dues and programs supplies. OJT is one 
of the few direct employment programs available to a veteran that 
provides an immediate career track. Programs such as Helmets to 
Hardhats successfully place veterans in the skilled trades across the 
Nation. This public-private partnership is paving the way for a 
generation of tomorrow's journeymen.
    Redefine Full, Three-Quarter and Half-Time Enrollments: in Chapter 
33, we must equitably adjust the mechanism for counting: full, three-
quarter and half-time enrollments. Current law does not pay a living 
allowance for half-time students, yet students enrolled with one credit 
more than half-time receive the full living stipend. We encourage the 
Committee to consider basing BAH payments on a stair step structure 
with enrollments of 12 credits or more equal to full time/100 percent 
BAH; 9 to 11 credits equal to three-quarter time/75 percent of BAH; and 
6 to 8 credits equal to half-time/50 percent of BAH. This would make 
rates simpler to understand and greatly reduce the number of over and 
underpayments charged to students.
                             pending bills
S. 1785 would amend Title 38, United States Code, to require State 
        Approving Agencies (SAA) to approve courses of education that 
        have been accredited and approved by a nationally recognized 
        accrediting agency or association, and for other purposes.
    VFW cannot support this legislation. We believe that SAA is a 
safeguard to the education and training programs offered to veterans. 
SAAs play a key role in ensuring veterans utilize their education 
benefits and training opportunities at reputable institutions. 
Requiring these agencies to approve courses that are recognized by 
other national approving bodies is duplicative. This requirement erodes 
the value of SAA's ability to protect the valuable GI Bill resources 
available to veterans.
S. 2769, the Post-9/11 Veterans' Job Training Act of 2009
    The VFW supports the intent of this legislation. S. 2769 would 
create a mechanism for importing On-the-Job Training (OJT) and 
apprenticeship programs into Post-9/11 GI Bill. This bill develops a 
structure paying 75 percent of the monthly benefit for the first six 
months, 55 percent of the monthly benefit for the second six months, 
and 35 percent of the monthly benefit for the next 12 months. The 
result is each month of entitlement would be charged at the same rate 
of usage. We believe it accurately deals with accessible steps in 
benefit and charge to entitlement. The outstanding concerns with this 
bill are the lack of clarity on payment rates and duration of payments.
    We encourage a simple table to determine the compensation rate and 
the charge to total months of entitlement for OJT programs. We 
recommend the following break out based on the BAH E-5 with dependents 
rate for the zip code of the program:

    <bullet> 100 percent of BAH for the first 6 months, resulting in 6 
months of entitlement used.
    <bullet> 80 percent of BAH for the second 6 months, resulting in 
4.8 months of entitlement used.
    <bullet> 60 percent of BAH for the third 6 months, resulting in 3.6 
months of entitlement used.
    <bullet> 40 percent of BAH for the forth 6 months resulting in 2.4 
months of entitlement used.
    <bullet> 20 percent of BAH for any remaining months, resulting .2 
months of entitlement used per month.

    Under this calculation, a veteran over the course of a five-year 
apprenticeship would use 24 months of his/her total 36 months of 
entitlement. Each veteran should receive a living allowance based on 
BAH and the zip code of the OJT program. The annual $1,000 book stipend 
should be paid at $500 intervals every six months to aid the veteran in 
covering the cost of tools, dues and program supplies. OJT is one of 
the few direct employment programs available to a veteran that provides 
an immediate career track.
S. 3082 would amend Title 38, United States Code, to authorize 
        individuals who are pursuing programs of rehabilitation, 
        education, or training under laws administered by the Secretary 
        of Veterans Affairs to receive work-study allowances for 
        certain outreach services provided through congressional 
        offices, and for other purposes.
    We support amending Title 38, United States Code, to authorize 
veterans to engage in work-study and certain outreach services provided 
through congressional offices, and for other purposes.
    As this Committee is well aware, the sunset date of the work-study 
pilot, authorizing work-study for outreach/domiciliary care/cemeteries, 
recently passed June 30, 2010. Currently, an extension of this program 
is tied up in the benefits bill (H.R. 1037) that has yet to be 
completed from last year. The VFW would like to stress the importance 
of work-study programs in the offices that rely on these talented 
veterans, and attest to the education and professional development each 
veteran gains by participating in this program. We look forward to 
continuing to work with both the House and Senate Veterans' Affairs 
Committees to address this legislation and ensure these veterans 
continue to earn valuable work experience while studying.
S. 3171, Veterans Training Act
    The VFW is concerned that this legislation does not address the 
compensation implications of expanding the Post-9/11 G.I. Bill. 
Currently, the law states only institutions of higher learning that 
lead to an associate degree or higher may be utilized under Chapter 33. 
This means that veterans attending vocational schools, apprenticeship 
schools, OJT and distance learning programs are excluded from utilizing 
Chapter 33.
    Many separating servicemembers have no desire to attend a 
traditional educational institution because they are more interested in 
learning skill sets that are not offered at these institutions. This 
legislation would seemingly allow veterans to attend educational 
institutions that do not lead to a degree (such as vocational schools, 
correspondence schools, business schools, science schools, technology 
schools, etc.) within the jurisdiction of the Post-9/11 GI Bill. 
However, this legislation fails to provide adequate mechanisms for 
providing payment to the veterans that choose these educational 
programs.
S. 3389, the GI Bill Equitable Education Benefit (EEB) Act
    The VFW opposes this legislation. This bill seeks to create a 
disproportionate benefit for members of the Guard or Reserve who used 
GI Bill benefits prior to September 11, 2001, and subsequently served 
four years accumulative active-duty after September 11, 2001. Current 
law mandates a maximum time limitation of 48 months for veterans using 
two or more educational programs. There are no exceptions to this rule.
    Veterans entitled to full benefits under both Chapters 1606 and 
1607 of Title 10 are limited to 48 months. Veterans are also 
constrained to 48 months in situations where they are fully eligible 
for benefits under Chapter 31, VR&E and Chapter 33. Regardless of 
eligibility status or combination of service, the law bars exceeding 
the 48-month limit. Further, the potential inequities would also cause 
confusion among the veterans and disproportionately reward one 
veterans' service over another.
S. 3447, the Post-9/11 Veterans Educational Assistance Improvements Act 
        of 2010
    The VFW is enthusiastic about the direction this legislation is 
taking the GI Bill. This legislation recognizes the service of hundreds 
of thousands of National Guard members activated in support of national 
emergencies. S. 3447 also seeks to address the importation of 
vocational, apprenticeship and On-the-Job Training (OJT) programs into 
Chapter 33. Further, it addresses multiple issues, such as distance 
education, correspondence courses, active duty book stipends, retention 
kickers and stipends for disabled veterans.
    Senator Akaka, your legislation addresses every area of concern the 
VFW has with improving the Post-9/11 GI Bill. We cannot say enough 
about the noble intent driving this legislation. We simply offer a 
number of suggestions to improve, simplify and strengthen your 
legislation with the goal of equitable benefits for equitable service. 
The following is a section-by-section break out of the provisions of 
the bill.
    Section 1 aptly entitles this bill, ``Post-9/11 Veterans 
Educational Assistance Improvements Act of 2010.'' Section 2 rewards 
the service of National Guard members who have served on Active Guard 
Reserve (AGR). While this language recognizes the largest percentage of 
Guard members who have served on AGR, we remain concerned that this 
language may exclude Active Guard service performed in the wake of 
September 11 at airports, border security operations, and some national 
activation in support of disaster relief, such as in the Gulf for 
Hurricane Katrina and the BP oil spill. The VFW feels the Nation should 
reward equitable service with equitable benefits. We support rewarding 
all members of the National Guard who are activated on national orders. 
When the Nation calls, the Guard answers, no questions asked.
    Section 3 eliminates the confusing mechanism VA currently uses to 
determine fees and tuition by making the promise that if a veteran 
attends any course of study at a public school (undergraduate, graduate 
or doctorate), the GI Bill will cover the cost. The VFW strongly 
supports this improvement and simplification of the GI Bill. Paragraph 
(a)(3)(ii) addresses the compensation rate for all private schools and 
foreign institutions, thus establishing the entry point for the Yellow 
Ribbon Program. This language would compensate up to the average 
national cost for an undergraduate degree for all institutions of 
higher learning. The VFW supports the intent of the Yellow Ribbon 
Program to encourage private schools to share in the cost of education 
America's warriors. We are, however, concerned that this language, as 
written, may result in a number of veterans enrolled in private 
institutions of higher learning receiving less funding than they are 
receiving under current law.
    Paragraph (b)(2) seeks to resolve the inequity of monthly stipends 
paid to veterans with less than full-time course loads. The VFW 
supports resolving this inequity. We would urge a simpler step scale to 
replace the sliding scale which requires the weighting of averages and 
the division of credit hours by the minimum number of course hours 
required for full-time enrolment.
    The Montgomery GI Bill) used a simple step scale, which could be 
applied in this case. A veteran taking 12 credits or more is equal to 
full time and 100 percent of BAH; 9 to 11 credits is equal to three-
quarter time and 75 percent of BAH; and 6 to 8 credits is equal to 
half-time and entitled to 50 percent of BAH. Thus, charging total 
monthly entitlement according to the percentage of BHA used in any 
given month. In taking this approach, every veteran can calculate the 
BAH for the school's zip code, determine their course load, and 
calculate the exact percentage of BAH they would receive. This would 
also help to minimize complications for the VA, while minimizing some 
of the over and underpayments that can occur when dropping or adding a 
class.
    Paragraph (b)(2)(iii) provides a half-time stipend for veterans 
pursuing a program of distance education on a half-time or more basis. 
The stipend would be equal to 50 percent of the national average BAH E-
5 with dependents rate. The VFW supports providing stipends for 
distance education; however, one of the primary purposes of the GI Bill 
is to serve as a transition program. We encourage every veteran to 
attend classes in a traditional classroom setting among their civilian 
peers. We believe the GI Bill helps reintegrate veterans into civilian 
life by encouraging socialization in the classrooms and lecture halls 
of America.
    With this in mind, we suggest, paying a living stipend to full-time 
distance learners of 50 percent of national BAH average; 9 to 11 
credits should be equal to three-quarter time and 37.5 percent of the 
national BAH average; and 6 to 8 credits is equal to half-time and 
entitled to 25 percent of the national BAH average. Using the national 
BAH average eases the calculation for VA when determine the BAH.
    Section 3, Paragraph (g)(2) allows veterans pursuing certifications 
and education in non- degree granting institutions to receive tuition 
payments up to the amount of the average national cost for an 
undergraduate degree for all institutions of higher learning. These 
veterans would also receive monthly living stipends for the national 
average BAH E-5 with dependents rate. The VFW supports this paragraph. 
We urge the inclusion of the $1,000 book stipend, paid every six months 
to aid the veteran in covering the cost of books, tools and program 
supplies.
    Paragraph (g)(2)(B) includes On-the-Job Training (OJT)/
Apprenticeship programs. The VFW supports the creation of an OJT 
program under Chapter 33, though legislation seeks to structure OJT 
under a complicated mix of national tuition rates and BAH. The VFW 
encourages a simpler table to determine the compensation rate and the 
charge to total months of entitlement for OJT programs. We recommend 
the following break out based on the BAH E-5 with dependents rate for 
the zip code of the program:

    <bullet> 100 percent of BAH for the first 6 months, resulting in 6 
months of entitlement used.
    <bullet> 80 percent of BAH for the second 6 months, resulting in 
4.8 months of entitlement used.
    <bullet> 60 percent of BAH for the third 6 months, resulting in 3.6 
months of entitlement used.
    <bullet> 40 percent of BAH for the forth 6 months resulting in 2.4 
months of entitlement used.
    <bullet> 20 percent of BAH for any remaining months, resulting .2 
months of entitlement used per month.

    Under this calculation a veteran over the course of a five-year 
apprenticeship would use 24 months of his/her total 36 months of 
entitlement. Each veteran should receive a living allowance based on 
BAH and the zip code of the OJT program. The annual $1,000 book stipend 
should be paid at $500 every six months to aid the veteran in covering 
the cost of tools, dues and program supplies. OJT is one of the few 
direct employment programs available to a veteran that provides an 
immediate career track.
    Paragraph (g)(2)(C) develops a compensation rate and tuition/fees 
for certified flight training programs under the GI Bill. This language 
would compensate a veteran for the program's established charges up to 
60 percent of the average national cost for an undergraduate degree for 
all institutions of higher learning. Paragraph (g)(2)(D) develops a 
compensation rate for exclusively correspondence courses administered 
under the GI Bill. This language would compensate a veteran for the 
program's established charges up to 55 percent of the average national 
cost for an undergraduate degree for all institutions of higher 
learning. The VFW supports these provisions.
    Section 4 establishes a mechanism to allowing a veteran to take 
multiple licensure and certification tests. Each test would cost the 
veteran one month of GI Bill entitlement at the rate of the average 
national cost for an undergraduate degree for all institutions of 
higher learning. While the VFW supports utilization of GI Bill benefits 
to take multiple tests, this section would eliminate the current $2,000 
maximum a veteran can utilize for a single test without charge to 
entitlement. The VFW recommends allowing a veteran to take multiple 
licensure and certification tests, spending into the $2,000 threshold, 
beyond the $2,000 threshold a veteran then consumes monthly entitlement 
for any tests beyond this amount at the rate suggested.
    Section 5 ensures that supplemental education assistance under 
Chapter 30 Chapter III, transfers into Chapter 33. The VFW supports the 
inclusion of these important incentives to assist the Department of 
Defense (DOD) in managing its military retention programs.
    Section 6 expands the transferability of education entitlements to 
members of the Public Health Service and the National Oceanic and 
Atmospheric Administration. The language takes this a step further to 
require the ``Secretary Concerned,'' both the Secretaries of Defense 
and Health and Human Services (HHS), to reimburse the Secretary of 
Veterans Affairs for GI Bill benefits transferred to dependents as part 
of the retention and force management plan administered under DOD. The 
Defense Department was responsible for crafting regulations to govern 
the administration of the benefit. DOD awarded transferability to all 
members of DOD who served the prerequisite years and elected to sign up 
for the benefit while in uniform. The VFW supports maintaining the 
powerful retention tool awarded, administered, and financed by DOD/HHS.
    The VFW supports the following sections: Section 7 bars the 
duplication of education benefits under Chapter 33. This ensures the 
Post-9/11 GI Bill is administered fairly. Section 8 prohibits non-
accredited distance learning and independent study programs from 
approval and use under the Post-9/11 GI Bill. This will help to protect 
against unscrupulous institutions promising degrees and classes that 
fall short of nationally recognized education standards. Section 9 
increases the amount paid to institutions through annual reporting 
fees, from $7 to $12, and $11 to $15. This modest increase will help to 
cover the administrative costs associated with processing and verifying 
enrollment.
    The VFW enthusiastically supports Section 10 which extends the 
national average BAH E-5 with dependents rate to disabled veterans 
using education benefits under Chapter 31 or Vocational Rehabilitation 
and Education (VR&E). The VFW has long supported increasing the monthly 
stipend for VR&E to match the compensation rates associated with 
Chapter 33. This increase will allow a veteran to focus more on their 
course of study and/or training.
    Section 11 would eliminate certain interval payments available to 
veterans between semesters. Interval payments come at a cost to the 
veteran, requiring the veteran to consume GI Bill monthly eligibility 
over Christmas break or over summer vacation without providing the 
maximum the 36 months of benefit available. This practice often leaves 
the veteran a few months short of eligibility to cover the full cost of 
education at a four-year institution. We do not oppose the elimination 
of interval payments.

    Thank you Mr. Chairman, this concludes our testimony. I am happy to 
address any questions you may have.

    Senator Tester. Well, thank you for being here. There will 
be questions, and I appreciate both your verbal and your 
written testimony.
    Mr. Embree.

   STATEMENT OF TIM EMBREE, LEGISLATIVE ASSOCIATE, IRAQ AND 
                AFGHANISTAN VETERANS OF AMERICA

    Mr. Embree. Thank you, sir. Mr. Chairman, Ranking Member, 
Members of the Committee, on behalf of Iraq and Afghanistan 
Veterans of America's nearly 200,000 members and supporters, 
I'd like to thank you for allowing us to testify at this 
critical hearing on the improvements of the Post-9/11 GI Bill.
    My name is Tim Embree. I am from St. Louis, MO. I served 
two tours in Iraq with the U.S. Marine Corps Reserve. The Post-
9/11 GI Bill will be remembered as one of our country's 
shrewdest investments for generations to come if we act now and 
we finish the work this Committee began 2 years ago.
    IAVA is encouraged by S. 3447, the Chairman's Post-9/11 
Veterans' Educational Assistance Improvement Act by simplifying 
and streamlining the administrative rules S. 3447 would enable 
Department of Veterans Affairs to process GI Bill claims in a 
timely manner. S. 3447, which we have come to call New GI Bill 
2.0, is a comprehensive effort to address the concerns of tens 
of thousands of student veterans and their families. IAVA is 
proud to endorse this legislation, contingent upon the 
improvements we submitted for the record be included in the 
final bill. S. 3447 will help veterans access valuable job 
training by granting Post-9/11 GI Bill benefits to veterans in 
vocational, apprenticeship, and on-the-job training programs.
    IAVA member Charles Conrad returned home from war to face a 
bleak economy. He had finished two tours, was released from his 
stop-loss orders, and was ready to begin the next chapter of 
his young life. Charles moved to Pittsburgh and enrolled in the 
Pennsylvania Gunsmith School, a well-known vocational school 
founded in 1949. Charles, like countless other veterans, 
assumed that by combining his military experience with a 
vocational certificate, he would make himself marketable in 
today's rough job scene.
    Unfortunately, the Post-9/11 GI Bill does not pay for trade 
schools, and now Charles is left struggling to pay down a pile 
of bills. Most people do not realize the majority of World War 
II Veterans used their GI Bill benefits to attend vocational 
schools. The 78th Congress passed a correction bill 1 year 
after the first GI Bill in order to include veterans just like 
Charles who want to attend vocational schools, much like we are 
asking the 111th Congress to do right now. Allowing veterans to 
enroll in the vocational program of their choice would enable 
all of our war-fighters to use their hard-earned New GI Bill 
benefits.
    IAVA recommends following a simplified pay chart for on-
the-job training and apprenticeship students, which we have 
submitted for the record, as well. S. 3447 will help National 
Guard servicemembers by granting full GI Bill credit for full-
time service, this vital improvement will ensure that thousands 
of National Guard troops from Louisiana, Alabama, Florida, and 
Mississippi, who are currently protecting our coastline from 
the oil in the Gulf will receive credit toward their Post-9/11 
GI Bill benefit.
    IAVA member Sergeant First Class Bradford Mingle has been 
wearing our country's uniform every day for the past 19 years, 
including a recent tour in Afghanistan. Sergeant First Class 
Mingle is part of the Active Guard and Reserve Program, which 
means he works full-time for the National Guard. Imagine 
Sergeant First Class Mingle's surprise and anger when he 
applied for the New GI Bill, only to have the VA tell him that 
he had not served long enough to qualify for full benefits.
    According to the current law, only 1 year of Sergeant First 
Class Mingle's 19 years of active-duty service actually counted 
toward his GI Bill eligibility. Yet, a full-time Reservist 
doing the same job as Sergeant First Class Mingle would qualify 
for the full GI Bill simply because his or her checks were paid 
for by the Federal Government rather than the State government. 
The same uniform, same service, vastly different benefits.
    Under the current form of the New GI Bill, the tuition 
benefits are not only confusing, they are completely 
unpredictable. The nationwide tuition caps have fluctuated 
wildly since last year, and recently in front of this 
Committee, the VA admitted that reforming the tuition and fees 
benefit was its top priority fix for the New GI Bill. We need a 
GI Bill benefit that is easy to calculate and is easily 
understood by those who use the benefit, as well as those who 
distribute it.
    The New GI Bill 2.0 simplifies the tuition benefit by 
abolishing the confusing State cap program and replacing with a 
simple promise. Under the proposed New GI Bill 2.0, if a 
student veteran attends a public school, the New GI Bill will 
pay for the entire cost of tuition and fees, no questions 
asked. However, if a student veteran attends a private school, 
the proposed rate in S. 3447 is frighteningly low and would 
slash benefits for student veterans attending private schools 
in over 23 States.
    IAVA recommends simplifying the annual tuition 
reimbursement rate for private schools by setting a national 
baseline of $20,000 per year. This baseline should be increased 
by a cost of living adjustment on an annual basis. Creating 
this baseline will provide a fair and generous benefit for all 
students, and will mean an increase in tuition reimbursement in 
45 States.
    New GI Bill 2.0 is a much needed comprehensive upgrade, 
involving changes large and small. These changes are vital to 
the academic success of student veterans pursuing a higher 
education. History has shown us the value of investing in our 
country's veterans. The Post-9/11 GI Bill will be remembered as 
one of our greatest investments in our country's veterans for 
generations to come if we act now and finish the work this 
Committee began 2 years ago.
    IAVA is proud to speak on behalf of the thousands of 
veterans coming home every day. We work tirelessly so veterans 
know that we have their back.
    I appreciate your time today, sir, and from the whole 
Committee, and I look forward any questions you may have.
    [The prepared statement of Mr. Embree follows:]
   Prepared Statement of Tim Embree, Legislative Associate, Iraq and 
                    Afghanistan Veterans of America
    Mr. Chairman, Ranking Member, and Members of the Committee: on 
behalf of Iraq and Afghanistan Veterans of America's nearly two hundred 
thousand members and supporters, thank you for allowing us to testify 
at this critical hearing on ``Improvements to the Post-9/11 GI Bill.'' 
My name is Tim Embree. I am from St. Louis, MO and I served two tours 
in Iraq with the United States Marine Corps Reserves. As a new veteran 
eligible for the historic Post-9/11 GI Bill, I am personally grateful 
to you for holding this hearing. As a representative of IAVA, I also 
extend the gratitude of tens of thousands of our members who can now 
afford to attend school, and become the ``Next Greatest Generation,'' 
thanks to the new benefit.
    The Post-9/11 GI Bill, or ``New GI Bill,'' will be remembered as 
one of the shrewdest investments in our country's veterans for 
generations to come if we act now and finish the work this Committee 
began two years ago.
    Iraq and Afghanistan Veterans of America (IAVA) is encouraged by 
the Chairman's discussion draft of S. 3447, the ``Post-9/11 Veterans 
Educational Assistance Improvement Act.'' This discussion draft of 
S. 3447 will improve the New GI Bill and ensure that all student 
veterans have access to the most generous investment in veterans' 
education since World War II. By simplifying and streamlining the 
administrative rules, S. 3447 would enable the Department of Veteran 
Affairs (VA) to process GI Bill claims in a timely manner. S. 3447, 
which we have come to call the ``New GI Bill 2.0,'' is a comprehensive 
effort to address the concerns of tens of thousands of student veterans 
and their families by:

    <bullet> Offering valuable job training for students studying at 
vocational schools
    <bullet> Granting National Guardsmen who respond to national 
disasters full GI Bill credit
    <bullet> Providing living allowances for veterans in distance 
learning programs
    <bullet> Simplifying and expanding the tuition benefit
    <bullet> Including a book stipend for active duty students

    IAVA is proud to endorse this legislation, contingent upon the 
following improvements being included in the bill. We therefore have 
included several simple and important technical recommendations we 
would like to see addressed in the August mark-up.
    History has shown us that veteran education and employment must 
consistently be at the forefront of the national dialog. The Senate 
Veterans' Affairs Committee continues to show our veterans, 
servicemembers and their families that they are dedicated to the future 
of the men and women who have worn our country's uniform. IAVA applauds 
this Committee for discussing S. 3447 (New GI Bill 2.0), S. 2769 (the 
Post-9/11 Veterans' Job Training Act of 2009), S. 3082 (Authorize work-
study for outreach services provided through congressional offices), 
and S. 3171 (The Veterans Training Act) today. We hope today's hearing 
signals to both the Senate and House that there is vital work still to 
be done for veterans and their families before the end of this 
Congress.
       i. s. 3447: the post-9/11 veterans educational assistance 
                        improvement act of 2010
A. Invaluable Professional Job Training
    S. 3447 will help veterans access valuable job training by granting 
Post-9/11 GI Bill benefits to veterans in vocational, apprenticeship 
and On-The-Job training (OJT) programs. IAVA member Charles Conrad 
returned home from war to face a bleak economy. He had finished two 
tours, was released from his stop-loss orders and was ready to begin 
the next chapter of his young life. Charles moved to Pittsburgh and 
enrolled in the Pennsylvania Gunsmith School, a well-known vocational 
school founded in 1949. Charles, like countless other veterans, assumed 
that by combining his military experience with a vocational 
certificate, he would make himself marketable in today's rough job 
scene. Unfortunately, Charles was let down by the New GI Bill. 
Currently, the Post-9/11 GI Bill does not pay for trade schools--and 
now Charles is left struggling to pay down piles of bills.

        I was depending on the housing allowance and without it I can't 
        even afford the school . . . It's a slap in the face to me that 
        I can't use the Post-9/11 GI Bill . . . It's like saying a 
        trade school isn't good enough for the new GI Bill, but it is 
        for the old GI Bill. Is there any way that trade schools will 
        ever be allowed under the new GI Bill?

    Most people don't realize that a majority of WWII veterans used 
their GI Bill benefits to attend vocational schools. Although there are 
a limited number of vocational programs at the local community colleges 
currently authorized, allowing veterans to enroll in the vocational 
program of their choice would enable all of our war-fighters to use 
their hard-earned New GI Bill benefit.
    IAVA Technical Recommendations: S. 3447 should include a book 
stipend for all vocational students. Many technical schools require 
students to purchase training manuals and specialized equipment for 
their highly technical training courses. Also, vocational students 
attending public technical schools should have their entire tuitions 
covered at the same rates as public college students. Last, the On the 
Job Training (OJT) and Apprenticeship section needs to be clarified. 
IAVA does not believe that the monthly living allowances should be 
based on national tuition rates. We recommend the following simplified 
pay chart for OJT and Apprenticeship students.


----------------------------------------------------------------------------------------------------------------
                                                   S3447 Proposed  Monthly  S3447 New GI Bill  Old GI Bill Rates
               Apprenticeship & OJT                       Allowances              Rates              (MGIB)
----------------------------------------------------------------------------------------------------------------
First 6 months...................................     100% (Nat'l Avg BAH)        $1333/month        $1026/month
Second 6 months..................................      80% (Nat'l Avg BAH)        $1070/month         $752/month
Third 6 months...................................      60% (Nat'l Avg BAH)         $802/month         $478/month
Fourth 6 months..................................      40% (Nat'l Avg BAH)         $535/month         $478/month
Apprenticeship Only
Additional 6 months..............................      20% (Nat'l Avg BAH)         $267/month               None
----------------------------------------------------------------------------------------------------------------


B. Full Credit for Full Time Served
    S. 3447 will help National Guard servicemembers by granting full GI 
Bill credit for full-time service. The New GI Bill 2.0 classifies state 
activations for national disasters (e.g., Hurricane Katrina and the BP 
oil spill) and full-time Title 32 Active Guard Reserve (AGR) service as 
qualifying service. This correction will help almost 30,000 Army 
National Guard and 13,500 Air National Guard servicemembers serving on 
Title 32 or ``state'' orders. This vital improvement will also ensure 
that the thousands of National Guard troops from Louisiana, Alabama, 
Florida, and Mississippi who are currently protecting our coastline 
from the oil spewing in the Gulf will receive credit toward their Post-
9/11 GI Bill benefit.
    IAVA member Sergeant First Class (SFC) Bradford Mingle has been 
wearing our country's uniform every day for the past 19 years, 
including during a recent tour in Afghanistan. SFC Mingle is part of 
the Active Guard and Reserve program (AGR), which means he works full-
time for the National Guard. Imagine SFC Mingle's surprise and anger 
when he applied for the New GI Bill, only to have the VA tell him he 
hadn't served long enough to qualify for the full benefits.

        I am an AGR soldier with 19 years active duty but I'm not 
        qualified to get what an Active Army Soldier gets? Is our 
        service not worth as much? Why are AGR Soldiers always left 
        out?

    According to the current law, only one of SFC Mingle's 19 years of 
active duty service actually counted toward his GI Bill eligibility. 
Yet a full-time reservist doing the same job as SFC Mingle would 
qualify for the full GI Bill simply because his or her checks were paid 
for by the Federal Government, rather than the state government. Same 
uniform, same service--vastly different benefits.
    IAVA Technical Recommendations: This Committee must fix the wording 
in Sec. 2 of S. 3447 that requires full-time Title 32 Reservists to be 
both AGR ``and'' a state call-up in order to qualify for New GI Bill 
credit. A simple word change from ``and'' to ``or'' will end the 
confusion. Also, all activations under Title 32 Sec. 502(f) should be 
included--not just responses to ``national emergencies.'' Thousands of 
reservists continue to protect our country by fulfilling vital homeland 
security missions, and they must receive their New GI Bill benefit.
C. Fairness for Disabled Veterans Utilizing Distance Learning
    Many disabled veterans and single mothers are attending online 
courses to achieve their dream of a college degree. But, under the 
current rules, even if they are taking a full course load, they do not 
qualify to receive the New GI Bill's substantial monthly living 
allowance. If these veterans were able to take just one course at a 
local college, they would qualify for the full living allowance. Yet 
enrolling in a course at a brick-and-mortar institution is nearly 
impossible for a single mother simultaneously struggling to keep food 
on the table, for example, or for a disabled veteran who cannot 
navigate a flight of stairs without assistance. A living allowance for 
students of online institutions would stop many veterans from having to 
choose between keeping a roof over a family's head and concentrating on 
being a successful student. The allowance would enable them to provide 
for their families while increasing their future earning potential 
through education. The New GI Bill was supposed to encourage student 
veterans to focus on their education and not their financial 
situation--but without the New GI Bill 2.0 upgrade, student veterans 
pursuing degrees through distance learning are left out in the cold.
    IAVA member Specialist (SPC) Weaver was awarded a bronze star for 
his meritorious service during two tours in Iraq. He is currently at 
home recovering from the fractured spine he sustained after being 
ejected from a moving vehicle. SPC Weaver suffers from vertigo, hearing 
problems and loss of mobility. Despite his injuries, SPC Weaver still 
dreams of completing his education and has been looking to attend 
college online, where he can complete his degree at his own pace. In 
spite of his service, SPC Jeffrey Weaver cannot benefit from the New GI 
Bill in its current form.

        This seems quite absurd as it is fact that many service-
        disabled veterans are undergoing treatments and have special 
        needs. Although I am not totally disabled, because of my 
        current conditions, it would be nearly impossible to collect on 
        the Post-9/11 GI Bill entitlements. This seems to be an issue 
        we need to raise to Congress.

    IAVA Technical Recommendations: A student veteran pursuing a degree 
through a distance program should qualify for a living allowance based 
on the zip code of his or her residence. Or, at the very least, the 
living allowance should be set at the lowest Basic Allowance for 
Housing (BAH) rate for an E-5 pay grade, with dependents. This 
adjustment would be an increase of about $140 over the currently 
purposed rate.
D. Simplify the Yellow Ribbon Program
    New GI Bill 2.0 simplifies the tuition benefit by abolishing the 
confusing state cap program and replacing it with a simple promise. 
Under the current form of the New GI Bill, the tuition benefits are not 
only confusing, they are also completely unpredictable. In California, 
tuition caps have been raised three times this year alone. Worse, 
nationwide tuition caps have fluctuated wildly since last year. 
Recently, in front of the Senate Veterans' Affairs Committee, the VA 
admitted ``delays in determining the 2009-2010 maximum tuition, and fee 
rates resulted in delayed processing of payments for students attending 
school in those states.'' The VA later said that reforming the tuition 
and fees benefit was its top priority fix for the New GI Bill. We need 
a GI Bill benefit that is easy to calculate and is easily understood by 
those whose use the benefit as well as those who distribute it.
    Under the proposed New GI Bill 2.0, if a student veteran attends a 
public school, the New GI Bill will pay for the entire cost of tuition 
and fees--no questions asked. If a student veteran attends a private 
school, the VA will pay a nationally-recognized, baseline amount. If a 
private school is more expensive than the national baseline, the school 
is encouraged to take part in the yellow ribbon program in order to 
eliminate the remaining gap in education costs.
    IAVA member Lieutenant Colonel (LTC) Brian Pummill is in an 
extreme, remote location in Afghanistan. LTC Pummill should be focused 
solely on the mission at hand, but his thoughts are back at home as he 
tries to explain to his college-bound daughter how the New GI Bill's 
tuition benefit will work. Even after a long career successfully 
navigating military bureaucracy, LTC Pummill is thoroughly perplexed by 
the VA's confusing tuition and fee caps.

        I don't understand how to calculate how much TUITION AND FEES 
        the VA will pay Saint Mary's College . . . I see calculations 
        that just compute this by $321/credit hour, but this doesn't 
        come close to the MAXIMUM FEES BY TERM of $12,438.00 indicated 
        for SMC. Since SMC's TUITION AND FEES for 2010-2011 are the 
        same for ALL FULL-TIME STUDENTS, REGARDLESS OF THE CREDIT HOURS 
        THEY ARE TAKING, why wouldn't we take the Maximum fees by term 
        ($12,438), multiply that by 2 ($24,876), then divide by 9 
        months ($2,764/month), to calculate the per month value of the 
        GI Bill at SMC, if that is the actual cost of Tuition and Fees 
        to attend SMC. The same calculation by the credit hour, 
        assuming you take 32 credit hours per year, is only $321.75 
        times 32, which is only: $10,296.00. How does a student qualify 
        to be reimbursed at the MAXIMUM TUITION AND FEES PER TERM, 
        instead of by the credit hour--at SMC, the difference between 
        these two calculations is staggering.

    S. 3447 will simplify the benefit and help servicemembers like LTC 
Pummill get their mind back on the mission.
    IAVA Technical Recommendations: Simplify the annual tuition 
reimbursement rate for private schools by setting a national baseline 
of $20,000 per year. This baseline should be increased by an annual 
Cost Of Living Adjustment (COLA) on an annual basis. Creating this 
baseline will provide a fair and generous benefit for all students and 
will mean an increase in tuition reimbursements in 45 states. The 
proposed rate in S. 3447 is frighteningly low and would slash benefits 
student veterans attending private schools in over 23 states.
E. Other Improvements to the New GI Bill
    New GI Bill 2.0 is a much needed comprehensive upgrade, involving 
changes large and small. These changes are vital to the academic 
success of student veterans pursuing a higher education. S. 3447 will 
also:

    <bullet> Grant active duty students a book stipend worth $1,000/
year
    <bullet> Increase Vocational Rehabilitation monthly benefits by up 
to $780/month
    <bullet> Reimburse students who take multiple accreditation/
certification tests
    <bullet> Allow enlistment kickers to be transferred to dependents
    <bullet> Increase school reporting fees
    <bullet> Simplify the types of discharges that qualify for benefits

    IAVA Technical Recommendations: The distribution of monthly living 
allowances for part-time students should be modeled on the old GI Bill 
(full-time, \3/4\ time and \1/2\ time). This change simplifies the 
benefit and will greatly reduce the confusion caused by numerous under- 
and over-payments by the VA.
    Veterans should not be charged entitlement for the reimbursement of 
licensing and certifications up to the first $2,000 per veteran. 
Veterans should be reimbursed for an unlimited amount of licenses and 
certifications under the current $2,000 cap. Veterans should only be 
charged against their entitlement after they have surpassed the $2,000 
amount. Furthermore, we do not agree with the section that requires the 
Department of Defense to pay for transferred benefits. This should be 
studied further, but this particular issue must not be used to 
arbitrarily keep us from fulfilling our promise to the men and women 
who fight our wars. Also, interval payments are vital to students who 
must complete professional internships, and the payments should not be 
carved out of the benefit. Finally, the school reporting fee must be 
increased to at least $25 per veteran. Often, a school certifying 
official is the face of this benefit to our student veterans, and we 
must ensure that these officials are reimbursed for doing the extra 
work sometimes needed.
  ii. s. 1785: require state approving agencies to approve nationally 
                    accredited courses of education
    IAVA opposes S. 1785. This legislation would render State Approving 
Agencies (SAAs) virtually powerless and leave the New GI Bill open to 
widespread abuse. SAAs are at the front line of GI Bill implementation. 
Since WWII, SAAs have played a critical role in educating school 
certifying officials on GI Bill procedures and protecting against 
fraudulent claims.
    S. 1785 would require SAAs to automatically approve nationally 
accredited schools for GI Bill purposes, but S. 1785 fails to 
acknowledge that SAAs are not only responsible for reviewing curriculum 
at each approved school, they are also responsible for auditing the 
school's GI Bill books. When discrepancies are discovered, the SAA 
works with the school to ensure that the school certifying official is 
properly inputting all information and that all the books are 
reconciled. Withholding GI Bill approval is the only mechanism an SAA 
has to ensure compliance.
    Under the New GI Bill, which requires schools to self-report 
tuition costs, the role of the SAA is critical. The SAA is the only VA 
entity that regularly verifies that self-reported numbers are accurate. 
Therefore, the SAA protects the VA from overpaying for tuition 
benefits. The SAAs account for only around 0.5 percent of the overall 
GI Bill budget, but they likely save the VA ten times that amount by 
preventing widespread overpayments and reducing administrative hours 
devoted to fixing improperly filed enrollment certifications.
    S. 1785 would tie the hands of SAAs. State Approving Agencies would 
no longer be able to withhold GI Bill approval from schools that have 
poor bookkeeping or have possibly committed fraud.
       iii. s. 2769: post-9/11 veterans' job training act of 2009
    IAVA supports S. 2769, the Post-9/11 Veterans' Job Training Act. 
This bill would provide valuable job training for vocational schools 
and On-the-Job-Training (OJT) and Apprenticeship programs. S. 2769 
simply shifts the OJT and Apprenticeship benefits currently under the 
old Montgomery GI Bill to the New GI Bill. This simple change will 
ensure that the New GI Bill fully covers all types of essential 
programs.
    IAVA is concerned, however, about wording in S. 2769 that may 
frustrate the bill's intended purpose of including vocational training 
programs in the New GI Bill. IAVA believes that Sec. 2(B) of S. 2769 
should clarify that the New GI Bill will pay for approved programs 
under both 38 U.S.C. 3452(c) and 38 U.S.C. 3452(f). The current 
language of S. 2369 only uses 3452(f), which is no different than how 
the Post-9/11 GI Bill is currently written.
   iv. s. 3082: authorize work-study for outreach services provided 
                     through congressional offices
    IAVA supports S. 3082. This common sense legislation expands the VA 
work-study program that allows veterans to work in Congressional 
offices. IAVA believes that S. 3082 will benefit veterans by granting 
them valuable experience in the Federal Government and will benefit 
Congressional offices by substantially increasing the number of 
veterans helping other veterans.
                 v. s. 3171: the veterans training act
    IAVA strongly supports S. 3171, the Veterans Training Act. This 
legislation is properly worded to include vocational schools under the 
New GI Bill and we believe it should be the model for S. 3447 and 
S. 2769.
     vi. s. 3389: the gi bill equitable education benefit (eeb) act
    IAVA opposes S. 3389. The intention of this bill purports to fill 
an unintended bureaucratic pothole in the Post-9/11 GI Bill, but the 
actual language would cause much more confusion than it would fix.
    According to Senator Hagan's press statement on the bill, ``Under 
current law, servicemembers who receive educational assistance in the 
form of an ROTC scholarship or who graduate from one of the service 
academies are eligible for full educational benefits under the Post-9/
11 GI Bill. However, members of the Selected Reserve who received 
educational assistance under Chapter 1606 of the Montgomery GI Bill 
prior to receiving a commission and serving on active duty are not now 
entitled to the same four years of benefits under the Post-9/11 GI 
Bill.''
    IAVA fully supports ensuring that all servicemembers have equal 
access to the generous New GI Bill. However, modifying the universal 
48-month cap on education benefits for a small group of individuals 
would wreak havoc with GI Bill claims processors and would not actually 
solve the issue at hand.
    IAVA could support S. 3389 if it was modified to adjust where this 
issue arises, which is Sec. 3322 of the Post-9/11 GI Bill.
                            vii. conclusion
    The Post-9/11 GI Bill, or ``New GI Bill,'' will be remembered as 
one of the greatest investments in our country's veterans for 
generations to come if we act now and finish the work this Committee 
began two years ago. History has shown us the importance of investing 
in our country's veterans, and IAVA applauds the phenomenal work this 
Committee continues to do on behalf of our Nation's veterans and their 
families.
    IAVA is proud to speak on behalf of the thousands of veterans 
coming home every day. We work tirelessly so veterans know we have 
their back. Together, with this Congress and the Department of Veteran 
Affairs, we can guarantee that every veteran is confident that America 
has their back.

    Thank you.

    Senator Tester. I appreciate your testimony.
    Mr. Hartle.

 STATEMENT OF TERRY W. HARTLE, SENIOR VICE PRESIDENT, AMERICAN 
                      COUNCIL ON EDUCATION

    Mr. Hartle. Thank you very much, Senator Tester. I 
appreciate the opportunity to be here with you this morning to 
talk about S. 3447, the Post-9/11 Veteran's Educational 
Assistance Improvements Act.
    I am testifying on behalf of my own organization, the 
American Council on Education, as well as 12 other higher 
education organizations that wish to be associated with my 
testimony. I have prepared a list of those organizations, and 
I'd like to ask that it be added to the official record.
    Ten years ago, the veterans' groups and the higher 
education community established a collaborative venture called 
the Partnership for Veterans' Education. I am honored to 
testify here today with several of our organizations in that 
effort. And we stand ready and committed to working with them 
and you to ensure that our Nation's returning veterans have 
access to and good opportunity for success in post secondary 
education.
    Colleges and universities have eagerly embraced the Post-9/
11 GI Bill, and institutions have worked hard to reach out to 
veterans, not only welcoming them to campus, but changing the 
way they do things on campus in an effort to best meet the 
specific needs of veterans.
    At ACE, we have been fortunate enough to work with hundreds 
of institutions that are doing things, and I mentioned several 
of those institutions in my testimony.
    As a result of our extensive work in this area, I think 
we're well-positioned to comment on the impact of the Post-9/11 
GI Bill on student veterans and college campuses, as well as 
S. 3447.
    The Post-9/11 GI Bill, as already had been mentioned, 
provides excellent education benefits for veterans. It's really 
landmark legislation. However, several provisions in the 
legislation have complicated our ability to implement the law 
and S. 3447 addresses these issues. At the end of the day, we 
think the bill will improve both benefits for veterans and the 
ability of colleges and universities to serve them.
    I think that the bill as drafted, S. 3447, offers three 
distinct improvements to existing law. First, it provides 
greater clarity and accuracy about the benefits that 
servicemembers will receive. This will enable them to make 
informed decisions about their education plans. Second, the 
bill ensures true equity for all veterans who have served. And 
third, the bill will simplify benefit schedules and 
administration, reducing bureaucracy and institutional costs 
while improving services to veterans. And I think these ought 
to be the three goals of the Committee as you continue to 
refine this legislation: great clarity and accuracy about 
benefits; true equity for all veterans; and simplified benefit 
schedules and administration.
    I think Mr. Embree put a very human face on exactly how 
that works under this bill and the improvements that you will 
be making. We think that eliminating the State tuition and fee 
caps is laudable. The widely varying State caps have resulted 
in an extremely cumbersome and inaccurate process that's caused 
frustration, anxiety, confusion for the VA, for the 
servicemembers, and for institutions. We strongly support the 
intent of the legislation to fully cover the cost of public 
institutions, while setting a national baseline for private 
colleges and universities.
    I would point out, however, that the language set forth in 
Section 3 employs terminology not currently used by the U.S. 
Department of Education that's likely to cause confusion in 
implementation. I believe these matters are relatively easily 
fixed, and I'd encourage you to put it in terms that will 
ensure the Department of Education gives the VA exactly the 
information that you intend the VA to have.
    We also strongly support the effort to clarify the 
eligibility of National Guard members and troops serving in the 
Active Guard Reserve Program. We also support the expansion of 
benefits to include vocational schools, apprenticeship, and on-
the-job training.
    The bill does much to streamline the delivery of benefits, 
and we would strongly encourage the Committee to keep the ease 
of implementation in the forefront of your decisionmaking as 
you continue to work on this legislation.
    I would also note that S. 3447 includes several provisions 
designed to help offset the cost implications that may arise 
from the passage of this bill. While the bill has yet to be 
scored, I think the inclusion of offsets and other provisions 
to mitigate possible costs demonstrates the Committee's desire 
to meet the needs of veterans in a fiscally-responsible way, 
and we applaud you for that.
    In conclusion, on behalf of ACE, the American Council on 
Education and our 2,000 college and university members, we 
strongly urge the Committee to support S. 3447. We thank you 
for you efforts to strengthen this critical legislation, and we 
look forward to working with you as it moves forward.
    [The prepared statement of Mr. Hartle follows:]
Prepared Statement of Terry W. Hartle, Senior Vice President, American 
                          Council on Education
    Chairman Akaka, Sen. Burr and the Members of the Committee, thank 
you for inviting me to present the views of American colleges and 
universities and express our strong support for S. 3447, the Post-9/11 
Veterans Educational Assistance Improvements Act of 2010. My 
organization, the American Council on Education (ACE), represents the 
entirety of American higher education. Since our founding in 1918 as an 
emergency council to ensure the U.S. had a ready supply of technically 
trained military personnel in World War I, ACE has been actively 
involved in meeting the postsecondary education needs of America's 
servicemembers and veterans.
    Today, ACE annually evaluates hundreds of military courses and 
occupations. In addition to publishing the results of these evaluations 
in the Guide to the Evaluation of Educational Experiences in the Armed 
Services, ACE collaborates with the Department of Defense (DOD) to 
detail this work on nationally recognized transcripts for members of 
the Army, Army National Guard, Navy and Marine Corps. The registry for 
these transcripts holds the records of more than 6 million 
servicemembers who request approximately 200,000 transcripts per year 
that are sent to more than 2,200 accredited institutions of higher 
education.
    With the recent challenges facing our Nation at home and abroad, 
there has been renewed focus on ensuring that servicemembers and 
veterans have access to and the opportunity to succeed in higher 
education. I'm proud to say that ACE has launched several initiatives 
in this area, both before and after passage of the Post-9/11 GI Bill. 
In 2007, ACE launched a program to assist severely injured 
servicemembers and their families in making the transition from patient 
to civilian to student and to date, more than 580 injured veterans and 
their family members have become actively engaged in postsecondary 
education as a result of this initiative.
    In 2009, ACE launched its Serving Those Who Serve initiative, a 
multi-year effort designed to effect major changes in how veterans 
learn about their education benefits and postsecondary options and how 
institutional leaders can build capacity to serve veterans on their 
campuses. As part of this effort, ACE partnered with the Walmart 
Foundation to award $2 million in funding to 20 institutions across the 
U.S. that operate model programs advancing access and success in higher 
education for veterans and their families.
    And this year, ACE, with the generous support of The Kresge 
Foundation, presented the Veteran Success Jam, a three-day online 
brainstorming session that brought together nearly 3,000 veterans and 
their families, servicemembers, campus leaders and representatives of 
nonprofit organizations and government agencies to discuss the 
opportunities and barriers facing veterans in higher education. The Jam 
will help to inform and shape ACE's future work on behalf of 
servicemembers and veterans.
    These efforts are merely the tip of the iceberg. Higher education 
has eagerly embraced the Post-9/11 GI Bill and the promise it 
represents. Postsecondary institutions have worked hard to reach out to 
veterans, not only welcoming them onto campus, but ensuring that 
institutions adapt to best meet veterans' specific needs. At ACE we 
have been fortunate to work with hundreds of institutions on veterans' 
education issues and I want to cite just three examples.
    There's Fairleigh Dickinson University in New Jersey, which 
convened a task force that published a 70-page report to guide campus 
policies and procedures for student veterans. When GI Bill payments 
were delayed, FDU allowed veterans to enroll in classes without the 
appropriate paperwork, understanding that it would arrive eventually.
    Hunter College School of Social Work, which is part of the City 
University of New York system, established a program at five local 
community colleges, training social work graduate students and peer 
mentors to help veterans navigate benefits and services provided by the 
Department of Veterans Affairs (VA) and community agencies. When GI 
Bill checks did not arrive, the graduate students and peer mentors 
quickly directed veterans to emergency funds and the campus food 
pantry.
    Clackamas Community College in Oregon recognized the need to work 
closely with the Oregon National Guard and local community resources to 
help veterans transition to the civilian world. Clackamas welcomed more 
than 3,000 National Guard members and veterans to campus for a career 
and benefit fair, offering all-day childcare while free services and 
workshops were provided.
    We are proud of the work of these institutions, and thousands 
others like them, to help ease the transition from soldier to student.
    As a result of our extensive work in this area, I believe we are 
well-positioned to comment on the impact of student veterans and 
college campuses of the Post-
9/11 GI Bill, which we believe harkens back to the intent of the 
original GI Bill.
    Despite the Post-9/11 GI Bill's marked improvement over previous 
education benefits, some provisions have complicated institutions' 
ability to implement the law and have resulted in inaccurate payments 
and a labor intensive process. The bill this Committee is considering 
today addresses the major issues that have arisen, and we believe that 
it will help fulfill Congress's intent and will allow institutions of 
higher education to better serve America's veterans.
    As we see it, S. 3447 provides three distinct improvements to the 
existing bill. It will:

    1. Provide greater clarity and accuracy on available benefits, 
enabling veterans to better plan their educational paths and make more 
informed decisions.
    2. Ensure true equity for all those who have served this country.
    3. Simplify benefit schedules and administration, reducing 
bureaucracy and institutional costs, while improving the service 
offered to veteran students.

    In particular, the proposed legislation's intent to eliminate the 
confusing state tuition and fee caps is laudable. The widely varying 
state caps have resulted in an extremely cumbersome and inaccurate 
process that has caused frustration and anxiety on the part of the VA, 
institutions and student veterans. ACE supports the intent of the 
legislation to fully cover the cost of public institutions while 
setting a national baseline for private institutions.
    However, the terminology set forth in Section 3 references a data 
set determined by the National Center for Education Statistics. As 
currently worded, the referenced baseline is flawed, ambiguous and will 
likely cause a great deal of confusion while reducing current education 
benefits in almost half of the states. To keep simplification at the 
forefront of this process, ACE recommends further review of this 
language to ensure the vocabulary meets the intent of the legislation. 
Another possible avenue would be to reference a set number as the 
baseline, with a determined annual increase.
    We would ask that the Committee carefully consider the method by 
which any national average is determined. While such a provision would 
greatly simplify the calculation of benefits and has been well-received 
by colleges and universities, the level set could have a significant 
impact on those veterans attending private, nonprofit institutions. 
Moving to a national number would mean that veteran students at some of 
these institutions will receive a lower tuition/fee benefit than they 
do today. Either the student will have to make up the difference or the 
institution will have to expand its Yellow Ribbon agreement in order to 
do so, with a potential negative impact on veteran students' education 
options.
    ACE also supports S. 3447's intent to clarify the eligibility of 
National Guard members who have honorably served their country on 
active duty including at the site of natural disasters and troops 
serving in the Active Guard Reserve. Additionally, the expansion of the 
benefit to include vocational schools, apprenticeships, and on-the-job 
training harkens back to the inclusionary World War II GI Bill benefit, 
which recognized the need for both a traditional college education as 
well as work force training.
    This bill does much to streamline the delivery of benefits to 
veterans, and we encourage the Committee to keep ease of implementation 
in the forefront of their decisionmaking. We know from experience that 
student needs are best met when campuses are consulted, and we 
appreciate this chance to share our views today. We encourage Congress 
and the VA to continue this dialog with colleges and universities as 
the bill advances.
    As we approach the 10th year of the Partnership for Veterans 
Education, a collaborative effort between higher education and veterans 
organizations, ACE stands eager and committed to continue working 
cooperatively to ensure our Nation's returning veterans have access to 
and success in higher education. The Partnership for Veterans Education 
met recently to discuss common goals and concerns surrounding the Post-
9/11 GI Bill. While we have noted some specific concerns to higher 
education institutions in this testimony that warrant further 
discussion, the Partnership supports the intent of the Post-9/11 GI 
Bill and S 3447: to provide those who have served their country the 
best possible opportunity for postsecondary education as a way of 
facilitating their transition from military to civilian life.
    Finally, in drafting S. 3447, Chairman Akaka has taken laudable 
steps to address cost implications that may arise from passage of this 
bill. While this bill has yet to be scored, the inclusion of offsets 
and other provisions to mitigate possible costs demonstrates a 
commitment to meet the needs of veterans in a fiscally responsible way.
    In conclusion, on behalf of our 1,800 member colleges and 
universities, as well as the American Association of Community 
Colleges, the American Association of State Colleges and Universities, 
the Association of American Universities, the Association of Public and 
Land-grant Universities, and the National Association of Independent 
Colleges and Universities, we strongly urge the Committee to support 
S. 3447, and we thank you for your efforts to strengthen this critical 
legislation. I am happy to answer any questions you may have, and 
welcome the opportunity to work with the Committee going forward.

    Senator Tester. Thank you, Mr. Hartle.
    Judy Flink, executive director of Financial Services for 
students at the University of Illinois?

STATEMENT OF JUDY FLINK, EXECUTIVE DIRECTOR, UNIVERSITY STUDENT 
   FINANCIAL SERVICES AND CASHIER OPERATIONS, UNIVERSITY OF 
                            ILLINOIS

    Ms. Flink. As Senator Tester has mentioned, I serve as the 
executive director of the University of Illinois Student 
Financial Services for the three campuses. I have worked in 
university business offices and have been actively involved in 
higher education for over 30 years.
    On behalf on myself, colleagues in the AAU Bursar 
Organization, colleagues from other educational institutions 
around the country, and most importantly, on behalf of the 
veterans we serve, I thank you for this opportunity to testify. 
In particular, I would like to thank Senator Burris and his 
staff for this invitation. It's an honor for me to be here 
today.
    In 2008, with remarkable leadership from Senator Webb, 
Congress passed landmark legislation recognizing the 
contribution and needs of millions of Americans who served 
their country in our Armed Forces in Afghanistan, Iraq, and 
elsewhere. This legislation, the Post-9/11 GI Bill, makes 
possible educational dreams that not only express a special 
thanks to our veterans, but also contribute directly to the 
economic recovery and future of America.
    America's post-secondary institutions are proud to have 
supported the enactment of this bill and welcome the 
opportunity to serve veterans in our classrooms. Today, 
universities across the country enroll thousands of veterans 
who receive support through Federal GI Benefits. Part of my 
hope in being here is to promote changes to the program that 
will increase that number.
    Unfortunately, as you are aware, implementation of the 
vitally important education benefits authorized by the bill has 
not been smooth. Delays in getting the program up and running, 
followed by numerous subsequent flaws in the interface between 
the VA and educational institutions have created significant 
hardships for our veterans.
    My colleagues and I recognize the enormity of implementing 
this program and creating the system to manage it. We sincerely 
applaud the VA for its work in getting the program up and 
running under these difficult circumstances. Our desire is to 
strengthen our partnership with the VA in an effort to help the 
program run better.
    With that in mind, I focused my testimony on flaws in the 
system that, if corrected, will more effectively fulfill the 
promise of this program. Included with my remarks is a list of 
concerns compiled by the University of Illinois and 16 peer 
institutions. While this list is not exhaustive, it identifies 
major concerns that render access to educational benefits under 
this program difficult for veterans and expensive for the 
Federal Government and institutions.
    Some of these concerns result from legislative provisions, 
and many of them result from VA policy and procedures. A number 
of our legislative concerns are addressed in S. 3447, Senator 
Akaka's Post-9/11 Veterans' Educational Assistance Improvements 
Act of 2010, and other legislation under consideration at this 
hearing. We support the provisions within these bills that 
address our concerns. We applaud Congress for its willingness 
to propose the necessary changes that will help us improve the 
delivery of the benefits, and we hope this testimony leads to 
further opportunity for collaboration between Congress and the 
higher education community.
    The majority of our concerns are administrative in nature. 
VA policies and procedures often fail to accommodate the 
education community's existing systems and procedures, thereby 
creating needless delay and hardships for our veterans. I will 
not belabor the Committee with all of the concerns on our 
attached list, but allow me to highlight just two of these.
    Perhaps, our greatest concern of university business 
officers is the VA's refund policy which requires institutions 
to refund tuition overpayments to students who must then refund 
them back to the VA. This policy mirrors that of the original 
GI Bill, wherein all benefits, inclining tuition, were paid 
directly to the student, who was then responsible for paying 
their tuition bills to the school and for refunding any 
overpayments back to the VA. But, under the Post-9/11 GI Bill, 
tuition benefits are paid to the school, not the student.
    Therefore, the requirement to refund overpayments to the 
student instead of directly to the VA is not only inefficient, 
it has put students at risk of losing future benefit 
eligibility under the program when they fail to understand and 
fulfill their responsibility of returning those funds to the 
VA. In all other financial aid programs, overpayments are 
refunded directly to the aid source, bypassing the student. 
Thus, students have come to expect when they receive a refund 
back from the school, they can use it for books and other 
expenses. This risk is high. By the time they receive 
notification from the VA of the amount they must repay, the 
money, unfortunately, may have been spent. The VA will then 
suspend their benefit eligibility until payment is received 
which would delay or prevent the student from continuing their 
education. So they are out of the game.
    A second major concern is the VA's remittance of payment 
for students for whom the institution has certified a different 
amount or for whom the institution has not even completed the 
certificate of eligibility. No explanation is provided with 
these payments; therefore, the institution must contact the VA 
for an explanation of the discrepancy before releasing payment 
to the student.
    Well, you have heard during our discussion this morning, 
those hold times can be up to 40 minutes. My staff will come 
and say to me, I got cut off and I had to call again. And the 
cycle continues. For months, the VA phone lines were closed on 
Thursdays and Fridays. So as my staff was getting frustrated, 
so were our veterans. These delays and the result in hardship 
to the veterans could be eliminated if the VA included an 
adequate explanation to the school when sending payments.
    While I have only mentioned two of our concerns, the 
attached list is more comprehensive. We are confident, however, 
that many of them can be successfully resolved through an open 
dialog between the school business officers and the VA. Our 
recent attempts to initiate this dialog met with disappointing 
results.
    We received a written response from the VA, for which we're 
grateful, but we were not given the opportunity to discuss the 
matter in more detail and have that meaningful dialog that we 
feel strongly would help us fix the system.
    My peers and I respectfully ask for your assistance to open 
this dialog. We believe regularly-scheduled meeting between the 
VA and a working group from the education community will enable 
both parties to collaborate on proposed program changes and 
regulations prior to their implementation. We'd like to be 
considered as both a resource and a partner for the VA and 
Congress in our mutual endeavor to improve the delivery of 
Post-9/11 GI Bill tuition benefits to our veterans. Thank you 
again for the opportunity to speak with you today. I hope my 
testimony can be a springboard for productive dialog between 
all parties who share our commitment to strengthening and 
improving service to our veterans. Thank you.
    [The prepared statement of Ms. Flink follows:]
  Prepared Statement of Judith Flink, Executive Director, University 
           Student Financial Services, University of Illinois
    Mr. Chairman and Members of the Committee: My name is Judith Flink. 
I serve as Executive Director of University Student Financial Services 
for the three campuses of the University of Illinois. I have worked in 
the University's business office and been actively involved in higher 
education for over 30 years. On behalf of myself, colleagues in the AAU 
Bursar organization, colleagues from other educational institutions 
around the country, and most importantly, on behalf of the veterans 
attending or seeking to attend our institutions, I thank you for this 
opportunity to testify. In particular, I would like to thank Senator 
Burris and his staff for this invitation--it is an honor for me to be 
here today.
    In 2008, with remarkable leadership from Senator Webb, Congress 
passed landmark legislation recognizing the contributions and needs of 
millions of Americans who served their country in our Armed Forces in 
Afghanistan, Iraq and elsewhere. This legislation, the Post-9/11 GI 
Bill, makes possible educational dreams that not only express a special 
thanks to our veterans, but also contribute directly to the economic 
recovery and future of America.
    America's postsecondary institutions are proud to have supported 
the enactment of this bill and welcome the opportunity to serve 
veterans in our classrooms. Today, universities across the country 
enroll thousands of veterans who receive support through Federal GI 
benefits. Part of my hope in being here is to promote changes to the 
program that will increase that number.
    Unfortunately, as you are aware, implementation of the vitally 
important education benefits authorized by the bill has not been 
smooth. Delays in getting the program up and running, followed by 
numerous subsequent flaws in the interface between the VA and 
educational institutions, have created hardship for veterans and 
institutions. My colleagues and I recognize the enormity of 
implementing this program and creating the systems to manage it. We 
sincerely applaud the VA for its excellent work in getting the program 
up and running under difficult circumstances. Our desire is to 
strengthen our partnership with the VA in an effort to help the program 
run better.
    With that in mind, I focus my testimony on flaws in the system that 
if corrected will more effectively fulfill the promise of this program. 
Included with my remarks is a list of concerns compiled by the 
University of Illinois and 16 peer institutions. While the list is not 
exhaustive, it identifies major concerns that render access to 
educational benefits under this program difficult for veterans and 
expensive for the Federal Government. Some of these concerns result 
from legislative provisions, and many are the result of VA policy and 
procedures.
    A number of our legislative concerns are addressed in S. 3447, 
Senator Akaka's Post-9/11 Veterans Educational Assistance Improvements 
Act of 2010, and other legislation under consideration at this hearing. 
We support the provisions within these bills that address our concerns. 
We applaud Congress for its willingness to propose these necessary 
changes that improve the delivery of benefits. And we hope this 
testimony leads to further opportunity for collaboration between 
Congress and the higher education community. Other legislative concerns 
we have, such as the exclusion of Post-9/11 GI Bill tuition benefits 
from Federal financial aid needs analysis, will require us to work with 
the education committee to amend the Higher Education Opportunity Act.
    The majority of our remaining concerns are administrative in 
nature. VA policies and procedures often fail to accommodate the 
education community's existing systems and procedures, thereby creating 
needless delay and hardship for veterans. I will not belabor the 
Committee with all the concerns on our attached list. Allow me to 
highlight just three of them.
    Perhaps our greatest concern as university business officers is the 
VA's refund policy which requires institutions to refund tuition 
overpayments to students who must then refund them back to the VA. This 
policy mirrors that of the original GI Bill wherein all benefits 
(including tuition) were paid directly to the students who were then 
responsible for paying their tuition bills to the school and for 
refunding any overpayments back to the VA. But under the Post-9/11 GI 
Bill, tuition benefits are paid to the school not the student. 
Therefore, the requirement to refund overpayments to students instead 
of directly to the VA is not only inefficient, it also puts students at 
risk of losing future benefit eligibility under the program if they 
fail to understand or fulfill their responsibility to return those 
funds to the VA. This risk is high. In all other financial aid 
programs, overpayments are refunded directly to the aid source 
bypassing the student. Thus, students have come to expect that when 
they receive a refund from the school it is theirs to use for books and 
living expenses. By the time they receive notification from the VA of 
the amount they must repay, the money may have been spent. The VA will 
then suspend future benefit eligibility until payment is received which 
would delay or prevent the student from continuing their education.
    A second major concern is the VA's remittance of payment for 
students for whom the institution has certified a different amount, or 
for whom the institution has not even completed a Certificate of 
Eligibility. No explanation is provided with these payments. Therefore, 
the institution must contact the VA for an explanation of the 
discrepancy before releasing payment to the student. When the 
institution calls, the VA's phone lines have long delays with hold 
times up to 40 minutes. Sometimes calls are dropped altogether due to 
the high volume and the institution must dial again. For months, the 
VA's phone lines were closed on Thursdays and Fridays. These delays and 
their resultant hardship to the Veteran could be eliminated if the VA 
included an adequate explanation to the school with each payment.
    Our third concern is a lack of published guidance. The VA has 
published no clear guidance regarding several key elements of benefit 
eligibility. This lack of guidance results in increased administrative 
burdens and frustration on the part of veterans. The creation of a 
readily accessible Post-9/11 GI Bill policy manual would eliminate the 
majority of this frustration and burden.
    While I've only mentioned three of our concerns, the attached list 
is more comprehensive. We are confident, however, that many of them can 
be successfully resolved through open dialog between schools and the 
VA. Our recent attempts to initiate this dialog met with disappointing 
results. We received a written response from the VA, for which we are 
grateful, but were not given the opportunity to discuss the matter in 
more detail or open a meaningful dialog.
    My peers and I respectfully ask your assistance to open this 
dialog. We believe regularly scheduled meetings between the VA and a 
working group from the education community will enable both parties to 
collaborate on proposed program changes and regulations prior to 
implementation. We would like to be considered as both a resource and 
partner for the VA and Congress in our mutual endeavor to improve 
delivery of Post-9/11 GI Bill tuition benefits to our veterans.
    Thank you again for the opportunity to speak with you. I hope my 
testimony can be a spring board for productive dialog between all 
parties who share your commitment to strengthening and improving 
services to our veteran community. I would be pleased to respond to any 
questions Members of the Committee might have.
                   Attachment to Judy Flink Testimony
   list of concerns regarding administration of the post-9/11 gi bill
    The Post-9/11 GI Bill was signed into law August 1, 2009. 
Certification and processing of VA Chapter 33 program benefits began 
immediately thereafter. The volume of applicants overwhelmed VA 
resources and the program got off to a rough start. Improvements have 
been made in VA's process, but the program continues to present 
significant challenges to the education community.
    Following is a list of VA Chapter 33 issues and suggestions 
submitted by administrators from educational institutions (hereinafter 
collectively referred to as Institution) around the country. The issues 
needlessly delay delivery of benefit payments to veterans and unduly 
burden Institutions. The suggestions offer potential solutions.
Issues:
    <bullet> VA refund policy is highly labor-intensive because:
          - VA under- and over-payments with no attached explanation 
        result in long processing delays as Institution attempts to 
        contact VA for details.
          - VA policy is inconsistent--some overpayments must be 
        refunded to VA, others to the student; some refunds must be 
        electronic, some by paper check.
          - VA policy of refunding to the student is contrary to all 
        other forms of student financial assistance that require 
        Institutions to refund to the aid source;
          - The policy of refunding to the student results in 
        inaccurate IRS Form 1098-T reporting. For example, if VA remits 
        $10,000 Chapter 33 tuition benefits to Institution then the 
        student drops classes resulting in a $4,000 tuition reduction 
        and Institution refunds that $4,000 to the student instead of 
        VA, the Institution will report $10,000 in Box 5 of the 
        student's Form 1098-T, not the $6,000.

    <bullet> VA payments are not adequately explained:
          - VA payments do not match the amount certified by 
        Institution on the Certificate of Eligibility.
          - VA remits payments for students for whom Institution has 
        not completed a Certificate of Eligibility.
          - VA remits duplicate payments for some students.
          - VA pays out-of-state tuition after Institution has charged 
        and certified in-state tuition.
          - VA payments lack adequate identifying information--
        enrollment term, number of credit hours, percentage of 
        eligibility, etc. For example, if Institution certifies $5,000 
        and VA remits only $3,200, Institution is given no explanation 
        why.
          - Some VA payments appear on multiple cycle rosters giving 
        the false impression that duplicate payments have been 
        received.
          - Some VA deposits contain enrollment dates that do not match 
        the Institution's.

    <bullet> VA customer service is inadequate:
          - Institution cannot contact VA's Buffalo regional office 
        directly even though they originate the payments; Institution 
        has to use either the online inquiry system or call the 
        national 888 number.
          - VA's national 888 number results in long delays from hold 
        times as long as 40 minutes or dropped calls; now the 888 
        number is closed Thursdays and Fridays to enable VA to ``catch 
        up''.
          - VA representatives often give conflicting information and 
        when pressed either refer Institution to VA's regional office 
        in Buffalo (which Institution cannot contact), or instruct 
        Institution not to question VA's payments (even though 
        Institution has found many errors and is supposed to be VA's 
        ``partner'').
          - VA's online system sometimes reports inquiries ``closed'' 
        without providing an adequate explanation of the resolution.
          - VA Education Liaison Representatives (ELRs) are frequently 
        unavailable due to ``special assignment''.

    <bullet> VA has published no clear guidance:
          - VA has published no clear guidance regarding which benefits 
        will be delayed in the event of an unreimbursed overpayment--
        tuition/fee payment to Institution, or living/book payment to 
        student?
          - VA has published no clear deadlines for retroactive 
        applications (benefits for prior enrollment terms).
          - VA has published no clear guidance for Chapter 33 benefit 
        eligibility for students who receive other forms of tuition 
        assistance, e.g. Active Military tuition sponsorship, Federal 
        or state tuition assistance, Institutional tuition waivers, 
        private tuition specific scholarships or sponsorships, etc.
          - VA has published no clear guidance for Chapter 33 benefit 
        eligibility for students who are discharged from active duty 
        during the enrollment period.
          - VA has published no clear guidance on Chapter 33 benefit 
        eligibility for waive-able student health insurance.
    <bullet> VA has not required or adequately accounted for DD214 
(active duty discharge) data when determining Chapter 33 benefit 
eligibility.
    <bullet> VA policy of remitting individual instead of collective 
payments is highly labor-intensive.

    <bullet> VA return policy creates needless delays and 
administrative burden because:
          - Institution must return full payment if any variation in 
        assessment has occurred subsequent to certification, even if 
        that variation is a minor reduction in fees.
          - Institution must submit an amended certification after 
        returning payment which removes it from VA's automated process 
        by requiring VA Claims Adjustor review.
          - VA Claims Adjustor must then submit a new payment request 
        to the U.S. Treasury Department who waits to process the 
        payment in batch.

    <bullet> Veterans and Institution have no mechanism for determining 
the status of a veteran's application (22-1999) and whether the veteran 
will qualify for Chapter 33 benefits, so veterans who need the benefits 
in order to attend class cannot register.
    <bullet> VA restrictions on distance education unfairly deny 
housing stipends to these students.
    <bullet> VA does not notify Institution when student changes 
benefit Chapter.
    <bullet> Yellow ribbon payments have been particularly difficult; 
although they are included on the original certification, the yellow 
ribbon eligibility is segregated and payments for yellow ribbon claims 
have not been forthcoming.

    <bullet> Delayed VA payments result in additional labor-intensive 
Institution activities:
          - Institutions process emergency loans for delayed housing 
        payments;
          - Institutions place provisional credits on student accounts 
        in order to prevent late payment charges or cancellation of 
        enrollment for non-payment;
          - Institution must conduct a manual reconciliation upon 
        receipt of VA payments which are almost invariably different 
        than the anticipated provisional credits;
          - Institution holds payments received for a previous 
        enrollment term until VA confirms the student's eligibility for 
        the current or subsequent enrollment term in order to verify 
        accuracy;
          - Institution must process multiple Certificates of 
        Eligibility for students whose active duty and/or enrollment 
        status changed prior to receipt of VA payment;
          - Lump sum payments for multiple terms are difficult to 
        differentiate by term.
Suggestions:
    <bullet> Open a dialog between VA and Institutions that enables 
both parties to understand prior to implementation the system and 
process implications of VA proposed new changes and regulations.
    <bullet> Establish a partnership between VA and U.S. Department of 
Education (ED) to share resources and expedite delivery of VA benefits.
    <bullet> Revisit the education law passed by Congress last year 
that removes VA benefits from consideration when determining student 
eligibility for Title IV funds. Federal need based financial assistance 
must by definition be determined on need, and need is mitigated by 
Federal assistance from another Federal agency.
    <bullet> Create an on-line portal similar to the WAVE portal for 
Chapter 30 benefits that would enable veterans and Institution to 
determine the veteran's Chapter 33 application status and eligibility 
for benefits.
          - Veterans need an effective source of accurate information 
        about their individual benefit eligibility before they apply 
        for and accept admission to an Institution in order to know 
        whether they can afford to attend.
          - Institutions who are asked to carry the financial risk for 
        veterans by holding them harmless while awaiting payment from 
        VA need an effective source of accurate information about their 
        application and benefit status.

    <bullet> Simply, streamline, standardize, and improve communication 
regarding VA overpayment policy:
          - Allow Institution to refund/return only the overpayment 
        amount rather than the full payment followed by an amended 
        certification.
          - Allow Institution to batch overpayment refunds/returns 
        rather than remitting them individually.
          - Standardize VA overpayment policy to mirror ED and other 
        financial aid policies that return overpayments to the aid 
        source not student.
          - Improve communication regarding status of student refund/
        return.

    <bullet> Provide adequate and accurate explanations to Institution 
for VA payments that differ from Institution certified amounts; then 
remit batch/collective payments to Institution instead of multiple 
individual payments.
    <bullet> Allow individuals other than the single certifying 
official at Institution to initiate/maintain contact with VA; for 
example, individuals who research billing issues should be able to 
speak directly with VA payment coordinators to resolve discrepancies.
    <bullet> VA responsiveness to researching mismatched payments has 
improved, now originating issues need to be addressed.
    <bullet> Replace the per-credit hour cap with a single dollar 
amount cap for each state. This would eliminate the need to calculate 
benefits individually for each student based on enrolled credit hours.
    <bullet> Revisit VA restrictions on distance education to allow 
veterans Chapter 33 housing stipends while enrolled solely through 
distance education courses.
    <bullet> Clarify VA policy on overseas study and expand Chapter 33 
benefit eligibility to include courses taken abroad that count toward 
the student's degree.
    <bullet> Allow veterans to revert to a more advantageous program if 
they discover Chapter 33 is not in their best interest.
          - The irrevocable nature of Chapter 33 benefit election 
        coupled with the lack of clear situation-specific information 
        to effectively guide their decision has created hardships for 
        many veterans.
          - Remove the Chapter 30 to Chapter 33 conversion penalty 
        which limits combined use of the two programs to 36 months 
        unless Chapter 30 is exhausted.

    <bullet> Simplify Chapter 33 eligibility rules and allow all active 
service to count; eliminate the requirement to verify the purpose and 
authorizing U.S. Code for each active duty period.
    <bullet> Expand Chapter 33 timelines to allow Institution to 
complete Certificates of Eligibility far enough in advance to enable VA 
to process claims by the start of the term and continue uninterrupted 
between terms.
    <bullet> The Higher Education Opportunity Act's Readmission 
Requirements for Servicemembers states that returning servicemembers 
may not be charged tuition and fees in excess of the rate charged 
during the term in which they left school for military service unless 
they have veteran or military education benefits. Is it reasonable to 
base charges on benefit eligibility?
    <bullet> Improve VA delivery of policy notifications to Institution 
Certifying Officials (COs). Recent VA policy updates submitted to COs 
via mass e-mail with a link to VA's Web Automated Reference Material 
System (WARMS) were missed because many COs could not access the link 
to WARMS. All time sensitive information should be included in the 
actual email text.
    <bullet> Forward to Institution a monthly report (or copy of 
Certificate of Eligibility) listing each applicant and percentage of 
Chapter 33 benefit eligibility for that Institution.
    <bullet> Forward to Institution a monthly (or quarterly) report 
listing students who owe an overpayment to VA, and when the overpayment 
has been paid.
    <bullet> Remove the detailed examination of each course's 
applicability to a degree program, attendance, retakes, and need for 
remediation. Why does the VA track this level of detail when U.S. 
Department of Education does not?
    <bullet> Remove the tracking of each course by start and stop date; 
allow Institutions with regular terms of enrollment to use the same 
criteria as Title IV for full time enrollment.
    <bullet> Remove the requirement for State Approving Agencies to 
approve each program of education at an accredited Institution. If the 
Institution meets accreditation standards, shouldn't that be sufficient 
for education benefits?
Contributing Institutions:
    <bullet> Margaret Baechtold and Susan Cote, Indiana University
    <bullet> Sandie Rosko, University of Washington
    <bullet> Laurie Schlenke, Michigan State University
    <bullet> Jean Thomson, University of Colorado, Boulder
    <bullet> Bob Lech, University of Pittsburgh
    <bullet> Beth Barrett, Harvard University
    <bullet> Roseann Sieminski, Pennsylvania State University
    <bullet> James Middlemas, University of Michigan
    <bullet> Marty Miller, University of Iowa
    <bullet> Christina Westendorf, Illinois State University
    <bullet> Cathie Easter, University of Wisconsin
    <bullet> Bradley Stene, Northwestern University
    <bullet> Marsha Lovell, UCLA
    <bullet> Cathy Foland, Southern Illinois University Edwardsville
    <bullet> Paul Toler, University of Missouri Columbia
    <bullet> John Higgins, Purdue University
    <bullet> Judith Flink, University of Illinois

    Senator Tester. Thank you, Ms. Flink.
    Captain Farrell?

 STATEMENT OF CAPTAIN GERARD M. FARRELL, USN (RET.), EXECUTIVE 
DIRECTOR, COMMISSIONED OFFICERS' ASSOCIATION OF THE U.S. PUBLIC 
                         HEALTH SERVICE

    Captain Farrell. Good morning, Mr. Chairman. I am 
privileged to be able to speak with you here today on behalf of 
the more than 6,500 active-duty and retired officers who are 
members of the Commissioned Officers' Association of the U.S. 
Public Health Service. I will confine my remarks exclusively to 
Section 6 of Senate Bill 3447, which will extend the 
transferability entitlement of the Post-9/11 GI Bill to the 
Commissioned Corps of both the U.S. Public Health Service and 
the National Oceanic and Atmospheric Administration.
    In the original Post-9/11 GI Bill signed into law in 2008, 
the PHS and NOAA Commissioned Corps were left out. The 
oversight was partially rectified in 2009, during the 
development of implementing regulations by the VA. The 
Veterans' Administration, citing law and precedent, observed 
that PHS and NOAA officers had always been entitled to the GI 
Bill benefits, but because of the wording about transferability 
in the Post-9/11 statute, the VA could not fix the problem 
through rulemaking.
    There are three reasons to include PHS officers in the 
Post-9/11 GI Bill transferability entitlement. First and most 
obvious is that doing so is simply a matter of law and 
precedent, as certified by the VA. Second, it will have a 
positive impact on retention, and thus, on public health 
security--arguably, the most important and fundamental 
component of national security. Finally, it involves fair and 
equal treatment for all of our uniformed service veterans, 
regardless of the uniform in which they happen to serve.
    S. 3447 will bring the Post-9/11 GI Bill into conformance 
with Title 42, Section 213(d) of the U.S. Code, which reads in 
part that ``active service commissioned officers of the Public 
Health Service shall be deemed to be active military service in 
the Armed Forces of the United States for the purposes of all 
laws administered by the secretary of Veterans Affairs.''
    The PHS Commission Corps is the second-smallest of the 
seven Federal uniform services with an active-duty force of 
some 6,500 health professionals. The Corps is not well-known to 
the general public, and sometimes not even to policymakers, 
yet, the PHS Commission Corps' effective impact on the Nation's 
public health far exceeds its small size, and maintaining 
public health security is a critical element of national 
security.
    The U.S. Government recognized this fact in 1889, when it 
created the Public Health Service Commission Corps as a 
uniformed service. And the inextricable relationship of public 
health to national security and now global health security has 
only grown more important over time. Indeed, global health 
diplomacy has recently become an integral part of our national 
military strategy. Think of the PHS Commission Corps as a 
public health national security force multiplier.
    PHS officers train with their military colleagues, 
participate in joint missions, and serve shoulder to shoulder 
alongside them in Iraq and Afghanistan and elsewhere around the 
world. PHS officers are among the first to deploy with the Navy 
to Haiti following the earthquake earlier this year. PHS 
officers serve in ever greater numbers throughout the 
Department of Defense and the Department of Homeland Security. 
The head of the DOD TRICARE Pharmacy Directorate is a PHS flag 
officer. The director of Psychological Health for the National 
Guard is a PHS officer. PHS officers provide oral health and 
dental care for the Coast Guard, but today, are not able to 
transfer their Post-9/11 GI Bill benefits to a family member as 
can the Coast Guardsmen alongside whom they serve. I could go 
on.
    Domestically, PHS officers are assigned to nearly every 
stage and have a presence in almost every Federal agency and 
right here on Capitol Hill. PHS officers deploy in anticipation 
of and in response to every incident involving public health, 
including sending one-third of their officers to the Gulf Coast 
before, during, and after the 2005 hurricanes, and even today 
along the Gulf Coast, monitoring environmental health issues 
incident to the Gulf oil leak disaster.
    In a field where cultural sensitivity is a key requirement 
in providing effective care, and all the uniform services are 
concerned about diversity issues, especially in their officer 
corps, the PHS Commission Corps stands out as the most diverse 
institution in the Federal workforce in terms of ethnicity, 
race, and gender. But there is a well-documented crisis in the 
public health workforce today. The number of physicians and 
dentists in the Corps, for example, has declined precipitously 
in recent years, and there are thousands, literally thousands 
of unfilled billets throughout the entire Public Health 
Service. As stated earlier, this is not only a public health 
crisis, but also a crisis for national security.
    Finally, I will comment briefly on proposed change in the 
funding of the transferability entitlement alluded to earlier 
by Chairman Akaka. If I read the bill correctly, 
transferability would no longer be funded by the VA, but by the 
servicemembers' parent agencies. In the case of the Public 
Health Service Commission Corps, that would be the Department 
of Health and Human Services. Clearly, this would make 
transferability far less appealing to those departments. Such a 
change now seems particularly unfair to the Public Health 
Service and NOAA Corps, the two smallest uniform services so 
far excluded from this entitlement.
    Further, shifting a funding responsibility for a veteran's 
entitlement to agencies other than the VA would set a strange 
precedent, as well as adding still more complexity to the 
program's administration, exactly the opposite of the intended 
effect of S. 3447. The practical result would be to severely 
reduce an extremely popular veteran's benefit and restrict the 
ability of all the uniformed services to retain key mid-career 
professionals. A better approach might be to establish funding 
caps and return to the original idea behind the transferability 
benefit, which was to focus laser-like on retaining mid-career 
servicemembers with highly-valued skills that are in short 
supply.
    Even in the best of economic times, qualified public health 
physicians, dentists, and nurses who are willing to commit to 
public service careers are in short supply. The transferability 
entitlement in the Post-9/11 GI Bill offers the Department of 
Health and Human Services a valuable tool for recruiting and 
retaining scarce health professionals. This tool will be even 
further enhanced by retaining the funding as it currently 
exists within the Department of Veterans Affairs.
    For these reasons, I ask all the Members of this Committee 
to support the provision within S. 3447 that would, at last, 
extend the Post-9/11 GI Bill transferability to the Public 
Health Service and NOAA Commission Corps.
    I appreciate the Committee's time, attention, and 
consideration, and would be pleased to answer any questions you 
may have. Thank you, sir.
    [The prepared statement of Captain Farrell follows:]
Prepared Statement of Captain Gerard M. Farrell, USN (Ret.), Executive 
Director, Commissioned Officers' Association of the U.S. Public Health 
                             Service (COA)
    Good morning, Mr. Chairman and Members of the Committee. My name is 
Gerard Farrell. I am a retired Navy Captain. For the past nine years, I 
have served as Executive Director of the Commissioned Officers 
Association of the U.S. Public Health Service (COA). I am pleased and 
honored to be able to speak to you today on behalf of active-duty and 
retired officers of the PHS Commissioned Corps.
    I will confine my remarks to one part of S. 3447, the Post-9/11 
Veterans Educational Assistance Improvements Act of 2010. I refer to 
Section 6 and the proposal to extend the transferability entitlement to 
the Commissioned Corps of the U.S. Public Health Service (USPHS) and 
the Commissioned Corps of the National Oceanic and Atmospheric 
Administration (NOAA).
    This provision would permit PHS and NOAA officers to transfer their 
unused educational benefits to dependent family members. This is 
attractive to PHS officers because they generally cannot take advantage 
of their GI Bill educational benefits. They join the service having 
already earned bachelors' degrees and, in most cases, advanced and 
terminal degrees as well.
                      introduction and background
    In the original Post-9/11 GI Bill, approved by Congress and signed 
into law by the President in 2008, the PHS Commissioned Corps and the 
NOAA Corps were left out. This oversight was partially rectified in 
2009 during the development of implementing regulations. The Veterans 
Administration, citing law and precedent, observed that PHS and NOAA 
officers had always been entitled to GI Bill benefits. But because of 
the wording about transferability in the Post-9/11 statute, the VA 
could not fix the problem through rulemaking. So these two uniformed 
services remained left out of the transferability entitlement.
    I want to thank Chairman Akaka for meeting personally with me and 
retired Assistant Surgeon General Dr. Jerrold Michael in September 2008 
to discuss this matter. We thank him for listening and for ultimately 
deciding to rectify this situation in the context of proposed overall 
improvements to the Post-9/11 GI Bill.
    S. 3447 would extend the transferability entitlement to PHS and 
NOAA officers. The bulk of my statement today is intended to reinforce 
the fact that this is absolutely the right thing to do. Maintaining 
public health security is a critical element of national security. The 
U.S. Government recognized this fact in 1889 when it created the Public 
Health Service Commissioned Corps as a uniformed service. The 
relationship of public health to national security has only grown more 
important over time.
    I also want to offer a snapshot of the PHS Commissioned Corps, 
which has been serving the Nation since 1889. It is the second-smallest 
of the seven Federal uniformed services, with an active-duty force of 
6,500 health professionals under the command of the U.S. Surgeon 
General. The PHS Commissioned Corps is not well-known to the general 
public, and sometimes not even to policymakers. The PHS Commissioned 
Corps is well-known and highly regarded by its sister services. PHS 
officers train with their military colleagues, participate in joint 
missions, and even serve alongside them in Iraq and Afghanistan. (I 
will say more about this later in my statement.)
    Finally, I will comment briefly on the proposed change in funding 
of the transferability entitlement. If I read the bill correctly, 
transferability would no longer be funded by the Veterans 
Administration, but by the servicemembers' various agencies. In the 
case of the PHS Commissioned Corps, that would be the Department of 
Health and Human Services.
    Clearly, this would make transferability far less appealing to 
those agencies. Such a change now seems particularly unfair to PHS and 
NOAA, the two small uniformed services so far excluded from this 
entitlement. Further, shifting of funding responsibility for a 
veteran's entitlement to agencies other then the Veteran's 
Administration would set a strange precedent as well as adding still 
more complexity to the program's administration--exactly the opposite 
of the intended effect of S. 3447. The practical result would be to 
severely reduce an extremely popular veterans' benefit and restrict the 
ability of all the uniformed services to retain key mid-career 
professionals.
    A better approach might be to establish funding caps and return to 
the original idea behind the transferability benefit, which was ``to 
focus, laser-like'' on retaining mid-career servicemembers with highly 
valued skills that are in short supply.
                            legal precedent
    As a matter of law and precedent, PHS and NOAA officers have always 
been entitled to all GI Bill benefits. This has been the case for more 
than 60 years. The single exception has been the transferability 
entitlement in the Post-9/11 GI Bill. The provision in S. 3447 that 
would extend the transferability entitlement to PHS and NOAA officers 
would bring the Post-9/11 GI Bill into conformance with Title 42, 
Section 213(d) of the U.S. Code.
    This section reads as follows:

        Active service deemed active military service with respect to 
        laws administered by Secretary of Veterans Affairs. Active 
        service of commissioned officers of the [Public Health] Service 
        shall be deemed to be active military service in the Armed 
        Forces of the United States for the purposes of all laws 
        administered by the Secretary of Veterans Affairs (except the 
        Servicemen's Indemnity Act of 1951) and section 417 of this 
        title.

    In its final rule issued on March 31, 2009 implementing the Post-9/
11 GI Bill, the Department of Veteran's Affairs was unequivocal in 
certifying that Title 42, all previous legal opinions, and precedent 
did, in fact, entitle the PHS Commissioned Corps to all programs 
administered by the Department of Veteran's Affairs. The pertinent 
section of that document reads as follows:

        We agree that commissioned officers of PHS and NOAA are 
        eligible for benefits under the Post-9/11 GI Bill. In a 
        digested opinion from 1985, our General Counsel read the 
        provisions of 42 U.S.C. 213 regarding PHS and 33 U.S.C. 857-1 
        and 857-3 (now in 33 U.S.C. 3002 and 3072, respectively) 
        regarding NOAA as expanding the definition of `Armed Forces' in 
        38 U.S.C. 101(10) to also include PHS and NOAA for purposes of 
        benefits administered by VA. See VADIGOP, 6-26-85 (8-28 Reentry 
        in Active Service). Therefore, service as a commissioned 
        officer of PHS or NOAA meets the `active duty in the Armed 
        Forces' service requirement in section 3311 of title 38, U.S.C.

    The implementing regulations thus made clear that PHS and NOAA 
officers are entitled to Post-9/11 GI Bill benefits. But at the same 
time, the VA regulation-writers felt stymied by the statutory language 
on transferability. The statute mentioned the Secretaries of Defense, 
Army, Navy, Air Force and Homeland Security, but did not mention either 
the Secretary of Health and Human Services or the Secretary of 
Commerce. These two departments are the parent agencies of the PHS 
Commissioned Corps and the NOAA Corps. S. 3447 would remove that 
restrictive language and thereby extend the transferability benefit to 
PHS and NOAA officers.
              the phs commissioned corps and the military
    While the mission of the PHS Commissioned Corps is undeniably and 
appropriately different and distinct from those of the other uniformed 
services, the character of their service is the same. While other 
services may deploy for long periods once every few years, PHS officers 
routinely deploy for several weeks at a time, many times in any given 
year. PHS officers also deploy, albeit in small numbers, consistent 
with the overall size of the Corps, alongside the other uniformed 
services around the world.
    Most recently, PHS officers have deployed, and are deployed today, 
for both long and short tours in Iraq and Afghanistan. Two PHS officers 
deployed to Afghanistan for a year in 2009 were awarded the Bronze Star 
Medal for their service.
    There is a long history of the PHS Commissioned Corps serving 
shoulder-to-shoulder with the other uniformed services. The Corps was 
militarized during World War II and remained so through the Korean 
Conflict. PHS officers were killed and wounded during those wars. In 
the last decade PHS interoperability with DOD has again been growing as 
DOD becomes increasingly re-aware of the inextricable link between 
public health security and national security. PHS officers deploy 
regularly and routinely as part of the Navy's annual health diplomacy 
deployments; with the Army and Air Force in the annual Arctic exercises 
in Alaska, and elsewhere around the world. PHS officers were among the 
first uniformed servicemembers deployed to Haiti in the wake of the 
earthquake earlier this year.
                   the phs commissioned corps at home
    On the home front, PHS officers are deployed as needed across the 
United States. They serve in remote and sparsely populated areas, 
providing comprehensive health care to underserved populations. They 
help staff the health and regulatory agencies with the Department of 
Health and Human Services (FDA, NIH, CDC, and HRSA, among others) and 
they also serve in the Department of Homeland Security and the Bureau 
of Prisons.
    PHS officers are stationed in nearly all states and the District of 
Columbia, with a significant presence in Alaska, Arizona, Georgia, 
Maryland, Minnesota, New Mexico, North Carolina, Ohio, Oklahoma, Texas, 
Virginia, and Washington State.
    Let me cite North Carolina as an example: Nearly 500 PHS officers 
are stationed there. They are spread out across the state--from 
Asheville, Durham, Raleigh, Greensboro, Elizabeth City, and Research 
Triangle Park, to Butner, Cherokee, and Manteo.
    Some PHS officers are detailed to the Defense Department, and are 
working at Womack Army Medical Center at Fort Bragg. Others are 
assigned to the Traumatic Brain Injury Clinic at Camp LeJeune. These 
PHS officers are doctors, nurses, physicians' assistants, mental health 
specialists, and physical therapists, and they are treating and 
rehabilitating severely injured soldiers and Marines returning from 
Iraq and Afghanistan.
    Other PHS officers are assigned to the Coast Guard Integrated 
Support Command in Elizabeth City. Not everyone realizes that PHS 
officers provide nearly all health care for all U.S. Coast Guard 
personnel. They wear Coast Guard uniforms.
    The Cherokee Indian Hospital in Cherokee, North Carolina, is 
staffed by two dozen PHS physicians, dentists, and nurses who are part 
of the Indian Health Service. Still other PHS officers stationed in 
North Carolina work for Federal health agencies, including the Food and 
Drug Administration, National Institutes of Health, and Centers for 
Disease Control. PHS officers are also assigned to the Environmental 
Protection Agency, Department of Homeland Security, and even the 
National Park Service.
    One hundred and thirty PHS officers stationed in North Carolina 
work for the Federal Bureau of Prisons. They staff the prison system's 
Federal Medical Center in Butner. They are physicians, dentists, 
nurses, pharmacists, psychologists, social workers, and physical and 
occupational therapists.
    The North Carolina contingent of PHS officers also includes 
research scientists, toxicologists and radiologists, sanitary 
engineers, biostatisticians and epidemiologists.
    I like to point out that the Commissioned Corps of the U.S. Public 
Health Service is among the most diverse of Federal workforces in terms 
of ethnicity, race, and gender. Collectively, PHS officers in North 
Carolina are fluent in 14 languages, and some officers speak three or 
four languages in addition to English. In a field where cultural 
sensitivity is a key requirement in providing effective care, the PHS 
Commissioned Corps is unsurpassed in operational effectiveness.
                     public health workforce needs
    There is a well-documented need to retain public health service 
officers in service to the Nation's health. This matter can be 
addressed in part by the inclusion of those officers as eligible for 
the full provisions of the Post-9/11 GI Bill.
    The Public Health Service Commissioned Corps has seen a precipitous 
decline in the number of physicians and dentists over the last five 
years. Requirements for nurses, pharmacists, engineers, and mental 
health professionals remain unfilled. The need is especially acute in 
the Indian Health Service. PHS officers are needed to support DOD 
treatment plans for mental health issues arising from the ongoing wars 
in Iraq and Afghanistan.
    There is a critical need to retain and to recruit additional PHS 
officers in service to the Nation. There is also a critical need to 
underscore the seamless relationship among all seven uniformed 
services. These facts militate for inclusion of the PHS Commissioned 
Corps in Post-9/11 GI Bill transferability.
    In recognition of the crisis in the Federal public health 
workforce, the Patient Protection and Affordable Care Act contains 
provisions specifically aimed at strengthening and enhancing the role 
of the PHS Commissioned Corps. The Patient Protection Act, when fully 
implemented, will significantly improve the ability of the PHS 
Commissioned Corps to recruit future officers in the key professions; 
but the Corps has an immediate and urgent need to improve retention of 
key mid-career professionals now. Transferability of the Post-9/11 GI 
Bill entitlement will meet that need.
    Even in the best of economic times, qualified public health 
physicians, dentists and nurses who are willing to commit to public 
service careers are in short supply. The transferability entitlement in 
the Post-9/11 GI Bill offers the Department of Health and Human 
Services a potentially valuable tool for recruiting and retaining these 
scarce health professionals. This tool will be even further enhanced by 
retaining the funding as it currently exists--in the Department of 
Veteran's Affairs.
    For all these reasons, I ask all Members of this Committee to 
support the provision within S. 3447 that would, at last, extend Post-
9/11 GI Bill transferability to the PHS Commissioned Corps and the NOAA 
Corps. I appreciate your time, attention and consideration. I will be 
pleased to answer any questions you might have. Thank you.

    Senator Tester. Well, I appreciate your testimony, Captain 
Farrell, and I appreciate the testimony of everybody who is on 
this panel. I also see that Keith Wilson and John Brizzi are 
here, and I want to thank them for remaining and listening to 
the testimony of the second panel. I very much appreciate that. 
I think it's helpful.
    I will point out one of the things that Judy Flink said to 
you gentlemen while you're here, and that is the fact that we 
need more of a partnership, better communication if we're going 
to get to the bottom and get all that stuff fixed. I think is 
the same thing I am hearing in Montana, by the way, from people 
who hold similar positions to yours, Judy. So, I think it could 
bear some fruit.
    I am going to start with Mr. Hilleman. You had talked very 
briefly in your opening statement about enrollments, and I want 
you to elaborate on it a little because I do not exactly 
understand what you're saying--half enrollments, there's no 
living allowance, but one credit and one half time program--
explain what you're talking about there.
    Mr. Hilleman. Under current law----
    Senator Tester. Yes.
    Mr. Hilleman [continuing]. A veteran can game the GI Bill 
by enrolling in more than half time or seven credits. So, 
there's no BAH stipend for individuals who are half time or 
less, but if you're taking seven credits, you get a full BAH 
stipend.
    Senator Tester. Got you. OK.
    Mr. Hilleman. So our proposal is in line with the original 
Montgomery GI Bill, creating stair steps and percentages that 
give a percentage of the BAH based on enrollment, which could 
also address some of the challenges that you had in the 
previous panel with questions, Senator Tester. The issue of 
over and underpayments with one credit change could be impacted 
if they were bracketed by half time between six and eight 
credits.
    Senator Tester. Yes.
    Mr. Hilleman. So you go up and down one credit. There's no 
over or underpayment. If you go to three-quarter time, 9 to 11 
credits, if they move up or down one, it's not too much of an 
issue. You still have it between the different percentages.
    Senator Tester. Levels.
    Mr. Hilleman. It could alleviate some of the challenges.
    Senator Tester. OK.
    Mr. Hartle, you talked about language in Section 3 is not 
language that's used by the Department of Education. Have you 
been asked to submit language that would work?
    Mr. Hartle. We have not. We would obviously be very happy 
to do that.
    Senator Tester. Well, I would like to have it.
    Mr. Hartle. Certainly.
    Senator Tester. I think that if there's an issue in the 
language of the bill that could stop proper implementation, 
then we need language that's going to work. So, if you could 
provide it, that would be great.
    Mr. Hartle. Absolutely.

    [Responses were not received within the Committee's 
timeframe for publication.]

    Senator Tester. Judy Flink, I want to thank you for taking 
time to pull together some ideas for improving the 
administrative issues that we face. Getting these benefits and 
processes right requires all hands on deck, and we appreciate 
your work. We can not afford to overlook any good ideas.
    As executive director of Financial Services, it sounds as 
if you had a significant amount of experience working with 
veteran students over a significant period of time. You 
specifically hit on an issue that I have a great interest in 
and that is the overpayments issues, as Mr. Hilleman pointed 
out, and the impact on students that go into overpayment 
status.
    I want to know if you could describe some of the 
experiences that you have had with the kind of situation that 
has resulted in overpayment, and what can be done to help 
alleviate the problem--not only yours, but at other schools?
    Ms. Flink. It's pretty universal. If a student enrolls at 
the University of Illinois and then they have to opt out for 
any reason--sometimes it may be that the programs are just too 
rigorous, and then they make a decision that they want to go to 
a community college, that the program might be easier for them 
to attain. Our point that we have been trying to make with the 
VA is we would rather return the money to you because that 
timing is very short. Say they dropout in mid-October and they 
want to enroll at our community college, Parkland, in January. 
By the time we send the money back, VA finally bills the 
student; the student might pay them back. They're already 
enrolled in Parkland, and the VA is telling them that they do 
not have benefits because they may owe money.
    Senator Tester. Right.
    Ms. Flink. So it gets stuck in this cycle. Or if they come 
in full-time, dropped to half-time, we have been saying to the 
VA, unfortunately on a number of occasions, and it is a larger 
group of public schools that have been saying we simply want to 
return the money to VA and get out of the process that's been 
implemented because it will make it much easier for the veteran 
and less confusing.
    Senator Tester. OK. Well, thank you.
    This is a question for each one of you. In your testimony, 
you all talked about the good things in the bill and the things 
that need improvement in the bill. If you were going to pick 
one thing that you would like to see changed in S. 3447 as an 
improvement, what would it be? We'll start with you, Mr. 
Hilleman.
    Mr. Hilleman. If absolutely nothing else would be changed, 
we would probably have to say the Title 32 AGR deployments. 
That is a group of individuals that was inadvertently left out 
of the first iteration of the bill, and they have certainly, 
through their past and continued service, have earned education 
benefits under this law.
    Senator Tester. Good.
    Mr. Embree?
    Mr. Embree. Yes, sir, and thank you for the question. I 
think we can all agree on the importance of including folks 
from AGR, but I think something that's extremely important, and 
what we're hearing from veteran students everyday is tuition 
and fees. Folks are really blown away by the problems from the 
tuition and fees. Congress did not intend when they wrote the 
original Post-9/11 GI Bill for it ever to be implemented that 
way. They intended a simple way. So, to actually create a 
nationalized baseline for the private schools and to just 
simplify and include all public schools, the way S. 3447 says, 
is so important right now because there are so many student 
veterans and their families affected every day by the debacle 
of tuition and fees the way it's currently structured.
    Senator Tester. OK. Mr. Hartle?
    Mr. Hartle. I completely agree with what Mr. Embree has 
said. I think I already indicated that there are some areas 
where the language needs to be tightened, and we will be happy 
to work with the Committee on that, but that's really not a 
fundamental issue. I think the fundamental thing you're doing 
in this bill is putting an absolute very clear set of numbers 
out there so that people can plan with respect to their post-
secondary education. The benefits to students, the benefits to 
institutions that are trying to counsel students will be 
enormous. I think that provision alone makes this bill worth 
passing. Nothing against any of the other provisions at all, 
it's just I think that that would be an extraordinary benefit 
for veterans and institutions.
    Senator Tester. OK.
    Ms. Flink?
    Ms. Flink. I agree with Terry. As someone who's in the 
trenches and has to help the students build their budgets and 
plan for their education, it's critical to make that process 
more streamlined and much more easy for them to understand.
    Senator Tester. OK. Captain Farrell?
    Captain Farrell. I would have to say that the first and 
most important thing is to bring the bill into conformance with 
existing law, to include all veterans in all facets, in all 
entitlements of the Post-9/11 GI Bill, including Public Health 
Service and NOAA Corps in the transferability entitlement.
    Senator Tester. I have one more question for you, Captain 
Farrell. Do you think the Post-9/11 GI benefits and their 
expansion will help us recruit and retain good health care 
professionals in rural America, also?
    Captain Farrell. Absolutely.
    Senator Tester. And, as you know, finding and keeping good 
folks in medical jobs in rural America is a tough task for the 
VA, as well as private providers.
    Are there other things that we should be doing to sweeten 
the pot for Health Service Commission Corps officers and for 
rural providers in general?
    Captain Farrell. That's a great question, and I think the 
answer is--and it falls into line with the Post-9/11 GI Bill--
which is more educational opportunities. I mean, and 
particularly for the Public Health Service Commission Corps 
folks, they have a hard time getting continuing education in 
the course of their careers as mid-career professionals or as 
terminal career professionals in terms of leadership, exposure 
and leadership courses, further technical training, clinical 
training. That's really tough for the department to fund and 
something our small association affiliated foundation tries to 
help fill the gap on. So I think that's an important area to 
look at.

    [Follow-up information provided by Captain Farrell 
follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Tester. Well, thank you. Again, I want to thank the 
folks from panel one and from panel two. I appreciate your 
testimony; appreciate your direct answers to the questions.
    I think that as this bill moves forward, it's going to be 
critically important that the folks from both panels stay 
involved and you can do that in a number of ways, which you 
know how to do. If we're going to get this thing ironed out to 
make it all it can be to live up to the promises we make to our 
veterans, we're going to need your help in doing that. So I 
appreciate your testimony at this panel and today and look 
forward to your further input down the line. Thank you all very 
much. This hearing is adjourned.
    [Whereupon, at 11:32 a.m., the hearing was adjourned.]
                            A P P E N D I X

                              ----------                              


   Prepared Statement of Robert Madden, Assistant Director, National 
                Economic Commission, The American Legion
    Chairman Akaka, Ranking Member Burr, and fellow Members of the 
Committee: The American Legion appreciates the opportunity to submit 
our statement for the record on ``Improvements to the Post-9/11 GI 
Bill.''
    The Post-9/11 Veterans Education Assistance Act of 2008 was signed 
into law on June 30, 2008, and was implemented on August 1, 2009. This 
new Act goes well beyond helping to pay for tuition and fees; many 
veterans who served after September 11, 2001, will get full tuition and 
fees, a new monthly housing stipend, and a $1,000 a year stipend for 
books and supplies. It also gives certain Guard and Reserve members who 
have been activated since 9/11 access to the same GI Bill benefits. 
However, the Post-9/11 Veterans Education Assistance Act of 2008 only 
covers Institutes of Higher Learning (IHLs). Work remains.
    Not all veterans attend IHLs. Many veterans prefer traditional 
employment and/or may require employment for personal or family 
reasons. The American Legion recommends that the following programs be 
included under the Post-9/11 GI Bill (Chapter 33): flight training; 
correspondence schools; vocational schools; apprentice programs; and, 
on-the-job training programs.
    Chapter 33 needs to be modified to include non-college degree 
programs. Veterans choosing to use their educational benefits for other 
than IHLs are able to use them under the existing Chapters 30, 1606, or 
1607; however, in those instances the benefit recipients are not 
entitled to either the housing stipend or the allowance for books and 
supplies. The American Legion believes that veterans should never be 
limited in the manner they use their educational benefits.
    According to VA, four of the top ten institutions serving veterans 
and the active military are online institutions. In fiscal year 2008, 
over 645,000 active duty military took voluntary education courses that 
were paid by DOD, and 60 percent of these students chose to study 
online. Further, in fiscal year 2006, there were approximately 840,000 
military students (active and veterans) enrolled in voluntary education 
programs both at the secondary and post-secondary level, with 
approximately 75 percent of instruction being offered via online 
institutions. Due to this trend, paying veterans a lesser benefit when 
they receive credit via distance learning is a mistake.
    Veterans choose to attend online institutions because of location, 
job, family commitments, or disability. Another reason for high 
participation of veterans in distance learning is the emphasis on 
adults, which is why online universities are noted for their ``GI-
friendly'' policies and practices. Further, online programs are offered 
throughout the year, allowing servicemembers and veterans to take 
lighter course loads or to finish their degree programs in shorter time 
periods. Accordingly, The American Legion is recommending that the 
allowances for distance learning be made similar to those in effect for 
residential learning. This assures equity for veterans including such 
individuals as single parents and veterans with significant medical 
disabilities.
    In addition, The American Legion strongly recommends that Title 32 
Active Guard Reserve (AGR) be included for eligibility under Chapter 
33. In 2008, there were almost 30,000 Army National Guard and 13,500 
Air National Guard servicemembers serving on Title 32. The American 
Legion also recommends a comprehensive review of VA's separate tuition 
and fees cap system to ensure that veterans will not lose any value in 
their education benefits due to this reimbursement method. A lack of 
funding has arisen for veterans attending private schools in states 
like Massachusetts, California, and Washington, DC, due to this 
separate tuition and fees cap system. Other improvements would include 
provisions for lifelong learning and additional financial support for 
educational institutions providing programs and services to veterans.
                                s. 3447
    S. 3447, ``Post-9/11 Veterans Educational Assistance Improvements 
Act of 2010''; a bill to amend title 38, United States Code, to improve 
educational assistance for veterans who served in the Armed Forces 
after September 11, 2001, and for other purposes.
    The American Legion has identified current issues with the Post-9/
11 GI Bill through resolutions passed at our National Executive 
Committee meeting in October 2009. S. 3447 is a comprehensive bill 
which includes several fixes for which The American Legion has been 
advocating.
    The following are The American Legion comments and recommendations 
on certain provisions in S. 3447.
Section 2
    Section two would make eligible for Post-9/11 GI Bill benefits 
certain members of the National Guard serving on title 32 active duty 
orders. The American Legion recommends a change of language in this 
section from ``and'' to ``or'' in Section 2 (a)(2). The language as it 
now reads requires that eligibility be premised on a Guardsman being 
both of the Inspector/Instructor staff and be called up for active 
service by the President or Secretary for the purpose of responding to 
a national emergency, thereby severely limiting the number of 
individuals who would qualify for this benefit, essentially leaving out 
many members of AGR who were called up in defense of our country after 
September 11, 2001.
Section 3
    Section three addresses the tuition and fee cap issue. S. 3447 
would fully cover tuition at all degree granting programs at public 
institutions. At private institutions, benefits would be paid based on 
a national average cost of education indexed for inflation. That 
average would be around $12,000, meaning veterans at private 
institutions would receive less funding in almost half of states under 
the new formula, according to the American Council on Education. The 
goal of the Post-9/11 GI Bill is to assist veterans in getting an 
education, not burdening them with endless amounts of student loans to 
cover their education. The American Legion recommends that the private 
school average be set at $20,000, which would ensure veterans have 
ample resources to attend private colleges.
    In addition, section three addresses veterans who are attending 
classes through online institutions. The amount is set at half of the 
military's national average Basic Allowance for Housing (BAH) for E-5 
with dependents rate, which entitles veterans attending distance 
learning to $666.00 per month. The American Legion recommends setting 
the housing allowance based on the full BAH rate of where the student 
resides. Those veterans who work and/or have families need a flexible 
way to get a college education and advance their careers. These 
veterans deserve the same equitable benefit as those who attend 
``bricks and mortars'' education institutions.
    Furthermore, section three addresses four groups excluded from the 
original Post-9/11 GI Bill: vocational schools, correspondence schools, 
apprenticeship/on-the-job (OJT) programs, and flight training. The 
American Legion supports allowing veterans to use their Post-9/11 GI 
Bill toward a vocational school. Vocational school training does not 
require four years to be certified; thus allowing the veteran to return 
to the workplace quicker with an acquired skill or trade. S. 3447 does 
not allow include a books stipend to the student who attends vocational 
schools. The American Legion recommends awarding the annual books 
stipend to those who are attending vocational schools.
    As mentioned above, S. 3447 includes language concerning 
apprenticeship/OJT/flight training programs. The American Legion 
supports the addition of these programs to the Post-9/11 GI Bill. By 
allowing veterans to participate in apprenticeship/OJT/flight training, 
through the Post-9/11 GI Bill, veterans will receive tiered housing 
allowances in the sum of 75 percent, 55 percent and 35 percent; 
consequently, allowing participants to better support themselves and 
their families while receiving training.
Section 4
    Section four addresses licensure and certification testing. The 
current law allows a one-time test, capped at $2,000. S. 3447 allows 
veterans unlimited testing, but charges at the entitlement rate of one 
month for each amount equal to 1/12 of the amount of the average of the 
established charges at the educational institution. The American Legion 
recommends allowing students the opportunity to receive up to $2,000 
worth of reimbursement for multiple tests/certifications without a 
charge to entitlement. If a veteran should exceed the $2,000, then his/
her entitlement should be charged to the national average of BAH. This 
change would utilize the benefit more effectively instead of using a 
large portion of entitlement for a test or certification.
Section 6
    Section six addresses the transferability of the Post-9/11 GI Bill. 
The American Legion would urge that the legislation be modified to 
authorize all servicemembers with 10 years or more of active-duty 
service, who are eligible for the Post-9/11 GI Bill educational 
benefits, but left the Armed Forces before August 1, 2009, be able to 
use the transferability entitlement to give to their immediate family 
members.
Section 9
    This section increases the amount of annual reporting fees paid to 
educational institutions by VA. The American Legion supports an 
increase, but recommends that amount to be $25.00 per veteran. 
Certifying officials on campus play a critical role in the student-
veteran's life. They are responsible for making sure the veteran 
receives their earned benefit. The certifying official is usually the 
first person the veteran comes into contact with on campus. The 
American Legion understands that there is a need for additional 
certifying officials on campus. Increasing the reporting amount would 
allow educational institutions to increase their level of support for 
veterans by hiring more individuals as well as provide additional 
services for veterans.
                                summary
    The American Legion continues to support servicemembers, veterans 
and their families in gaining an education and supporting their career 
choices. The American Legion believes this bill will greatly serve our 
veteran population. In addition, by providing these benefits to our 
Nation's heroes we are providing a valuable service to the rest of the 
country. S. 3447 is a bill about education, but it should also be 
viewed as a bill regarding the employment of educated and qualified 
veterans. The Post-9/11 GI Bill has been hard earned and is certainly 
well deserved for the men and women who have protected, sacrificed, and 
served our country honorably. With these modest refinements, this new 
education benefit can have the same economic and social effect as the 
original GI Bill signed in 1944.

    Again, thank you Chairman Akaka, Ranking Member Burr and 
distinguished Members of the Committee for allowing The American Legion 
to present our views on this very important matter.
                                 ______
                                 
  Prepared Statement of John Decoteau, Military Admissions Director, 
                     Universal Technical Institute
    The Post-9/11 GI Bill is the most comprehensive educational bill 
presented to veterans since the Servicemens Readjustment Act of 1944 
which helped spurn the economic recovery after World War II. However, I 
believe that there is room for improvement with the Post-9/11 GI Bill 
and believe that veterans can be better served. When the Servicemen's 
Readjustment Act of 1944 was passed, a year later a supplemental bill 
was introduced after realizing that some groups were left out. Senator 
Akaka has introduced S. 3447 which aims to do the same. S. 3447 was 
introduced to start to conversation about what groups and disparities 
were left out in the initial passage of the Post-9/11 GI Bill. What has 
come to surface are highlighted items that are needed to be fixed are 
issues such as vocational schools, Title 32 ACTIVE Guard reserve (AGR), 
housing allowance for distance learners, transferability of benefits to 
dependents, etc. This is a bill of educational technical fixes for our 
veterans and their families, but it is also a remedy for employment.
    S. 3447 will provide valuable job training, by seeking to allow 
non-degree granting institutions (vocational schools) to become 
eligible to receive the Post-9/11 GI Bill. In addition, this bill seeks 
to grant benefits to those men and women who were called up under Title 
32 in help defending our country after a national tragedy. Title 32 AGR 
are deserving of the same benefit that other men and women are 
receiving but because of a simple mistake, they are left out of Post-9/
11 GI Bill benefits. It is time to restore those benefits and grant 
them the same entitlements.
    The issue of tuition and fees has been marked with a year of 
continuous change with schools and students receiving overpayment, thus 
creating unfortunate obstacles for veterans and their families 
regarding their financial health. S. 3447 seeks to remedy this 
situation by allowing for unlimited tuition and fees for undergraduate 
work at public institutions. However, the national rate for private 
colleges needs to be adjusted to reflect the higher costs associated 
with private colleges. I would recommend increasing the national 
average to $20,000.00. This realistic baseline will provide assistance 
to veterans who qualify for private institutions for their education. 
In addition by raising the national average, this would have a direct 
effect on vocational schools as well. While these schools are usually 
less in training time, they can be expensive and with the $20,000 
baseline, would allow individuals utilizing the Post-9/11 GI Bill to 
get training at a zero or minimal cost to the veteran, which is the 
benefit veterans at public institutions receive.
    Another topic in S. 3447 is the prorated housing allowance for 
recipients of the Post-9/11 GI Bill. I recommend prorating living 
allowances on the MGIB scale. Pay a living allowance based on full 
time, 75% time or 50 % time to make the rates simpler to decipher and 
also reduce the number of over and under payments. In addition S. 3447 
addresses the living allowance for apprenticeship and on-the-job 
training programs. Instead of capping the living allowance at the 
national average, I would recommend the living allowance should be 
assigned based on the zip code of the program and should be tiered at 
75%, 55%, and 35%.
    Distance learners, or those who attend college utilizing the World 
Wide Web were excluded from receiving the housing allowance. This is a 
big part of the Post-9/11 Bill and allows veterans and their families 
to support themselves, while the veteran is returning to school. 
Veterans who attend solely online classes usually attend, because of 
the flexibility that distance learning provides for them and their 
families. S. 3447 has language that identifies distance learners to 
receive 50% of the BAH rate. Although I support this measure, I would 
also remind the Committee that these individuals have the exact same 
responsibilities as those who are attend traditional colleges and would 
advise to increase the rate equally given for those who attend online 
institutions.
    Moreover, the current benefit for testing and certifications is a 
one-time $2,000.00 maximum benefit. I recommend that when taking tests 
or certifications test, that this not be taken from their monthly 
entitlements when they take multiple tests. Instead, if the veteran 
exceeds the $2,000.00 then it should be charged based on the national 
average of BAH (not = time of the average tuition rate). This would 
increase the current benefit and would allow the veterans to take the 
appropriate tests and use the proportional benefit.
    Colleges, Universities, Vocational School, Online Colleges all 
receive a stipend for how many veterans they have enrolled in 
educational programs at their institution. This money goes back into 
veterans program and assists veteran on getting program and veteran 
centers for which aid an assist all veterans on campus. S. 3447 
addresses a slight increase for reporting fees. I support this slight 
increase, I would like to recommend the increase be set at $25.00. 
Setting the fee at $25.00 would provide the certifying officials with 
additional resources for services for veterans and perhaps allow 
educational institutions to substantially increase educational 
institutions number of veteran administrators or certifying officials 
on campus.
    The results of the Serviceman's readjustment act provided for the 
greatest generation to be born and to help create and maintain of the 
most successful and prosperous time for the United States. With 
returning soldiers, tools such as the appropriate education benefit and 
other tools that are given to them are what will allow them to lead 
successful lives. I believe that we owe these servicemember's the 
opportunity to choose their own education and career path. With the 
increased additions to S. 3447, we are giving veterans the gear and 
tools then need to operate in a difficult climate and economy. These 
enable promises will garner the necessary success this country needs to 
spur entrepreneurs and the next greatest generation.
    The major components of this bill includes valuable job training, 
full credit for full time National Guardsmen, providing a living 
allowance for distance learners, expanding the yellow ribbon program, 
giving active duty Servicemembers the books stipend, increasing 
vocational rehabilitation living allowance, allowing kickers to be 
transferred, increasing school reporting fees and also clarifies a 
slight confusion with discharges. I 100% support these changes and is 
grateful to the Committee for addressing these issues and making the 
technical fixes.
    Most of these technical fixes will provide veterans with a quicker 
education time and will allow them to begin working in their respective 
career fields in a much timelier manner. S. 3447 is about creating 
equality for veterans and not just allowing certain approved programs 
to be allowed to use under the Post-9/11 GI Bill. Men and women who 
have and are defending this great country are entitled to a benefit 
that gives them the choice and then every opportunity to succeed in 
their education and employment choice.
    I would like to thanks Chairman Akaka, Ranking Member Burr and the 
rest of the Committee for allowing me to give it views and positions on 
the current legislation. I would be happy to answer any questions you 
or the rest of the Committee might have.
                                 ______
                                 
  Prepared Statement of Peter J. Duffy, Deputy Director Legislation, 
            National Guard Association of the United States
            background--unique citizen servicemember/veteran
    The National Guard is unique among components of the Department of 
Defense in that it has the dual state and Federal missions. While 
serving operationally on Title 10 active duty status in Operation Iraqi 
Freedom (OIF) or Operation Enduring Freedom (OEF), National Guard units 
are under the command and control of the President. However, upon 
release from active duty, members of the National Guard return to the 
far reaches of their states as both veterans and continuing serving 
members of the Reserve Component but under the command and control of 
their Governors. As a special branch of the Selected Reserves they 
train not just for their Federal missions but for their potential 
domestic missions such as fire fighting, flood control and providing 
assistance to civil authorities in a variety of possible disaster 
scenarios. The National Guard is always ready and always there to 
protect this country and its communities.
    While serving in their states, members are scattered geographically 
with their families as they hold jobs, own businesses, pursue academic 
programs and participate actively in their civilian communities. 
Against this backdrop, members of the National Guard remain ready to 
uproot from their families and civilian lives to serve their Governors 
domestically or their President in distance parts of the globe as duty 
calls and to return to reintegrate within the same communities when 
their missions are accomplished.
    Military service in the National Guard is uniquely community based. 
The culture of the National Guard remains little understood outside of 
its own circles. When the Department of Defense testifies before 
Congress stating its programmatic needs, it will likely recognize the 
indispensable role of the National Guard as a vital Operational Force 
in the Global War on Terror (GWOT) but it will say little about and 
seek less to redress the benefit disparities, training challenges and 
unmet medical readiness issues for National Guard members and their 
families at the state level before, during and after deployment. We 
continue to ask that they be given a fresh look with the best interests 
of the National Guard members and their families in mind.
 s. 3447--a necessary correction of the error in the post-9/11 gi bill 
                   that excludes title 32 active duty
    NGAUS strongly supports S. 3447, introduced by Senator Akaka, which 
would correct a major inequity in the current Post-9/11 GI Bill law 
that excludes title 32 active duty in the calculation of benefits. 
S. 3447 would make eligible for benefits the title 32 active duty of 
our Active Guard and Reserve personnel serving for the purpose of 
organizing, administering, recruiting, instructing or training the 
National Guard; and the active duty of our members under title 32 
section 502(f) when authorized by the President or Secretary of Defense 
for the purpose of responding to a national emergency declared by the 
President and supported by Federal funds. This would represent a major 
legislative breakthrough in benefits for the National Guard under the 
Post-9/11 GI Bill which mistakenly excluded recognition of certain 
title 32 active duty service.
                               background
    Amid deserved celebration and expectations, the bill providing 
Educational Assistance for Members of the Armed Forces Who Serve After 
September 11, 2001, more commonly known as the Post-9/11 GI Bill, was 
hurriedly enacted as part of the Supplemental Appropriations Act, 2008 
Public Law 110-252 but with one major omission. Congress erroneously 
excluded all National Guard Title 32 active duty service after 9/11 
from eligibility for benefits under this program.
    The impact of this mistake has been to deny benefits to our 
dedicated men and women for their service to our country after 9/11 on 
title 32 active duty as AGRs and in mobilized operations such as 
Operation Noble Eagle, Operation Jump Start, and in the critically 
needed airport security operations in the desperate days immediately 
following the 9/11 attacks on the homeland. What is particularly unfair 
is the fact that the current law provides benefits for domestic active 
duty service of title 10 Reserve AGRs but denies benefits to our title 
32 National Guard AGRs who are performing virtually the identical 
service.
    The time our members have served on title 32 orders in support of 
the national emergency following 9/11 needs to count toward their 
educational benefits under the Post-9/11 GI Bill. As this Committee 
knows, the benefits under the Post-9/11 GI Bill are graduated based 
upon qualifying active duty days as follows:

    40% of the full benefit for 90 days of qualifying active duty 
service
    50% for at least 6 but less than 12 months of qualifying active 
duty service
    60% for at least 12 but less than 18 months of qualifying active 
duty service
    70% for at least 18 but less than 24 months qualifying active duty 
service
    80% for at least 24 but less than 30 months of qualifying active 
duty service
    90% for at least 30 but less than 36 months of qualifying active 
duty service
    100% for at least 36 months of qualifying active duty service 
(emphasis added)

    Because most National Guard members will deploy overseas on title 
10 status on tours lasting 12-18 months, it will take more than one and 
even perhaps three such deployments for them to earn the full benefits 
under the current law. This underscores the importance of any Post-9/11 
GI Bill credit that they could accumulate from their qualifying title 
32 active duty service in support of domestic operations. Every day of 
eligible service under the Post-9/11 GI Bill is critical for National 
Guard members.
    In a time of limited employment opportunities, our members need to 
be given full opportunity, financial assistance and encouragement under 
the Post-9/11 GI Bill to pursue higher education to enhance their 
employability while waiting for the economy to correct. In April of 
this year, the National Guard Bureau reported unemployment rates of 30% 
and 41% for California Army National Guard and Ohio Army National Guard 
respectively. The 41st Infantry Brigade Combat Team of the Oregon Army 
National Guard after returning this year from deployment in Operation 
Iraqi Freedom was reporting an unemployment rate last month of 51%. The 
correction that S. 3447 would provide to assist our unemployed members 
in enhancing their vocational skills is needed immediately.
  other inequities in the post-9/11 gi bill will need to be addressed 
                             in the future
    Although the legislative accomplishments of S. 3447, if successful, 
would be enormously beneficial to the National Guard, remaining 
inequities would still need the attention of Congress in the future so 
that counterdrug operations of the National Guard and all active duty 
performed under title 32 section 502(f) in support of operations or 
missions at the request of the President or Secretary of Defense would 
be included in the calculation of benefits. This would properly 
recognize the service of our members in border control operations and 
ongoing disaster relief operations such as we saw in Katrina; are 
seeing now in the Gulf from the BP oil spill; and will likely see when 
the forest fire and hurricane seasons hit the northwest and southeast 
later this summer.
    With the current call from many quarters to have the National Guard 
mobilize to protect the borders, Congress must keep in mind that it 
will do so dutifully, as it always does, away from home on Title 32 
active duty orders without earning any benefits under the Post-9/11 GI 
Bill for the service. This is patently unfair and, unfortunately, 
further evidences how the ready service of the National Guard in 
protecting our country can sometimes be taken for granted. This must 
change.
    The inequities of this situation are apparent when Congress 
considers that domestic title 10 active duty service performed behind 
desks on military installations is fully eligible for benefits under 
the Post-9/11 GI Bill but not the dangerous title 32 active duty 
counterdrug operations of the National Guard monitoring drug gang 
activity on the border or the title 32 active duty hazardous service of 
the Guard done at the request of the President to clean up oil in the 
Gulf, and to combat the regularly occurring forest fires, hurricanes, 
floods, blizzards, tornados and ice storms around the country. This 
does not wash in equity but must remain a battle for another day.
                               conclusion
    NGAUS deeply appreciates the efforts of Senator Akaka and this 
Committee in crafting an excellent piece of corrective legislation for 
the National Guard in S. 3447 which it strongly supports and hopes that 
this Congress passes expeditiously.
                                 ______
                                 
     Prepared Statement of Military Officers Association of America
    Chairman Akaka, Ranking Member Burr and Members of the Senate 
Committee on Veterans' Affairs: The Military Officers Association of 
America (MOAA) respectfully requests that this Statement on Post-9/11 
GI Bill Improvements and Other Legislation be entered into the official 
record of this hearing.
    MOAA does not receive any grants or contracts from the Federal 
Government.
    MOAA is very grateful to Senator Akaka for introducing, S. 3447, 
the Post-9/11 Veterans Educational Assistance Improvements Act of 2010.
    This legislation takes the greatest GI Bill educational program 
since World War II and makes it even better. The bill simplifies the 
benefit structure, enables the VA to more effectively administer the 
program and most importantly makes needed improvements for our Nation's 
service men and women and veterans.
    S. 3447 addresses major recommendations from MOAA and our 
colleagues in the Military Coalition, service organizations, and higher 
education associations. Collectively, these groups have been working 
together for nearly ten years as the Partnership for Veterans Education 
to realize a new GI Bill for the 21st century.
    MOAA has long maintained that our fighting men and women and 
veterans need a GI Bill that is easy to understand, simple to 
administer and matches the aspirations of those who have worn the 
Nation's uniform. S. 3447 takes a big step in reaching these 
objectives.
    MOAA included recommendations on the GI Bill in testimony before a 
joint hearing of the Senate and House Veterans' Affairs Committees on 
March 4, 2010. We urged the Committees to support ``essential GI Bill 
fixes'' including:

    <bullet> Authorize non-degree granting vocational and job training 
programs undert the Post-9/11 GI Bill
    <bullet> Permit members of the National Guard serving on Title 32 
active duty orders to earn Post-9/11 benefits
    <bullet> Create a housing stipend for full-time distance (online) 
students
    <bullet> Merge separate tuition and fees rate calculations into a 
single cost-of-attendance metric
    <bullet> Grant the Dept. of Health and Human Services for the U.S. 
Public Health Service and the Commerce Dept. for the NOAA Corps the 
authority to transfer to eligible dependents Post-9/11 GI Bill benefits 
as an incentive for continued service in the USPHS or NOAA Corps.

    These fixes and others contained in S. 3447 will have a lasting, 
positive impact on our veterans. Moreover, we believe the technical 
corrections in the bill may provide cost-savings that could lower the 
overall cost of this legislation.
     comments and recommendations on certain provisions in s. 3447
    Title 32 National Guard Eligibility. Section 3, Modification of 
Eligibility, would permit certain members of the National Guard serving 
on Title 32 active duty orders to earn benefits under the Post-9/11 GI 
Bill. The authority would apply to Title 32 Guard members whose mission 
is to organize, train, administer, recruit or instruct the reserve 
components. The provision would also authorize benefits for those 
called up under Section 502(f) of Title 32 when authorized by the 
President or Secretary of Defense for the purpose of responding to a 
national emergency declared by the President and supported by Federal 
funds.
MOAA strongly supports inclusion of Title 32 Guard duty in the Post-9/
        11 GI Bill.
    Recommendations: Change ``and'' to ``or'' in Section 2 (a)(2) to 
read, `(i) in the National Guard for the purpose of organizing, 
administering, recruiting, instructing, or training the National Guard; 
or' [emphasis added]. The intent of the provision is to authorize this 
type of duty ``or'' the Presidential/Secretary of Defense call-up duty 
for benefits.
MOAA also recommends that the provision include language to permit 
        Title 32 Guard members to earn Post-9/11 GI Bill benefits for 
        duties that are directly related to homeland security. Examples 
        would be duty in response to the BP oil spill, immediate 
        response to Hurricane Katrina prior to Federal activation; 
        border duty conducted under Title 32 orders.
    Simplication of Rate Calculations. Section 3, Modification of 
Amount of Assistance and Types of Approved Programs of Education.
    Public college/university reimbursement. Subsection 3(a) would 
replace the separate tution and fees calculations for public college or 
university attendance with a simplified standard: the VA will pay the 
established charges for any such program. MOAA strongly endorses a 
simplified metric for public college enrollment.
    Private college/university reimbursement. Subsection 3(a) also 
would change the rate calculation for private colleges (``non-public'') 
and foreign schools with the lesser of the established charges or the 
average of established charges for a baccalaureate degree at all public 
and private colleges in the United States.
    Recommendations. MOAA agrees with the concept of a simplified 
metric for private college reimbursement. However, as written, we 
believe the provision is unclear and could disadvantage veterans who 
choose to attend a private college or university. We understand the 
challenge in developing a metric that provides fair reimbursement for 
private colleges while preserving the intent of the Yellow Ribbon 
program. MOAA recommends the Committee work with the Dept. of 
Education, the National Association of Independent Colleges and 
Universities, the American Council on Education and the Dept. of 
Veterans' Affairs to develop a more equitable and technically 
sufficient private college rate mechanism.
    Housing Allowance to Match Rate of Pursuit. Subsection 3(b) would 
modify the housing allowance stipend. For students enrolled on a less 
than full-time basis, the housing stipend would match the rate to the 
course load; e.g., students enrolled on a \3/4\ time basis would 
receive \3/4\ of the living allowance.
    Housing allowance for distance learners. Subsection 3(b) also would 
establish a housing stipend for full-time distance learners and 
veterans who attend foreign colleges. Students enrolled in foreign 
schools would receive the national average of the monthly amount of the 
basic allowance for housing (BAH) for an E-5 with dependents. Full-time 
distance learners would receive 50% of the national average for 
enrollment on more than a half-time basis.
MOAA supports adjusting the housing allowance to the educational rate 
        of pursuit. MOAA also supports establishing a housing allowance 
        for full-time distance learners.
    Non-college-degree training. Subsection 3(c) would provide for the 
payment for training in non-college-degree training in the amount of 
the lesser of the established charges for the program or the national 
amount of the cost of a program as determined by the National Center 
for Educational Statistics (NCES). The provision would also authorize a 
living allowance for such training. Veterans who enroll in such 
programs should be reimbursed in the same way as veterans who attend 
public college degree-granting programs. MOAA recommends this provision 
be modified along the lines of the public college reimbursement model 
in Section 3(a).
    On-Job (OJT) and apprenticeship training. Subsection 3(c) also 
would establish Post-9/11 GI Bill benefits for veterans who are in OJT 
or apprenticeship programs. The reimbursement percentages are modeled 
on the OJT and apprenticeship language in the Montgomery GI Bill, 
Chapter 30, 38 U.S.C.. MOAA supports the intent of the provision and 
the percentage ladder, but is concerned over the reimbursement rate set 
at the national average for college undergraduate programs. MOAA would 
recommend the Committee explore using the average cost for OJT and 
apprenticeship programs or another metric that would provide adequate 
reimbursement for veterans enrolled in such programs. A similar 
approach also should be considered for the succeeding provisions on 
non-degree flight training and correspondence course training.
    Active Duty Book Stipend. MOAA strongly supports Subsection 3(d) 
that would establish a stipend up to $1000 for books for use of Post-9/
11 benefits on active duty.
    Licensure and Certification. Section 4 would permit multiple 
reimbursable tests for licensing and certification. MOAA supports.
    Supplemental Educational Assistance (``kickers'') Transfer. Section 
5 would make a technical correction by authorizing a servicemember who 
has earned kickers under the MGIB to transfer those kickers to the 
Post-9/11 GI Bill. MOAA supports.
    Modification of Transfer Authority. Section 6 would clarify that 
the Secretary of Defense is responsible for administering the transfer-
of-benefits authority including responsibility to reimburse the 
Secretary of Veterans Affairs for the costs of benefits transferred to 
dependents. The provision also would grant other Federal Department 
Secretaries, namely the Secretary of Health and Human Services and the 
Secretary of Commerce, the authority to use (or not use) the transfer 
of benefits incentive to induce extended service for members of the 
U.S. Public Health Service and the NOAA Corps, respectively.
    MOAA notes that Post-9/11 GI Bill transferability has been 
extremely successful in the Deparment of Defense as an incentive to 
secure additional service and to remove from the rolls those 
approaching retirement to better manage force manpower.
    In less than one year, 130,000 members of the Armed Forces have 
transferred benefits to over 200,000 spouses and eligible dependent 
children.
    As an incentive for continued service, the transfer authority 
operates just like cash bonuses for reenlistment or service extension. 
The Secretary of Defense may adjust the terms of service to target the 
incentive to achieve program objectives.
    There should be little doubt that transferability has created a 
widespread expectation among service families that this benefit is 
earned for service and is different from cash incentives.
    Once funding responsibility is shifted to DOD--and to the Dept. of 
Health and Human Services and the Dept. of Commerce--the Department 
will evaluate the transfer benefit against cash bonus programs.
    MOAA is concerned that altering the current funding arrangement may 
result in the cancellation or curtailment of the transfer authority 
going forward. DOD has long preferred to use targeted cash incentives 
to meet manpower and skill distribution objectives, rather than a 
broadbrush incentive like transferability.
    Earlier this decade the Army briefly used transferability under the 
MGIB in combination with cash bonuses for reenlistment in designated 
skills. The program was a `dud' because the servicemember had to 
``eat'' the cost of the transfer by forgoing a substantial portion of 
any reenlistment bonus to gain the transfer. Almost certainly, a 
similar approach will doom transferability as a viable incentive.
MOAA recommends continuation of a robust transfer of benefits program 
        in DOD to support over-stressed families who have borne 
        enormous sacrifice over nearly ten years of war. MOAA 
        recommends that the Senate Committee on Veterans Affairs work 
        with the Senate Armed Services Committee to preserve 
        transferability as a career retention incentive. Congress 
        intended the authority be used to influence continued service 
        in the Armed Forces especially in the face of multiple 
        deployments.
MOAA anticipates that should DOD terminate transferability or greatly 
        restrict its use, there may be an adverse impact on force 
        retention and readiness.
    Increase in amount of reporting fee. MOAA supports raising the 
amounts paid to educational institutions to support more reporting of 
GI Bill enrollments and certifications.
    Subsistence Allowance for Veterans with Service-Connected 
Disabilities. Section 10 would modify the subsistence allowance for 
disabled veterans using the Vocational Rehabilitation and Employment 
(VRE) program (Chap. 31, 38 U.S.C.) to an amount equal to the national 
average of the monthly housing allowance authorized under the Post-9/11 
GI Bill.
    Under the proposal a disabled veteran with two dependents would 
receive approximately $1300 per month subsistence allowance compared to 
$800 currently under VRE.
    In testimony before the Senate and the House Committees on Veterans 
Affairs on 4 March 2010, MOAA strongly recommended that the VRE 
subsistence allowance be increased along the lines of the Post-9/11 GI 
Bill housing allowance. The provision takes a step in that direction, 
but we believe that disabled veterans who are in the VRE program 
deserve more than the national average of the Post-9/11 GI Bill housing 
allowance.
MOAA recommends the VRE subsistence allowance should be set at the 
        basic allowance for housing (BAH) for an E-5 with dependents at 
        the zipcode of residence of the disabled veteran.
MOAA also recommends a technical correction of Section 3108(f)(1)(A) to 
        specifically authorize Post-9/11 benefits for VRE participants 
        who elect to go to college in preparation for employment in the 
        workforce.
                           other legislation
    S. 3171, The Veterans Training Act (Sen. Lincoln, D-AR). S. 3171 is 
consistent with the intent of Subsection 3(c) of the Post-9/11 Veterans 
Educational Assistance Improvements Act, S. 3447 in that it would 
authorize benefits for pursuit of non-degree training at approved 
institutions of higher learning. MOAA strongly supports S. 3171.
    S. 3389. Sen. Hagan (D-NC). S. 3389 would exempt service men and 
women who receive certain educational assistance for service in the 
Selected Reserve from limitations on the receipt of benefits under the 
Post-9/11 Educational Assistance Program for additional service, as 
long as such individuals have served on active duty for at least four 
years.
    MOAA appreciates the intent of S. 3389. Under current law, 
servicemembers who have entitlement under multiple GI Bill programs 
have a maximum entitlement of 48 months of benefits.
    In the case of a member of the National Guard or Reserve who had 
used 36 months of Reserve GI Bill benefits under Chap. 1606 or Chap. 
1607, 10 U.S.C. and served four years on active duty, the member would 
be entitled to 36 months of Post-9/11 GI Bill benefits for a total of 
72 months of benefits, instead of a total of 48 months under current 
law.
    S. 3389 also raises an equity question as to whether active duty 
servicemembers with an extended period of service--e.g., six years or 
longer--should be entitled to a more generous GI Bill educational 
benefits package.
Should the Committee take up S. 3389, MOAA recommends modification of 
        Section 3695, 38 U.S.C., the provision governing multiple 
        program entitlement so that that the rules governing maximum 
        entitlement under multiple programs can be applied to all GI 
        Bill programs.
    S. 3389 raises again the issue of inadequate coordination of 
benefits between multiple GI Bill programs. MOAA continues to recommend 
that the establishment of a GI Bill architecture to eliminate overlap, 
confusion and complexity among Title 38 and Title 10 GI Bill programs.
                                 ______
                                 
Prepared Statement of Reserve Officers Association of the United States 
                    and Reserve Enlisted Association
    The Reserve Officers Association of the United States (ROA) is a 
professional association of commissioned and warrant officers of our 
Nation's seven uniformed services, and their spouses. ROA was founded 
in 1922 during the drawdown years following the end of World War I. It 
was formed as a permanent institution dedicated to National Defense, 
with a goal to teach America about the dangers of unpreparedness. When 
chartered by Congress in 1950, the act established the objective of ROA 
to: ``* * * support and promote the development and execution of a 
military policy for the United States that will provide adequate 
National Security.''
    The Association's 65,000 members include Guard and Reserve 
Soldiers, Sailors, Marines, Airmen, and Coast Guardsmen who frequently 
serve on Active Duty to meet critical needs of the uniformed services 
and their families. ROA's membership also includes officers from the 
U.S. Public Health Service and the National Oceanic and Atmospheric 
Administration who often are first responders during national disasters 
and help prepare for homeland security.


President:
  Rear Admiral Paul Kayye, MC, USNR (Ret.).  919-696-5155 cell
Staff Contacts:
Executive Director:
  Major General David R. Bockel, USA (Ret.)  202-646-7701
Legislative Director, Health Care:
  CAPT Marshall Hanson, USNR (Ret.)........  202-646-7713
Air Force Director:
  Mr. David Small..........................  202-646-7719
Army and Strategic Defense Education
 Director:
  Mr. ``Bob'' Feidler......................  202-646-7717
USNR, USMCR, USCGR, Retirement:
  CAPT Marshall Hanson, USNR (Ret.)........  202-646-7713


    The Reserve Enlisted Association is an advocate for the enlisted 
men and women of the United States Military Reserve Components in 
support of National Security and Homeland Defense, with emphasis on the 
readiness, training, and quality of life issues affecting their welfare 
and that of their families and survivors. REA is the only Joint Reserve 
association representing enlisted reservists--all ranks from all five 
branches of the military.


Executive Director:
  CMSgt Lani Burnett, USAF (Ret)...........  202-646-7715
               disclosure of federal grants or contracts
    The Reserve Officers and Reserve Enlisted Associations are member-
supported organizations. Neither ROA nor REA have received grants, sub-
grants, contracts, or subcontracts from the Federal Government in the 
past three years. All other activities and services of the associations 
are accomplished free of any direct Federal funding.
                              introduction
    Mr. Chairman and distinguished members of the Senate Veterans' 
Affairs Committee on behalf of 1.1 million Reserve Component members, 
the Reserve Officers Association (ROA) of the United States and the 
Reserve Enlisted Association (REA) of the United States expresses its 
appreciation for the opportunity to submit testimony about improvements 
to the Post-9/11 GI Bill. Chairman Akaka's bill S. 3447 is truly 
appreciated and encouraging.
    As contingency operations bring about increased mobilizations and 
deployments, many outstanding citizen Soldiers, Sailors, Airmen, 
Marines, and Coast Guardsmen have put their education on hold while 
they serve their country in harm's way. Since September 11, 2001, more 
than 750,000 Guard and Reserve servicemembers have been mobilized, with 
nearly one third of those having been deployed more than twice. The 
Reserve Components have and continue to earn the benefits of the Post-
9/11 GI Bill, unfortunately some are still left out.
                               discussion
    A better educated veteran makes for a better contributor to a 
workforce; ROA and REA suggest the following improvements be made to 
the Post-9/11 GI Bill.
    ROA and REA urge the Committee to include Title 14 and 32 orders 
for eligibility of the Post-9/11 GI Bill.
    The new bill corrected a measure that currently leaves out members 
of the National Guard and Reserves with Title 32 service and would 
create full eligibility for benefits under the new legislation. While 
ROA and REA fully support this measure we are concerned that similarly 
the Coast Guard Reserve members under Title 14 orders are still being 
excluded. Coast Guard active and reserve members can receive credit for 
the Post-9/11 GI Bill under Title 10 orders, but those under Title 14 
cannot. Title 14 orders include Coast Guard mobilizations to natural 
disasters like Hurricane Katrina, Midwest Floods, and Deepwater Horizon 
Oil Spill, and Active Duty Special Work orders for Homeland Security 
Operations.
    ROA and REA support the addition of on the job training (OJT) and 
apprenticeship programs, to the Post-9/11 GI Bill.
    With rising unemployment, Operation Iraqi Freedom and Operation 
Enduring Freedom National Guard and Reserve servicemembers, and 
transitioning veterans need the opportunity to gain new skills, 
education, and experience to compete for jobs especially in our current 
difficult economic situation.
    It is suggested that the time served since 9/11/2001 be fully 
credited, and earlier $$ payments under Montgomery or other GI Bills be 
deducted from the value of the earned Post-9/11 benefits.
    Many military members who started their service under the 
Montgomery GI Bill (MGIB), paid into the benefit and as students 
received a set amount per month as determined by the Department of 
Veterans' Affairs (VA). While they still may qualify for additional 
education under the Post-9/11 GI Bill, they end up losing benefits 
because eligibility is based on months of use rather than the cash 
received for those benefits. For example an ROA member who called 
headquarters served in the US Army Reserve and was recalled to active 
duty to serve two more tours. The servicemember qualifies for only one 
year's worth of the Post-9/11 GI Bill from his duty time, but he loses 
the remainder of his eligibility because of the MGIB benefit utilized. 
He was paid only about $4,000 of MGIB benefit for his education, which 
basically covered the cost of gas and parking during his commute. The 
monthly payments he received from the VA were only about $140 per month 
which does not compare to the current Post-9/11 benefit or the costs of 
a college education.
    ROA and REA recommend enacting the Uniformed Services Employment 
and Reemployment Rights Act (USERRA) and Servicemembers Civil Relief 
Act (SCRA) protections for mobilized Guard and Reserve students 
granting academic leave of absences, protecting academic standing and 
refund guarantees.
    Also interest rates should be adjusted on Federal student loans of 
mobilized reservists when the market rate drops below 6 percent.
    Reserve Component members have served honorably alongside active 
duty members, making numerous sacrifices over the past nine years. Yet 
their benefits are not necessarily comparable to their service. 
Suggested changes are available for review. ROA and REA are willing to 
work with the Committee staff to explore improvements to both USERRA 
and SCRA to better protect both active duty and Reserve component 
students.
    ROA and REA support initiatives to change reimbursement rates not 
using a state tuition cap.
    The state by state cap on tuition and fees should be eliminated and 
replaced with a national ceiling for tuition and fees. Reimbursement 
would cover the full cost of tuition and fees for almost everyone 
taking undergraduate classes at a public college or university.
    For those attending private schools, paying out of state tuition at 
public institutions, or enrolled in graduate or doctoral classes, they 
would be paid up to the national cap based on the average cost of 
tuition and fees for full-time undergraduates at in-state rates for 
four year public colleges and universities.
    ROA and REA encourage Congress to maintain vigilant oversight to 
ensure adequate funds are found and that they are dispersed fairly.
    The Department of Defense (DOD) and other Federal agencies would be 
responsible for funding the transferability of eligibility benefit 
(TEB) program for spouses and dependents. Also DOD would be responsible 
for administering TEB changes after servicemember's separation or 
retirement.
                               conclusion
    The Reserve Officers Association and the Reserve Enlisted 
Association, again, would like to thank the Committee for the 
opportunity to present our testimony. We are looking forward to working 
with you, and supporting your efforts in any way that we can.
                                 ______
                                 
Prepared Statement of Louis F. Martini, Director of Military & Veteran 
  Education, Thomas Edison State College; and Robin Walton, Director, 
Community Affairs and Government Relations, Thomas Edison State College
    Established in 1972, Thomas Edison State College is one of New 
Jersey's 12 senior public institutions of higher education and one of 
the oldest schools in the country specifically designed for adults. The 
College provides flexible, high-quality, collegiate learning 
opportunities for self-directed adults and offers degree and 
certificate programs in more than 100 areas of study. Thomas Edison 
State College currently has more than 18,000 students from all 50 
states and in more than 70 countries around the world. The average age 
of our students is 35, and they have chosen Thomas Edison State College 
because they want to complete degrees at a college that is of high 
quality, is accredited, and is convenient.
    Thomas Edison State College partners with Maguire Air Force Base 
and Fort Dix to provide degree programs to servicemembers and to 
operate their National Test Centers. Active duty military enrollments 
at the College have increased dramatically over the past few years, and 
currently include more than 9,000 students, many of whom are presently 
deployed around the world. Military Advanced Education magazine named 
Thomas Edison State College as one of the top ten schools in the 
country for servicemembers. We pride ourselves on our ability to serve 
our large active duty military and veteran student populations and in 
our ability to continue to find innovative educational delivery methods 
to best serve their needs.
    We want to thank this Committee for all the contributions that you 
have made to advance educational opportunities for our Nation's 
veterans, especially the passage of the Post-9/11 Veterans Educational 
Assistance Act of 2008. Unfortunately, a provision was included in that 
bill which prohibits our students from being able to take advantage of 
the housing allowance, since they are pursuing their education in an 
online environment.
    We appreciate that the Senate Veterans' Affairs Committee decided 
to address this issue in S. 3447, the Post-9/11 Veterans Educational 
Assistance Improvements Act of 2010. We are, however, disappointed that 
the legislation only allows our students to be eligible for fifty 
percent of the housing allowance. Such a restriction is discriminatory 
to students attending ``distance-learning'' institutions in that it 
penalizes students purely on the basis of the methods by which they 
choose to have their education delivered to them.
    Students' cost of education is the same whether they are commuting 
to a campus to receive face-to-face instruction or are learning online. 
Students deserve to have choices, and the proposed language in the 
Post-9/11 GI Bill would restrict those choices. It is well known that 
education offered at a distance results in student-learning outcomes 
that are the same as outcomes achieved by students learning on campus. 
Indeed, most students at ``traditional'' or ``residential'' 
institutions take many of their classes online, even though they may 
live on or commute to a campus.
    The proposed restriction would seriously limit choices for 
precisely the group of students that the Post-9/11 GI Bill seeks to 
serve, and it would also harm legitimate distance-learning programs. 
The housing allowance restriction draws an artificial and 
discriminatory distinction between students who need housing but 
commute to a campus and students who need housing but study at home.
    In short, we would respectfully ask that you put the needs of the 
students first. We would ask that you consider the quality and content 
of the educational ``product,'' the real needs of those whom you seek 
to serve with this bill, and the policies and practices that have long 
affirmed that education delivered at a distance is just as efficient 
and effective as education delivered face-to-face. We are hopeful that 
after you make this consideration, you will conclude that cost and 
equity, and not educational delivery medium, should be the sole 
determining factors in providing for housing allowances for those who 
are most in need of choices in this area.
    We appreciate your consideration of this testimony and are 
available to answer any questions that you may have.





                                  <all>

</pre></body></html>
